     Office of the Inspector General
         Department of Defense                                                                  Protect the Total Force
                  VISION STATEMENT
     One professional team strengthening the integrity, efficiency, and
     effectiveness of Department of Defense programs and operations.



                 MISSION STATEMENT
The Office of the Inspector General promotes integrity, accountability, and
 improvement of the Department of Defense personnel, programs, and operations
      to support the Department’s mission and to serve the public interest.           Military	 	 	 	 Contractors	 	 	 	 Civilians
                           CORE VALUES
                                                                                      Report: Fraud, Waste, and Abuse
             Accountability • Integrity • Efficiency
                                                                                                  Department of Defense
                                     Goal 1    Improve the economy, efficiency,
                                                                                                 Inspector General Hotline
                                               and effectiveness of Department of
                                               Defense personnel, programs, and
                                               operations.
                                                                                                            1-877-363-3348
                                     Goal 2    Eliminate fraud, waste, and abuse
                                               in the programs and operations of      DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                               the Department.
                                                                                                             Send written complaints to:
                                               Improve the efficiency and
                                                                                                                  Defense Hotline
                                     Goal 3                                                                        The Pentagon
                                               effectiveness of Inspector General
                                               products, processes, and operations.                          Washington, DC 20301-1900
                            Message from the Inspector General
We are pleased to present the Department of Defense Inspector General Semiannual Report to the Congress for April 1, 2007
to September 30, 2007. Issued in accordance with the Inspector General Act of 1978, as amended, this report summarizes our
significant activities and recommendations.

The Department continues to face many challenges in the Global War on Terror (GWOT). The DoD IG has identified priorities
based on those challenges and established the following goals: sustain the DoD IG presence in Southwest Asia; expand coverage
of GWOT-related programs and operations; and increase efforts to prevent the illegal transfer of strategic technologies and U.S.
                           munitions list items to proscribed nations, terrorist organizations, and other criminal enterprises.
                           During this reporting period, the DoD IG opened a field office in Afghanistan as part of the strategic
                           positioning of an IG forward deployed presence in the Southwest Asia region. The DoD IG also
                           assembled an interagency, inter-service Assessment Team for Munitions Accountability to assess the
                           controls over the distribution of conventional military arms, ammunitions, and explosives provided
                           to the Iraq and Afghanistan Security Forces.

                           This Semiannual Report also highlights DoD IG activities related to improving financial management,
                           contract management, and cyber security issues within the Department. The Department has made
                           progress improving numerous acquisition processes and implementing the Financial Improvement
                           and Audit Readiness Plan.

                           Our most notable audit and investigative work are summarized on the statistical highlights page at
                           the beginning of this report. Over the last six months, the DoD IG has issued 54 audits, as well
                           as achieved $107 million in monetary benefits and identified $988 million in potential monetary
benefits on funds put to better use. During this reporting period, investigative activities resulted in 223 indictments and 152
convictions, as well as $622 million in recoveries to the U.S. Government. The IG role as a watchdog must be exercised with
independence and objectivity in order to provide the American people with confidence that the Department is a responsible
steward of the taxpayer dollars spent for our Nation’s defense.

This report also includes summaries of work being done by our counterpart Defense oversight organizations, including the
Defense Contract Audit Agency, the Army Audit Agency, the Naval Audit Service, the Air Force Audit Agency, the Army
Criminal Investigation Command, the Naval Criminal Investigative Service, the Marine Corps Criminal Investigation Division,
and the Air Force Office of Special Investigations.

The DoD IG remains focused on accomplishing its goals of improving the economy, efficiency, and effectiveness of Department
of Defense personnel, programs, and operations, as well as eliminating fraud, waste, and abuse in the programs and operations
of the Department. We will maintain this focus in the year ahead; so that the men and women at the forefront of providing
oversight have the training, tools, and infrastructure they need to serve our country successfully in locations around the globe.

In closing, we are proud of the dedication of DoD IG auditors, investigators, inspectors, and support personnel who continue
to pursue our mission with integrity, professionalism, and devoted service to our men and women in uniform, DoD civilians,
and the American people. We will continue to provide independent, objective, and relevant information to the Department
and Congress and work hard to identify and fix issues in the transformation of the Department of Defense. We look forward to
working closely with the Department and Congress to make the Department as efficient as possible in protecting our country
and providing and caring for our Nation’s warfighters.




                                                   Claude M. Kicklighter
                                                     Inspector General
Statistical Highlights
         The following statistical data highlights Department of Defense Inspector General activities and
               accomplishments during the April 1, 2007 to September 30, 2007 reporting period.

Investigations
Total returned to the U.S. Government................................................................................................$621.9 Million
	
	       Seizures and Recoveries...............................................................................................................$2.7 Million
	       Civil Judgments.......................................................................................................................$144.7 Million
	       Criminal Judgments.................................................................................................................$467.3 Million
	       Administrative Judgments............................................................................................................$7.2 Million
	
		
Investigative Cases
	       Indictments...............................................................................................................................................223		
	       Convictions...............................................................................................................................................152
	       Suspensions.................................................................................................................................................43
	       Debarments.................................................................................................................................................87


Audit
Audit Reports Issued................................................................................................................................................54

Monetary Benefits

	          Recommendations Made on Funds Put to Better Use.................................................................$988 Million
	          Achieved Monetary Benefits (Funds Put to Better Use)............................................................$107.4 Million

Policy and Oversight
Existing and Proposed Regulations Reviewed.........................................................................................................137
Evaluation Reports Issued........................................................................................................................................13
Inspector General Subpoenas Issued.......................................................................................................................134
Voluntary Disclosure Program Recoveries....................................................................................................$8 Million


Hotline Activities
Contacts.............................................................................................................................................................7,357
	      Cases Opened............................................................................................................................................995	
	      Cases Closed...........................................................................................................................................1,148

Dollar Recoveries.....................................................................................................................................$2.1 Million

	         Includes investigations conducted jointly with other federal and Defense Criminal Investigative Organizations.
FRONT COVER
                                                                                                                                                                                                                                                      Contents


                                                                                                                                                                                   DoD IG COVER              Global war on terror	                                    1
                                                                                                                                      GIG provides interfaces to coalition,




                                                                                                                                                                                                             	 GWOT Goals			                                          3
                                                                                                                                      allied, and non-DoD users and sys-
                                                                                                                                      tems. While the entire Department
                      FEATURED ARTICLE




                                                                                                                                      plays a role in GIG protection, sev-
                                                                                                                                      eral Defense agencies maintain piv-
                                                                                                                                      otal roles in GIG protection and cy-
                                                                                                                                      ber security. These agencies include




                                                                                                                                                                                                             	 GWOT Highlights				                                    9		
                                                                                                                                      the Joint Task Force-Global Network
                                                                                                                                      Operations (JTF-GNO), the Na-
                                                                                                                                      tional Security Agency (NSA), the
FEATURED ARTICLES




                                                                                                                                      DoD Cyber Crime Center (DC3),
                                                                                                                                      the Defense Criminal Investigative
                                                                                                                                      Organizations (DCIOs), and the De-
                                                                                                                                      fense Information Systems Agency



                                                                                                                                                                                                               DoD IG				                                            15
                                                                                                                                      (DISA).

                                                                                                                                      The Joint Task Force-Global Network
                                                                                                                                      Operations (JTF-GNO) is U.S. Stra-
                                                                                                                                      tegic Command’s (USSTRATCOM)
                                                                                                                                      operational component supporting




                                                                                                                                                                                                             	Army					                                              28		
                                                                                                                                                                                   55 CYBER SECURITY




                                                                                                                                      USSTRATCOM in directing the op-

                                         Cyber Security                                                                               eration and defense of the GIG to as-
                                                                                                                                      sure timely and secure net-centric ca-
                                                                                                                                      pabilities across strategic, operational,
                                         DCIS agents were involved in 43 investigations                                               and tactical boundaries in support of
                                         involving computer intrusions or data theft                                                  DoD’s full spectrum of warfighting,




                                                                                                                                                                                                               Navy and Marine Corps		                               34		
                                         incidents and issued 25 reports on matters that                                              intelligence, and business missions.
                                         were potential threats to the DoD GIG.
                                                                                                                                      The DoD Cyber Crime Center (DC3)
                                         The Department of Defense (DoD)             mation on demand to warfighters,                 is the DoD center of excellence for ef-
                                         has maintained a longstanding in-           policy makers, and support person-               ficiently organizing, equipping, train-
                                         terest in the development and secu-         nel. The GIG includes all owned and              ing, and employing scarce resources
                                                                                                                                      to more effectively address the pro-



                                                                                                                                                                                                               Air Force	                                            38
                                         rity of the Internet—from its initial       leased communications and comput-
                                         growth out of the Defense Advanced          ing systems and services, software (in-          liferation of computer crimes affect-
                                         Research Projects Agency (DARPA)            cluding applications), data, security            ing the DoD. It is comprised of the
                                         Network to the recent efforts in es-        services, and other associated services          Defense Computer Forensics Labora-
                                         tablishing the Air Force Cyber Com-         necessary to achieve information su-             tory (DCFL), Defense Cyber Investi-
                                         mand. DoD is heavily dependent              periority. It also includes national             gations Training Academy (DCITA),
                                         upon the Internet as an enabler of          security systems as defined in section           and the Defense Cyber Crime Insti-




                                                                                                                                                                                                             		
                                         voice and data communications for           5142 of the Clinger-Cohen Act of                 tute (DCCI).
                                         everything from acquisitions to bat-        1996. The GIG supports all DoD,
                                         tlespace management. The DoD in-            national security, and related intelli-          The DCFL mission is to provide digi-
                                         terface to the Internet is via its Global   gence community missions and func-               tal evidence processing, analysis, and
                                         Information Grid (GIG). The GIG             tions (strategic, operational, tactical,         diagnostics for any DoD investiga-
                                         is the globally interconnected, end-        and business), in war and in peace.              tion that requires computer forensic
                                                                                                                                      support to detect, enhance, or recover




                                                                                                                                                                                                             Significant Accomplishments				                         43
                                         to-end set of information capabilities,     The GIG provides capabilities from
                                         associated processes, and personnel         all operating locations (bases, posts,           digital media, to include audio and
                                         for collecting, processing, storing,        camps, stations, facilities, mobile              video. This includes criminal, coun-
                                         disseminating and managing infor-           platforms, and deployed sites). The              terintelligence, counterterrorism, and

                                         56
                                                                                                                                                 Semiannual Report to Congress




                                                                                                                                                                                                             	     Joint Warfighting and Readiness			                44
                                                                                                                                          DoD IG Role in the FIAR Plan
                                                                                                                                          __________________________
                                                                                                                                          The DoD IG has been and will
                                                                                                                                                                                                             	     Human Capital					                                50		
                    FEATURED ARTICLE




                                                                                                                                                                                                                   Information Security and Privacy				              53
                                                                                                                                          continue to be an advisor to the
                                                                                                                                          FIAR process. In this capac-
                                                                                                                                                                                   63 FINANCIAL MANAGEMENT




                                                                                                                                          ity, the DoD IG highlights areas
                                                                                                                                          of concern and provides realistic
                                                                                                                                          timeframes for audits. By com-
                                                                                                                                          municating audit results, the




                                                                                                                                                                                                             	     Financial Management					                         61		
                                                                                                                                          DoD IG assists DoD components
                                                                                                                                          in identifying control weaknesses
                                                                                                                                          that need to be addressed in the
                                                                                                                                          components validation process.
                                                                                                                                          Additionally, the DoD IG pro-
                                                                                                                                          vides advice and guidance about




                                                                                                                                                                                                                   Acquisition Process and Contract Management		     69		
                                                                                                                                          system requirements to financial
                                                                                                                                          statement audit teams and works
                                                                                                                                          with those teams in performing
                                                                                                                                          the systems portion of the audits.
                                                                                                                                          The DoD IG also conducts a vari-
                                                                                                                                          ety of other financial audit services

                                          Financial Management                                                                            in addition to financial statements




                                                                                                                                                                                                                   Health Care							                                78
                                                                                                                                      and financial system audits. Through
                                                                                                                                      those audits, DoD IG auditors iden-
                                          Financial Management chllenges affect DoD’s                                                 tify material issues that impact the
                                          ability to provide reliable, timely, and useful                                             quality of the Department’s financial
                                          financial data needed to support operating,                                                 reporting process and its ability to
                                          budgeting, and policy decisions.                                                            record and report reliable, accurate,
                                                                                                                                      and timely financial information.
                                          The Department continues to strug-          cal activities for improving internal           The Way Forward
                                          gle with its ability to provide reli-       controls, resolving auditor identified
                                          able, timely, and useful financial and      weaknesses, optimizing fiscal steward-          While the Department continues
                                          managerial data to support operat-          ship, and achieving audit readiness.            to be challenged by the complexity,
                                          ing, budgeting, and policy decisions.       Milestones for resolving problems               number, and internal control weak-
                                          Some of the problems hindering the          and achieving success are established           nesses of its financial systems, partic-
                                          Department’s efforts, such as im-           and monitored so that decision mak-             ularly amidst conducting Operation




                                                                                                                                                                                                             DoD IG Outreach            				                         81
                                          proper payments, and retention of           ers can explore a broader range of op-          Iraqi Freedom (OIF) and Operation
                                          appropriate accounting and disburs-         tions with greater confidence.                  Enduring Freedom (OEF), initia-
                                          ing records, impact critical mission                                                        tives such as the FIAR plan and the
                                          support to Operations Iraqi and En-         The DoD Comptroller’s Office es-                Comptroller’s business rules focus the
                                          during Freedom.                             tablished business rules that focus             efforts of the Department to reach a
                                                                                      efforts on improving the underlying             common goal. The DoD IG is en-
                                          In December 2005, the Department            financial management of the finan-              couraged that the Comptroller con-




                                                                                                                                                                                                               Congressional Testimony			                            82
                                          published the initial version of its        cial statements. These business rules           tinues to consider new approaches to
                                          Financial Improvement and Audit             were revised in the June 2007 update            assist in the achievement of auditable
                                          Readiness (FIAR) Plan with the in-          to the FIAR plan to include a sixth             financial statements. The new focus
                                          tent to incrementally address some of       phase in the process. The six-phased            on overall audit readiness rather than
                                          its long-standing and pervasive prob-       process is outlined in the chart to the         concentrating efforts on audits of
                                          lems. The FIAR Plan identifies criti-       right.                                          specific line items is a step in the right




                                                                                                                                                                                                             	 Defense Hotline					                                  83		
                                         64
                                                                                                                                                 Semiannual Report to Congress




                                                                                                                                                                                                               DoD IG Website			                                     85
                                                                                                                                                                                                               Georgetown University Master’s Program			             86		
                                                                                                                                      tions has been even more dramatic.
                                                                                                                                      Procurement actions have increased
                                                                                                                                      almost ten fold for procurements over
                    FEATURED ARTICLE




                                                                                                                                      $25,000. In FY 2001, there were ap-
                                                                                                                                                                                   71 CONTRACT MANAGEMENT




                                                                                                                                      proximately 348,000 actions in this
                                                                                                                                      category, but by FY 2006 the number




                                                                                                                                                                                                               PCIE/ECIE Activities				                              87
                                                                                                                                      had increased to approximately 3.7
                                                                                                                         Cougar 6X6




                                                                                                                                      million actions.

                                                                                                                                      Adding to the difficulty in acquiring
                                                                                                                                      goods and services is the aging of and
                                                                                                                                      decline in the size of the acquisition
                                                                                                                                      workforce that oversees the Depart-



                                                                                                                                                                                                             	 DCIE Activities				                                   88
                                                                                                                                      ment’s procurement process. In the
                                                                                                                                      past decade, DoD procurement staff
                                                                                                                                      has been cut by 10 percent to 26,000
                                                                                                                                      personnel according to the Penta-
                                                                                                                                      gon. The workforce from a decade
                                                                                                                                      ago oversaw Defense procurement of




                                                                                                                                                                                                             	 Speeches/Conferences                                  88
                                                                                                                                      approximately 258,000 transactions
                                                                                                                                      over $25,000 and total DoD spend-
                                         Acquisition Process                                                                          ing on procurement of $132 billion.
                                                                                                                                      With the increase in procurement
                                         & Contract Management                                                                        dollars and actions, the workforce
                                                                                                                                      has become overburdened and has
                                         The Department continues to experience the



                                                                                                                                                                                                             	Awards				                                             90
                                                                                                                                      taken shortcuts (either through lack
                                         management challenge to provide required                                                     of staff, lack of experience or deliber-
                                         materiel and services that are superior in                                                   ate action) in the acquisition process
                                         performance, high in quality, sufficient in                                                  to keep up with the demands. The
                                         quantity, and within the timeframes needed by                                                reduced workforce was also stretched
                                         the warfighter.                                                                              thin when performing acquisition
                                         The Department continues to face            field fast enough and soldiers’ lives are        oversight required by the DoD 5000
                                         the difficult challenge of meeting          at greater risk. Balancing the service           series of guidance.
                                         the urgent warfighter needs for high        to the warfighter against the service
                                         performing products and services at         to the taxpayer becomes increasingly             Changes to the acquisition process
                                         the right time, in the right quantity,      difficult as the quantity of procure-            as a result of the Federal Acquisition
                                         and at a reasonable price. The most         ment actions and amount of dollars               Streamlining Act and the Clinger-Co-
                                         current high profile example of an ur-      spent continues to grow while the                hen Act while enacted to improve the
                                         gent need is V-shaped hull, armored         procurement workforce has remained               acquisition process, also continue to




                                                                                                                                                                                                             DoD IG Components		                                     93
                                         vehicles. Secretary of Defense Robert       largely unchanged. Fiscal Year 2007              inhibit contracting officers’ abilities
                                         M. Gates has made this vehicle the          procurement spending is already                  to use “Truth in Negotiation” pro-
                                         Department’s top priority. The pic-         more than $318 billion through the               tections especially in regard to items
                                         ture above depicts a version of the V       first 11 months and the Department               considered to be commercial acquisi-
                                         shaped hull, armored vehicles.              continues to be the largest purchaser            tions. Changes in the Clinger-Cohen
                                                                                     of goods and services in the world.              Act allowed items to be classified as
                                         Yet contractors are having a difficult      The amount of spending is more                   commercial if they were “of a type”,




                                                                                                                                                                                                             	  Deputy Inspector General for Auditing			              94	
                                         time ramping up to meet the urgent          than double procurement spending                 were merely offered to the public, or
                                         demand in a timely manner. These            from as recently as FY 2001. How-                would be available to meet Govern-
                                         vehicles are not getting to the battle-     ever, the increase in procurement ac-            ment needs in the future. The Act

                                         72
                                                                                                                                                 Semiannual Report to Congress




                                                                                                                                                                                                             	  Deputy Inspector General for Investigations			        96		
                                                                                                                                                                                                               	Deputy Inspector General for Policy and Oversight	    99
                                                                                                                                                                                                             	  Deputy Inspector General for Intelligence            103
                                                                                                                                                                                                             	Office of Communications and Congressional Liaison 	   104

                                                                                                                                                                                                             lIST OF appendices                                      105
                         DoD IG Reporting Requirements


IG Act				                              Reporting Requirements			                                                   Page
References


Section 4 (a)(2)    ►“review existing and proposed legislation and regulations...make recommendations...”           N/A
Section 5 (a)(1)    ► “description of significant problems, abuses, and deficiencies...”                            43-80
                                                                                                                    43-80
Section 5 (a)(2)    ►“description of recommendations for corrective action...with respect to significant
                    problems, abuses, and deficiencies...”
Section 5 (a)(3)    ►“identification of each significant recommendation described in previous semiannual            94-95
                    reports on which corrective action has not been completed...”
Section 5 (a)(4)    ►“a summary of matters referred to prosecutive authorities and the prosecution and              43-80
                    convictions which have resulted...”
Section 5 (a)(5)    ► “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...”        N/A
                    (instances where information requested was refused or not provided,)
Section 5 (a)(6)    ► “a listing, subdivided according to subject matter, of each audit report issued...” showing   106-
                    dollar value of questioned costs and recommendations that funds be put to better use.           117
                                                                                                                    43-80
Section 5 (a)(7)    ►“a summary of each particularly significant report...”
                                                                                                                    118
Section 5 (a)(8)    ►“statistical tables showing the total number of audit reports and the total dollar value of
                    questioned costs...”
Section 5 (a)(9)    ►“statistical tables showing the total number of audit reports and the dollar value of          118
                    recommendations that funds be put to better use by management...”
Section 5 (a)(10)   ►“a summary of each audit report issued before the commencement of the reporting period         118
                    for which no management decision has been made by the end of reporting period...”
Section 5 (a)(11)   ►“a description and explanation of the reasons for any significant revised management           N/A
                    decision...”
Section 5 (a)(12)   ► “information concerning any significant management decision with which the Inspector          N/A
                    General is in disagreement...”
Section 5 (a)(13)   ► “information described under Section 804 [sic] of the Federal Financial Management            N/A
                    Improvement Act of 1996...” (instances and reasons when an agency has not met target
                    dates established in a remediation plan)
Section 5 (b)(2)    ►“statistical tables showing the total number of audit reports and the dollar value of          119
                    disallowed costs...”
Section 5 (b)(3)    ►“statistical tables showing the total number of audit reports and the dollar value of          119
                    recommendations that funds be put to better use by management agreed to in a management
                    decision...”
Section 5 (b)(4)    ►“a statement with respect to audit reports on which management decisions have been             122-
                                                                                                                    159
                    made but final action has not been taken, other than audit reports on which a management
                    decision was made within the preceding year...”
Section 8 (f)(1)    ►“information concerning the number and types of contract audits...”                            120
Global War
on Terror
Department of Defense
  Inspector General
These are the people we work for....




    and they deserve the Best!
Global War on
Terror Goals
      A look at the Global War on Terror goals of the
      Department of Defense Inspector General




The DoD IG is committed to supporting the GWOT and the needs of the men and women fighting this war. Overall,
the DoD IG is responsible for providing oversight to more than $550 billion in funds dedicated for the GWOT. The
responsibility of the DoD IG is to identify and help fix critical mission support problems that impact Operations
Enduring Freedom and Iraqi Freedom. The DoD IG has established the following GWOT-related goals:

Goal 1                                    Goal 2                                    Goal 3
________________________                  ________________________                  ________________________
Sustain the DoD IG presence in            Expand coverage of DoD GWOT-              Increase efforts to prevent the illegal
Southwest Asia (SWA) to work on           related programs and operations by        transfer of strategic technologies and
priority issues directly supporting       providing oversight in fundamental        U.S. munitions list items to proscribed
efforts for Operation Enduring            areas, including contract surveillance,   nations, terrorist organizations, and
Freedom (OEF) and Operation Iraqi         funds management, accountability          other criminal enterprises.
Freedom (OIF).                            of resources, health care for the
                                          warfighter and training and equipping
                                          of personnel.
                                                                                                                         
Department of Defense Inspector General
                    Goal 1: Sustaining the DoD IG Presence


To provide a more effective and efficient oversight role, the DoD IG has established field offices in strategic Southwest
Asia locations. The placement of DoD IG personnel in Southwest Asia facilitates more timely reviews and reporting
of results in-theater and minimizes disruption to the warfighter.

The DoD IG has a field office in Qatar as an in-theater base of operations. The DoD IG also has a field office in
Kuwait and in Iraq at Camp Victory and the International Zone. During June 2007, the DoD IG established a field
office at Bagram Air Base in Afghanistan.


Afghanistan Field Office
....................................................................................................................................................................................

                                         The DoD IG opened an office at the Bagram Air Base in Afghanistan with the
                                         support and endorsement of the U.S. Central Command and the Combined
                                         Joint Task Force-82. The Afghanistan office is staffed with up to three
                                         auditors at a time, on a rotational basis, serving tours of 6 to 12 months.
                                         Auditors from the Afghanistan office and DoD IG staff on temporary duty
                                         travel in Afghanistan are currently supporting the assessment on Munitions
                                         Accountability and are performing the audit on Contingency Construction
                                         Contracting Procedures Implemented by the Joint Contracting Command-
                                         Iraq/Afghanistan. In addition, the auditors in Afghanistan are providing
                                         support to DoD IG teams based in the continental United States looking at
contractor issues within Southwest Asia. As of September 30, 2007, three DoD IG staff was deployed to Afghanistan
performing research, initiating audits, and supporting the munitions assessment team.


Qatar Field Office
....................................................................................................................................................................................

The DoD IG established a field office in Qatar collocated with U.S. Central Command Air Forces (CENTAF) on Al
Udeid Air Base, Qatar. The Qatar office is staffed with up to nine auditors at a time, on a rotational basis, serving
tours of 4, 6, or 12 months. The Qatar office conducts audits as required in Iraq, Afghanistan, or throughout the
U.S. Central Command (CENTCOM) area of responsibility. Auditors from the Qatar field office have traveled to
Iraq and Afghanistan to perform specific reviews, such as the audits of “Potable and Non-Potable Water in Iraq” and
“Contractor Support to the Joint Improvised Explosive Device Defeat Organization in Afghanistan.” Additionally, the
Qatar office staff facilitates and may augment other teams that require temporary travel in-theater to conduct specific
reviews. Also, the auditors in Qatar are providing support to DoD IG teams based in the continental United States
looking at the management of contractor issues within Southwest Asia. As of September 30, 2007, five DoD IG staff
were forward deployed in Qatar performing audits.




                                                                                                                                          Semiannual Report to Congress
Kuwait Field Office
....................................................................................................................................................................................

The DoD IG field office in Kuwait is staffed by two Defense Criminal Investigative Service special agents who are
focused on contract fraud and other potential criminal activities in Southwest Asia that impact GWOT efforts.


Iraq Field Offices
....................................................................................................................................................................................

In coordination with the Commanding General, Multi-National Force-Iraq, the DoD IG established field offices in
Iraq at Camp Victory and the International Zone. The Iraq offices are staffed with up to five auditors at a time, on a
rotational basis, serving tours of 6 to 12 months. Auditors from the Iraq offices and DoD IG staff on temporary duty
travel in Iraq performed Phase III of the Iraq Security Forces Fund audit and are currently supporting the assessment
on Munitions Accountability. In addition, the DoD IG has assigned auditors in Iraq to provide the Defense Criminal
Investigative Service support for ongoing criminal investigations pertaining to contract fraud. The auditors in Iraq
also provide support to DoD IG teams based in the continental United States performing oversight related to Iraq
such as the management of contractor issues within Southwest Asia and the Army Reset program. As of September
30, 2007, eight DoD IG staff were deployed to Iraq performing audits, inspections, and investigations.




DoD IG auditors at the Afghanistan Field Office, with General Petraeus in Iraq and at the Qatar Field Office.




                                                                                                                                                                                  
Department of Defense Inspector General
                  Goal 2: Expanding DoD IG Oversight


The GWOT, especially operations in Southwest Asia, continues to be a top priority of the DoD IG and its four
operational components. Auditing, Investigations, Policy and Oversight, and Intelligence have 138 ongoing or
completed projects.

Those 138 projects provide oversight of various functions and activities such as contracts, readiness, logistics, funds
management, contract fraud, accountability, theft, corruption, and intelligence efforts. DoD IG has completed or is
conducting oversight efforts that cover approximately $88 billion related to DoD GWOT efforts.



         Audits                Investigations                   Evaluations                  Intelligence
             36                            90                            8                             4



The DoD IG is actively engaged in OEF and OIF to
prevent fraud, waste, and abuse from occurring. The
DoD IG is expanding its GWOT oversight efforts
by covering a wide range of GWOT issue areas to
best serve the warfighter and the American people.
Specific examples of GWOT oversight coverage
include:

♦ Use and controls over the Iraqi and Afghanistan
Security Forces Funds;
♦ The effectiveness of practices related to solicitation,
award, quality assurance, oversight, and final
acceptance of construction projects;
♦ Armoring of Army Medium Tactical Vehicles;
♦ Procurement of Body Armor to include the
adequacy of first article testing prior to award of contracts; and                               DoD IG auditors in Iraq.
♦ The controls over the issuance and use of the DoD common access card in Southwest Asia.

DCIS is engaged in investigating DoD-related matters pertaining to the Iraqi theater, to include Kuwait. DCIS has
90 ongoing investigations related to the war effort, which include:

♦ War Profiteering
♦ Contract Fraud
♦ Contract Corruption





                                                                                           Semiannual Report to Congress
                 Goal 3: Increase Technology Protection


The Defense Criminal Investigative Service (DCIS) Technology Protection Program is DCIS’s fastest growing program.
Investigations under this program involve the illegal theft or transfer of technologies and U.S. Munitions List items to
proscribed nations, criminal enterprises, and terrorist organizations that pose a threat to U.S. national security.

The illicit trans-national trafficking of critical military technology and weapons of mass destruction (WMD)
components presents a danger to the United States, its allies and threatens America’s Warfighters deployed around the
world. The illegal exportation of Department of Defense technology to other countries has been and remains a high
investigative priority for DCIS.

                                                                    DCIS has investigated cases involving the illegal export of missile
                                                                    technology, military night vision data, fighter jet components,
                                                                    and helicopter technical data. Fostering a multi-agency approach
                                                                    has been and continues to be critical to the success of these
                                                                    investigations and prosecutions. DCIS conducts proliferation
                                                                    and technology transfer investigations with Immigration and
                                                                    Customs Enforcement (ICE), Military Criminal Investigative
                                                                    Organizations (MCIOs) and other law enforcement mission
                                                                    partners. As a result of these joint investigations, numerous cases
                                                                    have been successfully prosecuted.

Following a joint investigation by DCIS and ICE involving the attempted purchase of night vision devices, holographic
sights, sniper rifles, sub-machine guns, stinger missiles, grenade launchers, six subjects associated with the Liberation
Tamil Tigers Elam (LTTE) pled guilty to charges of conspiracy to violate the Arms Export Control Act and the
International Traffic in Arms Regulations, laundering of monetary instruments and conspiracy to provide material
support to a foreign terrorist organization. Thus far, two subjects have been sentenced to a period of one year and one
day of incarceration. A total of $701,925 has been recovered.




Military technologies involved in illegal export cases investigated by DCIS.

                                                                                                                                     
Department of Defense Inspector General
DCIS also recently teamed up with its ICE mission partners and participated in a conference regarding: new counter-
proliferation task forces and training; improved coordination with export licensing agencies; foreign efforts to obtain
controlled U.S. technology; and an enhanced U.S. law enforcement response.

DCIS actively participates in a variety of research and technology protection working groups. This participation
includes regular meetings with the Intelligence Community (IC) and allows DCIS to provide and receive technology
protection information developed during the course of DCIS and other agencies investigations.

                                                              Although DCIS does not use counter-intelligence investigative
                                                              techniques, working with the IC regarding intelligence developed
                                                              in support of technology transfer and proliferation has proven to be
                                                              valuable. Any intelligence, gleaned from DCIS investigative efforts,
                                                              provides additional support to analytical products produced by the IC
                                                              for national security policy makers.

                                                              The Department of Justice (DoJ) recently launched an export
                                                              enforcement initiative to harness the various export control/
                                                              proliferation related assets in the law enforcement and intelligence
                                                              communities and fuse them together with a focus on the detection,
                                                              investigation, and prosecution of illicit attempts to acquire controlled
                                                              U.S. technology.

DCIS Director Charles W. Beardall discusses the National             DCIS is a partner in this initiative and continues to play a
Counter-Proliferation Initiative at a DoJ press conference.          significant role in providing the U.S. Attorney’s Office with the
                                                                     necessary assistance needed to undertake these complex and
                                                                     specialized prosecutions.

DCIS Director Charles W. Beardall recently participated in a DoJ press conference announcing the formation of this
National Counter-Proliferation Initiative. The purpose of the initiative is to prevent critical, sensitive technology from
being obtained by terrorists and countries hostile to the United States.

DCIS realizes the most effective way to combat the illegal transfer of technology is through a collaborative effort
of investigative activities. Our national security can not afford to have agencies pulling in opposite directions. This
collaborative effort thwarts illegal transfers of DoD technology.

              A DCIS special agent displays night vision goggles and other military
              parts involved in technology protection investigations at the DoJ press
              conference.





                                                                                                          Semiannual Report to Congress
GWOT
Highlights
         A look at Department of Defense Inspector General
         efforts in the Global War on Terror




The worldwide campaign against terrorism is the top priority of the DoD IG. Meeting the challenges of combating
terror and upholding our commitment to support the warfighter will continue to place stress on budgetary, manpower,
and materiel resources for both the IG and the Department.

Through FY 2007, Congress has appropriated more than $550 billion to DoD for the GWOT. Each dollar not
prudently spent results in a dollar unavailable for GWOT priorities.

This report focuses on the following efforts made by the DoD IG during this reporting period to support the
GWOT:
	
• Southwest Asia Leadership Visits
• IG Assessment of Munitions
• Joint Terrorism Task Forces
• Interagency GWOT Oversight
                     Southwest Asia Leadership Visits




In September 2007, Inspector General Kicklighter traveled to Kuwait, Afghanistan, Qatar, Turkey, and Iraq, where he
led the DoD IG assessment on munitions accountability, discussed accountability concerns with senior military leaders
and met with deployed DoD IG personnel, as well as with deployed auditors from other DoD oversight organizations.
Senior officials Inspector General Kicklighter visited while in Southwest Asia included:


                Amb. William Wood, Chief of Mission, U.S. Em-         Brig. Gen. Robert Livingston, USA, Commanding
                bassy Afghanistan                                     General, Combined Joint Task Force Phoenix VI in
                                                                      Afghanistan
                Amb. Ryan Crocker, Chief of Mission, U.S. Em-         Brig. Gen. Robin Swan, USA, Commanding Gen-
                bassy, Baghdad                                        eral, Coalition Military Assistance Training Team
                                                                      (CMATT) in Iraq
                Charge d’Affaires Alan Misenheimer, Deputy Chief      Brig. Gen Andrew Twomey, USA, Deputy Com-
                of Mission, U.S. Embassy, Kuwait                      manding General, Combined Security Transition
                                                                      Command – Afghanistan (CSTC-A)
                Amb. Chase Untermeyer, U.S. Embassy, Qatar            Brig. Gen Michael Walsh, USA, Commander, Gulf
                                                                      Region Division, U.S. Army Corps of Engineers in
                                                                      Iraq
                Amb. Ross Wilson, Chief of Mission, and Country       Afghan Minister of Defense and Minister of Interior
                Team, U.S. Embassy, Turkey
                General Dan McNeill, USA, Commander, NATO             Afghan Inspectors General for the Ministry of De-
                International Security Assistance Force in Afghani-   fense and the Ministry of Interior
                stan
                General Gen. David H. Petraeus, USA, Command-         Iraq Minister of Interior
                ing General, Multi-National Force – Iraq
                Lt. Gen. James M. Dubik, USA, Commander,              Iraq Chief of Joint Staff and Iraq Ground Force
                Multi-National Security Transition Command-Iraq       Commander, Ministry of Defense
                (MNSTC-I)
                Lt. Gen. R. Steven Whitcomb, USA, Commanding          Iraq Inspectors General for Ministry of Defense and
                General, Third Army, U.S. Army Central (AR-           Ministry of Interior
                CENT) and Coalition Forces Land Component
                Command (CFLCC)
                Lt. Gen. Raymond Odierno, USA, Commanding             Turkish National Police Senior Operations Officer
                General, Multi-National Corps-Iraq (MNC-I)            for Anti-Smuggling and Organized Crime
                Maj. Gen. Robert Cone, USA, Commanding                Turkish General Staff Senior Intelligence Officer
                General, Combined Security Transition Command
                – Afghanistan (CSTC-A)
                Maj. Gen Michael Jones, USA, Commanding               Brig. Gen. Charles W. Lyon, Commander, 379th
                General, Civilian Police Assistance Training Team     Air Expeditionary Wing, Udeid Air Base, Qatar
                (CPATT) in Iraq

10
                                                                                                             Semiannual Report to Congress
                                  IG Assessment of Munitions


                                   Inspector General Claude M. Kicklighter recently concluded a trip to Southwest Asia,
                                   where he led an interagency, inter-service Assessment Team for Munitions Accountability
                                   in response to accountability and control problems involving weapons and munitions
                                   that were purchased by the U.S. Government and intended for use by Iraq security
                                   forces.

                              The Assessment Team, which deployed in early September 2007, is comprised of
representatives from the DoD IG, Department of State Office of Inspector General, the U.S. Army, Navy, and Air
Force, Army Audit Agency, Army Criminal Investigation Command, U.S. Army Corps of Engineers, as well as other
agencies. The teams’ overall objective is to determine whether the controls over the distribution of conventional
military arms, ammunition, and explosives provided to the security forces in Iraq and Afghanistan are adequate.
This assessment will enable the DoD IG to identify any systemic problems related to the equipping of the Iraqi and
Afghanistan security forces, especially regarding munitions, and recommend corrective actions that can be initiated to
address these issues.

The issue of weapons and munitions accountability has been under increasing scrutiny by Congress. On September
21, 2007, DoD Principal Deputy Inspector General Thomas F. Gimble testified before the House Armed Service
Committee regarding, “Accountability During Contingency Operations: Preventing and Fighting Corruption
in Contracting and Establishing and Maintaining Appropriate Controls on Materiel.” In addition, the Defense
Criminal Investigative Service is working with the U.S. Army Criminal Investigation Command, the Federal Bureau
of Investigation, the U.S. Department of Justice, the Special Inspector General for Iraq Reconstruction, and other
government agencies on related investigations involving missing weapons, fraud, bribery, and corruption.




Inspector General Kicklighter and the Assessment Team for Munitions Accountability in Iraq.


                                                                                                                       11
Department of Defense Inspector General
                             Joint Terrorism Task Forces


The Defense Criminal Investigative Service (DCIS) is an ardent and active supporter of the FBI’s Joint Terrorism
Task Forces (JTTFs). DCIS currently staffs approximately 42 JTTFs on a full-time or part-time basis. A full-time
DCIS program manager is also assigned to the National Joint Terrorism Task Force (NJTTF) located at the National
Counterterrorism Center (NCTC), Mclean, VA.

                                          The JTTF concept is based on the premise that success against terrorism is best
                                          achieved through cooperation among federal, state and local agencies. This has
                                          proven to be a highly effective model for combating terrorism. Cooperation
                                          blends the skills and resources of several agencies enhancing the capabilities of all
                                          involved.

                                          The first JTTF was established in New York City in 1980 as a result of the increasing
                                          number of terrorist bombings in the late 1970s and early 1980s. There are now
                                          103 JTTFs nationwide, including at least one at each of the FBI’s 56 field offices.
                                          Additionally, the NJTTF in McLean, VA, brings together senior personnel from
                                          45 different agencies representing the intelligence, law enforcement (state, local
                                          and other federal), and public safety communities. The NJTTF serves as a multi-
                                          agency information collaboration and fusion center.

DCIS special agent working with the FBI’s JTTFs.DCIS JTTF agents are currently playing key roles in many terrorism
                                                investigations. One recent example is the investigation and arrest of
                                                seven homegrown terrorists in Miami for plotting to bomb the Sears
Tower in Chicago. The group had sworn an oath of allegiance to an FBI Informant who they believed was an Al Qaeda
operative. The leader of the group met with the informant on several occasions and professed an interest in destroying
FBI buildings around the country and the Sears Tower in Chicago. He asked for money, boots, uniforms, weapons
and vehicles to carry out the plots. This group had conducted video surveillance of Federal facilities as well as the Sears
Tower and was actively recruiting members for the group.

Another example is the investigation of the “Fort Dix Six” in New Jersey. Six men, all immigrants, were arrested for
plotting to attack Fort Dix, New Jersey and other Department of Defense installations in the Philadelphia/New Jersey
area. A video store clerk came to law enforcement authorities with information that one of the men had asked him
to copy a DVD of a disturbing video that showed, among other things, the group taking target practice while yelling
“Allah Akbar.” The FBI infiltrated the group with an informant who arranged to meet with five of the “Six” to conduct
a sale of weapons. The FBI New Jersey Resident Agency JTTF then arrested the “Six” and executed several search
warrants. A DCIS agent assigned to the Philadelphia JTTF was involved in this investigation.

Creation of JTTFs involves a costly investment of personnel and equipment, however, this initiative realizes qualitative
benefits in the form of improvements to interagency coordination and cooperation, sharing of intelligence and in
obtaining arrests and convictions in counterterrorism investigations. DCIS will continue to support JTTFs in an
effort to reduce the threat of terrorist acts against Department of Defense interests.



12
                                                                                                  Semiannual Report to Congress
                                                 Interagency Oversight


The DoD IG is the lead oversight agency for accountability in DoD, and as such, is committed to maintaining an
effective working relationship with other oversight organizations to minimize duplication of efforts and to provide
more comprehensive coverage.

Effective interagency coordination, collaboration, and partnerships within the oversight community are essential
to providing comprehensive reviews of wartime expenditures to identify whether critical gaps exist, and then to
recommend actions to fix those gaps.

Internally, the Defense oversight community is increasing its partnerships and providing support within the Defense
community for oversight efforts. For example, the DoD IG and Army Audit Agency are conducting a joint review of
the Joint Contracting Command Iraq/Afghanistan.

In addition, the U.S. Army Corps of Engineers and the Army Audit Agency have provided personnel to support DoD
IG oversight efforts. The Naval Audit Service and Air Force Audit Agency have provided support to the DoD IG
munitions accountability assessment effort. Below is a list of GWOT-related collaborative working groups in DoD:

Afghanistan Working Group
....................................................................................................................................................................................

To minimize the impact on forward command operations, avoid overlapping and duplicate oversight requests, and
facilitate the exchange of oversight information, the DoD IG along with the Government Accountability Office,
the Department of State Inspector General, and the U.S. Agency for International Development Inspector General
established a working group on oversight activities in Afghanistan. The DoD IG, as the Department of Defense
representative of the group, also incorporates the ongoing and planned Afghanistan related oversight efforts of the
service auditors general into the working group. The Afghanistan Working Group has convened twice this reporting
period to discuss ongoing, planned, and completed projects that address issues related to Afghanistan operations.
This group has briefed congressional committees and members of Congress on the ongoing, planned, and completed
Afghanistan oversight projects.



GWOT Cost of War Senior Steering Group
..........................................................................................................................................................

The DoD IG is an invited observer to the GWOT Cost of War Senior Steering Group that the Deputy Secretary of
Defense established on February 26, 2007, to improve and standardize cost of war reporting. Attending the Senior
Steering Group meetings, such as the one in September 2007 helps the DoD IG remain apprised of DoD efforts for
cost of war reporting and furthers its oversight regarding financial aspects of GWOT to ensure timeliness and value
to the DoD.




                                                                                                                                                                                13
Department of Defense Inspector General
Iraq Inspectors General Council
....................................................................................................................................................................................

To minimize the impact on forward command operations, de-conflict overlapping and duplicate oversight requests,
and facilitate the exchange of oversight information in Iraq, the DoD IG also participates in the Iraq Inspectors
General Council chaired by the Special Inspector General for Iraq Reconstruction.




Inspector General Kicklighter meets with the                                                                            The Southwest Asia Joint Planning Group meets.
Iraq Inspectors General Council.


Southwest Asia Joint Planning Group
..........................................................................................................................................................

The DoD IG established a Joint Planning Group on oversight activities in the Southwest Asia region that includes
the military service inspectors general and auditors general, the Inspectors General of the Department of State and
the Agency for International Development, the Special Inspector General for Iraq Reconstruction, and the combatant
commands inspectors general. Through the Southwest Asia Joint Planning Group, the DoD IG is leading the
coordination of oversight required to identify and fix critical mission support problems so military operations can
better focus on “the fight.” Since April 2007, the DoD IG has conducted two quarterly Southwest Asia Joint Planning
Group meetings to leverage and focus critical joint and interagency efforts on key high-risk areas affecting military
operations.

Panel on Contracting Integrity
..........................................................................................................................................................

The DoD IG participates in the Panel on Contracting Integrity. Established under Section 813 of the National
Defense Authorization Act for FY 2007, the panel is chaired by the Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics to conduct reviews of DoD progress made in eliminating areas of vulnerability in the
Defense contracting system that allow fraud, waste, and abuse and affect Operations Iraqi Freedom and Enduring
Freedom in Afghanistan.


14
                                                                                                                                          Semiannual Report to Congress
                                          Inspector General


To date, over $550 billion has been appropriated to the Department of Defense
in support of the men and women of our Armed Forces fighting against terrorism.
As of September 2007, the DoD IG had approximately 225 personnel supporting
GWOT projects that address a wide variety of matters to include contracting,
accountability, theft, and corruption. During this reporting period, Auditing,
Investigations, Policy and Oversight, and Intelligence have 138 ongoing or
completed GWOT projects.

The DoD IG is working with other members of the Defense oversight community,
such as the Services audit and investigative organizations, to evaluate and provide
recommendations for actions to the Department in addressing critical mission
support areas.

The DoD IG is committed to supporting the GWOT efforts and ensuring the effective use of resources to support
U.S. Forces in Southwest Asia. To uphold its commitment to support the warfighter, the DoD IG has field offices
in Qatar, Iraq, and Afghanistan to conduct and facilitate necessary oversight functions. The DoD IG leverages its
deployed personnel to support GWOT-related projects that require presence within the region. The DoD IG works
with other oversight organizations within the Department to coordinate oversight and to avoid duplicate efforts.

To maintain a forward presence, the deployment and redeployment of DoD IG personnel will continue to be a critical
issue warranting additional management attention and efforts.


                                                     Audit

The DoD IG completed 5 GWOT-related projects since April 1, 2007, and has 31 ongoing GWOT-related projects
as of September 30, 2007. The projects address issues related to acquisition and contracting, funds management,
readiness, logistics, equipping the warfighter, and management of contractor common access cards.

DoD GWOT programs covered by ongoing projects is about $88 billion. As of September 30, 2007, the DoD IG
had 14 auditors assigned to the Qatar, Iraq, and Afghanistan field offices.

The DoD IG is taking proactive measures to address critical gaps in the oversight of GWOT operations. For example,
the Deputy Inspector General for Auditing contacted the Director, Defense Finance and Accounting Service (DFAS)
to immediately address accountability issues germane to funds management in a wartime environment.

Lacking adequate supporting documentation for expenditures increases the risks for fraud, waste, and abuse by military,
civilian, and contractor to occur and not be detected by traditional control mechanisms. As a result of the Deputy
Inspector General for Auditing actions, the Director, Defense Finance and Accounting Service deployed personnel to
Southwest Asia to determine where DFAS could assist the deployed DoD forces in accountability issues.

                                                                                                                    15
Department of Defense Inspector General
                                        Ongoing GWOT Audits

                                                     The DoD IG audit oversight is focused in several fundamental
                                                     areas—accountability, funds management, contract surveillance,
                                                     and training and equipping personnel. The 31 ongoing GWOT-
                                                     related projects address critical readiness issues that directly impact
                                                     the warfighter, such as munitions accountability, the procurement
                                                     of armor protected vehicles, potable and nonpotable water quality
                                                     concerns, the acquisition of medium tactical vehicles, and resetting
                                                     ground vehicles within the U.S. Army commands. The ongoing
                                                     projects include a number of audits initiated at the request of
                                                     Congress, such as concerns with the water quality for U.S. forces.

DoD IG Afghanistan Field Office Team.



 Audit Title                        Audit Description
 Payments for Transportation The objective will be to determine whether DoD established adequate control
 Using PowerTrack              procedures over transportation payments made using PowerTrack® and payments
                               made to US Bank for PowerTrack® services. This includes Global War on Terror
                               transportation payments.
 Internal Controls and Data The DoD IG is reviewing whether controls over transactions processed through
 Reliability of the Deployable the Deployable Disbursing System are adequate to ensure the reliability of the
 Disbursing System             data processed, to include financial information processed by disbursing stations
                               supporting GWOT.
 Contingency Construction The DoD IG Forward Operating Activity in Afghanistan is reviewing the efficiency
 Contracting Procedures        of contingency construction contracting procedures implemented in the Afghanistan
 Implemented by the Joint      area of operations. Specifically, the DoD IG will review the effectiveness of practices
 Contracting Command—          related to contract solicitation, award, quality assurance, oversight, and final acceptance
 Iraq/Afghanistan              of construction projects.
 Summary of Issues             The DoD IG is summarizing contract, funds management, and other accountability
 Impacting Operations Iraqi issues identified in audit reports and testimony that discuss mission-critical support
 Freedom and Enduring          to OIF and OEF.
 Freedom Reported by Major
 Oversight Organizations
 Beginning FY 2003 through
 FY 2007
 Defense Hotline Allegations The DoD IG initiated the audit in response to Defense Hotline allegations concerning
 Concerning Contracts Issued contracts issued by U.S. Army Tank Automotive Command (TACOM) Life Cycle
 by U.S. Army TACOM            Management Command to BAE Systems Land and Armaments, Ground Systems
 Life Cycle Management         Division. The DoD IG will evaluate whether contract award and administrative
 Command to BAE Systems procedures complied with Federal and DoD policy.
 Land and Armaments,
 Ground Systems Division

16
                                                                                              Semiannual Report to Congress
 Audit Title                      Audit Description
 Controls Over the                The DoD IG is reviewing whether controls over Common Access Cards (CACs)
 Contractor Command               provided to contractors are in place and work as intended. Specifically, within
 Access Card Life Cycle           Southwest Asia, the DoD IG will evaluate whether DoD officials issue CACs to
                                  contractors, verify the continued need for contractors to possess CACs, and revoke or
                                  recover CACs from contractors in accordance with DoD policies and procedures.
 End-Use Monitoring of            The DoD IG is reviewing the Golden Sentry Program, which monitors how foreign
 Defense Articles And             governments use U.S. defense articles and services, to evaluate whether the program
 Services Transferred To          records and controls transfers of sensitive arms effectively.
 Foreign Customers
 Procurement And Delivery     The DoD IG is reviewing whether the Mine Resistant Ambush Protected (MRAP)
 of Joint Service Armor       vehicle program office is effectively procuring armored vehicles in accordance with
 Protected Vehicles           the Federal Acquisition Regulation and DoD requirements. Specifically, the DoD
                              IG is reviewing MRAP program administration to evaluate whether the program
                              office is taking appropriate actions to accelerate vehicle delivery to users. In addition,
                              the DoD IG is evaluating the Services’ requirements for MRAP and High Mobility
                              Multipurpose Wheeled Vehicles.
 Operations and               The DoD IG is reviewing whether DoD Components followed requirements for using
 Maintenance Funds Used       operation and maintenance funds for GWOT military construction. Specifically, the
 for Global War on Terror     DoD IG is evaluating whether DoD followed proper procedures for administering,
 Military Construction        executing, and reporting the use of Operation and Maintenance funds on GWOT
 Contracts                    military construction contracts.
 Funds Appropriated for       The DoD IG is evaluating whether funds appropriated for the security, reconstruction,
 Afghanistan and Iraq         and assistance of Afghanistan and Iraq and processed through the Foreign Military
 Processed Through the        Sales Trust Fund are properly managed. Specifically, the DoD IG is reviewing whether
 Foreign Military Sales Trust the transfer of appropriated funds from the Army’s accounts into the Foreign Military
 Fund                         Sales Trust Fund was properly authorized, accounted for, and used for the intended
                              purpose. The DoD IG is also reviewing whether Foreign Military Financing funds
                              granted to Afghanistan and Iraq are properly accounted for and used for their intended
                              purpose. In addition, the DoD IG is verifying whether the appropriated funds are
                              properly reported in DoD financial reports.
 Marine Corps’ Management The DoD IG is evaluating the effectiveness of the Marine Corps’ Recovery and Reset
 of the Recovery and Reset    Programs for selected equipment. Specifically, the DoD IG is reviewing how the
 Programs                     Marine Corps met its equipment requirements through the Reset and Recovery
                              Programs, whether it effectively repaired or replaced selected equipment, and whether
                              the Marine Corps used funds for their intended purpose.
 Contractor Support to the    The DoD IG is conducting the audit in response to a congressional request. The
 Joint Improvised Explosive DoD IG Qatar Field Office is evaluating whether Wexford Group International and
 Device Defeat Organization any other contractor performed services outside the scope of the contract relating
 In Afghanistan               to improvised explosive devices and asymmetric warfare in support of the Joint
                              Improvised Explosive Device Defeat Organization. In addition, the DoD IG is
                              evaluating whether contractors operated within applicable laws and regulations.




                                                                                                                      17
Department of Defense Inspector General
Audit Title                   Audit Description
Distribution of Funds and     This is the first part of a three-phase review of the nearly $4.7 billion appropriated to
the Validity of Obligations   the Afghanistan Security Forces Fund in Public Laws 109-13, 109-234, and 109-289.
for the Management of the     The DoD IG is reviewing the distribution of funds from the Office of Management
Afghanistan Security Forces   and Budget through the Under Secretary of Defense (Comptroller)/Chief Financial
Fund                          Officer and the Assistant Secretary of the Army (Financial Management and
                              Comptroller) to the Defense Security Cooperation Agency. In Phase II, the DoD IG
                              is evaluating whether obligations recorded for the Afghanistan Security Forces Fund
                              were made in accordance with legislative intent and applicable appropriations law.
                              In Phase III, the DoD IG will evaluate whether the goods and services purchased for
                              Afghanistan security forces were properly accounted for and whether the delivery of
                              goods and services were properly made to the Afghanistan security forces.
Defense Hotline Allegations   The DoD IG initiated the audit in response to Defense Hotline allegations concerning
Concerning the Biometric      the acquisition of the Biometric Identification System for Access Omnibus contract
Identification System for     under the Army’s Strategic Services Sourcing contract vehicle. Specifically, the DoD
Access Omnibus Contract       IG is evaluating whether source selection procedures were conducted in compliance
                              with Federal and DoD policy.
Internal Controls Over Air    The DoD IG is evaluating whether internal controls for Air Force General Funds,
Force General Funds Cash      Cash, and Other Monetary Assets are effectively designed and operating to adequately
and Other Monetary Assets     safeguard, account for, and report cash and other monetary assets.
Export Controls Over Excess   The objective is to assess the adequacy of controls over the transfer of excess Defense
Defense Articles              articles to foreign persons. Specifically, the DoD IG will determine whether
                              transferred property was adequately demilitarized and controlled in accordance
                              with the requirements of the Foreign Assistance Act of 1961 (Public Law 87 195),
                              as amended, and the Arms Export Control Act of 1976 (Public Law 90 269), as
                              amended.
Internal Controls Over Navy   The DoD IG is evaluating whether internal controls for Navy General Fund, Cash,
General Fund, Cash and        and Other Monetary Assets held outside of the continental United States are effectively
Other Monetary Assets Held    designed and operating to adequately safeguard, record, account, and report Cash
Outside the Continental       and Other Monetary Assets.
United States
Management of the Iraq      This is the final part of a three-phase review. The DoD IG addressed the distribution
Security Forces Fund in     of Iraq Security Forces funds in Phase I and the obligation of funds in Phase II. In
Southwest Asia—Phase III    Phase III, the DoD IG is evaluating whether the goods and services purchased for
                            Iraq security forces were properly accounted for and whether the delivery of goods
                            and services was properly made to the Iraq security forces.
Internal Controls Over      The DoD IG is reviewing whether internal controls for Army General Fund, Cash, and
Army General Fund, Cash     Other Monetary Assets held outside of the continental United States are effectively
and Other Monetary          designed and operating to adequately safeguard, account, and report Cash and Other
Assets Held Outside of the  Monetary Assets.
Continental United States




18
                                                                                           Semiannual Report to Congress
 Audit Title                      Audit Description
 DoD Training for U.S.       The DoD IG plans a series of reviews related to this issue. The DoD IG is reviewing
 Ground Forces Supporting    whether U.S. ground forces supporting OIF are receiving training necessary to meet
 Operation Iraqi Freedom     operational requirements. The DoD IG will also evaluate whether requirements
                             reflect the training necessary in the area of operation and verify whether ground forces
                             receive required training. In addition, the DoD IG will evaluate whether training
                             meets the needs of ground forces supporting Operation Iraqi Freedom. Specifically,
                             the DoD IG is reviewing the use of observers and controllers in preparing Army units
                             for deployment in Phase I and in Phase II, the DoD IG will evaluate equipment levels
                             at combat training centers. In Phase III, the DoD IG will review increased theater-
                             specific training requirements and how that training is executed at combat training
                             centers.
 DoD Support to the NATO The DoD IG is evaluating DoD support to the North Atlantic Treaty Organization
 International Security      International Security Assistance Force in Afghanistan. Specifically, the DoD IG
 Assistance Force            is reviewing DoD support in areas that include, but are not limited to, training,
                             communications, and interoperability.
 Supplemental Funds Used     The DoD IG is evaluating whether supplemental funds for the medical mission were
 for Medical Support for the properly justified and sufficient controls on their use were implemented as directed
 GWOT                        by DoD and military department guidelines. The DoD IG is initially focusing
                             on the Defense Health Program portion of supplemental funding for the medical
                             organizations that supported medical backfill and pre- and post-deployment.
 Procurement, Distribution, The DoD IG is conducting the audit in response to a congressional request. The
 and Use of Body Armor in    DoD IG is reviewing DoD procurement policies and practices for acquiring body
 DoD                         armor and the effectiveness of body armor acquired and used in support of GWOT
                             operations.
 Hiring Practices of the     The DoD IG is conducting the audit in response to a congressional request. The
 Coalition Provisional       DoD IG is evaluating the hiring practices that DoD used to staff personnel to the
 Authority in Iraq           provisional authorities supporting the Iraqi government from April 2003 to June 2004.
                             Specifically, the DoD IG is reviewing the process DoD used to assign personnel to the
                             Office of Reconstruction and Humanitarian Assistance and the Coalition Provisional
                             Authority in Iraq.
 Inspection Process of       The DoD IG is examining the Army Reset Program for equipment of units that
 the Army Reset Program      return from OIF to evaluate the effectiveness of the inspection process. The DoD
 for Equipment for Units     IG expanded the scope of the audit to include missiles, tracked vehicles, wheeled
 Returning from Operation    vehicles, communications, and small arms.
 Iraqi Freedom
 Potable and Nonpotable      The DoD IG is conducting the audit in response to a congressional request. The
 Water in Iraq               DoD IG is evaluating the contractor’s water quality testing processes for effectiveness
                             and reviewing whether internal controls enable safe, nonpotable water to be provided
                             to U.S. forces in Iraq. The DoD IG is also reviewing whether the processes for
                             providing potable and nonpotable water to U.S. forces are adequate. The DoD IG
                             extended this project to address additional Congressional questions.




                                                                                                                   19
Department of Defense Inspector General
Audit Title                    Audit Description
DoD Use of Global War          The DoD IG is evaluating the adequacy of DoD financial controls over use of GWOT
on Terror Supplemental         supplemental funding provided for procurement and research, development, test,
Funding Provided for           and evaluation. The DoD IG is also evaluating whether congressionally approved
Procurement and Research,      funds were placed on contracts and used for purposes stipulated in the GWOT
Development, Test, and         supplemental funding.
Evaluation
Conditional Acceptance      The DoD IG is evaluating whether the Army is adequately protecting the Government’s
and Production of Army      interest when it includes conditional acceptance provisions in production contracts
Medium Tactical Vehicles in for the Family of Medium Tactical Vehicle Program. In addition, the DoD IG is
Support of the Global War   evaluating whether management is cost effectively producing the Family of Medium
on Terror                   Tactical Vehicles as funded in support of the GWOT.
Supply Chain Management     The DoD IG is evaluating the supply chain management of clothing and textile (Class
of Clothing, Individual     II) items to determine whether they were being efficiently and effectively obtained.
Equipment, Tools, and       Specifically, the DoD IG is reviewing the requirements determination, the acquisition
Administrative Supplies     of selected Class II items, and supply responsiveness (whether soldiers receive Rapid
                            Fielding Initiative before they deploy).
Internal Controls Over Out- The DoD IG is evaluating whether internal controls over out-of-country payments
Of-Country Payments         supporting GWOT provide reasonable assurance that payments are properly
                            supported and recorded.


                               Other Ongoing GWOT Efforts

Audit Title                    Audit Description
Research on DoD                The DoD IG is examining DoD GWOT funding for contracts and issues surrounding
Contracting Issues Related     those contracts. In addition, the project will also include research of military
to the GWOT                    construction issues pertaining to GWOT.



                                  Completed GWOT Projects

The 5 completed GWOT-related projects have resulted in findings involving critical issues in readiness, logistics,
contract surveillance, and funds management. A brief overview of each audit is listed as follows:

Audit Title                    Audit Description
Research of the Controls       The DoD IG conducted this research to address ongoing concerns over contractors
Over the Management of         in Southwest Asia. The objective of the research project was to determine the control
Contractors                    process for issuance, verifying the continued need, and recovery of Common Access
                               Cards provided to contractor personnel in Southwest Asia. The DoD IG also reviewed
                               the procedures used to account for the number of contractor personnel working in
                               Southwest Asia. As a result of this research effort, in August 2007, the DoD IG
                               announced the “Controls Over the Contractor Common Access Card Life Cycle.”


20
                                                                                         Semiannual Report to Congress
 Audit Title                      Audit Description
 Procurement Policy for    The DoD IG concluded that the Marine Corps Systems Command awarded sole-
 Armored Vehicles          source contracts to Force Protection, Inc., for the Joint Explosive Ordnance Disposal
                           Rapid Response Vehicle even though Marine Corps Systems Command officials
                           knew other sources were available for competition. In addition, TACOM Life Cycle
                           Management Command and Marine Corps Systems Command officials did not
                           adequately justify the commercial nature of three commercial contracts with Force
                           Protection, Inc., for the Cougar and the Buffalo Mine Protected Clearance Vehicle.
                           The TACOM Life Cycle Management Command also awarded a contract for crew
                           protection kits to Simula Aerospace and Defense Group, Inc., an Armor Holdings,
                           Inc., subsidiary that did not meet the Federal Acquisition Regulation definition of a
                           responsible prospective contractor. Specifically, Simula Aerospace and Defense Group,
                           Inc., did not have the necessary production control procedures, property control
                           systems, and quality assurance measures in place to meet contract requirements for
                           crew protection kits.
 U.S. Transportation       The DoD IG did not substantiate two of the three Defense Hotline allegations regarding
 Command Compliance with the use of commercial sealift services. Specifically, the DoD IG could not substantiate
 DoD Policy on the Use of  that the U.S. Transportation Command directed the use of a commercial vessel
 Commercial Transport      rather than a more cost-effective Government vessel in support of the 25th Infantry
                           Division training exercise in Fort Irwin, California, and that the U.S. Transportation
                           Command had directed the use of commercial vessels in similar situations and on a
                           regular basis. However, the DoD IG partially substantiated the allegation that the
                           use of a commercial vessel prevented the brigade from accomplishing some of its
                           mission-essential tasks and eliminated potential opportunities for the warfighter to
                           train for deployment. In addition, the DoD IG found that the U.S. Transportation
                           Command surface business model was not consistent with Office of the Secretary of
                           Defense interim guidance and the U.S. Transportation Command memorandum on
                           the use of commercial transportation.
 Management of             The DoD IG concluded that the U.S. European Command effectively managed its
 Prepositioned Munitions   prepositioned munitions program and that it continues to review its objectives for
                           prepositioned munitions to support future theater and global requirements while
                           downsizing and continuing to transform. The review also concluded that munitions
                           managers identified excess and unserviceable munitions stored in their stockpiles. In
                           addition, the U.S. European Command provided more than 25,000 short tons of
                           munitions to support U.S. Central Command’s Global War on Terror operations.
 Antideficiency Act        The DoD IG transmitted the final report to the Office of General Council concluding
 Investigation of the      that an Antideficiency Act violation occurred because funding for Phases I and II of
 Operation and Maintenance construction at Camp Bucca, Iraq, was completed using Operation and Maintenance
 Appropriation Accounts    appropriated funding instead of Military Construction appropriated funding.
 2142020 and 2152020




                                                                                                               21
Department of Defense Inspector General
                                                                Investigations

The Defense Criminal Investigative Service (DCIS), the criminal investigative arm of the DoD Inspector General,
has been engaged in investigating DoD-related crimes pertaining to the Iraqi theater and Kuwait since the start of
the war. From May 2003 through October 2004, DCIS had teams of two to three agents deployed to Baghdad. In
addition, from October 2004 to the present, the DCIS European office and multiple CONUS-based DCIS offices
have continued to investigate allegations of criminal conduct in the Southwest Asia theater. In September 2006,
DCIS re-deployed two special agents to Iraq and two special agents to Kuwait. Both offices, in partnership with the
U.S. Army Criminal Investigation Command (USACIDC) and other law enforcement organizations, are conducting
criminal investigations and examining weaknesses and trends that may result in fraud, corruption, or other crimes
threatening DoD.

Ongoing GWOT Investigations and Task Forces
....................................................................................................................................................................................

DCIS investigations are focused on crimes such as bribery, theft, illicit gratuities, bid-rigging, defective and substituted
products, and conflicts of interest. These crimes expose U.S. and coalition forces to substandard equipment and
services, and resource shortages that aggravate an already severe and dangerous environment. DCIS is conducting 90
investigations related to the war effort (war profiteering, contract fraud, and contract corruption), most of these as part
of a joint effort with other law enforcement organizations. Fifteen of these investigations are being conducted almost
entirely in Southwest Asia. The remaining 75 investigations are being conducted mostly in CONUS and Germany.
Of the 90 ongoing investigations, 18 involve military officers who purportedly received bribes and gratuities from
Department of Defense contractors and subcontractors, were involved in a conflict of interest, or stole DoD funds.

DCIS promotes the readiness of U.S. and coalition forces through the vigorous investigation of alleged thefts, anti-
trust violations, and other breaches of public trust that affect programs and services with critical security applications.
The investigation of criminal activity in Iraq involves members of the U.S. Armed Forces, U.S. contractor personnel,
and indigenous and foreign contractor personnel. As part of the larger contractor oversight effort and as an example
of investigative cooperation and synergy, in January 2004, an investigation was initiated on information from the
Defense Contract Audit Agency (DCAA) concerning allegations of kickbacks and gratuities solicited and/or received
by Kellogg, Brown & Root (KBR) employees, and KBR overcharging for food, meals, and fuel. To address this
complex referral, a Federal investigative task force was formed at Rock Island, IL, comprised of DCIS, USACIDC, the
Federal Bureau of Investigation, the Internal Revenue Service Criminal Investigation Division, and the Office of the
United States Attorney for the Central District of Illinois. The task force continues to examine criminal allegations
involving the execution of the U.S. Army’s Logistics Civil Augmentation Program (LOGCAP) III contract by KBR.
Some prosecutions have occurred, and others are anticipated.

More recently, as a result of the magnitude of alleged criminal activities within the Iraqi theatre, a group of Federal
agencies formalized a partnership to combine resources to investigate and prosecute cases of contract fraud and
public corruption related to U.S. Government spending in Iraq reconstruction. The participating agencies in the
International Contract Corruption Task Force (ICCTF) are DCIS; USACIDC’s Major Procurement Fraud Unit; the
Office of the Inspector General, Department of State; the FBI; the Special Inspector General for Iraq Reconstruction;
and the Office of the Inspector General, Agency for International Development. The ICCTF has established a Joint
Operations Center which is a case-coordination cell and criminal intelligence element aimed at achieving maximum


22
                                                                                                                                          Semiannual Report to Congress
interagency cooperation to successfully prosecute fraud and corruption cases in support of the war effort in Iraq. The
mission and objectives of the ICCTF are a shared responsibility of the participating agencies. Case information and
criminal intelligence are shared without reservation, and statistical accomplishments are reported jointly. The agency
heads or their designees meet regularly to collectively provide policy, direction, and oversight to investigative efforts.

In addition, DCIS has initiated a project and committed resources to review documents associated with payments
made by DoD in the Southwest Asia theater. Payment records are currently stored at Defense Finance & Accounting
Service, Rome, NY (DFAS-Rome). The DCIS project is designed to proactively detect fraud involving payments made
by DoD to support the war effort in Iraq and the Global War on Terror. This project is expected to be a long-term
effort, and DCIS is working with its ICCTF partners, as well as coordinating its activities with the U.S. Attorney’s
Office for the Northern District of New York and the Department of Justice. The Deputy Inspector General for
Auditing is conducting a concurrent review of the DFAS-Rome records.

GWOT Investigative Results
....................................................................................................................................................................................

                                             As a result of closed and ongoing investigations, eleven Federal criminal indictments
                                             and fifteen Federal criminal informations have been issued, and two Article 32 hearings
                                             under the Uniform Code of Military Justice have been conducted. As a result of the
                                             investigations, nineteen U.S. persons and one foreign national have been convicted of
                                             felonies, resulting in a total of approximately fifteen years of confinement and twelve
                                             years of probation; five individuals and two companies were debarred from contracting
                                             with the U.S. Government; twenty-one companies and persons were suspended from
                                             contracting; and two contractors signed settlement agreements with the U.S. Government.
                                             In all, $9.84 million was paid to the U.S. in restitution; $323,525 was levied in fines and
                                             penalties; $33,319 was forfeited; and $836,609 was seized.



DCIS and ATF special agents inspecting crates of weapons.


Two examples of GWOT-related investigations involving DCIS follow:

A charity known as the Islamic American Relief Agency (IARA) was officially designated as a supporter of global
terrorists, including Osama bin Laden, al-Qaeda and Hamas. As the result of an on-going joint DCIS and FBI
investigation, a Federal grand jury in Missouri named the subjects in a 33-count indictment for illegally transferring
more than $1.4 million to Iraq in violation of the International Emergency Economic Powers Act and the Iraqi
Sanctions Regulations. Five officers and associates of the IARA were charged with money laundering, theft of public
money, and obstructing the administration of U.S. tax laws.

Five members of the terrorist group “The Fort Dix Six” were arrested by the FBI Joint Terrorism Task Force and charged
with plotting to kill soldiers at U.S. Army Fort Dix, NJ. A sixth member was charged with aiding and abetting the
illegal possession of firearms. All six were denied bail and are being held by the DoJ pending trail. DCIS has joined
the on-going FBI and JTTF investigation.



                                                                                                                                                                                23
Department of Defense Inspector General
                                      Policy and Oversight

The DoD IG’s Office of Policy and Oversight has played a key role in ongoing efforts in Southwest Asia to develop
and promote the establishment of effective oversight and security organizations in Afghanistan and Iraq. Some of those
projects have been conducted jointly with the Department of State (DoS) and the Department of Justice (DOJ) and
have provided critical assessments and detailed recommendations aimed at helping the fledgling democracies in those
countries to counter crime, corruption, human rights abuses, and other threats to include terrorism. A brief overview
of each project follows:

Support to Inspectors General of the Iraqi Security Forces: Until July 2007, the DoD IG provided two full-time
IG advisors to the Multi-National Security Transition Command-Iraq (MNSTC-I) Transition Teams in Baghdad.
These advisors assisted the Offices of the Inspectors General for the Ministry of Defense, Joint Headquarters (JHQ),
and the Ministry of Interior. Prior to reassigning these advisors back to Arlington, VA, the DoD IG facilitated the
establishment of a new MNSTC-I billet for an “IG Integration Officer.” The billet was approved and filled in July
2007. The DoD IG will provide assistance and advice as requested.

                                    As a successful collaborative effort, the DoD IG senior advisor and the Director of
                                    the Embassy’s Office of Accountability and Transparency (OAT) worked with the
                                    Government of Iraq to establish the Joint Anti-Corruption Council (JACC) in April
                                    2007. Chaired by the Iraqi Prime Minister’s representative, the JACC coordinates
                                    and integrates the activities of the four Iraqi anticorruption institutions--Iraqi IG
                                    system consisting of 31 ministerial IG Offices, the Commission on Public Integrity,
                                    the Board of Supreme Audit, and the Central Criminal Court System. As one of its
                                    first priorities, the JACC established a project team to develop the plans to establish
                                    an Iraqi Academy of Principled Governance. The Embassy selected the DoD IG
                                    Advisor to assist the JACC in developing those plans. On June 11, 2007, the DoD
                                    IG advisor and his Iraqi counterpart briefed the Academy project proposal to the
                                    JACC members. The council approved the proposal. The Iraqi project team is
                                    responsible for follow-up actions, and the DoD IG will provide further advice or
                                    assistance when requested.
Policy and Oversight team meets with MNSTC-I
ISF IG advisors.
                                               During this reporting period, the DoD IG advisors also:

• Assisted the Iraqi IGs in planning and conducting inspections of the offices of IGs at three ministries. Those
inspections assessed the performance of the IGs, their staffs and organizations.

• Coordinated initiatives to improve the management of detainee issues: case adjudications, overcrowded facilities,
problems with accommodating a sharp increase of detainees as a result of surge operations, transfer of detainees from
MoD to Ministry of Justice facilities, and the creation of the Iraqi Detainee Operations Committee.

• Supported the development of MoD’s JHQ Military IG system, including military IGs at each level of command
down to division level. Building on training conducted in November 2006, and in March 2007 by the MNSTC-I IG
Transition Team advisors, the U.S. Army IG School will host an intensive 3-week train-the-trainer session for the Iraqi
IG instructors in FY 2008 for selected military IG officers. These officers will return to Iraq to establish a military IG
training school.
24
                                                                                              Semiannual Report to Congress
                                                                  Finally, in July 2007, the DoD IG initiated a project to document
                                                                  the lessons learned during our 3-year experience in establishing and
                                                                  developing a viable, sustainable, effective IG system in Iraq. This
                                                                  project will capture the concepts, strategies, options, and practical
                                                                  applications that can be used in other “Stability, Security, Transition,
                                                                  and Reconstruction (SSTR)” operations where establishing a
                                                                  federal IG system may be appropriate in nation building missions.

                                                       Interagency Department of Defense/Department of State/
                                                       Department of Justice Assessment of the Counternarcotics Program
                                                       in Afghanistan (Report No. IE-2007-005): The final report for this
                                                       assessment was released on July 31, 2007. The final report made
                                                       27 recommendations for improvements in the areas of security,
Policy and Oversight personnel with Iraqi military IGs policy prioritization, resource availability/adequacy, contracting,
and aircrew during Iraqi IG inspection.
                                                       interagency coordination/management, and mobility. The
                                                       assessment underscored the requirement for a long-term emphasis
in the area of counternarcotics in the region as counternarcotics efforts, including those of the United States, have not
succeeded in stemming opium and opiate production in Afghanistan.

Ongoing Projects
..........................................................................................................................................................

Evaluation of U.S. Army Response to Shooting of Reuters Employee. The objective is to determine whether the Army
properly investigated and reported the August 2005 incident in Baghdad in which soldiers killed a Reuters driver and
injured a cameraman as they filmed an ambush from their car.

Assessment of the Iraqi Ministry of Defense (MoD) and Ministry of Interior (MoI) Inspectors General System.
The objective is to assess the current MoD, MoI, and Joint Headquarters Inspector General System and define the
requirements to build capacity and develop a stable, viable, and self-sustaining system.

Department of Defense/Department of Veterans Affairs Interagency
Care Transition. The objective is to evaluate the extent to which
laws, policies, and processes ensure that injured Operation Iraqi
Freedom and Operation Enduring Freedom Service members are
provided effective, transparent, and expeditious access to health
care and other benefits when identified for separation or retirement
due to their injuries.

Review of Investigative Documentation Associated with the
Death of Corporal (CPL) Steven W. Castner. Review of Army
Regulation 15-6 investigation regarding the combat death of CPL
Castner in July 2006 and the training CPL Castner and his unit
received before their deployment to Iraq. Determine if additional
actions are required.

                                                                                          DoD IG personnel in Iraq.
                                                                                                                                                       25
Department of Defense Inspector General
                                                                   Intelligence
The DoD IG’s Office of the Deputy Inspector General for Intelligence has ongoing and planned reviews of high-
profile issues related to the GWOT. A brief overview of each report follows:

Ongoing Projects
....................................................................................................................................................................................

U.S. Government’s Relationship with the Iraqi National Congress: The objective of this review is to respond
to direction from the House Appropriations Committee through the Office of the National Counterintelligence
Executive to review the U.S. Government’s Relationship with the Iraqi National Congress. On June 12, 2006, the
DoD IG published a report on Phase One of the project. The report on Phase Two is expected to be published during
the 1st Quarter of FY 2008.

Review of Intelligence Resources at the Joint Intelligence Task Force Combating Terrorism and Special Operations
Command in Support of Operation Enduring Freedom and Operation Iraqi Freedom: The review will examine
intelligence missions and corresponding resources at both the Joint Intelligence Task Force Combating Terrorism
and Special Operations Command to determine the sufficiency of those resources to accomplish their intelligence
missions.

Evaluation of Department of Defense Intelligence, Surveillance, and Reconnaissance (ISR) Activities in Support
of U.S. Pacific Command for the Conduct of Operation Enduring Freedom – Philippines: The objective of the
evaluation is to assess the process and procedures for the requirement, synchronization, and allocation of ISR resources
to USPACOM-Philippines under the command and control of the DoD and national systems requested through the
DoD collection management and global force management process.

Audit of the Management of Signals Intelligence Counterterrorism Analysts: The objective of the audit is to
evaluate the management of signals intelligence counterterrorism analysts. Specifically, the DoD IG will review the
hiring/recruitment process, training programs, and work assignments of counterterrorism analysts. The review will
include an assessment of the impact additional resources have had on the effectiveness of the National Security Agency
counterterrorism mission since September 2001.

Planned Projects
....................................................................................................................................................................................

Evaluation of Department of Defense Overt Human Intelligence Training in Support of Operation Enduring
Freedom: The objective of the project will be to evaluate the effectiveness of overt Human Intelligence training,
with specific emphasis on operations supporting OEF. The evaluation will validate the training processes, instructor
qualifications, costs and benefits and the quality of training. The DoD IG will also compare and contrast DoD
contractor-provided instruction versus DoD government-provided instruction.

Evaluation of Department of Defense Outsourcing of Intelligence Support to Operation Enduring Freedom and
Operation Iraqi Freedom: The overall objective of this evaluation will be to determine the effectiveness and efficiency
of contractor support to military intelligence. Furthermore, the report will assess the suitability of outsourcing
inherently government intelligence functions.
26
                                                                                                                                          Semiannual Report to Congress
Services
Oversight
 A look at the Services audit and investigative efforts in
 the Global War on Terror




                                                 	
                                                 U.S. Army
                                                 Army Audit Agency
                                                 Army Criminal Investigation Command

                                                 U.S. Navy and Marine Corps
                                                 Naval Audit Service
                                                 Naval Criminal Investigative Service
                                                 Marine Corps Criminal Investigation Division

                                                 U.S. Air Force
                                                 Air Force Audit Agency
                                                 Air Force Office of Special Investigations
                                                       Army


                                                 Army Audit Agency

Army Audit Agency (AAA) maintains a significant presence in the U.S. Central Command area of responsibility to
assist Army commanders in the Global War on Terror. AAA has had 10 to 30 auditors deployed in Iraq, Kuwait, and
Afghanistan since May 2005. Overall, AAA has deployed more than 100 auditors since 2002. In addition, many of
its stateside reports are directly focused on GWOT issues.

The audits in theater have concentrated primarily on logistics and contracting issues. AAA has issued 23 reports
addressing various services provided under the $22 billion Logistics Civil Augmentation Program (LOGCAP) contract,
as well as 33 additional reports addressing other logistics issues, military pay, and fund management.

Currently, AAA has ongoing audits in theater of additional LOGCAP services; contracting operations at the contracting
offices in Kuwait, Iraq, and Afghanistan; retrograde operations; container management; and accountability over
contractors on the battlefield. It is also providing support to the DoD IG Munitions Assessment Team.

                                                     The Agency’s audit work in theater stems from requests from
                                                     the Secretary of the Army; the Commander, Multi-National
                                                     Force - Iraq; U.S. Army Criminal Investigation Command; the
                                                     Commanding General, Third U.S. Army/U.S Army Forces Central
                                                     Command; and the Commander, Joint Contracting Command
                                                     Iraq/Afghanistan.

                                                     Stateside, AAA has audits underway in the areas of reset, tactical
                                                     wheeled vehicle strategy, body armor, and contractor support and
                                                     housing facilities at mobilization stations.

Army Audit Agency personnel in Southwest Asia.


In June 2007, the Auditor General accompanied Senator Claire McCaskill of Missouri and Senator Thomas Carper of
Deleware to Iraq and Kuwait as part of a congressional delegation that assessed contractor operations in theater. The
invitation to join the delegation was extended because of the Auditor General’s testimony to the U.S. Senate Armed
Services Committee on AAA’s LOGCAP audit work. The delegation met with top Army officials, key representatives
from the oversight community, and service personnel from Missouri and Delaware.

Over the last six months, AAA issued five reports and continued or began work on 12 ongoing audit projects.




28
                                                                                           Semiannual Report to Congress
Completed Audits
....................................................................................................................................................................................

Asset Visibility in Support of OIF and OEF, Army Reserve Equipment, 88th and 999th Reserve Readiness
Commands. AAA assessed whether visibility was sufficient over U.S. Army Reserve’s left behind equipment and
equipment returning from the Southwest Asia area of operations. The audit showed that visibility issues persisted
over class VII rolling stock because units weren’t following established procedures and best practices for accountability
and visibility. The audit found that instances of insufficient inventories and incomplete transfer and hand receipt
documentation and transactions; units did not establish derivative unit identifier codes to assist in the development of
the unit level property book; and units did not comply with Department of the Army guidance and code equipment as
left behind or designate property location codes for equipment in unit property records. Consequently, unit property
records did not provide necessary asset visibility data to the higher tier asset visibility capabilities used by Army
decision makers. AAA made five recommendations that, if implemented in conjunction with the Army’s Operation
Total Recall, will improve visibility over the Army’s class VII rolling stock.

Theater Linguist Program in Afghanistan. This audit assessed whether the Army’s linguist program and associated
contracts were managed effectively. AAA found that the program generally met command’s linguistic needs but wasn’t
effectively or efficiently managed. The program lacked full visibility over requirements determination, the number
of contracts awarded, and the number and types of linguists employed. Also, managers did not maintain adequate
oversight over the contracts. For the 15 contracts reviewed, which had a total value of about $205 million, AAA
identified about $17.8 million in potential monetary benefits the Army could achieve through better use of linguists.
AAA made 12 recommendations to improve the linguist services provided to the Army.

Rapid Equipping Force (REF) Initiative. AAA evaluated how effective the Army was managing the REF Initiative,
which is an important contributor to the Army’s efforts to provide warfighters with what they need in a timely
manner. Since inception of the program in May 2002, REF has provided more than 87 different types of equipment,
totaling about 15,000 individual items, to the theater. AAA concluded that the Army was effectively managing
REF. One key reason was the organizational alignment of REF under the Deputy Chief of Staff, G 3/5/7, with close
working relationships with the Assistant Secretary of the Army (Acquisition, Logistics and Technology). An equal
contributor to success was that REF developed and executed the necessary processes to quickly fulfill warfighter needs
and appropriately end projects or recommend the transition of project management to the greater Army. To build on
its success, REF needs to formalize its ad hoc processes.

Civilian Pay in Support of OEF and OIF. At the request of the Secretary of the Army, AAA did the audit to
determine whether Army personnel deployed in support of OIF and OEF were receiving additional pay allowances.
AAA found that most deployed civilians were receiving their additional pay allowances, but the timing and accuracy
of the payments needed improvement. AAA projected that about 76 percent of deployed civilians experienced a pay
problem. Two major factors contributed to this condition: an untimely process for starting and stopping payments
and inaccurate interpretations of pay guidance. Shortly after completion of AAA’s fieldwork, the Army initiated
appropriate actions to improve the accountability and controls for deployed civilians.

Resource Requirements for Reset. AAA did the audit at the request of the Deputy Chief of Staff, G 4 to evaluate
the Army’s process for identifying resource requirements for resetting equipment and tracking and measuring results.
AAA concluded that the Army did not have a reliable process to identify its resource requirements and did not
establish processes to effectively track and measure the results of equipment reset for FYs 05-06. The Army also


                                                                                                                                                                                29
Department of Defense Inspector General
did not establish strategic objectives or fully incorporate other initiatives and factors when it allocated equipment
resources between depot and field levels. During the audit the Army took many corrective actions, including issuing
descriptive guidance on roles and responsibilities and establishing a task force to monitor and track requirements and
expenditures. The task force established metrics to help monitor the benefits achieved as a result of the $17.1 billion
in supplemental funding provided to the Army for FY 2007.

Ongoing Audits
....................................................................................................................................................................................

Class III (Bulk and Retail) Fuel Operations in the Iraq Area of Operations, LOGCAP Operations in Support
of OIF. This audit of class III (bulk and retail) fuel operations in the Iraq area of operations concentrated specifically
on the management of fuel operations under the LOGCAP contract. AAA found that 3rd Corps Support Command
provided sufficient fuel support to units to execute mission requirements, but the method for determining fuel stockage
levels was inefficient and often led to excess fuel inventory. The audit also identified fuel accountability issues at all
the fuel sites resulting from poor inventory practices. AAA made nine recommendations that should lead to improved
management of fuel operations in Iraq. The report is currently awaiting the official Army position.

Contract Administration Over Contracted Dining Facility Operations, LOGCAP Operations in Support of OIF.
This audit concentrated specifically on the administration of dining facility operations in the Iraq area of operations
under the LOGCAP contract. AAA found that although soldiers were routinely provided nutritious, high-quality
food and service comparable to commercial restaurants in the United States, the process for administering dining
facility operations needed improvement. Contract administration by administrative contracting officers assigned to
Defense Contract Management Agency was inhibited because of a lack of training and continuity of personnel. AAA
made eight recommendations that should strengthen the administration of dining facility operations in Iraq. The
report is awaiting the official Army position.

Internal Controls Over Contracted Dining Facility Operations, LOGCAP Operations in Support of OIF. This
audit of controls over contracted dining facility operations in the Iraq area of operations concentrated specifically on
whether controls over the operations were in place and operating as intended. Although dining facilities provided food
and service comparable to commercial restaurants in the United States, the controls over operations weren’t adequate.
The contractor did not implement standing operating procedures, perform proper headcounts, follow scheduled meal
plans, or practice appropriate controls over warehouse operations. These weaknesses could result in excessive waste
and cost. AAA made eight recommendations that should result in improved controls over dining facility operations.
The report is awaiting the official Army position.

Retrograde Operations in Southwest Asia. This audit involves work in Iraq and Kuwait. The objective of the audit
is to evaluate the retrograde and redistribution of military property resulting from restructuring military forces and
the attendant contractor support.

Shipping Containers. This audit involves work in the U.S., Iraq, Kuwait, and Afghanistan. The objectives of the
audit are to evaluate whether shipping containers were adequately managed to ensure accountability and minimize
detention charges; visibility over equipment and supplies transported to, within, and from the theater of operations
was adequate; and controls over payments for the use of containers were adequate.




30
                                                                                                                                          Semiannual Report to Congress
Logistics Support—OEF-Philippines. U.S. Army, Pacific asked AAA to assess the execution and administration of
the logistics support contract for OEF-Philippines. AAA identified an overall absence of adequate controls and a weak
and understaffed contract administration structure. These conditions resulted in unsupported contract charges, and
the development and execution of inefficient solutions to mission needs. AAA calculated that the Army could save
about $58 million by recouping payments and restructuring the logistics support contract.

U.S. Army Contracting Command, Southwest Asia – Kuwait (Phase I). Criminal Investigation Command and
Third Army/Army Forces Central Command requested the audit to determine whether U.S. Army Contracting
Agency’s office in Kuwait was operating effectively and in accordance with established laws and regulations. AAA found
that the office wasn’t operating effectively and in accordance with established laws and regulations. Adequate internal
controls weren’t in place to make sure contract requirements
were properly planned and awarded, and awarded contracts
were properly administered. In addition, oversight over
contracting operations was hampered because automated
records used to monitor and manage contracting operations
weren’t fully complete and accurate. These internal control
weaknesses created an environment where contracting actions
were highly susceptible to fraud, waste, abuse, and increased
costs to the Army.

Army Contracting Command, Southwest Asia – Kuwait
(Phase II). This is a follow-on audit to AAA’s overall
assessment of contracting operations at Army Contracting
Command, Southwest Asia – Kuwait. AAA’s objective is to                     Army Audit Agency auditors in the field in SWA.
determine whether the requirements determination process was adequate
and deliverables were received and used as intended for selected contracts.
AAA is reviewing two contracts for services valued at more than $2 billion
and is continuing work on insurance requirements under the Defense Base Act.

Contracting Operations at Joint Contracting Command Iraq/Afghanistan (Multiple Audits). Partially based on
the results of a USACIDC request of the audit of contract operations at Army Contracting Command, Southwest Asia
– Kuwait, AAA’s objective was to assess whether goods and services acquired under the contracts were properly justified
and cost-effective and whether contracts were properly awarded and administered. AAA is reviewing 18 contracts for
support services, valued at about $428 million, awarded at 4 contracting offices in Iraq and Afghanistan. Examples
of contracts under review include nontactical vehicle lease and service, sewer repair, furniture, communications, and
line haul transportation.

Reset (Multiple Audits). AAA is working on five audit projects related to reset. The Agency is evaluating the metrics
used for FY 2007 in the Army’s monthly reports to Congress and will report on whether the reports accurately depict
the status of reset. The FY 2007 audit seeks to evaluate the four components of the metric report: procurement
quantities ordered, sustainment quantities repaired, field level reset for brigade combat teams completed, and
obligations related to each of these components. AAA is also doing an audit of battle loss computations to determine
whether weapon system managers accurately computed and appropriately used battle loss estimates to reduce the level
of reset maintenance requirements and identify requirements to replace lost equipment. The fifth audit is looking at
the management of contracts for field level reset.



                                                                                                                        31
Department of Defense Inspector General
Accounting for Seized Assets and Development Fund for Iraq Balances. At the request of the Assistant Secretary
of the Army (Financial Management and Comptroller), AAA is evaluating the status of funds within three accounts
maintained to acquire goods and services for the benefit of the Iraqi government. The objectives of the audit are
to determine the residual balances in the Army’s seized assets and Developmental Fund for Iraq accounts, and to
determine whether the residual balances could be returned to the Government of Iraq.

Temporary Change of Station Orders and Housing Facilities at Mobilization Stations. Soldiers mobilized to
provide CONUS and other overseas support during wartime are issued temporary change of station (TCS) orders
during their mobilization period. About 15,000 soldiers are currently mobilized under TCS orders in support of
OEF and OIF. The Army recently revised its entitlements policy for soldiers mobilized under TCS orders. AAA is
reviewing the authorization processes for soldiers under TCS orders and travel vouchers submitted as TCS claims, and
how mobilized soldiers are housed while at CONUS-based mobilization stations.

Army CONUS Support Base Services Contract. This is AAA’s second audit concerning contractor operations at
mobilization stations. The CONUS support base services contract provides administrative, training, and maintenance
support to units and individuals processing through mobilization stations en route to Iraq and Afghanistan. AAA is
reviewing the contract to determine whether it is structured to provide flexible, timely, and cost-beneficial services at
various CONUS mobilization stations and whether it should be expanded for use at all mobilization stations.

Accountability Over Contractors Downrange. This effort is the second in a series of audits concerning issues
associated with contractors on the battlefield. Tens of thousands of contractors are currently deployed for OEF and
OIF acting as a force multiplier by providing various services to soldiers, including systems support, transportation,
and food service. Accountability over these contractors is crucial for the Army to maintain operational support of
them while they are in theater and to have visibility over contract capabilities in the theater of operation. During the
audit AAA is evaluating current and future accountability methods in theater and roles and responsibilities throughout
the Army.
                U.S. Army Criminal Investigation Command

The United States Army Criminal Investigation Command (USACIDC) provides critical felony criminal investigations,
actionable criminal intelligence, logistics security, and protective services to a joint and expeditionary force globally
postured in direct support of the War against Terrorism. USACIDC presently has more than 140 soldier and civilian
special agents in Iraq, Afghanistan, and Kuwait investigating felony-level crime, providing Personal Security Officer
support for High Risk Personnel, and providing criminal intelligence and forensic support to the Joint Improvised
Explosive Device (IED) Detection Task Force.

The USACIDC special agents investigate detainee abuse; investigate and interrogate suspected terrorists to gather
physical and testimonial evidence needed for successful judicial prosecutions; investigate contract fraud and public
corruption of Congressional interest; and provide protective service for ambassadors, dignitaries of U.S. cabinet rank
in forward deployed environments, foreign heads of defense, and in the highest terrorist threat environments, the
Special Representative to the United Nations Secretary General in Iraq.

USACIDC also provides command and control leadership to the Criminal Investigation Task Force (CITF), a joint
enterprise with investigators from the U.S. Air Force Office of Special Investigations (AFOSI) and the Naval Criminal
Investigative Service (NCIS). The unit investigates and formulates best evidence prosecutable packets against personnel

32
                                                                                            Semiannual Report to Congress
held at Guantanamo Bay, Cuba. CITF special agents in Iraq actively and aggressively support the Central Criminal
Court of Iraq by investigating and promulgating the legal resolution of international terrorist prosecution under the
Iraqi judicial system.

Joining with other federal law enforcement agencies, DoD agencies, and the national intelligence community, USACIDC
supports the FBI regional and national Joint Terrorism Task Forces in combating terrorism in the continental United
States by fusing Army criminal intelligence with other all source processed intelligence, thus presenting a better
operating picture of domestic terrorism. Their specific efforts are designed and focused to eliminate, mitigate, or apply
countermeasures that serve to protect DoD assets and other valuable resources.

USACIDC special agents help streamline information sharing between national intelligence and law enforcement
agencies by contributing personnel and support to the Antiterrorism Operations and Intelligence Cell at the Army
Operations Center; the National Joint Terrorism Task Forces; and the Global Situation Awareness Facility, Office of the
Secretary of Defense. USACIDC provides criminal activity threat estimates and criminal activity threat assessments to
protect, defend and harden mission essential vulnerability
areas and human resources.

USACIDC deployed five special agents to support the Joint
Improvised Explosive Device Defeat Organization Task
Force as members of a Law Enforcement Implementation
Plan aimed at developing criminal intelligence to defeat the
criminal threat, concentrating initially on the IED threat. As
embedded members of the III Corps Special Staff, the teams
are working in the Counter IED Operational Integration
Center, C3. Developing doctrine along with cutting edge
criminal intelligence techniques is the foundation in reaching
the goal of reducing U.S. and coalition casualties due to
IEDs. Instilling a law enforcement perspective throughout
every echelon of the task force began with meeting with key
III Corps intent on defeating the IED criminal networks.
                                                                                  A USACIDC special agent in Southwest Asia.
Tasks established included: work jointly with the contractors to develop
and implement new and changing tactics and techniques; develop ways to
collect criminal information from an array of sources; analyze and refine criminal information into actionable criminal
intelligence for all commanders within the theater via immediate criminal alert notices and Bulletins to assist in the
education of Soldiers with boots on the ground and reduce the loss of life. An essential methodology is to evolve the
process into an efficient and effective combat multiplier, adaptive in nature, resulting in predictive analysis.

USACIDC special agents continued their emphasis on providing logistical security (LOGSEC) by focusing on the
integrity of the logistics pipeline associated with deployments/redeployments and contingency operations. Special
emphasis is given to prevention, detection and investigation of criminal acts committed by either terrorists or criminal
elements from within the factory, to use in the foxhole, for either reutilization or disposal. Designed to prevent supply
diversion, theft, destruction, product substitution, or the sabotage of supplies while in transit from force provider to
warfighter in a combat theater of operation, those LOGSEC efforts draw on the vigilance of every USACIDC military
and civilian member.


                                                                                                                         33
Department of Defense Inspector General
USACIDC is fully engaged and forward deployed in helping to establish firm procedures to reduce contract fraud in
the Iraq, Afghanistan and Kuwait theaters of operations with more than 80 ongoing criminal investigations to combat
major contract fraud. The USACIDC has fourfraud resident agencies in Iraq, Afghanistan and Kuwait, manned by
highly trained investigators of the Major Procurement Fraud Unit reinforced by special agents from every command
and specialty within the USACIDC. From this investigative effort, more than 20 military and civilian government
employees have been indicted on charges of contract fraud, with confirmed bribes of at least $15 million dollars. It is
believed that the contracts affected range in excess of $6 billion dollars.

In addition to criminal investigations, the USACIDC is contributing significantly to correcting systemic weaknesses
in contingency contracting operations. Working with the AAA, the USACIDC produced a comprehensive Crime
Prevention Survey detailing systemic weaknesses in Kuwait contracting operations. Additionally, the USACIDC has
briefed and continues to support the efforts of special commissions established by the Department of the Army and
the Department of Defense tasked to improve contracting program management processes.

Many of the contracting investigations that are ongoing are being conducted jointly with the FBI, DCIS and the Special
Inspector General for Iraq Reconstruction (SIGIR). The USACIDC is playing the lead role in this investigative effort,
providing the majority of the dedicated agent manpower. The combined efforts of all the investigative agencies provides
for the depth of resources and the international network required to complete these complicated investigations in a
timely manner. This International Contract Corruption Task Force works in conjunction with the Anti-Trust, Civil,
and Criminal Divisions of the U.S. Department of Justice, (DoJ) for prosecutions, indictments, civil recoupments
and restitutions.

The USACIDC is fully committed to cooperation with the DOD IG, DoJ, the AAA, the DCIS, FBI, SIGIR, the
Army Contracting Agency, the Joint Contracting Command-Iraq/Afghanistan, as well as Combatant and Component
Commanders.


                         U.S. Navy and Marine Corps


                                    Naval Audit Service

The Naval Audit Service (NAVAUDSVC) supports the Department of the Navy (DON) GWOT goals by auditing
selected policies, procedures, and activities to ensure they achieve the stated objectives and maximize efficiencies. The
Naval Inspector General publishes a DON Risk Assessment annually. The NAVAUDSVC includes in its audit plan
topics based on the risks and areas of vulnerability identified in the risk assessment with respect to GWOT.

The NAVAUDSVC has audited military interdepartmental purchase requests. The NAVAUDSVC is continuing a
series of audits on antiterrorism and force protection. The NAVAUDSVC is auditing intelligence-related contracting
and classified financial reporting.




34
                                                                                            Semiannual Report to Congress
                   Naval Criminal Investigative Service
The Naval Criminal Investigative Service (NCIS) actively supports the GWOT through a number of unique efforts.
Since January 2006, NCIS has operated a forensic laboratory in Camp Fallujah, Iraq (LPL-CF), processing nearly
50,000 individual items during this reporting period, resulting in more than 325
identifications of suspected insurgents and other persons of interest. At least 188
of those identifications resulted in criminal prosecution in the Central Criminal
Court of Iraq. The LPL-CF is on course to process 150,000 items this calendar
year. And at the request of United States Central Command (USCENTCOM),
NCIS conducted a forensic survey in Afghanistan to determine the level of
forensic support required there.

NCIS supports efforts aimed at detecting, deterring and disrupting terrorism
against DoN personnel and assets worldwide. The Combating Terrorism
Directorate brings a wide array of offensive and defensive capabilities to the
mission of combating terrorism. Offensively (counterterrorism), NCIS conducts
investigations and operations aimed at interdicting terrorist activities. Defensively
(antiterrorism), NCIS supports key DoN leaders with protective services and
performs vulnerability assessments of military installations and related facilities
to include ports, airfields, and exercise areas to which naval expeditionary forces
deploy. NCIS special agents search a house cave in Iraq (pictured right).

NCIS special agents, analytical and support personnel deployed around the globe to support counterterrorism efforts.
A brief overview of efforts listed as follows:

•   Thirty-five special agents supported the Multi-National Forces (MNF) Strategic Counterintelligence Directorate
    – Iraq by fulfilling operational and strategic counterintelligence requirements and providing counterintelligence
    support to the unified and special commands. Of these, one agent currently fills the operations chief and deputy
    director positions. Additionally, two NCIS agents deployed to support the MNF staff as the Chief of Interrogations
    Operations.
•   Forty-one special agents provided criminal investigative support for the Marine Expeditionary Forces – Iraq. Two
    additional special agents served as special counterintelligence officers on Marine Expeditionary Forces staff.
•   Twenty-eight special agents, eight intelligence analysts, and two mobilized United States Navy Reserve intelligence
    specialists supported the USMC Joint Prosecution and Exploitation Center –Iraq in conducting criminal
    investigations and analyzing evidence on non-US suspects for prosecution by the Central Criminal Court of
    Iraq.
•   Twelve special agents, including CI, polygraph examiners, and cyber forensics experts, fulfilled operational and
    strategic counterintelligence requirements and provided counterintelligence support to the unified and specified
    commands in Afghanistan. A NCIS special agent currently fills the operations chief billet.
•   Five NCIS polygraph examiners supported detention center interrogations, and other special missions to validate
    operational and strategic counterintelligence requirements for USCENTCOM and component commanders in
    Afghanistan.
•   Seven special agents, deployed to Guantanamo Bay, Cuba, conducted detainee interviews and prepared trial reports
    concerning the detainees’ involvement in war crimes within the USCENTCOM area of responsibility (AOR).
•   Seven agents deployed to Balad, Iraq; three supported the Task Force Counterintelligence Coordinating Authority
    and four provided cyber forensic expertise in support of special operations.
                                                                                                                    35
Department of Defense Inspector General
•    Eighteen special agents deployed to Iraq to provide CI/Human Intelligence (HUMINT) support; six agents
     provided support to the Naval Expeditionary Combatant Command, and twelve agents provided support to the
     Counter Insurgency Operations with Theater Internment Facility (TFI) at Camp Bucca.
•    Four special agents and one mobilized USNR intelligence officer provided manning for counterintelligence and
     force protection responsibilities within the area of responsibility of the NCIS resident agent in Kuwait.
•    Twelve special agents support the Criminal Investigations Task Force (CITF) investigating war crimes within the
     USCENTCOM AOR. This period, CITF contributed independent investigative findings regarding the ultimate
     disposition of detainees at Guantanamo Bay, Cuba; supported Department of Justice and Office of Military
     Commissions (OMC) prosecution with respect to indictments and trial of alleged terrorists; established a vehicle
     for prosecution of alleged terrorists via the Central Criminal Court of Iraq; developed unique web-based software
     for field investigators permitting worldwide access of investigative information to the DoD at large; cooperated
     closely with the Government of Afghanistan to evaluate detainees’ involvement in terrorism against the United
     States and Coalition Forces; and supported investigators on the battlefield.
•    Two agents deployed as Personal Security Advisors to the Commander, Joint Task Force – Horn of Africa (CJTF-
     HOA). These agents supervised a security team composed of a USMC military policeman and USN master-at-
     arms, oversaw fixed physical security measures and provided continuous coordination with non-U.S. security
     forces to ensure the CJTF-HOA’s safety while traveling outside of American control.
•    Twenty-two special agents and three mobilized USNR intelligence officers deployed to Djibouti to provide CI/
     HUMINT and force protection support to the Commander, Joint Task Force, Horn of Africa, as well as force
     protection and criminal investigative support for the Commanding Officer of Camp Lemonier.
•    Ten special agents provided investigative support aboard the following Navy combatants: USS Enterprise, USS
     Harry S. Truman, USS Dwight D. Eisenhower, USS Bataan, USS Bon Homme Richard, USS Kearsarge, USS
     Kitty Hawk, USS Blue Ridge, USS Chester Nimitz, USS Ronald Reagan, USS John C. Stennis, and USNS
     Comfort.

During this period, the NCIS Protective Operations Department provided personal security for nine foreign dignitaries
and Navy commanders, visiting through either the Defense Foreign Liaison Office or Navy Foreign Liaison Office.
And, in addition to maintaining personnel security details on DON high risk billets worldwide, it assisted USACIDC
                                                       on twelve protective service operations in support of the Office
                                                       of the Secretary of Defense and Joint Chiefs of Staff principals.
                                                       The NCIS Directorate of Intelligence, by monitoring classified
                                                       threat streams relating to terrorism, issued 409 threat assessments
                                                       directly to DoN deployed assets to assist in force protection
                                                       planning; 7 reports regarding locations where DoN assets have an
                                                       operational interest; and 271 daily threat summaries. And, with
                                                       an emphasis on HUMINT collection, a plan focusing on Navy
                                                       and national requirements, to include to the Maritime Domain
                                                       Awareness initiative, was implemented with five agents deployed
                                                       to NCIS field offices. During this period, the NCIS Cyber
                                                       Division – Iraq supported four separate major wrongful death cases
NCIS special agents in Afghanistan hills.              involving terabytes of media taken from suspects and witnesses,
                                          and conducted multiple forensic examinations pertaining to an unfounded
                                          wrongful death allegation. The division in Afghanistan continued to refine its
                                          closed forensics network for electronic media extraction and analysis.


36
                                                                                             Semiannual Report to Congress
                 Marine Corps Criminal Investigation Division

The United States Marine Corps-Criminal Investigation Division (USMC-CID) supports the Marine Corps garrison
and field commands in the GWOT. Through rapid deployments, USMC-CID responds to all investigative requests
and requirements not assumed by the NCIS and/or at the combat and garrison commander’s request. USMC-CID
provides investigative support, Sensitive Site Exploitation training to operating forces, and prosecutorial support to the
Joint Prosecution and Exploitation Centers (JPEC) throughout the Iraqi theater.

In Iraq, during this reporting period, the USMC-CID:

•   Deployed agents in support of JPEC.

•   Reviewed, prepared, and forwarded detainee packages and evidence for prosecution/release of current detainees in
    country.

•   Devised and conducted training to operating forces on preserving, gathering, and documenting evidence.

•   Prepared, forwarded, and executed high value target packages in conjunction with other agencies.

In addition to USMC-CID detachment operations in Iraq, agents also deployed as individual augmentees to sister
service units operating in Afghanistan in support of special operations. They also conducted protective service operations
worldwide in support of combatant commanders and high risk events.




USMC-CID agents conduct an investigation and visit with local kids in the International Zone.




                                                                                                                       37
Department of Defense Inspector General
                                                                 U.S. Air Force

                                                  Air Force Audit Agency

During the 6-month period ending September 30, 2007, the Air Force Audit Agency completed three audits directly
related to the Global War on Terror. The Air Force Audit Agency has seven ongoing and planned GWOT-related
audits conducted in the United States Central Command Air Forces (CENTAF) overseas area of responsibility (AOR).
In addition, the Air Force Audit Agency has four ongoing and planned GWOT-related audits, not conducted in the
AOR.

Completed GWOT Audits in the AOR
....................................................................................................................................................................................

Central Command Air Forces Deployed Locations Services Contract Management. During FY 2006, CENTAF
personnel administered approximately $78 million in service contracts for items such as leased vehicles, food services,
and custodial requirements at four major operating locations. The CENTAF Commander requested this review to
assess service contract management in a contingency environment. The audit disclosed Air Force personnel did not
effectively manage service contracts. Specifically, review of 10 CENTAF service contracts (totaling more than $32
million) showed CENTAF AOR personnel did not properly validate contract requirements for 5 contracts (contract
requirements at three of four locations exceeded requirements by $1.1 million annually) nor adequately monitor
contractor performance for 7 contracts valued at $27.4 million. Reducing contract requirements to reflect actual needs
will allow the Air Force to put $4.9 million to better use over the 6-year Future Years Defense Plan. Effective contractor
performance monitoring helps CENTAF AOR personnel verify the Air Force fully receives services purchased.

Central Command Air Forces Deployed Locations Ground Fuel Management. Ground fuel use in the CENTAF
AOR totaled 15.6 million gallons, valued at over $19.2 million, in FY 2005. For the first quarter of FY 2006,
ground fuel use totaled 6.7 million gallons, valued at $13.9 million. An audit disclosed that CENTAF personnel
generally established adequate physical controls over fuel pumps and properly recorded fuel disbursements. However,
they did not accurately account for fuel payments. Specifically, CENTAF officials had not established processes and
support necessary to validate fuel charges and subsequent payments. Further, CENTAF officials did not accurately
pay host-nation fuel charges or collect fuel charge reimbursements from coalition partners. Although auditors did not
identify any erroneous fuel payments, properly validating ground fuel billings and reconciling fuel charges to payments
prevents incorrect payments, accruing unknown liabilities, and over-obligating funds for fuel consumed. Seeking past
reimbursements and collecting future payments from coalition partners may yield savings of approximately $2.3
million over the 6-year Future Years Defense Plan.

Central Command Air Forces Deployed Locations Government-Wide Purchase Card Program. From October
2005 to April 2006, CENTAF personnel at Balad, Ali Al Salem, and Al Dhafra Air Bases (ABs) and Baghdad International
Airport (BIAP) made approximately 4,800 GPC purchases totaling over $11 million. Auditors concluded GPC
program management at deployed locations required improvement. CENTAF AOR personnel maintained support
for GPC transactions, established adequate separation of duties, and periodically reconciled bank statements to
purchase receipts. Further, our review did not disclose any instances of fraudulent cardholder activity. However, AOR
personnel did not properly record GPC-purchased assets on accountability records. Additionally, AOR cardholders

38
                                                                                                                                          Semiannual Report to Congress
purchased non-mission essential assets and did not always obtain required purchase approval. Proper GPC program
controls reduce the risk of undetected theft and loss, unexpected shortages of critical items, and unnecessary purchases
of items already on hand. Ineffective controls resulted in unrecorded, non-mission essential, or improperly approved
purchases valued at over $264,000.

Ongoing and Planned GWOT Audits in the AOR
....................................................................................................................................................................................

Central Command Air Forces Cryptographic and Secured Communication Equipment. This ongoing audit will
determine whether Air Force personnel effectively manage cryptographic and secured communication equipment in
the CENTAF AOR. Specifically, auditors will determine whether CENTAF AOR personnel properly account for and
                                                  control cryptographic and secured communication equipment.

                                                                              Central Command Air Forces Prepositioned Mobility Bags.
                                                                              This ongoing audit will determine whether Air Force personnel
                                                                              effectively manage the mobility bag program. Specifically, auditors
                                                                              will determine if CENTAF personnel properly account for and
                                                                              control mobility bag inventories, and effectively manage shelf life
                                                                              items. Further, the audit will determine whether Air Force personnel
                                                                              accurately computed requirements after prepositioning mobility
                                                                              bags in the CENTAF AOR. Audit work will also be performed
                                                                              at 22 locations outside the CENTAF AOR to determine whether
                                                                              installation logistics readiness personnel properly transferred
                                                                              accountability of mobility bags from installation records to
                                                                                  CENTAF records per Air Staff guidance.
AFAA auditors outside billeting tent at Al Udeid AB, Qatar.
                                                      Patient Movement Items. This ongoing audit will assess whether
                                                      medical officials properly manage the patient movement item
(PMI) program. Specifically, auditors will assess whether medical officials properly develop and maintain equipment
level requirements, account and track PMI, and perform required maintenance functions.

MQ-1 Predator Asset Accountability and Maintenance. This ongoing audit will determine whether Air Force
personnel effectively manage the MQ-1 Predator Unmanned Aerial System. Specifically, auditors will determine
whether Air Force personnel properly maintain program asset accountability, timely accomplish and accurately record
maintenance actions, and develop and maintain program unit type codes addressing current and projected mission
needs.

Central Command Air Forces Deployed Locations Aerial Port Operations. This planned audit was requested by
CENTAF officials. During the audit planning phase, auditors will determine whether the subject is appropriate for
audit within the CENTAF Area of Responsibility in the near future and, if so, to formulate audit objectives. The
auditors will discuss and examine the following management topics: efficiency and effectiveness of cargo movement,
personnel movement, safety of aerial port operations, and reimbursement of CENTAF intra-theater transportation
costs.




                                                                                                                                                                                39
Department of Defense Inspector General
Central Command Air Forces Deployed Locations Munitions Management. During the audit planning phase,
auditors will determine whether the subject is appropriate for audit within the CENTAF AOR in the near future and,
if so, to formulate audit objectives. The auditors will discuss and examine munitions accountability, serviceability,
storage and control; shelf-life management; and requirements forecasting.

Central Command Air Forces Deployed Locations War Reserve Materiel Management. This planned audit was
requested by the CENTAF Commander. During the audit planning phase, auditors will determine whether the
subject is appropriate for audit in the CENTAF AOR in the near future and, if so, to formulate audit objectives. The
auditors will discuss and examine asset authorizations, requirements, accountability, and maintenance.

Ongoing and Planned GWOT Audits Outside the AOR
....................................................................................................................................................................................

                                                                                 Air National Guard Emergency Response. This ongoing audit
                                                                                 will assess whether Air National Guard officials properly managed
                                                                                 selected aspects of emergency medical response programs.
                                                                                 Specifically, auditors will determine whether Air National
                                                                                 Guard officials: effectively prepared teams to transport medical
                                                                                 emergency equipment, supplies, and personnel to disaster sites;
                                                                                 sufficiently trained personnel to perform emergency medical
                                                                                 duties; adequately developed and implemented patient tracking
                                                                                 systems; and effectively maintained medical equipment and
                                                                                 supplies.

                                                       Readiness Training for Deployable Communications. This
AFAA team for Fourth AOR Rotation.     ongoing audit will determine whether the Air Force effectively managed crew
                                       position training and assignments for deployable network control centers.
Specifically, auditors will determine if communications squadron personnel received crew position training for network
control center deployments and assigned appropriate personnel to support network control center deployments.

Follow-up Audit, Weapons of Mass Destruction Emergency Responder Program. This ongoing audit will determine
the effectiveness of management actions in response to AFAA Report of Audit F2004-0008-FD3000, Weapons of
Mass Destruction Emergency Response Equipment, September 7, 2004. The audit will determine whether the Air
Force effectively implemented a WMD emergency responder program. Specifically, auditors will evaluate whether
Air Force officials established requirements for WMD response assets, equipped emergency responders with necessary
assets for personnel protections and mission accomplishment, accounted for emergency response assets, and trained
installation emergency responders to effectively respond to a WMD incident.


Selected Aspects of Deployment Management. This planned audit was requested by the Director of Logistics
Readiness (AF/A4R). During the audit planning phase, auditors will determine whether the subject is appropriate for
audit in the near future and, if so, to formulate audit objectives. The auditors will discuss and examine (a) deployment
processing policy, guidance, and standardization for both military and civilian deployments; and (b) installation
deployment officer roles, responsibilities, training, and tools.



40
                                                                                                                                          Semiannual Report to Congress
                     Air Force Office of Special Investigations

                                                         Air Force Office of Special Investigations (AFOSI) is a combat-
                                                         ready military organization that provides the Air Force a
                                                         wartime capability to conduct counter-threat operations in
                                                         hostile and uncertain environments to find, fix, track, and
                                                         neutralize enemy threats. It is the Air Force’s focal point for
                                                         working with U.S. and foreign nation law enforcement and
                                                         security services in order to provide timely and accurate threat
                                                         information in all environments. It also performs as a federal law
                                                         enforcement agency with responsibility for conducting criminal
                                                         investigations, counterintelligence and specialized investigative
                                                         activities, protective service operations, and integrated force
                                                         protection for the Air Force.

                                                        During this reporting period, AFOSI special agents deployed to
operations in Iraq and Afghanistan, and proactively worked with coalition forces and direct action units on human
source information to effect the capture or killing of 21 Al Qaeda and 69 Taliban fighters, as well as 168 other fighters
or insurgents. Of the 258, 18 were known leaders, with 13 of those officially classified as “High Value Individuals
(HVIs).” Their positions included death squad leaders; kidnappers; snipers; explosively formed projectile (EFP) and
improvised explosive device (IED) makers, emplacers, suppliers and financiers; indirect-fire shooters and spotters, and
assassination cell leaders.

In one event, AFOSI special agents, leveraging a well-placed human source, uncovered hundreds of gallons of chemicals
used to make home-made explosives from several storage locations in Iraq. The effects of the total amount of explosives
which could be derived from the seized chemicals were estimated to be 40,000 lbs. If used properly to maximize
explosive effects in a single device, the effects could
equate to four or more times the explosive impact of
the device used in the 1995 Oklahoma City Federal
Building bombing.

Also in support of GWOT, AFOSI is in the process of
creating a National Capital Region Fraud Unit that
will participate in the ICCTF and be the focal point
for all AFOSI’s counter-fraud efforts in Southwest
Asia.

And with agents assigned to the Criminal
Investigation Task Force (CITF), AFOSI agents
serve jointly with criminal investigators from the
NCIS and USACIDC to capture and bring to trial
non-US citizen terrorists that were affiliated with Al
Qaeda.
                                                                                                  AFOSI special agent in Iraq.


                                                                                                                           41
Department of Defense Inspector General
                 In Rememberance of Fallen AFOSI Agents




                     On November 1, 2007, three special agents of the U.S. Air Force Office of Special Investigations
                     (AFOSI) were killed in the line of duty when their vehicle was struck by an improvised explosive
                     device while near the Balad Air Base in Iraq.

                     Master Sgt. Thomas A. Crowell, 36, of Neosho, MO.; Staff Sgt. David A. Wieger, 28, of North
                     Huntingdon, PA.;and Nathan J. Schuldheiss, 27, of Newport, RI, were on a counterintelligence
                     operation when the attack occurred.

                    Special Agent Crowell was an active duty agent assigned as the superintendent of Detachment
                    301, Scott AFB, IL. He managed criminal and counterintelligence investigations at Air Mobility
Command’s showcase airlift wing. This support included coordinating with civilian law enforcement agencies
and conducting liaison meetings to resolve investigations and collect information affecting the security of USAF
resources.

Special Agent Wieger was a technical services agent at AFOSI Detachment 303, Travis AFB, CA. He served in that
position since September 2004 and was responsible for the technical surveillance countermeasures program supporting
all special access programs / special access required programs and all Air Force installations on the West Coast to
include Alaska and Hawaii.

Special Agent Schuldheiss was assigned to Detachment 204, Offutt
AFB, NE. He graduated from Gonzaga University in Spokane
Washington in 2002 with a degree in Political Science. He attended,
and was awarded his Juris Doctorate in 2005. He was hired by the
Air Force in September 2005 after earning a Juris Doctorate from
Roger Williams University School of Law in Bristol, RI.

In May 2007, Special Agent Schuldheiss volunteered and was
deployed to the AFOSI Expeditionary Detachment 2411, Balad,
Iraq, in support of Operation Iraqi Freedom. During this time,
Special Agent Schuldheiss was chosen as Civilian Special Agent of
the Quarter for July – September 2007.
                                                                                   Paying tribute to the fallen AFOSI agents.
42
                                                                                           Semiannual Report to Congress
Significant
Accomplishments
                        Joint Warfighting and Readiness

The challenge of Joint Warfighting and Readiness is to provide the right force, personnel, equipment, and supplies
in the right place at the right time, and in the right quantity, across the full range of military operations. This
challenge is compounded by the strain on resources as a result of Operation Iraqi Freedom (OIF) and Operation
Enduring Freedom (OEF). This challenge further encompasses the need for the Services and allies to be interoperable,
communicate with each other effectively, share data when necessary, and train together when possible. To meet
that challenge, the Department is transforming its logistics capabilities to support fully integrated, expeditionary
networked, decentralized, and adaptable forces. The Department is also transforming its infrastructure through base
realignment and closures to an efficient, cost-effective structure. In making recommendations for realignment and
closure, the Department gave priority consideration to military value, particularly mission capability and the impact
on operational readiness, joint warfighting, and training.

                                                              Audit

The GWOT section discusses joint warfighting and readiness audits pertaining to OIF and OEF. Other joint warfighting
and readiness related audits, such as logistics and Base Realignment and Closure, reports are discussed below.

                                                          The Defense Logistics Agency’s Warstopper Program provides funding
                                                          for the preservation of critical industrial capabilities for selected items.
                                                          Demand for these items was high in wartime but declined rapidly in
                                                          peacetime. The items included nerve agent antidote auto-injectors;
                                                          chemical protective overgarments and gloves; meals, ready-to-eat; tray
                                                          pack rations; combat boots including cold weather boots; and barrier
                                                          materials. The Warstopper Program generally has been successful
                                                          in providing a stable industrial base for selected Warstopper items
                                                          managed by the Defense Logistics Agency. The Warstopper Program
                                                          increased industry’s capacity to provide surge and sustainment of
                                                          selected Warstopper items, such as chemical gloves and meals ready
                                                          to eat. However, the Defense Logistics Agency included items in the
                                                               program that did not meet its criteria. As a result, the Defense
Chemical protective overgarments, a selected Warstopper
                                                               Logistics Agency may have used scarce Warstopper funds for
item managed by the Defense Logistics Agency.                  projects that should not have been included in the Warstopper
                                                               Program and may have overlooked higher priority projects.

In the DoD FY 2000 Logistics Strategic Plan, senior DoD logistics leaders agreed that DoD needed to develop a new
way to measure logistics response time that included the requisitions or transactions from maintenance organizations
that the local supply organizations filled. The new measurement, termed “customer wait time” would become a
key DoD performance metric. It measured “order-to-receipt time” for spare and repair parts that organization-level
maintenance organizations submit. DoD officials established business rules that defined goals for measuring customer
wait time, and reported customer wait time metrics from 2001 to 2005. Further, the customer wait time days reported

44
                                                                                                        Semiannual Report to Congress
to DoD by selected Army and Marine Corps units during the fourth quarter of FY 2005 were generally accurate.
However, the customer wait time metric did not allow DoD officials to effectively measure the link between customer
wait time and operational availability of equipment. Consequently, officials do not know how the customer wait time
for high priority items will affect operational readiness.

The Army requested and used emergency supplemental operations and maintenance funds in FY 2006 and similarly
requested and planned to use supplemental funds in FY 2007 to provide Rapid Fielding Initiative program items to
soldiers who did not and were not scheduled to deploy in support of contingency operations. As a result, the Program
Executive Office Soldier used about $221 million in emergency supplemental funds during FY 2006 to provide Rapid
Fielding Initiative items to about 125,000 soldiers who had not deployed and were not planned to deploy in support
of contingency operations. Additionally, Program Executive Office Soldier records as of October 2006 showed that
it planned to provide Rapid Fielding Initiative items to about 100,000 soldiers that were not planned to deploy
during the first 5 months of FY 2007. The cost of Rapid Fielding Initiative items was approximately $177 million in
emergency supplemental funds for FY 2007 that could have been put to better use.

The Army administration and oversight of 4,408 Aviation Into-plane Reimbursement Cards need to be improved.
Specifically, the Aviation Into-plane Reimbursement Card database contains inaccurate and unreliable Army ownership
information. In addition, at the unit level, the process for accounting for Aviation Into plane Reimbursement Cards,
verifying $171.4 million in Aviation Into-plane Reimbursement Card charges, and retaining Aviation Into-plane
Reimbursement Card receipts was inadequate. As a result, there is a higher risk of Aviation Into-plane Reimbursement
Card misuse and erroneous billings.

Implementing recommendations resulting from the 2005 Base Realignment and Closure (BRAC 2005) process will
be a challenge for the near future. In addition to improving the readiness and cost efficiency associated with realigning
base structure, a primary objective of BRAC 2005 was to examine and implement opportunities for greater joint
activity among the military departments.


Army Audit Agency
....................................................................................................................................................................................

The Army in Europe was returning many bases to Germany while simultaneously opening forward operating sites in
Eastern Europe. Assessing the environmental condition of installations is a key component of both actions. The Army
Audit Agency (AAA) audited environmental planning procedures used to support these actions and estimate liabilities
resulting from environmental damage. The Agency reported that existing policy did not allow the Army to fund
additional testing to sufficiently document environmental conditions and reduce potential third party claims. Also,
because DoD and DA environmental policies did not address testing at forward operating sites, no procedures were in
place for the Army in Europe to sufficiently document the environmental conditions at its new forward operating site
in Romania. The Army Audit Agency estimated that the Army could avoid about $36 million in future third party
claims by conducting sufficient testing in Romania. The Army did the testing and plans to issue revised guidance to
allow for additional testing after announcing base closures or opening forward operating sites.

As of May 30, 2006 the Army had 21,204 soldiers with the necessary occupational specialties (both enlisted military
occupational skills and officer area of concentration) related to detecting, handling, or dealing with the effects of
WMD. However, only about seven percent of the soldiers had either the skill identifiers or the additional skill
identifiers associated with the specialized aspects of the WMD elimination mission. About 22 percent of those soldiers

                                                                                                                                                                                45
Department of Defense Inspector General
worked outside their primary military occupational specialty and could be reassigned to staff mission requirements.
AAA also identified 10,731 civilians with skill levels that could augment this mission. Additionally, personnel who
had received long-term specialized WMD training from 20th Support Command could not be identified through the
Army’s personnel system. Further, specialized commercial off-the-shelf equipment essential for the WMD elimination
mission wasn’t documented in the modified table of organization and equipment for 20th Support Command and
subordinate units. By addressing these issues, the Army will be better prepared to assign personnel and resource
requirements for the WMD elimination mission.

The Army aligned functional responsibilities for force protection with appropriate organizations. However, responsibility
gaps existed at the Secretariat level, where the Army did not have designated responsibilities for Title 10 functions for
antiterrorism; chemical, biological, radiological, nuclear, and high-yield explosive installation preparedness; continuity
of operations; critical infrastructure risk management; computer network defense; and operations security. The Army
also did not have a lead Secretariat office to provide primary oversight for force protection.

The Army needed to clearly define in doctrine and regulations the tactical control responsibilities to deal with terrorist
events and natural disasters at its installations. It also needed to define the full scope of force protection and the
capabilities, functions, and programs that support it. Until it resolves these issues, the Army will be unable to
implement effective processes and organizational structures to manage force protection.

The Army did not align resources for 4 of the 13 programs and functions the Army Audit Agency reviewed, which could
affect implementation of the budget and performance integration called for in DoD Management Initiative Decisions
910 and 913. Also, installations sometimes used funds programmed for antiterrorism and installation preparedness
exercises to pay the salaries of security personnel and thus undermined their preparedness for a major terrorist event.
Service component commands should coordinate and program funds for full-scale emergency response exercises to
make sure they occur and include all appropriate activities. In addition, programming of resources for physical security
at installations was fragmented between U.S. Army Installation Management Command (IMCOM) and mission
activities under other commands. To better integrate security and use resources more effectively, IMCOM should be
responsible for programming physical security resources for Army-funded mission activities at its installations.

The Office of the Surgeon General took adequate actions to implement the recommendations. The office revised
Army Regulation 40-501 (Standards of Medical Fitness) to clarify the required flight physicals for contractor aircrews,
giving them the option to maintain a Federal Aviation Administration class 2 medical certificate or an Army class 2
flight duty medical examination. Contractor aircrews that opt for Federal Aviation Administration physicals must
submit a copy of their certificate and medical information to U.S. Army Aeromedical Activity for population-based
surveillance and risk mitigation. The revision also includes a checklist that identifies key management controls to
evaluate the proper handling and distribution of personal identification and medical information.

Although the Army was effectively performing analyses to prepare for future effects on ranges and training capabilities
and identifying and maintaining information for munitions expended and estimated dud rates, information in the
Army’s Range Facility Management Support System wasn’t reliable. As a result, the Army had no assurance it was
reporting accurate information for environment reports, assessments, and toxic release inventories. Also, two of the
three installations the Agency visited had stockpiles of range residue and munitions debris because of shortages in
personnel, funding, and effective guidance. Consequently, if range residue stockpiles continue to grow, the Army
may increase the risk of off-range migration of contaminants and the potential that regulators could view the scrap
stockpiles as unlicensed landfills.


46
                                                                                             Semiannual Report to Congress
Naval Audit Service
....................................................................................................................................................................................

The Department of the Navy (DoN) has established controls in the system for managing Base Realignment and
Closure Military Construction (BRACON) project development, cases still occurred where projects were not properly
scoped. The Naval Audit Service (NAVAUDSVC) audited 11 BRACON projects planned for submission in the FY
2008 Program Objectives Memorandum and determined that: eight projects had a valid need but were over scoped
by $53.2 million; one project had valid requirements and was properly scoped; one project had valid requirements but
was under scoped by $56,000; and one project was cancelled by Commander, Navy Installations Command (CNIC)
due to a decision not to relocate an aircraft squadron to China Lake. NAVAUDSVC recommended that CNIC reduce
the scope of seven projects by $45.8 million and the Commandant of the Marine Corps (CMC) reduce the scope of
one project by $7.4 million. CNIC and CMC agreed to adjust the scope of the audited projects and agreed with the
$53.2 million of potential monetary benefits.

Approximately $63.8 million in unobligated BRAC funds and $19.6 million in BRAC unliquidated obligations
(ULOs) that were not needed by the Budget Submitting Offices (BSOs) holding the funds. The BSOs returned
$36.2 million of unobligated funds to the Assistant Secretary of the Navy (Financial Management and Comptroller)
(ASN (FM&C)) and deobligated $10.4 million of BRAC ULOs. In addition, ASN (FM&C) agreed to direct the
BSOs to return remaining unneeded BRAC unobligated funds to ASN (FM&C) and deobligate remaining invalid
and unsubstantiated BRAC ULOs, recapture the funds, and return them to ASN (FM&C).

The USMC has developed and implemented an anti-terrorism (AT) program and risk assessment process in accordance
with the DoD and USMC AT Strategic Action Plan. However, dedicated and centralized funding for AT program
management (as part of a program of record) has not been established through the Program Objectives Memorandum
process; optimal AT/Mission Assurance management baseline staffing requirements at USMC installations had not
been established; a standardized risk assessment tool has not been established for use and been fully implemented at
most of the USMC installations visited; random antiterrorism measures were generally not in compliance with DoD
standards; the Marine Corps Critical Asset Management System guidance had not been provided to installations; and
Headquarters Marine Corps had not developed an effective system or tracking procedure to record the progress of the
installations in meeting the USMC AT Strategic Goals and Performance Objectives. Commandant of the Marine
Corps took and/or planned appropriate corrective actions on all recommendations.

The Marine Corps Second Destination Transportation billing dispute process had internal control weaknesses that
resulted in $8.68 million of unresolved disputes from FYs 2001-2005.

Air Force Audit Agency
....................................................................................................................................................................................

Air Force personnel did not always provide valid actual and projected obligations for inter-service and partnership
workloads reported in the 50/50 report for FYs 2006 through 2008. Specifically, Air Force personnel improperly
identified 3 of 21 inter-service programs as contract workload and incorrectly reported actual or projected obligations
for 6 additional programs, provided inaccurate depot maintenance data for 4 (17 percent) of 23 partnerships reviewed,
and did not prepare and maintain documentation supporting the contract depot maintenance amounts submitted for
5 (11 percent) of 44 percent inter-service and partnership programs reviewed. As a result, the Air Force overstated
contract depot maintenance (and understated organic) workload by $23.6 million in FY 2006 and $8,000 in FY 2008

                                                                                                                                                                                47
Department of Defense Inspector General
and understated contract depot maintenance (and overstated organic) workload $452,000 in FY 2007; overstated
organic depot maintenance workload (and understated contract) associated with partnerships by approximately $4.6
million for FY 2006, $1.7 million for FY 2007, and $1.9 million for FY 2008; and cannot adequately support and
defend reported contract depot maintenance workload if challenged on Air Force compliance with the legal limitation.
Further, auditors could not validate reported depot maintenance partnership amounts of $29.6 million for FY 2006,
$64.4 million for FY 2007, and $93.6 million for FY 2008. Without changes in procedures and better controls to
ensure accurate depot maintenance workload reporting, the Air Force risks misstating compliance with the statutory
limitation.

Although F-22 program officials established a sustainment strategy to provide adequate aircraft support, they could
improve the overall business approach for aircraft sustainment. Specifically, F-22 program officials did not fully implement
a logistics support contract that met DoD and Air Force performance-based logistics guidelines. Consequently, the
aircraft is not meeting user-defined intermediate performance goals that measure progress toward attaining system level
maturity. Additionally, F-22 program officials did not ensure the contractor spare parts requirements identification
process effectively incorporated reliability improvements and other factors to reduce overall costs. As a result, spare
part inventories were not systematically and predictably optimized. Successful implementing of performance-based
logistics approach is critical to controlling sustainment costs and improving F-22A readiness.

Air Force personnel did not maintain accurate inventory record balances in asset control systems for spare parts
undergoing repair at contractor facilities. Physical inventories at five contractor locations disclosed on-hand inventory
balances did not match the Air Force Government Furnished Material Transaction Reporting System recorded
balances for 110 of 137 stock numbers reviewed or the Secondary Item Repair System recorded balances for 87 of 137
stock numbers reviewed. Consequently, buy and repair requirements were misstated by $36.1 million. By reducing
overstated requirements, the Air Force can put $27.2 million to better use.

Although Military Working Dog (MWD) officials generally provided cost-effective program management, security
forces personnel did not obtain reimbursements from non-DoD agencies for personnel costs related to providing
MWD support. Implementing effective procedures to obtain reimbursement for personnel costs associated with
MWD teams should increase DoD reimbursement by $2.2 million over the 6 Year Future Years Defense Plan.

Air Force personnel did not effectively implement and use all available system functions, verify external program data
was accurate and current for program usage, and properly manage system equipment upgrades and accountability.
Specifically, wing officials at 8 of 15 locations did not implement the Theater Battle Management Core System -
Unit Level (TBMCS-UL) program, use all core system functions and associated equipment, or efficiently utilize
contracted personnel resources. As a result, TBMCS-UL program personnel had at least $4.3 million in equipment
that was either idle or utilized for other wing operations and, more than $2.6 million in underutilized contracted
personnel resources. Additionally, the TBMCS-UL OPS program did not always provide accurate and timely data
for operational awareness. At five of the six locations where officials had implemented TBMCS, building, mapping,
and operations data were inaccurate or did not include the most current operational data. Further, Air Force and
installation personnel inappropriately replaced/upgraded Information Technology equipment, and did not properly
establish TBMCS-UL equipment accountability. Program management initiated more than $7 million in equipment
replacement without validating current installation needs. Lastly, installation personnel did not properly account for
595 assigned equipment items valued at more than $3 million.




48
                                                                                               Semiannual Report to Congress
                                                    Investigations

                                                          The Defense Criminal Investigative Service (DCIS) works to ensure
                                                          that our warfighters have the equipment necessary to effectively
                                                          accomplish their mission by focusing significant resources on the theft,
                                                          diversion, and illegal transference of Defense technology and other
                                                          property through their DCIS Technology Protection Program. This
                                                          program currently oversees investigations involving the illegal diversion
                                                          of strategic technologies and U.S. Munitions List items, some of which
                                                          have been targeted by proscribed nations and terrorist organizations
                                                          that pose a threat to national security. The Department of Homeland
                                                          Security, FBI, and various members of the Intelligence Community
                                                          recognize DCIS as a significant partner in the on-going battle against
                                                          counter-proliferation and illicit technology transfer.
A DCIS investigation involved the
                                        The NCIS Law Enforcement Information Exchange (LInX) program, a state of
attempted purchase of night vision goggles.
                                        the art law enforcement information sharing system between federal, state, and
local law enforcement agencies, continued its nationwide expansion and now includes more than 400 local, county, state
and federal law enforcement agencies, in seven geographic regions around the United States. The information gathered
from millions of law enforcement records directly supports NCIS criminal, counterintelligence and counterterrorism
investigations. NCIS has begun to develop two additional LInX regions in North Carolina and Southern California.
Additionally, NCIS is leading the development of a DoD LInX, so that criminal investigative information can be
shared of between the DCIOs. This effort is expected to greatly facilitate DoD criminal investigative efforts related
to joint basing, joint military operations, and the DCIO’s move to Quantico under Base Realignment and Closure in
2010.

Following a joint undercover investigation by DCIS and Immigration and Customs Enforcement (ICE), six subjects
pled guilty to charges of conspiracy to violate the Arms Export Control Act and the International Traffic in Arms
Regulations, laundering of monetary instruments, and
conspiracy to provide material support to a foreign
terrorist organization. The investigation involved the
attempted purchase of night vision devices, holographic
sights, sniper rifles, sub-machine guns, stinger missiles,
grenade launchers for the Liberation Tamil Tigers Elam,
a known Sri Lankan Rebel/terrorist group. Thus far two
conspirators have been sentenced to a period of 1 year and
one day of incarceration. A total of $701,925 has been
recovered.

              FIM-92A Stinger Missile systems, which provide short-
              range air defense against low-altitude airborne targets,
              are an example of a Defense technology protection item.




                                                                                                                                49
Department of Defense Inspector General
                                                             Human Capital

Challenges for the DoD’s Human Capital area include making sure that the military and civilian workforce are
appropriately sized, well trained, and well supported operationally, and capable of supporting current and future
needs.
                                                                               Audit

Army Audit Agency
....................................................................................................................................................................................

The model U.S. Army Reserve Command (USARC) used initially to determine bonuses for specific military
occupational specialties did not adequately capture current force requirements and wasn’t consistently applied. As a
result, the model could not adequately tie bonuses to critical skill shortages and early deploying units. In August 2006
USARC implemented a new model that used the Army Force Generation process and personnel shortages as the basis
for offering bonuses. However, the Office of the DCS, G-1 and USARC did not fully document and disseminate the
results of decisions made regarding bonuses. USARC also did not have key internal controls in place and operating
for the overall management of the Selected Reserve Incentive Program. As a result, the bonus program was vulnerable
to waste and misuse. Additionally, the processes the Reserve used for obligating, budgeting, and paying bonuses
did not ensure appropriate use of resources and did not give adequate consideration to commitments made this year
for future anniversary payments. USARC followed DoD and Defense Financial Accounting Service guidance for
enlistment bonuses, and obligated and budgeted funds in the year it expected to make the payments. However, the
guidance conflicted with fiscal law. As a result, USARC and Congress did not have visibility over the true annual
cost of enlistment bonuses. USARC also did not have key internal controls in place for the bonus payment process.
Consequently, from October 2002 through June 2006, it may have made almost $5 million in initial payments to
soldiers who did not meet eligibility requirements. In addition, from October 2005 through May 2006, USARC paid
about $300,000 in anniversary payments to non-prior service soldiers who weren’t satisfactory participants. Command
could make similar payments totaling about $1.8 million over the Program Objective Memorandum years.

AAA validated whether the Army took sufficient actions to correct the material weakness related to the Reserve
Component mobilization accountability process. Since first reporting the material weakness during FY 03, the
Army automated the Department of the Army-level mobilization order-issuing process by developing and fielding
the Department of the Army Mobilization Processing System and integrating the individual Reserve Component
order-issuing systems with Department of the Army Mobilization Processing System to ensure the accountability of
all mobilized soldiers. The Deputy Chief of Staff, G-3/5/7 also established four performance criteria to measure its
progress in correcting the material weakness. AAA applied the criteria to test the accuracy and completeness of the
data transferred among the systems. AAA concluded that the Army met the intent of the criteria and took significant
actions to correct the material weakness.

At the request of Criminal Investigation Command, AAA audited the dependent eligibility processes for third country
nationals. CID asked AAA to audit military personnel systems to support a joint task force investigating DoD personnel
who fraudulently sponsored third country nationals for the purpose of committing financial and immigration crimes.
Third country nationals are individuals from countries the nation hosting U.S. Forces identifies as “visa-restricted.”

50
                                                                                                                                          Semiannual Report to Congress
AAA found weaknesses in internal controls that sponsors exploited to fraudulently enroll third county nationals in the
Defense Eligibility Enrollment System. These weaknesses allowed the third country nationals to gain access to DoD
benefits and entitlements, immigrate into Germany (where the audit was performed), and gain physical access to U.S.
military bases in Europe. DoD guidance for enrollment decisions wasn’t adequate to authenticate foreign documents
such as court adoption decrees or birth certificates. Based on AAA’s recommendations, the Under Secretary of Defense
(Personnel and Readiness) plans to establish Service wide guidance for authenticating foreign documents. The Army
also issued interim guidance prescribing minimal authentication requirements and strengthened controls for reviewing
enrollments.

Air Force Audit Agency
....................................................................................................................................................................................

The Air Force explosive site planning process was generally adequate; however, Air Force Safety Center, (AFSC)
personnel did not process site plans timely. Specifically, as of August 2006, AFSC personnel had not processed 1,689
(68 percent) of 2,486 base-level plans received over the past several years for approval. Further, for DoD Explosives
Safety Board-approved plans, AFSC averaged 631 days to complete the approval process. Errors or omissions in
site planning by units could potentially increase risk to life and property, increase the chance of adverse political
consequences should a mishap occur, and potentially disrupt missions. Further, without DoD Explosives Safety Board
approved site plans, the Air Force could be forced to delay the use of multi-million dollar facilities or could lose the
use of military construction funds if the funds expire.

Overall, the Air Force accurately prepared and adequately supported the government cost estimates and the cost data
for the utilities privatization economic analyses. With one minor exception, the Air Force calculated and supported
cost effectiveness analysis (CEA) model cost input in accordance with the Air Force Utilities Privatization Policy
and Guidance Manual. As a result of privatization, the Air Force should save about $6.5 million over the life of the
contracts for two of the three utility systems. By retaining the other system, the Air Force should avoid more than $17
million in additional costs that would be incurred under privatization.

Air Force officials did not eliminate halon fixed fire suppression systems in hush houses or minimize release of halon
into the atmosphere. Specifically, in 93 (78 percent) of 119 hush houses, fixed fire suppression systems were filled with
232,148 pounds of halon that should have been phased out. Additionally, 19 of these 93 hush houses, containing
36,500 pounds of halon, had no requirement for a fixed fire suppression system or had alternative fire protection
methods available. Further, the Air Force inadvertently discharged halon into the atmosphere 44 times (over 73,000
pounds) between 1995 and 2007. Proper fire bottle maintenance, fixed fire suppression systems upgrades, and
adequate personnel training could have prevented at least 30 of these discharges. Eliminating the 232,148 pounds
of halon from hush house fixed fire suppression systems and returning this ozone depleting substance to the Halon
Defense Reserve for mission critical use will reduce Air Force halon shortages and allow the Air Force to immediately
save over $3.6 million (and as much as $23.2 million). In addition, the Air Force risks future releases of halon into
the atmosphere resulting in serious environmental and human health effects.

Education Services personnel at the 10 locations reviewed did not effectively use the tuition assistance program to
meet current force development objectives. Specifically, Education Services personnel approved tuition assistance for
military degree plans and civilian courses unrelated to official duties, current jobs, or Air Force enduring competencies
and special needs. Eliminating tuition assistance payments for unrelated courses would provide over $144 million
that could be put to better use over the 6 Year Future Years Defense Plan. Proper program administration improves
overall Education Services Office operations, helps members achieve education and career progression goals, and
maximizes return on the Air Force’s $147 million annual tuition assistance investment.
                                                                                                                                                                                51
Department of Defense Inspector General
                                                    Policy and Oversight


Review of Wounded Warriors’ Initiatives
...................................................................................................................................................................................

                                                                                                   On September 12, 2007, the DoD/Veterans Affairs
                                                                                                   (VA) Inspectors General Interagency Care Transition
                                                                                                   team met with the DoD/VA Wounded, Ill and
                                                                                                   Injured Senior Oversight Committee (WII-SOC)
                                                                                                   Overarching Integrated Product Team (OIPT) to
                                                                                                   share information and coordinate actions in response
                                                                                                   to the “Implementation of Recommendations of
                                                                                                   the President’s Commission on Care for America’s
                                                                                                   Returning Wounded Warriors (Dole/Shalala
                                                                                                   Report).”

                                                                                              The interagency team is completing their Care
                                                                                              Transition project that evaluated post-deployment
                                                                                              health care and benefits issues for injuries and
DoD IG team working on the Interagency Care                                     illnesses resulting from duty in Operations Enduring Freedom
Transition Project.                                                             and Iraqi Freedom.

This meeting with the WII-SOC is one example of the constructive engagement process and how the IGs can facilitate
program improvements and positive change.


Improving the DoD Safety Program
...................................................................................................................................................................................

During this period, the DoD IG safety evaluation team briefed Office of the Secretary of Defense, Joint Staff,
Combatant Command (COCOM), and Services officials on the emerging results of the “Evaluation of the DoD
Safety Program.” On April 25, 2007, the team led a discussion on safety during the Defense Council on Integrity
and Efficiency quarterly meeting in conjunction with the Joint/COCOM IG Conference. Prior to this venue, the
team provided the keynote presentations for the European Command Tri-Service Safety Conference in Germany and
the Joint Services Safety Conference in Massachusetts. In September, the team briefed the Executive Secretary for
the Defense Safety Oversight Council (DSOC) and members of the Integration Group on the preliminary findings
and recommendations that are being considered for the team’s final report. Also in September, the team presented
the results and recommendations from their assessment on how safety and occupational health accountability is
portrayed in individual evaluation reports. These communications and discussions are essential to promote dialogue
and corporate “buy-in” on ideas to improve the DoD safety program.



52
                                                                                                                                          Semiannual Report to Congress
Information
Security & Privacy
                                                                                                          GIG provides interfaces to coalition,
                                                                                                          allied, and non-DoD users and sys-
                                                                                                          tems. While the entire Department
FEATURED ARTICLE



                                                                                                          plays a role in GIG protection, sev-
                                                                                                          eral Defense agencies maintain piv-
                                                                                                          otal roles in GIG protection and cy-
                                                                                                          ber security. These agencies include
                                                                                                          the Joint Task Force-Global Network
                                                                                                          Operations (JTF-GNO), the Na-
                                                                                                          tional Security Agency (NSA), the
                                                                                                          DoD Cyber Crime Center (DC3),
                                                                                                          the Defense Criminal Investigative
                                                                                                          Organizations (DCIOs), and the De-
                                                                                                          fense Information Systems Agency
                                                                                                          (DISA).

                                                                                                          JTF-GNO is U.S. Strategic Com-
                                                                                                          mand’s (USSTRATCOM) operation-
                                                                                                          al component supporting USSTRAT-
                                                                                                          COM in directing the operation and
                                                                                                          defense of the GIG to assure timely

                   Cyber Security                                                                         and secure net-centric capabilities
                                                                                                          across strategic, operational, and tac-
                                                                                                          tical boundaries in support of DoD’s
                   DCIS agents were involved in 43 investigations                                         full spectrum of warfighting, intelli-
                   involving computer intrusions or data theft                                            gence, and business missions.
                   incidents and issued 25 reports on matters that
                   were potential threats to the DoD GIG.                                                 The DoD Cyber Crime Center (DC3)
                                                                                                          is the DoD center of excellence for ef-
                   The Department of Defense (DoD)             mation on demand to warfighters,           ficiently organizing, equipping, train-
                   has maintained a longstanding in-           policy makers, and support person-         ing, and employing scarce resources
                   terest in the development and secu-         nel. The GIG includes all owned and        to more effectively address the pro-
                   rity of the Internet—from its initial       leased communications and comput-          liferation of computer crimes affect-
                   growth out of the Defense Advanced          ing systems and services, software (in-    ing the DoD. It is comprised of the
                   Research Projects Agency (DARPA)            cluding applications), data, security      Defense Computer Forensics Labora-
                   Network to the recent efforts in es-        services, and other associated services    tory (DCFL), Defense Cyber Investi-
                   tablishing the Air Force Cyber Com-         necessary to achieve information su-       gations Training Academy (DCITA),
                   mand. DoD is heavily dependent              periority. It also includes national       and the Defense Cyber Crime Insti-
                   upon the Internet as an enabler of          security systems as defined in section     tute (DCCI).
                   voice and data communications for           5142 of the Clinger-Cohen Act of
                   everything from acquisitions to bat-        1996. The GIG supports all DoD,            The DCFL mission is to provide digi-
                   tlespace management. The DoD in-            national security, and related intelli-    tal evidence processing, analysis, and
                   terface to the Internet is via its Global   gence community missions and func-         diagnostics for any DoD investiga-
                   Information Grid (GIG). The GIG             tions (strategic, operational, tactical,   tion that requires computer forensic
                   is the globally interconnected, end-        and business), in war and in peace.        support to detect, enhance, or recover
                   to-end set of information capabilities,     The GIG provides capabilities from         digital media, to include audio and
                   associated processes, and personnel         all operating locations (bases, posts,     video. This includes criminal, coun-
                   for collecting, processing, storing,        camps, stations, facilities, mobile        terintelligence, counterterrorism, and
                   disseminating and managing infor-           platforms, and deployed sites). The        fraud investigations of the DCIO’s

                   54
                                                                                                                    Semiannual Report to Congress
and DoD counterintelligence activi-       through the Council of Occupational computer crime agents also investi-
ties, safety investigations, Inspector    Education.                              gate computer intrusions, cyber data
General directed inquiries and com-                                               theft, and national security matters
mander inquiries. Over the past six       DCIOs and counterintelligence activ- impacting the security of the DoD’s
months, the DCFL team of digital          ities employ cyber crime investigators Global Information Grid (GIG).
forensics experts supported 132 cases,    and digital forensic analysts to inves- DCIS agents work closely with the
with a digital volume of 47.16 tera-      tigate cyber crimes and threats to the JTF-GNO, Service Computer Emer-
bytes of information in protection of     GIG. These organizations and activi- gency Response Teams, and informa-
the GIG and DoD mission.                  ties include the Defense Criminal In- tion assurance staffs of the combatant
                                          vestigative Service (DCIS), US Army commands and Defense agencies.
The DCCI is the research, develop-        Criminal Investigation Command
ment, testing and evaluation direc-       (USACIDC), US Naval Criminal In- DCIS agents were involved in 43 in-
torate of DC3. The institute’s work       vestigative Service (NCIS), and US vestigations involving computer in-
bridges law enforcement, academia,        Air Force Office of Special Investiga- trusions or data theft incidents and
industry, intelligence and the forensic   tions (AFOSI)), and the U.S. Marine issued 25 reports on matters that were
communities. DCCI develops and            Corps-Criminal Investigation Divi- potential threats to the DoD GIG.
conducts test and validation of soft-     sion (USMC-CID).                        Eleven (11) long term projects were
ware and hardware for digital forensic                                            ongoing to further protect the GIG
applications, a process necessary for     Increasing and rapidly emerging and proactively identify incidents
reliable, valid and repeatable results,   asymmetric threats in the form of of computer fraud. DCIS worked
while also researching and developing     cyber intrusions and malicious net- closely with other federal law en-
new tools.                                work activities, underscored the need forcement organizations to collabora-
                                          for a highly skilled and agile cadre tively share and exploit data related to
The DCITA provides computer in-           of digital detectives. The USACIDC the trafficking in child pornography.
vestigation training to forensic exam-    Computer Crime Investigative Unit Forty-eight (48) child pornography
iners, investigators, system adminis-     (CCIU) conducts investigations and investigations were ongoing during
trators, or any other DoD members         proactive vulnerability assessments this period.
who must ensure Defense informa-          that protect the Army’s LandWarNet.
tion systems are secure from unau-        CCIU consists of special agents, The Defense Information Systems
thorized use, criminal and fraudulent     professional staff, and contractors Agency (DISA) is a DoD combat
activities, and foreign intelligence      partnering with the Army’s Chief In- support agency that delivers informa-
service exploitation. The DCITA has       formation Officer/G-6, Army Com- tion technology to enhance the capa-
delivered more than 7,800 units of        puter Emergency Response Team bilities of the nation’s warfighters and
training for digital forensic examin-     (ACERT), JTF-GNO, and other law all who support them in defense of
ers, cyber crime investigators and in-    enforcement and counterintelligence the nation. DISA operates under the
cident responders. Since initiating its   organizations.                          direction of the assistant secretary of
certification program in June 2006,                                               defense for networks and informa-
DCITA has certified more than 350         DCIS computer crime agents are tion integration [ASD(NII)]. With
Basic Digital Media Collectors, Basic     trained and certified to seize and a workforce of approximately 1,900
Digital Forensic Examiners and Com-       search digital media in support of active duty military personnel and
puter Crime Investigators. DCITA          criminal and administrative investi- 5,000 civilians, located in the Na-
instructs 21 courses across five spe-     gations. In support of over 60 inves- tional Capital Region and in 29 field
cialty tracks: technology, responders,    tigations, DCIS’ 38 computer crime offices around the world, DISA aims
intrusions, forensics, and network in-    personnel created forensic images of to provide sufficient and efficient
vestigations. Several DCITA courses       approximately 17 terabytes of data voice, video, data, and computing ca-
are approved for undergraduate credit     and analyzed over 7 terabytes of mate- pabilities to meet the requirements of
by the American Council on Educa-         rial supporting a wide range of DCIS its “customers.”
tion, and DCITA is currently in the       case types. In addition to providing
process of professional accreditation     expert digital forensic services, DCIS

                                                                                                                      55
Department of Defense Inspector General
Joint Task Force-Global Network Operations Center




                                                    The DoD has long been instrumen-         The individual military services be-      – Computer Network Operations
                                                    tal in promoting cyber security both     gan to form computer response capa-       (JTF-CNO) under the command of
                                                    within and outside the Department.       bilities beginning with the activation    U.S. Space Command (USSPACE-
                                                    DoD supported the creation of the        of Air Force Information Warfare          COM). Although this gave the JTF-
                                                    Computer Emergency Response              Center in 1993. The other military        CNO more authority, it still did not
                                                    Team Coordination Center (CERT/          Services followed shortly thereafter:     exercise direct control over the indi-
                                                    CC) in 1988 after the outbreak of        the Army CERT (ACERT), the Navy           vidual Service components. Finally,
                                                    the first Internet worm (The Morris      Computer Incident Response Team           in 2005, the JTF-CNO (renamed
                                                    Worm). The CERT Program is part          (NAVCIRT), and the Marine CERT            the JTF Global Network Operations
                                                    of the Software Engineering Institute    (MARCERT). The DoD CERT be-               [JTF-GNO]) combined with DISA’s
                                                    (SEI), a federally funded research and   came operational in 1997 under the        Global Network Operations Security
                                                    development center at Carnegie Mel-      control of DISA. Even though DISA         Center (GNOSC) and DoD CERT,
                                                    lon University in Pittsburgh, Pennsyl-   was tasked to protect DoD networks,       and was placed under the direct com-
                                                    vania. Following the Morris worm in-     it had no directive authority over the    mand authority of USSTRATCOM
                                                    cident, which brought 10 percent of      Service components and virtually no       where it was assigned the mission to
                                                    Internet systems to a halt in Novem-     authority to enforce recommended de-      “Operate and Defend the Global In-
                                                    ber 1988, DARPA charged the SEI          fensive measures. To fill this gap, the   formation Grid.”
                                                    with setting up a center to coordinate   Joint Task Force – Computer Network
                                                    communication among experts dur-         Defense (JTF-CND) was formed in           USSTRATCOM has overall respon-
                                                    ing security emergencies and to help     1998 to provide intelligence, law en-     sibility for network defense and op-
                                                    prevent future incidents. This center    forcement and other support func-         erations of the GIG. The Service
                                                    was named the CERT Coordination          tions to the DoD CERT. In 2002,           components have day to day opera-
                                                    Center.                                  JTF-CND became Joint Task Force           tional and defense responsibilities for

                                                    56
                                                                                                                                                 Semiannual Report to Congress
their respective portions of the GIG.     efforts throughout the DoD. Over        framework within which the Com-
Previously, identified as CERTS, the      the past six months, ECV visits have    mander USSTRATCOM, regional
Service components are now identi-        shown an upward trend in compli-        commanders, service chiefs, base/
fied as Network Operations and Se-        ance and leadership engagement in       post/camp/station/vessel command-
curity Centers (NOSC). USSTRAT-           response actions across all combatant   ers, or agency directors can increase
COM currently exercises Operational       commands, services, and agencies.       the measurable readiness of their net-
Control (OPCON) over the Service                                                  works to match operational priorities.
NOSCs through the JTF-GNO. In             Despite DISA’s attempts at compli-      The readiness strategy provides the
response to network events or activi-     ance, the Department continues to       ability to continuously maintain and
ties, as determined by USSTRAT-           be challenged by the need to provide    sustain one’s own information sys-
COM or JTF-GNO, Service Chiefs            a robust information security and       tems and networks throughout their
or Secretaries shall instantaneously      privacy program for its data, systems,  schedule of deployments, exercises
attach Service NOSCs to JTF-GNO           operations, and initiatives. The DoD    and operational readiness life cycle
who will exercise Tactical Control        has not adopted National Institute of   independent of network attacks or
(TACON) upon contact with the             Standards and Technology (NIST)         threats. The system provides a frame-
Service NOSC. In this context,            standards or NIST guidelines estab-     work of prescribed actions and cycles
TACON includes the authority for          lished in Special Publications. It has, necessary for reestablishing the confi-
JTF-GNO to direct defensive actions       however, established a cooperative      dence level and security of informa-
across the GIG.                           relationship working with NIST and      tion systems for the commander and
                                          the Director of National Intelligence   thereby supporting the entire GIG.
DISA Initiative - Compliance              to establish, in the near future, a com-The INFOCON system, including
Validation                                mon set of information security con-    responsibilities, processes, and pro-
____________________________              trols, risk management framework,       cedures, applies to NIPRNET and
Using DISA Field Security Opera-          and security certification and ac-      SIPRNET systems under the pur-
tions (FSO) inspection teams, En-         creditation process that can meet the   view of the Joint Chiefs of Staff and
hanced Compliance Validation              needs of federal agencies managing      all DoD activities within the unified
(ECV) site visits assess the effective-   and operating both national security    commands, military services, and
ness of security controls at enclaves     and non-national security systems.      DoD agencies. The DoD has been
throughout the GIG to ensure that         The DoD does not yet have a com-        successful in using the new INFO-
these controls meet minimum DoD           prehensive, enterprise-wide invento-    CON system for just over a year.
requirements. The reports generated       ry of information systems, to include   During this time, DoD has gained
by these visits provide the site lead-    warfighting mission area systems and    sufficient knowledge from both real-
ership with information concern-          those containing DoD information        world and exercise experiences in us-
ing the security posture of systems,      operated by contractors. Lack of        ing the INFOCON process. DoD
network infrastructure(s), policies,      progress in meeting these challenges    is now in the process of revising the
procedures, and traditional security      severely hampers the ability of the     specified tasks and response options
components reviewed. Results of           DoD to protect operational informa-     to adjust and ultimately improve the
the ECV are also made available to        tion for the warfighter and privacy     INFOCON system.
the Secret Internet Protocol Router       data for all employees, as well as per-
Network (SIPRNET) Connection              form basic fiduciary responsibilities Law Enforcement &
Approval Office, Non-classified In-       and oversight for DoD information Counterintelligence
ternet Protocol Router Network            technology expenditures.                 ____________________________
(NIPRNET) Connection Approval                                                      The JTF-GNO Law Enforcement
Office, and JTF-GNO. Recommen-            JTF-GNO Initiatives – INFOCON Counter Intelligence Center (LE-
dations for correcting vulnerabilities    ____________________________ CIC), in defense of the GIG, obtains
and timelines for this mitigation are     Modeled from the well known De- information related to cyber crime
tracked to resolution with lessons-       fense Condition (DEFCON) sys- cases from AFOSI, Army MI, DCIS,
learned captured and disseminated         tem, the Information Condition NCIS, USACIDC, and other com-
widely to improve self-assessment         (INFOCON) system provides a puter crime investigative agencies.

                                                                                                                      57
Department of Defense Inspector General
These investigations are initiated in          over 540 man-hours were required to (A)(5)(A)(III) and 2). The man was
response to intrusions and incidents           repair the damage and inspect all 65 furthermore sentenced to five years
occurring across the DoD GIG. JTF-             computers at the Naples site.          confinement in Federal prison with
GNO and the DCIOs have been suc-                                                      three years supervised release, which
cessful in gaining attribution, neu-           Italian Hacker Group                   will run concurrent with the first sen-
tralizing, and/or mitigating hacking           ____________________________ tence (18 USC §§ 1029 (A)(3) and
activities and associated members of           An Italian court sentenced four adults 2). The man will forfeit the sum of
hacker groups. Below are some recent           and two minors (Subjects) who, in $53,207, proceeds he obtained as
cyber crime successes worked among             March 2001 and July 2006, compro- a result of unauthorized access and
the DCIO community.                            mised the Australian Government’s damage to U.S. Army systems located
                                               Defense Department’s website and at Fort Monroe, Virginia.
Cleared Defense Contractor                     approximately 700 other websites
____________________________ including the U.S. Pentagon and Northwest Hospital
A cleared defense contractor (CDC) NASA. The adult subjects each re- ____________________________
under a DoD contract to provide ceived a 17-month jail sentence from On August 25, 2006 a Vacaville,
computer maintenance for the Navy’s a court in Ravenna. The two minor California man was convicted on two
6th Fleet, based in Naples, Italy ad- subjects’ trial in Bologna is pending felony counts and sentenced to 37
mitted to investigators to program- final adjudication.                               months in prison and ordered to pay
ming malicious software codes (Mal-                                                   restitution in the amount of $252,000
ware) into DoD computers that track Fort Monroe                                       to the Northwest Hospital in Seattle
Navy submarines in May 2006 while ____________________________ and the Department of Defense. The
in Naples. The contractor stated to On October 16, 2006, the U.S. man along with two unnamed co-
Navy investigators he was upset that District Court, District of Kansas, conspirators remotely compromised
his company’s bid on a potential con- Wichita, Kansas sentenced a man computers on the Internet, includ-
tract was not awarded. The contractor to one year confinement in Federal ing computers at Northwest Hos-
was sentenced on Wednesday, April 4, prison with one year supervised re- pital in Seattle, WA and over 400
2007, to one year in prison, a fine of lease for the offenses of unauthor- Defense Department computers, by
$10,000, and three years of probation ized access and damage to a Govern- installing a malicious Internet Relay
upon his release. It was estimated that ment computer (18 USC §§ 1030 Chat (IRC) client program and cre-
                                                                                      ating and operating IRC robots or
                                                                                      “bots” that responded autonomously
                                                                                      to commands sent to it by the IRC
                                                                                      server. Botnets were utilized by the
                                                                                      subject to illegally install Adware on
                                                                                      compromised computers without the
                                                                                      consent or knowledge of the comput-
                                                                                      ers’ owners. The subject and the two
                                                                                      unnamed co-conspirators utilized
                                                                                      affiliate marketing to fraudulently
                                                                                      obtain commission payments from
                                                                                      Adware companies totaling approxi-
                                                                                      mately $100,000. The Botnet created
                                                                                      by the subject infected the computer
                                                                                      network at Northwest Hospital and
                                                                                      the increased scanning traffic inter-
                                                                                      rupted normal hospital communica-
                                                                                      tions. Due to the increased scanning
A DCIS special agent working a computer crime investigation.                          traffic, the doors to the hospital op-
                                                                                      erating rooms did not open, pagers

58
                                                                                               Semiannual Report to Congress
did not work, and computers in the     ly, DoD components did not comply          central registration repository for all
intensive care unit shut down.         with the requirements of the E-Gov-        Web sites, and issue instructions for
                                       ernment Act of 2002 Privacy Impact         implementing the single sign on au-
Botnets                                Assessment program, with the result        thentication process.
____________________________ that security risks associated with the
On May 8, 2006 a California man protection of personal information                Using signal detection devices over
was convicted on four felony counts may not be evaluated, leaving the in-         a limited area, AAA identified more
and was sentenced to 57 months in formation vulnerable to compromise              than 240 wireless devices and 2 wire-
prison and ordered to pay restitution or misuse.                                  less networks connected to the GIG
in the amount of $15,000 for dam-                                                 without the necessary security pre-
age caused to the China Lake Naval Army Audit Agency                              cautions or approvals. AAA also
Air facility and DISA. The subject ____________________________                   found that some activities were using
engaged in illegal activity involving Protecting the LandWarNet, which is         cordless telephones that did not meet
computers, including production of the Army’s portion of the GIG, is a            minimum security requirements. The
malicious code, spread of the code high priority for the Army. The Army           individuals responsible for establish-
through a network of botnets, and Chief Information Officer (CIO)/G-              ing, maintaining, or monitoring the
sale of access to the infected comput- 6 established a strategic goal to “pro-    devices were generally unaware of the
ers for the purpose of launching de- tect and defend the Army’s systems,          security requirements and therefore
nial of service attacks and generating networks, and information” that spe-       did not properly secure the devices
income through surreptitious instal- cifically addresses information assur-       before beginning operations. The ac-
lation of adware.                      ance and security issues. That goal        tivities generally agreed to disable or
                                       is incorporated into the Army CIO/         remove the wireless devices from ac-
DoD IG Audit                           G-6 campaign plan and its 500-day          cess to the GIG.
________________________ plan that focuses on completing near-
USTRANSCOM did not accurately term specified and implied missions.                Naval Audit Service
report the security status of the In- AAA has developed an audit strategy         ____________________________
tegrated Computerized Deployment that provides balanced audit support             The Naval Audit Service found 1,700
System in response to the annual across the spectrum of the CIO/G 6’s             improperly disposed of documents
Congressional and Office of Manage- strategic goals. In accomplishing that        containing Protected Personal Infor-
ment and Budget (OMB) reporting mission, AAA maintains a continu-                 mation (PPI), including 7,900 Social
requirements of the Federal Informa- ous presence in the information as-          Security numbers, as well as medical
tion Security Management Act. Cor- surance area.                                  records, traffic tickets and other po-
recting the security weaknesses found                                             lice records, travel documents, and
by the auditors should help reduce        Based on FY 2005 data, about 1,800 personnel rosters. Since the Naval
vulnerabilities and security risks to     of the 4,500 Army Web sites (40 per- Audit Service identified PPI material
the data stored in the system and pro-    cent) were operating outside of the at every facility visited, the Naval Au-
vide more accurate FISMA reporting        Army’s two primary portals: Army dit Service concluded that improper
by the DoD.                               Knowledge Online and the U.S. disposal of PPI material is a systemic
                                          Army Home Page. In addition to condition that may exist at other De-
DoD components did not consistent-        limiting progress toward network- partment of the Navy locations.
ly implement Privacy Program policy       centric operations and reducing the
for reporting, collecting, safeguard-     total cost of ownership, the noncom- Air Force Audit Agency
ing, maintaining, using, and dissemi-     pliant Web sites made the Army net- ____________________________
nating personal information, with         work more susceptible to unauthor- Air Force personnel properly account-
the result that personal information      ized access because they bypassed the ed for Secret Internet Protocol Router
contained in DoD information sys-         single sign on authentication process. Network (SIPRNet) computer equip-
tems could be vulnerable to access by     The Army agreed to take action on ment processing classified data be-
unauthorized personnel, and/or for        recommendations to consolidate cause of the risk associated with loss
unauthorized purposes. Additional-        oversight responsibilities, establish a of control that, in turn, could com-

                                                                                                                      59
Department of Defense Inspector General
promise classified data and seriously     networks storing or pro-
damage national security. Air Force       cessing sensitive unclassi-
personnel properly accounted for lo-      fied defense data.
cally purchased SIPRNet computers;
however, centrally procured SIPRNet       Under the auspices of the
computer equipment processing clas-       CIPAC, DoD is working
sified data lacked sufficient account-    with industry to develop
ability controls. Specifically, at 4 of   a new framework for DIB
the 5 major commands reviewed,            network protection, inci-
200 (35 percent) of 573 centrally         dent reporting, and data
procured desktop and laptop com-          loss damage assessments.
puters were not recorded in Asset In-     The DoD IG, along with
ventory Management module of the          the DC3 and DCIOs, has
Air Force Equipment Management            been working closely with
System. Consequently, the Air Force       the DoD acquisition and
had no visibility over SIPRNet com-       information    technology
puters valued at $393,954 containing      communities to address
highly sensitive information. Proper      this problem.
accountability in the Asset Inven-
tory Management module establishes        The Office of the Secre-
responsibility for equipment and          tary of Defense is expect-
provides management visibility over       ed to implement changes
equipment on hand and in use to bet-      through the Defense sup-
ter manage acquisition decisions and      plement to the Federal
                                                                          DCIS investigates high tech
ensure accurate financial reporting.      Acquisition Regulation to
                                                                          crime, including computer
                                          bolster network security,
                                                                          intrusions, unauthorized
Critical Infrastructure Partnership       require incident reporting,
                                                                          access, and data theft. DCIS
Advisory Council (CIPAC) –                and increase the availability
                                                                          has 38 agents and analysts
Defense Industrial Base (DIB)             of network threat data to
                                                                          trained and qualified to seize
____________________________              members of the DIB.
                                                                          and search digital data.
In addition to protecting the GIG
and investigating intrusions targeting    The Way Forward
                                                                                  importance of protecting DIB infor-
the DoD, DCIS has worked closely          _____________________
                                                                                  mation systems and networks cannot
with the Federal Bureau of Investiga-     Since the Department’s reliance on
                                                                                  be understated. As the Department
tion and the Defense Industrial Base      computer networks continues to
                                                                                  takes action to close the policy gap
(DIB) to investigate intrusions into      grow. The availability and integrity
                                                                                  surrounding DIB incident report-
their networks when there is an as-       of these networks is paramount for
                                                                                  ing, the DCIOs have already begun
sociated loss of defense information.     the Department to operate efficiently
                                                                                  to feel the stretch of thin cyber crime
                                          and with lethal accuracy.
                                                                                  resources now required to address a
Attention to this problem has been
                                                                                  broader range of incident response.
growing since 2004. In early 2007         GIG protection, however, is not
DoD began work in earnest to bridge       enough. The DoD relies on the DIB
                                                                                  Should the Department fully embrace
the policy gap surrounding require-       to develop and produce those ma-
                                                                                  the need to better secure the DIB, an
ments to report computer intrusions       chines with which the Department
                                                                                  increase in cyber incident responders
among the DIB. In short, no broad         goes to war, provide healthcare for
                                                                                  is long overdue.
policy exists for the DIB to report       its service members and dependents,
computer intrusions into their un-        and perform important support func-
classified networks—including those       tions in combat zones. The growing


60
                                                                                            Semiannual Report to Congress
Financial
Management
                                                                                                      DoD IG Role in the FIAR Plan
                                                                                                      _________________________
                                                                                                      The DoD IG has been and will
FEATURED ARTICLE




                                                                                                      continue to be an advisor to the
                                                                                                      FIAR process. In this capacity,
                                                                                                      the DoD IG highlights areas of
                                                                                                      concern and provides realistic
                                                                                                      timeframes for audits. By com-
                                                                                                      municating audit results, the
                                                                                                      DoD IG assists DoD components
                                                                                                      in identifying control weaknesses
                                                                                                      that need to be addressed in the
                                                                                                      components validation process.
                                                                                                      Additionally, the DoD IG pro-
                                                                                                      vides advice and guidance about
                                                                                                      system requirements to financial
                                                                                                      statement audit teams and works
                                                                                                      with those teams in performing
                                                                                                      the systems portion of the au-
                                                                                                      dits. The DoD IG also conducts
                                                                                                      a variety of other financial audit

                   Financial Management                                                               services in addition to financial
                                                                                                 statements and financial system au-
                                                                                                 dits. Through those audits, DoD IG
                    Financial Management challenges affect DoD’s                                 auditors identify material issues that
                    ability to provide reliable, timely, and useful                              impact the quality of the Depart-
                    financial data needed to support operating,                                  ment’s financial reporting process
                    budgeting, and policy decisions.                                             and its ability to record and report re-
                                                                                                 liable, accurate, and timely financial
                   The Department continues to strug- cal activities for improving internal information.
                   gle with its ability to provide reli- controls, resolving auditor identified
                   able, timely, and useful financial and weaknesses, optimizing fiscal steward- The Way Forward
                   managerial data to support operat- ship, and achieving audit readiness. ____________________________
                   ing, budgeting, and policy decisions. Milestones for resolving problems While the Department continues
                   Some of the problems hindering the and achieving success are established to be challenged by the complexity,
                   Department’s efforts, such as im- and monitored so that decision mak- number, and internal control weak-
                   proper payments, and retention of ers can explore a broader range of op- nesses of its financial systems, partic-
                   appropriate accounting and disburs- tions with greater confidence.            ularly amidst conducting Operation
                   ing records, impact critical mission                                          Iraqi Freedom (OIF) and Operation
                   support to Operations Iraqi and En- The DoD Comptroller’s Office es- Enduring Freedom (OEF), initia-
                   during Freedom.                        tablished business rules that focus tives such as the FIAR plan and the
                                                          efforts on improving the underlying Comptroller’s business rules focus the
                   In December 2005, the Department financial management of the finan- efforts of the Department to reach a
                   published the initial version of its cial statements. These business rules common goal. The DoD IG is en-
                   Financial Improvement and Audit were revised in the June 2007 update couraged that the Comptroller con-
                   Readiness (FIAR) Plan with the in- to the FIAR plan to include a sixth tinues to consider new approaches to
                   tent to incrementally address some of phase in the process. The six-phased assist in the achievement of auditable
                   its long-standing and pervasive prob- approach is outlined in the chart on financial statements. The new focus
                   lems. The FIAR Plan identifies criti- the next page.                          on overall audit readiness rather than

                   62
                                                                                                             Semiannual Report to Congress
                                      The Six-Phased Approach

 Discovery &            Segment               Audit Readiness       Audit Readiness        Financial          Financial
 Correction             Assertion             and Validation        Sustainment            Statement          Statement
                                                                                           Assertion          Audit

Management              Management           OIG or an IPA         Annual verification    Management          OIG and IPA
evaluates individual    asserts audit        firm validates        of segments using      asserts financial   firms audits the
financial segments,     readiness to         management’s          OMB A-123,             statement audit     organizations
identifies weaknesses   OIG and OUSD(C)      assertion using       Appendix A,            readiness to        financial statements.
and deficiencies,       using an assertion   an examination        as guidance.           OIG and
and implements          package.             Engagement.                                  OUSD(C)
corrective actions.                                                                       for concurrence.


concentrating efforts on audits of           ed. Based on additional audit work          • The audit trail within the Business
specific line items is a step in the right   since November, auditors identified         Enterprise Information System allows
direction. The new business rules in-        a departure from generally accepted         general ledger entries to be traced to
troduce more rigor and increased in-         accounting principles and scope limi-       the source transactions. In addition,
dependence into DoD management’s             tations related to supporting docu-         source transactions that pass the fil-
validation process to better ensure          mentation for Property, Plant and           ter tables can be traced to the general
that financial statements are ready for      Equipment sample items that caused          ledger accounts. However, internal
audit. The DoD IG continues its role         uncertainty with the Property, Plant        control weaknesses in the System pre-
as the auditor and overseer of financial     and Equipment beginning balance.            vent auditors and accountants from
statement audits for the Department          Until those issues are resolved to the      determining whether all transactions
and stands ready to assist the Depart-       auditor’s satisfaction, the current dis-    were correctly processed by the Sys-
ment in fulfilling its responsibility to     claimer will not be changed. USACE          tem which precluded auditors from
provide accurate fiscal accountability       is making progress by working to fix        confirming the Army General Fund
and to sustain accurate financial re-        the majority of the Property, Plant         general ledger balances. Internal con-
porting.                                     and Equipment beginning balances            trols could be improved by maintain-
                                             by September 30, 2007, and Office           ing a centralized log that matches all
Completed Audit Work                         of the Under Secretary of Defense           corrections of filtered transactions to
____________________________                 (Comptroller) is tracking the prog-         their original transactions, reconciling
The DoD IG completed audits of fi-           ress through weekly updates from            the information in the Filter Criteria
nancial statements, financial systems,       USACE and DoD IG personnel. The             Table with Department of Treasury
and financial-related information            option year for the USACE financial         and DFAS guidance, and adequately
during this reporting period. The re-        statement audit contract for FY 2007        documenting the process used by
sults of that work are discussed in the      was exercised in April and audit work       the Business Enterprise Information
sections below.                              began in June. The FY 2007 audit            System to process and record transac-
                                             work is progressing on schedule. Ad-        tions to the general ledger accounts.
Financial Statement Audits                   ditionally, the Defense Information
____________________________                 Systems Agency is making progress in        • The Defense Security Service lacked
In November 2006, the DoD IG                 its readiness for a Financial Statement     assurance that the invoices it paid
issued a disclaimer of opinion on            audit.                                      for personnel security investigation
the U.S. Army Corps of Engineers                                                         requests were accurate. As a result,
(USACE) Principal Financial State-           Financial Systems Audits                    DoD could not validate payments of
ments because time constraints pre-          ____________________________                $355.1 million for FY 2005 investi-
cluded the performance of sufficient         Financial System audits provide in-         gations or more than $600 million in
audit work to complete the audit             valuable information which regard           FY 2006. Strengthening control ac-
within established timeframes and            to the validity of financial statement      tivities and monitoring over the pay-
auditors were unable to determine            information. The following system-          ment for personnel security investiga-
whether material amounts on the fi-          related concerns were identified dur-       tions will help ensure that DoD funds
nancial statements were fairly present-      ing this reporting period.                  for that purpose are safeguarded.
                                                                                                                                  63
Department of Defense Inspector General
• Defense Civilian Pay System infor-     • The value of Operating Materi-          take action to communicate and en-
mation assurance controls related to     als and Supplies reported on the FY       force existing guidance to minimize
accessing the System, its data, and      2006 Navy Financial Statements was        the potential for fraud, waste and
DFAS facilities were not always ef-      overstated by at least $4 billion. This   abuse. The agency program coordi-
fective; risk assessments were not al-   condition occurred because the Navy:      nator also needs to reinforce training
ways performed, and audit trails were    did not accurately report the Sponsor     in the Business Operations Branch to
not always maintained or reviewed.       Owned Material it included in the         improve the performance of person-
As a result, the Defense Civilian Pay    Navy’s FY 2006 Financial Statements;      nel.
System was at risk for unauthorized      misclassified more than $2.5 billion
system access, manipulation or loss of   of Sponsor Owned Material as Oper-        • PACOM did not follow the Chair-
data, and theft of personnel informa-    ating Materials and Supplies; did not     man of the Joint Chiefs of Staff In-
tion.                                    maintain audit trails or adequately       struction and their guidance for use
                                         validate the data gathered about its      of Official Representation Funds. PA-
Financial-Related Audits                 Sponsor Owned Material before sub-        COM personnel made 46 of the 50
____________________________             mitting the data to the Assistant Sec-    purchases examined prior to verifying
Throughout the reporting period, the     retary of the Navy (Financial Manage-     the availability of funds. For 21 of the
DoD IG has conducted financial-re-       ment and Comptroller) for inclusion       50 purchases, PACOM personnel in-
lated audits in several areas includ-    in the financial statements; and did      correctly paid excise taxes. Addition-
ing improper payment recoveries,         not always follow physical control        ally, PACOM personnel did not pro-
valuation of operating materials and     procedures for managing materials.        vide required documentation to fully
supplies, purchase cards, military in-   The Navy needs to ensure its finan-       support the Official Representation
terdepartmental purchase requests        cial reporting of Sponsor Owned Ma-       Funds purchases reviewed. Although
(MIPRs) and garnishments.                terial complies with Federal Financial    gift items were not a part of our sam-
                                         Accounting Standards No. 3 and 6;         ple, during the testing of the Official
The following concerns were report-      perform a complete reconciliation of      Representation Funds process, the
ed:                                      its Sponsor Owned Material invento-       DoD IG observed that PACOM in-
                                         ry amounts recorded in the Real-time      appropriately retained 863 gift items
• The Under Secretary of Defense         Reutilization Asset Management Sys-       (valued at $16,459) in inventory.
(Comptroller)/Chief Financial Offi-      tem with the actual amounts of on-
cer did not have adequate controls to    hand inventory; and ensure that audit     • The Missile Defense Agency did not
fully implement a recovery audit pro-    trails are maintained and supporting      have adequate internal controls over
gram to recover improper payments        documentation is available for all        governmental purchases. Specifically,
to DoD vendors and employees. Ef-        data recorded in accounting systems       the Missile Defense Agency did not
forts to manage recovery audit con-      and used in financial reports.            properly manage the outgoing and
tracts have been largely unsuccessful                                              incoming MIPR processes. The inter-
and DoD should pursue a Navy ini-        • Of the 298 purchase card transac-       nal controls were inadequate because
tiative and expand recovery audits in    tions sampled at Pacific Command          the Missile Defense Agency did not
the area of telecommunication pay-       (PACOM), 4 purchases exceeded the         follow applicable MIPR regulations.
ments. In December 2006, the Navy        purchase card threshold, 2 included       As a result, the Missile Defense Agen-
awarded a recovery audit contract        excessive shipping costs, and 1 did       cy personnel could not ensure that
and projected it could recover 21 per-   not have adequate supporting docu-        all purchases were in the best inter-
cent of the nearly $1 billion it paid    mentation. Additionally, the approv-      est of the Government and complied
for telecommunication services in        ing official did not properly review 37   with Federal, DoD, and the Missile
prior years. By expanding this effort    of the transactions prior to approving    Defense Agency regulations as well
to Army, Air Force, and other DoD        them, and did not properly screen         as public laws. New procedures and
telecommunication payments, DoD          sources prior to completing 22 trans-     controls should be developed to en-
could realize as much as $837 million    actions. The agency program coor-         sure that required data and support-
in potential monetary benefits.          dinator and approving officials must      ing documents are completed and


64
                                                                                             Semiannual Report to Congress
reviewed before a MIPR is certified;
MIPR disbursements and reimburs-
able billings are verified against source
documents and all documentation is
maintained; and recorded commit-
ments, obligations, and deobligations
are valid and timely.

• The Defense Finance and Account-
ing Service did not ensure that proper
amounts were garnished from current
and retired DoD employees to pay
debt obligations. Based on our sta-
tistical sample, the Defense Finance
and Accounting Service improperly
garnished approximately $6.6 mil-
lion from current and retired DoD
employees’ earnings during Fiscal
Year 2005. Additionally, the De-            DoD IG auditors review DoD financial statments - the
fense Finance and Accounting Ser-           largest, most complex, and most diverse in the world.
vice could garnish incorrect amounts        Two of the Army’s major efforts in this Property Book (now PBUSE). Since
from current and retired DoD em-            area are implementation of the Single then the Agency has examined several
ployees’ present and future earnings.       Army Logistics Enterprise (SALE), feeder systems to evaluate their com-
The Defense Finance and Account-            and development and deployment of pliance with FFMIA requirements.
ing Service should establish a formal       the General Fund Enterprise Business The Army Audit Agency’s work gave
managers’ internal control program,         System (GFEBS). The components the Army’s financial managers the as-
establish and revise internal policies      of SALE focus on upgrading and surance they needed to continue to
and procedures, modify the Defense          consolidating the Army’s logistics sys- move forward in improving financial
Finance and Accounting Service sys-         tems, including the Property Book information, especially in the areas
tems, and revise current and retired        Unit Supply Enhanced (PBUSE), of real property and general equip-
DoD employees’ accounts with accu-          the Logistics Modernization Program ment—two areas of major concern
rate information.                           (LMP), and the Global Combat Sup- as managers strive to achieve audit
                                            port System-Army (GCSS-Army). readiness.
Army Audit Agency                           By initiating the GFEBS project, the
____________________________                Army will provide more accurate and During the past year Army Audit
Over the past several years, the Army       up to date financial management data Agency continued its focus on GCSS-
has been developing automated busi-         for decision making by Army manag- Army, GFEBS, and LMP to evaluate
ness applications to transform its in-      ers and enhance the audit readiness of compliance with FFMIA—an effort
stitutional processes. These business       the Army’s financial statements.        that will continue for the next sev-
applications will enhance the Army’s                                                eral years. Army Audit Agency com-
responsiveness to combatant com-            A primary focus of Army Audit pleted an initial requirements review
manders using state-of-the-art infor-       Agency’s work in this area has been for GCSS-Army and will continue
mation management concepts and              evaluating whether these and other to work with system developers as
information technologies. Addition-         financial and feeder systems comply the system moves into testing. For
ally, by streamlining and integrating       with the requirements of the Federal GFEBS, Army Audit Agency reported
processes and supporting informa-           Financial Management Improve- on system developers’ identification
tion systems, the Army will free re-        ment Act (FFMIA) of 1996. At the of the requirements necessary for the
sources currently spent on business         request of Army leadership, Army system to comply with FFMIA and
operations to invest in warfighting         Audit Agency began its work during
capabilities.                               2000 by examining the Web-Based
                                                                                                                     65
Department of Defense Inspector General
                                                                                               issues during the build process to       $16 million in excess uniforms that
                                                                                               minimize costly changes after field-     it improperly charged to the DOD
                                                                                               ing.                                     supplemental appropriation.
DoD IG auditor reviews Defense financial statements




                                                                                               In addition to the Army Audit Agen-    Further, units did not clearly under-
                                                                                               cy’s efforts related to FFMIA com-     stand FEMA’s requirements to obtain
                                                                                               pliance, it did other work related to  reimbursement, and they submitted
                                                                                               financial management. One of the       bills without notifying First Army
                                                                                               more significant audits included work  or giving FEMA adequate support-
                                                                                               on the relief efforts in the aftermath ing documentation. Consequently,
                                                                                               of Hurricane Katrina.                  FEMA identified about $36 million
                                                                                                                                      in billings for potential chargeback to
                                                                                               Army Audit Agency evaluated the the Army because of insufficient doc-
                                                                                               Army’s processes and procedures to umentation. As of May 2006 First
                                                                                               account for funds used to support Army had coordinated with FEMA
                                                                                               Hurricane Katrina relief efforts and and reduced the amount of the dis-
                                                      its testing during the system’s tech-    determined whether the Army ob- puted bills to about $253,000.
                                                      nology demonstration phase. Dur-         tained proper reimbursement for
                                                      ing the upcoming testing phase of the    the expenses incurred. As of March, Naval Audit Service
                                                      system’s first deployment, Army Au-      2006 the Army had received about ____________________________
                                                      dit Agency will evaluate whether the     $532.3 million from DOD emer- The Industrial Logistics Support
                                                      previously identified system require-    gency supplemental appropriations Management Information System
                                                      ments are working as intended and        and about $115.6 million in reim- (ILSMIS) is a material management
                                                      meet FFMIA requirements. Army            bursable funding authority from the system that provides life-cycle pro-
                                                      Audit Agency recently reported that      Federal Emergency Management curement and supply systems man-
                                                      the first deployment functionality       Agency (FEMA). Resource manag- agement for Naval Surface Warfare
                                                      for LMP substantially complied with      ers from First U.S. Army to the unit Centers and Naval Undersea Warfare
                                                      FFMIA, and the Agency will start         level followed guidance and correctly Centers of the Naval Sea Systems
                                                      work to make sure new functionality      accounted for the receipt, obligation, Command (NAVSEA), and for the
                                                      being added for the second deploy-       and expenditure of funds. Units also Naval Supply System Command’s
                                                      ment meets FFMIA requirements.           promptly identified and returned un- Fleet Industrial Supply Centers.
                                                                                               used funds. However, procedures for ILSMIS does not fully comply with
                                                      Assurance that Army systems are com-     coding financial transactions did not Financial Management Regulations
                                                      pliant with FFMIA is a major step to-    give First Army full visibility in the and other applicable laws and regu-
                                                      ward auditable financial statements.     Army’s Standard Finance System over lations. Significant improvements
                                                      The Army Audit Agency’s graduated        the funds that performing activities were needed to the internal control
                                                      approach provides the Army with          obligated, spent, and billed for each environment at NAVSEA Warfare
                                                      positive assurance throughout the        mission assignment. The Army also Centers to ensure that ILSMIS data
                                                      system build process—an approach         did not have adequate procedures is verifiable and supportable. Inter-
                                                      that is significantly more detailed      to fully capture or consistently track nal control improvements were also
                                                      and goes beyond negative assurance,      costs related to operations and use of needed for system security. There-
                                                      which GAO recently cited as insuf-       equipment (that is, the operational fore, reasonable assurance was not
                                                      ficient in a report on the efforts of    tempo). As a result, the Army did provided that management’s objec-
                                                      other Federal agencies. The graduat-     not fully identify and obtain reim- tives were being achieved, assets were
                                                      ed approach also provides additional     bursement for these costs, and U.S. safeguarded from the risk of fraud,
                                                      credibility that the Army systems will   Army Reserve Command under- and resources were used economi-
                                                      meet necessary financial requirements    charged FEMA about $2 million for cally and efficiently for the purposes
                                                      once the systems are brought on line,    flying hour costs. Additionally, the intended. Additionally, NAVSEA
                                                      and identifies and solves compliancy     Army National Guard acquired about and the Office of the Commander,

                                                      66
                                                                                                                                                 Semiannual Report to Congress
Fleet Industrial Supply Centers man-       the period ending 31 March 2006           The Air Force Audit Agency disclosed
agement did not ensure that ILSMIS         were understated by $2,710,288, with      the Defense Finance and Accounting
maintained accurate inventory values       $4,300,558 understated for related        Service (DFAS) Denver accountants
and clear audit trails to permit tracing   accumulated depreciation. Also, the       did not properly maintain Financial
transactions from source documents         Fixed Asset Equipment financial re-       Inventory Accounting and Billing
to reported total dollar values on the     cords were overstated by $2,200,091       System (FIABS) Intra-Governmental
financial statements. Therefore, rea-      and the related accumulated deprecia-     Open Receipt Not Billed accounts
sonable assurance of the reliability of    tion overstated by $1,489,360 for the     payable transactions. Further, DFAS
financial reporting values cannot be       same period. In addition, AMARC           Dayton accountants did not recon-
provided. This does not permit total       equipment custodians did not main-        cile the FIABS Intra-Governmental
asset visibility for accurate account-     tain accurate Fixed Asset Equipment       Accounts Payable Open Receipt Not
ing, reporting, and auditability of the    records. Equipment custodians also        Billed listing to the Standard Material
financial statement line item              did not give the AMARC equipment          Accounting System trial balance. As
                                           manager accurate information for Air      a result, HQ Air Force Materiel Com-
Air Force Audit Agency                     Force Equipment Management Sys-           mand, Financial Management agreed
____________________________               tem input. As a result, $9,517,826        to cancel accounts payable valued at
Security Assistance Management In-         in equipment assets were not fully        $117.6 million by the end of May
formation System (SAMIS) person-           supported, equipment book values          2007. Of this amount, accounts pay-
nel implemented satisfactory system        were overstated by $649,792 and ac-       able totaling $201,036 relate to non-
controls in all but two areas and did      cumulated depreciation understated        DoD organizations. In addition, the
not address applicable accounting          by $649,792, and auditors could           Ogden, Warner Robins, and Oklaho-
standards. Specifically, SAMIS man-        not verify equipment book values of       ma City Air Logistics Centers (ALCs)
agement personnel identified, de-          $28,674. Further, AMARC financial         did not establish effective internal
signed, and tested Federal Financial       managers did not properly support         controls over their accounting opera-
Management System Requirements             3 of 18 manual journal voucher li-        tions. Consequently, the ALCs could
related to system controls; however,       ability transactions for Accrued Non-     not determine organizational risks,
they needed to strengthen the im-          government Liabilities and Accrued        assess the quality of performance over
plementation of two controls to be         Civilian Salary and Wages. Conse-         time, or ensure personnel adhered to
fully compliant. In addition, SA-          quently, financial managers did not       established directives.
MIS management personnel did not           have assurance that accrued liabili-
identify, design, test, and implement      ties totaling $1,595,019 were valid.      Also, Ogden, Warner Robins, and
applicable federal accounting con-         Lastly, although AMARC financial          Oklahoma City ALC accountants did
formance requirements. Correcting          managers properly reconciled subsid-      not accurately record or properly sup-
these system control weaknesses and        iary records to general ledger balances   port General Accounting and Finance
applicable accounting conformance          each month, AMARC personnel did           System (GAFS) nonfederal accounts
requirements will enhance data integ-      not accurately process the aged ac-       payable balances. Further, DFAS
rity and provide Air Force manage-         counts receivable for two of seven        Dayton accountants did not accu-
ment with more accurate, complete,         journal vouchers reviewed. Accu-          rately account for GAFS nonfederal
and reliable data.                         rately processing accounts receivable     accounts payable. Specifically, 3 (20
                                           aging enables managers to identify        percent) of 15 ALC accounts payable
Of 30 trial balance accounts reviewed,     problems early that may occur in the      balances reviewed were incorrect. As
AMARC financial managers did not           receivables process, helps manage-        a result, the Air Force accounts pay-
effectively support or accurately and      ment take timely corrective action,       able balance recorded in the Work-
properly record amounts for 7 ac-          and helps produce reliable financial      ing Capital Fund financial statements
counts within the Property, Plant, and     statement amounts for local and ma-       was overstated by at least $1 million.
Equipment (PP&E); Accrued Liabili-         jor command analyses.                     Reconciling accounts payable to sup-
ties; and Accounts Receivable areas.                                                 porting documentation allows ac-
As a result, AMARC financial records                                                 countants to identify and correct er-
for Other Structures and Facilities for                                              rors in the GAFS database.

                                                                                                                         67
Department of Defense Inspector General
                                                                                                     hour costs for reimbursement. As a       requirements and document compli-
                                                                                                     result, Air Force officials overstated   ance with these requirements. Fully
                                                                                                     Hurricane Katrina flying hour costs      addressing accounting requirements
DCIS devotes investigative resources to financial crimes




                                                                                                     by more than $466,000 on Air Force       will improve overall IEMS data reli-
                                                                                                     accounting records and unnecessarily     ability.
                                                                                                     absorbed costs of more than $60,000
                                                                                                     in support provided to the Federal       Investigations
                                                                                                     Emergency Management Agency.             ____________________________
                                                                                                                                              The Department of Defense loses
                                                                                                     U.S. Central Command Air Forces          millions of dollars annually because
                                                                                                     (CENTAF) personnel, in general, es-      of financial crime, public corrup-
                                                                                                     tablished adequate physical controls     tion, and major thefts. Through the
                                                                                                     over fuel pumps and properly record-     investigative efforts of DCIO special
                                                                                                     ed fuel disbursements. However, they     agents, abuses in the procurement
                                                                                                     did not accurately account for fuel      process, such as the substitution of
                                                                                                     payments. Specifically, CENTAF of-       inferior products, overcharges, bribes,
                                                                                                     ficials had not established processes    kickbacks, and cost mischarging, are
                                                                                                     and support necessary to validate fuel   exposed. Additionally, the DCIOs
                                                                                                     charges and subsequent payments.         have partnered with acquisition and
                                                           Air Force personnel improperly            Further, CENTAF officials did not ac-    financial agencies to proactively iden-
                                                           used supplemental funds for 28 (21        curately pay host-nation fuel charges    tify areas of vulnerability. Addition-
                                                           percent) of 131 Hurricane Katrina         or collect fuel charge reimbursements    ally, the DCIOs investigate abuses by
                                                           transactions. As a result, the Air        from coalition partners. Although        committed by DoD personnel. The
                                                           Force inaccurately recorded obliga-       AFAA did not identify any erroneous      following DCIO effort illustrates in-
                                                           tions totaling more than $29 million      fuel payments, properly validating       vestigative efforts to combat financial
                                                           for invalid or inadequately supported     ground fuel billings and reconciling     threats to the DoD.
                                                           requirements and understated obliga-      fuel charges to payments prevents in-
                                                           tions by $478,878. Of the $29 mil-        correct payments, accruing unknown       USACIDC identified reserve soldiers
                                                           lion, financial management personnel      liabilities, and over-obligating funds   assigned to the Washington, D.C.
                                                           could deobligate $9.1 million for use     for fuel consumed. Seeking past re-      area who were committing fraud and
                                                           on other understated requirements.        imbursements and collecting future       larceny in their monthly TDY hous-
                                                           Further, although Air Force person-       payments from coalition partners         ing allowance. Thus far, 35 investiga-
                                                           nel paid for valid hurricane personal     may yield savings of approximately       tions have been initiated, resulting in
                                                           property losses, opportunities existed    $2.3 million over the 6-year Future      identification of 35 subjects, an esti-
                                                           to limit Air Force liability for such     Years Defense Plan.                      mated cumulative loss to the Govern-
                                                           losses in the future. By limiting Air                                              ment of over $2,900,000. Thus far
                                                           Force liability for individual personal   The Integrated Engineering Manage-       $122,000 has been returned to the
                                                           losses not covered by insurance, the      ment System (IEMS) Program Of-           Government. As a result of these in-
                                                           Air Force would reduce future ex-         fice personnel properly incorporated     vestigations, there have been major
                                                           penditure of funds for unusual oc-        system controls, but did not assess      financial management changes in the
                                                           currences such as a natural disaster.     IEMS conformance with Defense            way the Army calls reserve soldiers to
                                                           Alternatively, the Air Force could im-    Finance and Accounting Service ac-       active duty to support contingency
                                                           prove morale and eliminate inequities     counting requirements to comply          operations. Further investigation
                                                           by paying personal damages for both       with the Federal Financial Manage-       continues and USACIDC is partner-
                                                           on and off-base members. Finally,         ment Information Act. Specifically,      ing with the Internal Review Service
                                                           Air Force Reserve financial person-       IEMS Program Office personnel did        and the Office of the Assistant Secre-
                                                           nel did not properly record hurricane     not review Defense Finance and Ac-       tary of the Army for Financial Man-
                                                           related flying hour costs, record mis-    counting Service guidance to identify    agement and Comptroller.
                                                           sion classification, or submit flying     applicable accounting conformance

                                                           68
                                                                                                                                                        Semiannual Report to Congress
Acquisition Process &
Contract Management
                                                                                                            tions has been even more dramatic.
                                                                                                            Procurement actions have increased
                                                                                                            almost ten fold for procurements over
FEATURED ARTICLE



                                                                                                            $25,000. In FY 2001, there were ap-
                                                                                                            proximately 348,000 actions in this
                                                                                                            category, but by FY 2006 the number
                                                                                                            had increased to approximately 3.7




                                                                                               Cougar 6X6
                                                                                                            million actions.

                                                                                                            Adding to the difficulty in acquiring
                                                                                                            goods and services is the aging of and
                                                                                                            decline in the size of the acquisition
                                                                                                            workforce that oversees the Depart-
                                                                                                            ment’s procurement process. In the
                                                                                                            past decade, DoD procurement staff
                                                                                                            has been cut by 10 percent to 26,000
                                                                                                            personnel according to the Penta-
                                                                                                            gon. The workforce from a decade
                                                                                                            ago oversaw Defense procurement of
                                                                                                            approximately 258,000 transactions
                                                                                                            over $25,000 and total DoD spend-
                   Acquisition Process                                                                      ing on procurement of $132 billion.
                                                                                                            With the increase in procurement
                   & Contract Management                                                                    dollars and actions, the workforce
                                                                                                            has become overburdened and has
                   The Department continues to experience the                                               taken shortcuts (either through lack
                   management challenge to provide required                                                 of staff, lack of experience or deliber-
                   materiel and services that are superior in                                               ate action) in the acquisition process
                   performance, high in quality, sufficient in                                              to keep up with the demands. The
                   quantity, and within the timeframes needed by                                            reduced workforce was also stretched
                   the warfighter.                                                                          thin when performing acquisition
                   The Department continues to face        field fast enough and soldiers’ lives are        oversight required by the DoD 5000
                   the difficult challenge of meeting      at greater risk. Balancing the service           series of guidance.
                   the urgent warfighter needs for high    to the warfighter against the service
                   performing products and services at     to the taxpayer becomes increasingly             Changes to the acquisition process
                   the right time, in the right quantity,  difficult as the quantity of procure-            as a result of the Federal Acquisition
                   and at a reasonable price. The most     ment actions and amount of dollars               Streamlining Act and the Clinger-Co-
                   current high profile example of an ur-  spent continues to grow while the                hen Act while enacted to improve the
                   gent need is V-shaped hull, armored     procurement workforce has remained               acquisition process, also continue to
                   vehicles. Secretary of Defense Robert   largely unchanged. Fiscal Year 2007              inhibit contracting officers’ abilities
                   M. Gates has made this vehicle the      procurement spending is already                  to use “Truth in Negotiation” pro-
                   Department’s top priority. The pic-     more than $318 billion through the               tections especially in regard to items
                   ture above depicts a version of the V   first 11 months and the Department               considered to be commercial acquisi-
                   shaped hull, armored vehicles.          continues to be the largest purchaser            tions. Changes in the Clinger-Cohen
                                                           of goods and services in the world.              Act allowed items to be classified as
                   Yet contractors are having a difficult The amount of spending is more                    commercial if they were “of a type”,
                   time ramping up to meet the urgent than double procurement spending                      were merely offered to the public, or
                   demand in a timely manner. These from as recently as FY 2001. How-                       would be available to meet Govern-
                   vehicles are not getting to the battle- ever, the increase in procurement ac-            ment needs in the future. The Act

                   70
                                                                                                                      Semiannual Report to Congress
eliminated the need to establish that     also cannot ensure that exercising op-      tics Agency (DLA) successfully com-
a commercial market actually existed.     tions that were priced based on the         peted the worldwide demand for the
One of the primary benefits of buy-       original negotiation will be advanta-       C-130 aircraft propeller blade heater
ing commercial items is having prices     geous to the Government.                    and reduced the unit price from
established by market interactions.                                                   $509.72 to $265.00, the worldwide
                                          Program and contracting staff also          demand did not include blade heat-
During the past six months, our au-       continue to make sole source awards         ers for the Air Force C-130 propeller
dits have found common themes of          without sufficient justification and        shop and these blade heaters were not
shortfalls in acquisition and contract-   don’t always use the most prudent           part of the competition. DLA con-
ing processes. Program and contract-      approaches to promote competition.          tinued to procure these blade heaters,
ing officials have not used sound and     During another DoD IG audit “Pro-           which represented about 87 percent
prudent business practices in nego-       curement Policy for Armored Vehi-           of the total, under a single source
tiating prices, have not adequately       cles”, the audit team found that the        contract at the higher price. As a re-
justified sole source procurements or     Marine Corps awarded sole source            sult, DLA’s single source philosophy
established appropriate frameworks        contracts to one contractor for the         has stifled competition precluding
to promote competition, and have          Joint Explosive Ordinance Disposal          another contractor from receiving a
omitted or otherwise not performed        Rapid Response Vehicle even though          fair opportunity to compete for blade
required processes before making key      program officials knew that other           heater requirements even though it’s
acquisition decisions. The DoD IG is      sources were available for competi-         entry into the market place has re-
continuing to identify problems with      tion. In addition, the officials did        duced blade heater unit prices by 48
interagency contracting as well in our    not adequately justify the commer-          percent. The DoD IG calculates that
series of congressionally mandated        cial nature of the vehicles. As a re-       DLA could have achieved savings of
audits.                                   sult, the Marine Corps continued            about $2 million for the Air Force and
                                          to award contracts to the contractor        the taxpayer, if the blade heater re-
DoD IG audits found that program          even though the contractor did not          quirement had been competed when
and contracting personnel may not         meet delivery schedules for getting         two approved sources were available.
have used the best available infor-       vehicles to the battlefield. As a result,   DoD IG auditors also calculated that
mation to determine fair prices. For      risks were increased for the warfight-      the Air Force will continue to pay $1
example, on the audit of the C-17         ers. In addition, the use of commer-        million more than necessary if DLA
Globemaster III Sustainment Part-         cial contracts may have limited the         continues to procure the 3,673 blade
nership Contract, the contract was        Government’s ability to ensure it paid      heaters in the contractor inventory
awarded in October 2003 and prices        fair and reasonable prices.                 at the higher price. The C-130 is
were negotiated in November 2003,                                                     shown below.
but definitization of the pricing on      In another case, on the Procurement
the contract was delayed for almost 8     of Propeller Blade Heaters for the C- Several DoD IG audits also found
months. The program office decided        130 Aircraft, the DoD IG audit team problems with program office adher
to do a revalidation of the data used     found that while the Defense Logis- ence to the DoD 5000 series of guid-
to establish the negotiated amount
from November 2003 even though
the revalidation may have produced
                                                                                                                        C-130 Blade Heater



unreliable results. Other available
information indicated that the price
could be too high and would result in
extra profit for the contractor. How-
ever, the Air Force used the old pric-
ing information. As a result, the Air
Force may not have achieved the best
price when it definitized the contract
valued at $4.9 billion. The Air Force

                                                                                                                                71
Department of Defense Inspector General
ance. On the audit of the Acquisition
of the Navy Rapid Airborne Mine
Clearance System (RAMICS), the
audit team found that the Program
Manager, Mine Warfare plans to hold




                                                                                                                   MH-60S Helicopter
the low-rate initial production deci-
sion review with the milestone deci-
sion authority in August 2008 before
completing needed testing and pro-
gram documentation. Specifically, the
Program Manager, Mine Warfare will
not have completed developmental
testing to demonstrate the ability to
integrate RAMICS with the MH 60S
helicopter, conducted an operational
assessment to gauge the system’s op-
erational effectiveness and suitability,
or completed key program planning
documents. Until the Program Man-          The above pictures shows the Rapid    evaluation funds on developing the
ager, Mine Warfare completes and           Airborne Mine Clearance System        XM307 Program. In this regard, the
obtains this needed testing and pro-       Mission Kit components as integrat-   FCS Program Manager planned to
gram documentation, the Navy is at         ed with the MH-60S helicopter.        spend an additional $93.3 million in
risk of acquiring four low-rate initial                                          those funds for the program without
production units of unknown opera-       This report also addressed concerns     assurance that the XM307 will satisfy
tional performance at an estimated       with staffing shortfalls. The audit     warfighter requirements.
cost of $15 million. These units may     team found that the Defense Con-
not satisfy warfighter requirements      tract Management Agency cannot          In this case, the Army took action
and could require costly retrofits.      fully support the Program Manager,      during the audit by initiating plans to
                                         Mine Warfare in the surveillance of     withdraw $80.1 million of the $93.3
The Naval Surface Weapons Center the contract due to limited staff re-           million from the program and to use
staff also did not fully define signifi- sources.                                the remaining $13.2 million to close
cant system capability requirements,                                             out the contract.
the required number of RAMICS, The DoD IG also found acquisition
and the expected life-cycle costs in the process problems during the review      In addition, the then- Program Exec-
draft capability production document of the Airbursting Fuze Technology          utive Officer Soldier prematurely, and
prepared to support the low-rate ini- Used for the Objective Individual          without authorization, approved the
tial production decision planned for Combat Weapon and the Advanced              XM307G Program for entry into the
August 2008. Until the Naval Surface Crew Served Weapon. The XM307               system development and demonstra-
Warfare Center staff updates the draft Program Office began developing           tion phase of the acquisition process.
capability production document to the XM307 in the system develop-               As a result, the XM307G Program
fully define required system capabili- ment and demonstration phase of           Manager began the process for de-
ties, quantities, and life-cycle costs, the acquisition process before the       veloping the program before having
the Navy will be unable to effectively Joint Requirements Oversight Coun-        an approved requirements document
plan and budget for the system and cil approved the warfighter require-          and full funding for the program.
verify through testing that RAMICS ments for the XM307. As a result,
will satisfy essential warfighter capa- the Future Combat Systems (FCS)          The picture on the next page depicts a
bility requirements.                     and the XM307 Program Offices pre-      variant of the XM weapon system.
                                         maturely spent about $98.1 million
                                         in research, development, test, and

72
                                                                                           Semiannual Report to Congress
The DoD IG issued a report that dis-      ture contract audit coverage in these              Although many changes in policy
cusses the U.S. Special Operations        areas:                                             and procedures have occurred to
Command administration and man-                                                              strengthen purchase, fuel, and travel
agement of funding purchases, award      • Contingency contracting and the                   card program controls over the past
fees for high-dollar, long-term logis-   shift to sustainment contracts when                 five years, card programs continued
tics contracts, and documentation for    requirements become more stable                     to encounter internal control weak-
Economy Act orders. USSOCOM              and quantifiable.                                   nesses that resulted in improper and
financial and contracting officials did  • Contracting and oversight structure               questionable transactions. Strategic
not comply with Federal appropria-       required to deploy and operate dur-                 actions were needed to strengthen key
tions law and the DoD regulations.       ing a contingency operation.                        internal controls related to program
Actions taken by the U.S. Special        • The number and skill level of the                 management and oversight. Also,
Operations Command should im-            acquisition workforce required to                   consolidation of the card programs
prove the contract award and admin-      handle the Army’s procurement                       would enable the establishment of
istration process.                       workload.                                           the program management and over-
                                         • Endemic problems in Army con-                     sight structure necessary to bring
Army Audit Agency                        tracting processes that lead to in-                 about permanent and longstanding
____________________________ creased risk of fraud and waste.                                improvements to the effectiveness
The Army has been increasing the • The organization, alignment, and                          and efficiency of the programs within
amount of dollars it expends on con- automated tools the Army contract-                      the Army. The Secretary of the Army
tracts over the past five years. The in- ing community needs to effectively                  agreed with the recommendation to
creasing scope of contract activity and execute the contracting mission.                     consolidate card programs and issued
dollars and the shrinking civilian ac-                                                       a directive appointing the Assistant
quisition workforce, combined with During the past six months Army Au-                       Secretary of the Army (Acquisition,
continued significant audit findings dit Agency has done audits of acqui-                    Logistics and Technology) the propo-
related to acquisition and the con- sition and contracts in a wide range                     nent for the consolidated charge card
tracting process, give rise to the need of areas, including GWOT, readiness                  office.
for more concentrated audit coverage support, Hurricane Katrina relief,
of the cross-cutting issues related to installation security, and purchase                   As part of GWOT, Congress granted
contracting policies, procedures, and cards. Descriptions of some of the                     temporary authority for the Army to
practices. Accordingly, Army Audit more significant audits follow.                           contract for increased security guard
Agency is focusing its current and fu-                                                       services at military installations. The
                                                                                             Army Audit Agency audited the ini-
                                                                                             tial contracts in CONUS as a result
                                                                                             of suggestions from U.S. Army In-
                                                                                             stallation Management Command
                                                                                             (IMCOM) and because of the high
                                                                          XM Weapon System




                                                                                             expected cost (CONUS contracts ac-
                                                                                             counted for slightly more than half of
                                                                                             the $500 million annual cost) to the
                                                                                             Army. Initial requirements weren’t
                                                                                             adequately identified for the security
                                                                                             guard contracts because the Army
                                                                                             had little time to quantify require-
                                                                                             ments to replace soldiers perform-
                                                                                             ing security functions. Army Audit
                                                                                             Agency recommended that the Army
                                                                                             consistently identify and refine re-
                                                                                             quirements at installations as condi-
                                                                                             tions change and reduce or eliminate

                                                                                                                                 73
Department of Defense Inspector General
the award fee provisions in contracts,   achieve savings of at least $36.7 mil- contracts, valued at about $27 mil-
which were originally intended to        lion during FY 2008.                    lion weren’t reported in the USACE
spur contract startup. In response,                                              hurricane relief and recovery report.
the Army established new levels of       USACE structured acquisition plans Reporting errors occurred primarily
security in its October 2006 contract    for restoring and enhancing the hur- because the USACE relied on man-
resolicitations and estimated it will    ricane protection system to provide ual processes for reporting contract
save about $70 million by reducing       best value to the government. The data for Hurricane Katrina that were
the number of contract guards at         plans met the requirements of the prone to error. These errors affected
Army installations. The Army also        Federal Acquisition Regulation; pro- the credibility of USACE reports to
eliminated award fees in contracts,      vided for appropriate competition; Congress, other Federal agencies, and
which Army Audit Agency estimated        included steps to mitigate risks; iden- the public as to the extent of compe-
could save an additional $71 million     tified appropriate contract types; and tition obtained on hurricane-related
over the FY 2007 to 2012 Program         focused on ways to execute the mis- contracts and the amount of contracts
Objective Memorandum.                    sion in the most effective, economi- awarded to small and disadvantaged
                                         cal, and timely manner. However, businesses and companies in states
U.S. Army,Eurpose and Seventh Army       the USACE needed to update acqui- affected by the hurricanes. Prepara-
(USAREUR) significantly reduced          sition plans to incorporate the effects tion of contract data reports would be
manning levels for contract guards       of cost increases and schedule slip- less labor-intensive and include more
during FYs 05 06, however, command       page to make sure plans were execut- reliable data if the USACE used the
and garrisons assigned to IMCOM’s        able within acceptable levels of risk.  Army Contract Business Intelligence
Europe Region did not properly com-                                              System to automatically provide con-
pute manning requirements. This oc-      The USACE planned appropriately to tract data for future disasters.
curred primarily because USAREUR         award a significant amount of work
did not have a process to uniformly      to small and local businesses. But its The Army Audit Agency audited the
apply a consistent manning standard      goal to award 41 percent of contract Army’s contract pricing process for
to validate requirements. Addition-      award dollars to small businesses was fees charged by commercial travel
ally, command needed to improve its      too ambitious because of incorrect offices. The Deputy Assistant Sec-
process to track manning at guard        assumptions made on the amount of retary was concerned that the Army
posts. Disagreement between Of-          contracts to be awarded for architec- was paying more than it should for
fice of the Provost Marshal General      ture-engineering support. Changing agent transaction fees when using
(OPMG) and USAREUR on man-               the goal to a more realistic percentage the Defense Travel System (DTS).
ning standards contributed to the        would help the USACE ensure that Army Audit Agency found that the
lack of a consistent standard to vali-   only appropriate contracts are award- transaction fees Military Surface De-
date guard requirements in Europe.       ed to small businesses within accept- ployment and Distribution Com-
Overall, USAREUR overstated its          able levels of risk related to cost and mand arranged for the Army were
manning requirements for contract        performance.                            reasonable when compared with the
guards by 174 “24/7” equivalent                                                  transaction fees arranged for other
positions valued at about $39.7 mil-     The USACE did not report accurate Military Services during the same
lion annually. OPMG took action to       data on its hurricane related con- timeframe. However, although the
implement the recommended reduc-         tracts. A review of 62 contracts, val- Army transaction fees appeared rea-
tions and identified locations where     ued at almost $1.3 billion, showed sonable, the Army could reduce the
it could install automated pedestrian    that most of the contracts (58 of fees by increasing use of the travel res-
gates to further reduce contract guard   62) had at least 1 data reporting er- ervations module in DTS. At the end
costs by about $2.4 million during       ror related to contract type, business of the second quarter FY 2006, the
FY 2007 and about $5.2 million dur-      size, competition type, disaster codes, Army had a usage rate of only about 7
ing FY 2008. With annual validation      contract amounts, and contractor percent for the module. Army Audit
of requirements, USAREUR could           name or location. Additionally, 137 Agency reported that the Army could



74
                                                                                           Semiannual Report to Congress
save about $49 million in transaction card transactions which may identify       officials and decision makers cannot
fees by FY 2012 if it achieved its 75 potentially fraudulent vendors and/or      ensure sole source contracts are ap-
percent usage goal for DTS.             transactions. The audit also deterred    propriate, fair opportunity objectives
                                        improper use of purchase cards re-       are met, and the best interest of the
The Army Audit Agency issued five ducing the risk to the Department of           Air Force is served. Lastly, the FAST
site reports that evaluated how 19 re- the Navy. The audit identified a card-    Program Office did not success-
quiring activities implemented DoD holder/contract specialist/Authorized         fully motivate prime contractors to
policy when acquiring supplies and Contract Officer at Naval Air Sys-            achieve small business subcontracting
services using non DoD contracts. tems Command, using the purchase               requirements. As a result, during FY
Overall, Army Audit Agency found card as a method of payment for an              2004 and 2005, small businesses did
that the activities partially imple- Indefinite Delivery Indefinite Quan-        not realize approximately $83 million
mented the policy, sometimes did not tity contract for training totaling $36     of revenue guaranteed to them under
document coordinated efforts and million. Adequate records to support            FAST contract provisions.
obtain management approval, and contract payments were not main-
often did not collect and report com- tained. The audit resulted in a com-       The Air Force Audit Agency assessed
plete and accurate assisted acquisition mand investigation that subsequently     service contract management in a con-
data to the Department of the Army. identified a savings of $539,128 for         tingency environment and concluded
These conditions primarily occurred training that was never completed.           that the United States Central Com-
because applicable policy guidance                                               mand Air Forces (CENTAF) Area of
wasn’t fully disseminated. As a result, Air Force Audit Agency                   Responsibility (AOR) personnel did
the Army had no assurance that non- ____________________________                 not validate contract requirements at
DoD contracts were in its best interest The Air Force Audit Agency con-          three of four locations. A review of
or that the data reported to DA was cluded that although the flexible ac-        10 service contracts (totaling more
reliable for management analysis.       quisition sustainment tool (FAST)        than $32 million) showed 5 contracts
                                        streamlined program-level acquisi-       exceeded requirements by $1.1 mil-
The Army Audit Agency determined tion planning processes, Air Logistics          lion annually. Reducing contract
that the Office of the Chief of Public Center product directorate personnel      requirements to reflect actual needs
Affairs Strategic Planning Division did not perform adequate acquisition         will allow the Air Force to put $4.9
did not follow proper contracting planning for requirements placed on            million to better use over the 6-year
procedures to obtain strategic com- FAST delivery/task orders. As a re-          Future Years Defense Plan. Further-
munications support services from sult, the Air Force paid an estimated          more, CENTAF AOR personnel at
a subcontractor. Division person- $34 million for subcontractor add-on           three of four locations reviewed did
nel initiated a subcontract, wrote costs that may not have been incurred         not adequately monitor contract per-
the subcontract statement of work, had other contract alternatives been          formance for seven contracts valued
and tasked the subcontractor di- used. Additionally, FAST delivery/              at $27.4 million. Effective contrac-
rectly without coordinating with the task order award actions were incon-        tor performance monitoring helps
contracting officer. In addition, the sistent with fair opportunity objec-       CENTAF AOR personnel verify the
structure of the existing contract in- tives. Consequently, the Air Force        Air Force fully receives services pur-
creased the Army’s risk that it would limited its opportunities to realize       chased.
acquire goods or services that were competition benefits including in-
outside the scope of the contract.      novative solutions, improved levels of   The Air Force Audit Agency dis-
                                        service, and overall best value to the   closed CENTAF AOR personnel
Naval Audit Service                     Air Force. Further, product direc-       maintained support for government
____________________________ torate personnel did not adequately                 purchase card (GPC) transactions,
The Naval Audit Service developed a support exemption to competition             established adequate separation of
methodology using data mining tech- waivers used to justify sole source          duties, and periodically reconciled
niques and computational analysis to delivery/task order awards. Without         bank statements to purchase receipts.
proactively identify high risk purchase properly supported waivers, approval     Further, auditors did not disclose any


                                                                                                                    75
Department of Defense Inspector General
instances of fraudulent cardholder ac-   DCIS jointly investigated allegations      tion found that UCB, the recipient
tivity. However, AOR personnel did       that AKAL Security made false state-       of DoD grants, directly charged the
not properly record GPC-purchased        ments, violating the terms of its con-     costs of administrative and clerical
assets on accountability records, pur-   tract to provide trained civilian guards   salaries although these costs were al-
chased non-mission essential assets,     at eight stateside U.S. Army bases. Its    ready paid as a component of indirect
and did not always obtain required       violations included supplying security     costs built into the contracts. UCB
purchase approval. Proper GPC pro-       guards who failed to satisfy weapons       continued to double bill the govern-
gram controls reduce the risk of un-     qualification requirements and failing     ment from 1996-2001 despite being
detected theft and loss, unexpected      to satisfy contractual man-hour re-        informed they could not do so.
shortages of critical items, and un-     quirements, and falsified documenta-
necessary purchases of items already     tion to cover up the company’s inabil-    As the result of a joint USACIDC,
on hand. Ineffective controls resulted   ity to satisfy contract requirements.     DCIS, and FBI investigation, both
in unrecorded, non-mission essential,                                              the owner and the manager of S&S
or improperly approved purchases                                                   Sales pled guilty to conspiring to sub-
valued at over $264,000.                                                           mit false and inflated invoices relative
                                                                                   to a contract with the Defense Com-
Investigations                                                                     missary Agency to deliver cheese and
____________________________                                                       specialty products to the Fort Bliss
The Defense Criminal Investigative                                                 Commissary. An audit disclosed that
Organizations (DCIOs) devote sub-                                                  S&S invoices for items delivered sig-
stantial resources toward the preven-                                              nificantly exceeded the quantities of
tion, detection, investigation, and                                                products sold by the commissary.
prosecution of crimes involving the                                                Both were convicted, with the man-
acquisition and contract manage-                                                   ager sentenced to 24 months confine-
ment processes, which impact DoD         A joint DCIS, USACIDC, and ICE ment, 3 years probation, and ordered
programs. Such crimes include: defec-    investigation initiated on a Voluntary to pay $482,356 in restitution; the
tive pricing; cost and labor mischarg-   Disclosure submitted by Northrop owner was sentenced to 30 months
ing; progress payment fraud; Fast Pay    Grumman. Northrop Grumman and 3 years probation. Both were
fraud; Government Purchase Card          Electro-Optical Systems, established debarred from Government contract-
fraud; Anti-Trust Act violations; and    that Northrop Grumman fabricated ing.
economic espionage. Several investi-     and altered test results, and did not
gative efforts are highlighted below.    properly test night vision intensi- A DCAA audit indicated the man-
                                         fier tubes used in night vision gog- agement personnel of Ben Frank-
Securitas GMBH, a security guard         gles and sniper scopes under several lin Technology Center of Western
company in Germany, agreed to re-        U.S. Army and U.S. Navy contracts. Pennsylvania used Office of Naval
imburse the U.S. Government $2.8         Northrop Grumman entered into a Research grant funding to pay over
million. The result of a joint DCIS      litigation and settlement agreement $2 million of personal and unau-
and USACIDC investigation found          with the DOJ Civil Division and the thorized expenses. The grant was
Securitas falsified labor hours and      U.S. Attorney’s Office for the District established to promote USN electro-
inflated invoices submitted between      of Arizona, wherein it agreed to pay optics technology to the private sec-
October 2004 and July 2005 on a          the U.S. government $8 million.           tor. The NCIS investigation resulted
contract calling for security guard                                                in the company president and vice
services at multiple U.S. military fa-   The University of California at Berke- president each being sentenced to 34
cilities throughout Europe.              ley (UCB) entered into a negotiated months confinement and 36 months
                                         agreement with the U.S. Govern- supervised probation, required to pay
AKAL Security, Inc., negotiated a civ-   ment in the amount of $3.4 million $1.6 million in restitution to the U.S.
il settlement to pay the U.S. govern-    to settle allegations of false claims and government. The company settled
ment $13.5 million. USACIDC and          false statements. A DCIS investiga- civilly and paid $950,000 restitution.


76
                                                                                              Semiannual Report to Congress
All parties were debarred from future paid $2.3 million and the company           About the DoD Management
business with the U.S. Government. paid $3 million for a total of $5.3            Challenges
                                       million to the U.S. Government.            ____________________________
The owners and senior officers of                                                 The significant accomplishments of
Government and Commercial Sup- A joint investigation with USACIDC                 the Department of Defense Inspec-
ply, Inc., conspired with two USN and DCIS found Saudi Logistics and              tor General (DoD IG), as well as the
civilian employees to rig contract Technical Support (SALTS) over-                Department of Defense audit, inves-
awards with the Naval Facilities En- charged the Army Aviation and Mis-           tigative, and inspections communi-
gineering Command, Naval Research sile Command (AMCOM) $10.5                      ties are based on DoD management
Laboratory, the Naval Surface Warfare million under a contract for deliver-       challenge areas identified by the DoD
Center, and other U.S. Government ing generators by not properly noti-            IG. The DoD IG annually assesses
agencies. The conspirators falsified fying U.S. contracting authorities of        the most crucial management and
purchase orders and invoices for shell significant cost reductions due to fluc-   performance challenges faced by the
companies to create the appearance tuations in currency exchange rates.           DoD based on the findings and rec-
of competition. In exchange, the two An AMCOM Contracting Officer’s               ommendations of audits, inspections,
USN civilian employees accepted Final Decision was issued to SALTS                and investigations conducted dur-
bribes and kickbacks. As the result of demanding it reimburse the U.S.            ing the year. Our significant activi-
a joint NCIS and FBI investigation, Government $10.5 million ($7.4                ties help the Department focus their
the conspirators were found guilty million plus $3.1 million in interest).        efforts on mitigating management
of subcontractor kickbacks, bribery, The DCIS notified USACIDC that               challenges identified by the DoD IG.
false statements, bid rigging, and SALTS failed to reimburse the U.S.             The Inspector General Summary of
conspiracy in U.S. Federal District Government; therefore the contract-           Management Challenges is included
Court. They were sentenced to vary- ing officer forwarded a debt collec-          in the DoD Performance and Ac-
ing periods of confinement and su- tion package to DFAS to effect the             countability Report.
pervised probation and together paid $10.5 million recovery.
$672,000 in fines and restitutions.
The shell companies and involved The USMC-CID initiated an inves-
parties were debarred from future tigation after 26 U.S. Bank Voyager
business with the U.S. Government. Fuel Cards, 9 cellular telephone ear
                                       pieces, and 1 Palm Pilot and cradle
Initiated from a qui tam complaint, were stolen from a building on Ma-
the DCIS, USACIDC, NCIS, and rine Corps Base (MCB), Camp Pend-
several non-DoD federal agencies leton, CA. Two of the fuel cards were
joint investigation found a major cor- used in unauthorized transactions
poration and a major accounting firm totaling $2,776. As a result of the
failed to pass on to the Government investigation, one entered into plea
rebates and other items of value they agreement and was awarded deferred
received from vendors as required by prosecution for 3 years, agreed to
contract. The investigation revealed pay $4,026 restitution, and was de-
the accounting firm kept a second barred from military installations for
set of accounting records to conduct 5 years in exchange for cooperation
and/or track purchases and subcon- with the investigation. He then pro-           The DoD IG works with the Defense
tracts with technology vendors under vided information on his accomplice          oversight agencies to leverage efforts
Government contract. Both were who was received 6 months deferred                 and to ensure that projects are co-
charged with Civil False Claims and prosecution, debarment from MCB,              ordinated to avoid duplication and
Conspiracy. A civil agreement was Camp Pendleton, CA, for 1 year and              minimize impact to operations.
reached, and action against the com- ordered to pay $500 in restitution.
pany is pending. The accounting firm


                                                                                                                     77
Department of Defense Inspector General
                                             Health Care
The Military Health System (MHS) must provide quality health care for approximately 9.1 million eligible beneficiaries
within fiscal constraints while facing growth pressures, legislative imperatives, and inflation that make cost control
difficult in both the public and private sectors. The DoD challenge is magnified because the MHS’s primary mission
is to provide health support for the full range of military operations. Part of the challenge in delivering health care is
combating fraud.

A major challenge to the Department is sufficient oversight of the growing cost of health care for its beneficiaries.
The increased frequency and duration of military deployment further stresses the MHS in both Active and Reserve
components. The DoD budget for health care costs was about $40 billion in FY 2007, including $21.9 billion in the
Defense Health Program appropriation, $6.5 billion in the Military Departments’ military personnel appropriations,
$0.4 billion for military construction, and $11.2 billion for the contributions to the DoD Medicare Eligible Retiree
Health Care Fund to cover future costs of health care for Medicare eligible retirees, retiree family members and
survivors. Increasing health care benefits provides additional pressure to manage and contain costs. The Department
is scheduled to transition to the next generation of TRICARE contracts during fiscal year 2008. The Department’s
challenge is how to oversee the growing cost of health care for military members and to effectively transition to the
next generation of TRICARE contracts. Part of the challenge in delivering health care is combating fraud. As of
September 30, 2007, health care fraud constituted 8 percent of the 1,626 DCIS open cases.

Maintaining medical readiness continues to be a challenge. Readiness of the medical staff and units includes ensuring
that medical staff can perform at all echelons of operation and the units have the right mix of skills, equipment sets,
logistics support, and evacuation and support capabilities. The challenge of keeping reservists medically ready to
deploy continues due to the frequency and duration of Reserve deployments. In addition, transitioning the wounded,
ill, or injured Service members to post-deployment care will continue to grow as a challenge while the Global War
on Terror, Operation Iraqi Freedom, and Operation Enduring Freedom continue. Information assurance relating to
sensitive medical information continues to be a challenge in the health care community. Episodes of potential exposure
of electronic patient information during the year demonstrate the challenge to maintain security and privacy. Also,
expanding automation efforts, including the transition from paper to electronic patient records, increases the exposure
of sensitive patient information to inadvertent or intentional compromise. Maintaining information operations that
ensure the protection and privacy of data will continue to grow as a challenge.


                                                      Audit
DoD IG resources focused on cost and GWOT issues. The DoD IG continued audits of the Controls Over the
TRICARE Overseas Program and the Supplemental Funds Used for Medical Support for the Global War on Terror.
The DoD IG also completed a joint audit with the Army Audit Agency of the Outpatient Third Party Collection
Program. During the second phase of the Controls Over the TRICARE Overseas Program audit, the team completed
a significant support effort for an ongoing DCIS/United States Attorney Office investigation of health care billing
improprieties in the Philippines. The team has completed the audit field work of the second phase focusing on the
accuracy of TRICARE overseas claim payments made to providers in countries other than the Philippines and the
potential need for worldwide implementation of price caps and other administrative controls for health care services
provided overseas.


78
                                                                                             Semiannual Report to Congress
The Assistant Secretary of Defense for Health Affairs requested an audit of the Third Party Collection Program. The
program allows DoD to collect for health care provided to beneficiaries with health insurance other than TRICARE.
A statistical sample (representing 41 percent of the FY 2005 outpatient visits and pharmacy prescriptions) showed
that MHS administrators could increase collections by $9.4 million per year with additional focus on procedures to
identify patients’ insurance status and to submit and follow-up on insurance claims.

In recent years the U.S. Army Medical Department has experienced funding shortfalls for medical programs and
operations that affect its ability to provide quality healthcare for military personnel and their family members. One of
the strategies the department has aggressively pursued to help offset recurring funding shortages is to expand the Third
Party Collection Program. The program generates substantial revenues each year for the military healthcare system
by billing third party payers for medical treatment provided to beneficiaries of the military healthcare system who
have health insurance. Historically, the level of billings and collections for outpatient services at military treatment
facilities, including the Army, has not been as successful as for inpatient services because of problems implementing
systemic procedures for identifying beneficiaries with other healthcare insurance at outpatient clinics. Because of the
high risk associated with third party collections for outpatient services, and at the request of the Assistant Secretary of
Defense (Health Affairs), DoD IG and AAA collaborated on a joint audit of the Third Party Collection Program.

The DoD summary report covered audit results related to the outpatient Third Party Collection Program for the U.S.
Air Force, Army, and U.S. Navy. The joint audit team concluded that military treatment facilities needed to take
additional measures to identify patients with other health insurance to increase overall billings and collections related
to outpatient services. The review covered six geographic regions for the military services with an estimated workload
of 41 percent of the total patient encounters. The summary report identified potential additional collections of about
$56.5 million related to outpatient services provided by medical facilities for the three military services. The report
also identified a material internal control weakness at all three Services related to the lack of adequate procedures for
identifying patients with other health insurance and for following up on insurance claims.

Army Audit Agency
....................................................................................................................................................................................

The U.S. Army Medical Command provided its military treatment facilities substantial policy, guidance, and oversight
for the Third Party Collection Program. However, Army military treatment facilities continued to have problems
identifying patients with other health insurance, billing for related medical services, and following up on unpaid
claims. The report addressed recommendations to strengthen selected management aspects of the program, which
would increase collections for outpatient services by about $19.2 million. The $19.2 million represents the Army
portion of potential monetary benefits DoD IG reported that totaled about $56.5 million for the three Services.

AAA identified a potential funding violation that came to AAA’s attention as part of the joint audit of the outpatient
Third Party Collection Program. The U. S. Army Medical Command provided funding for the design, development,
and testing of an automated system for the program called the third party collection claims single interface system.
The Medical Command used operation and maintenance funds when it should have used research, development, test,
and evaluation funds. As a result, a potential Antideficiency Act violation occurred because the correct appropriation
wasn’t used to fund about $2.6 million for development and testing of the single interface system. The Medical
Command initiated prompt action to report the potential violation to the Office of Assistant Secretary of the Army
(Financial Management and Comptroller) through the Office of The Surgeon General.



                                                                                                                                                                                79
Department of Defense Inspector General
Air Force Audit Agency
....................................................................................................................................................................................

Air Force privacy officers did not complete required Health Insurance Portability and Accountability Act (HIPAA)
risk assessments or properly implement other patient information safeguards including refresher training, sequestered
record accountability, outside business agreements, and physical record controls involving a patient population of
approximately 118,000 individuals. Adherence to HIPAA requirements provides assurance that medical information
for over 2.6 million active duty and retired military members, their families, and other eligible beneficiaries is adequately
safeguarded, reducing the likelihood of privacy violations and adverse publicity.

                                                                 Investigations

The DCIOs conduct significant investigations involving TRICARE, a managed healthcare insurance program
administered by the Assistant Secretary of Defense (Health Affairs) that provides health care to active duty and retired
military personnel and their family members. To ensure that DoD provides quality patient care to DoD beneficiaries,
the DCIOs have aggressively pursued health care investigations involving “harm to patient,” corruption, kickbacks,
and allegations with significant TRICARE impact. Investigations highlighting their success follow.

As the result of a joint DCIS and HHS OIG investigation, a civil settlement was reached to pay the U.S. Government
$1.2 million. Loma Linda Behavioral Medical Center (LLBMC) overbilled federal insurance programs, to include
TRICARE from 1992-1996. The investigation of LLBMC was part of a larger investigation involving Health Financial
Advisors, Inc. As the result of a joint investigation conducted by DCIS, HHS, DoL, FDA, FBI, DEA, and IRS,
Purdue Pharma LLC and three executives were charged with misbranding the highly addictive drug OxyContin. The
false claims were not approved by the FDA, whose approval TRICARE requires before authorizing pharmacy drug
benefits. All pled guilty to one count of misbranding a drug with the intent to defraud or mislead, and agreed to pay
a total of $377 million in fines, forfeitures, and restitution.


                                           Other Significant Activities


DCIS Joins the Department of Justice Asset Forfeiture Program
....................................................................................................................................................................................
During this reporting period, DCIS became a full participant in the Department of Justice (DoJ) Asset Forfeiture
Program (AFP). By doing so, DCIS joins 11 other Federal law enforcement agencies in a program that allows
participating agencies to seize property related to certain violations of law and to process them through the judicial
system for forfeiture to the DoJ AFP fund. The Attorney General’s guidelines note three primary goals of asset forfeiture:
(1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities;
(2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through the equitable
sharing of assets recovered through this program; and, (3) to produce revenues to strengthen law enforcement. Some
of the types of crime subject to asset forfeiture include mail fraud, wire fraud, bribery, theft from interstate commerce,
money laundering, and conspiracy to commit those crimes. DCIS investigates these types of crime when a nexus to
the Department of Defense exists.


80
                                                                                                                                          Semiannual Report to Congress
DoD IG
Outreach
                              Congressional Testimony

Section 4(a) of the Inspector General Act requires the Inspector General “to review existing and proposed legislation and
regulations relating to the programs and operations of [the Department of Defense]” and to make recommendations
“concerning the impact of such legislation or regulations on the economy and efficiency in the administration of
programs and operations administered or financed by [the Department] or the prevention and detection of fraud and
abuse in such programs and operations.” The DoD IG is given the opportunity to provide information to Congress
by participating in congressional hearings and briefings. During this reporting period, the DoD IG has testified four
times before Congress, specifically:

•    On September 20, 2007, Mr. Thomas F. Gimble, Principal Deputy Inspector General, Department of Defense,
     testified before the House Armed Service Committee regarding “Accountability During Contingency Operations:
     Preventing and Fighting Corruption in Contracting and Establishing and Maintaining Appropriate Controls on
     Materiel.” Mr. Gimble described the Inspector General led assessment related to the accountability of weapons,
     munitions, and explosives, as well as, general contracting issues. Mr. Gimble discussed the immediate objective of
     the assessment team, which was to assess the effectiveness and efficiency of the management and accountability of
     munitions (weapons, ammunition, and explosives) in Iraq and Afghanistan.
•    On June 19, 2007, Mr. Thomas F. Gimble, Principal Deputy Inspector General, Department of Defense, testified
     before the House Committee on the Judiciary, Subcommittee on Crime, Terrorism, and Homeland Security
     regarding “War Profiteering and Other Contractor Crimes Committed Overseas.” Mr. Gimble, described the
     Inspector General oversight mission, to include establishing an in-theater oversight presence and improving
     interagency coordination to minimize duplication within the oversight community to include participation in the
     Iraq Inspectors General Council. Mr. Gimble further detailed the accomplishments and current ongoing audits,
     evaluations and investigations.
•    On April 24, 2007, Mr. Thomas F. Gimble, Principal Deputy Inspector General, Department of Defense, testified
     before the House Committee on Oversight and Government Reform regarding “Investigations by the Office of
     the Inspector General, Department of Defense, concerning the Death of Corporal Patrick Tillman and the Rescue
     of Private First Class Jessica Lynch.” The DoD IG report regarding the death of CPL Tillman, found that each
     of the three previous Army investigations established the basic facts of CPL Tillman’s death; however, each of the
     investigations were deficient, and thereby contributed to misunderstandings and perceptions of concealment.
     Regarding PFC Lynch, Mr. Gimble reported that the United States Central Command Inspector General found
     no evidence that any U.S. military member exhibited inappropriate or dishonorable behavior in connection with
     the rescue mission.
•    On April 24, 2007, Mr. Thomas F. Gimble, Principal Deputy Inspector General, Department of Defense, testified
     before the Permanent Subcommittee on Investigations of the Senate Committee on Homeland Security and
     Governmental Affairs on “Transit Benefits: How Some Federal Employees are Taking Uncle Sam for a Ride.” The
     hearing addressed allegations of abuse of the Federal Transit Benefit Program by federal employees and the need
     for improved internal controls to prevent abuse. Mr. Gimble described the work the IG is performing to assess the
     effectiveness of internal controls for this program.
•    On March 27, 2007, Mr. Claude M. Kicklighter testified before the Senate Armed Services Committee during
     his confirmation hearing to be DoD IG. During the hearing Mr. Kicklighter set the tone for his time as Inspector
     General by stating “I look forward to joining the IG family, and together, will continue to build the IG team that
     our troops, their families, the Department of Defense and this Congress and the American people have a right to
     expect.” The Senate Armed Services Committee favorably reported the nomination of Mr. Kicklighter on March
     28, 2007 and was confirmed by the United Stated Senate on April 12, 2007.
82
                                                                                            Semiannual Report to Congress
                                                            Defense Hotline

The DoD Hotline continues its primary mission of providing a reliable means for DoD civilian and contractor
employees, military service members, and the public to report fraud, waste, mismanagement, abuse of authority,
threats to homeland security and leaks of classified information for the Department of Defense. The DoD Hotline
offers both confidentiality and protection against reprisal.

The DoD Hotline receives allegations from around the world via email, Internet, U.S. mail, fax, and telephone.

DISTRIBUTION OF HOTLINE CASES BY CATEGORY FOR FY 2007
....................................................................................................................................................................................

• Internal Misconduct (314)
• Reprisal (254)
• Contract Administration (251)
• Finance and Accounting (229)
• Government Property (146)
• Programs/Projects (142)
• Personnel Actions(59)
• Procurement (53)
• Security (52)
• Medical (44)
• Other (31)
• Non-Appropriated Fund (19)
• Military Support Services (15)
• Improper Mental Health Evaluation (3)

SIGNIFICANT HOTLINE CASES
....................................................................................................................................................................................

Waste and Violation of the Joint Federal Travel Regulation

The complainant alleged that personnel were not placed on appropriate orders (Permanent Change of Station (PCS)/
Temporary Duty (TDY)) for various training courses. This resulted in personnel improperly drawing full per diem
when they were only entitled to PCS rates. The Hotline inquiry substantiated that personnel attending the same
course were improperly placed in various different status. The military service rectified the problem by giving the
National Guard the lead in selecting the best COA to minimize cost and maximize training.

Improper Receipt of Military Benefits

An anonymous source reported that a finance officer and service member were receiving basic allowance for housing
(BAH) benefits they were not authorized. During investigation into the matter the service member admitted to
receiving unauthorized BAH while residing in government quarters which resulted in a loss to the Government of
$22,042. The service member received punishment under the Uniform Code of Military Justice and was required to
pay back all monies received without authorization.
                                                                                                                                                                                83
Department of Defense Inspector General
Flawed Debt Collection Process

An anonymous source questioned the Department of Defense debt collection process after relating their failure to
collect a debt from a Defense contractor. A review determined a demand letter was issued and the contractor attempted
to satisfy the debt, however the checks were returned for insufficient funds. The Hotline continued contact with the
debt collection agency and an installment debt payment was established. To date, $557,897 of the $798,323 has been
repaid.

Ethics Violation

The Hotline received a complaint alleging an officer directed soldiers to perform manual labor for private organizations
in exchange for command endorsement and monies (in connection with a volleyball tournament.) The Hotline
investigation confirmed the directions service members received from a superior officer appeared as orders and thus
violated the Joint Ethics Regulation by encouraging or requesting the subordinate service members use official time to
perform activities other than those required in the performance of official duties. The investigation further determined
the unit received a payment from a private corporation for services rendered by the service members. The payment of
$48,000 was transferred to the U.S. Treasury.

Kickback Scheme involving a DoD Contractor

The Defense Hotline received an anonymous complaint alleging the presence of a kickback scheme involving over 30
individuals from corporate officers and employees of that company, along with related corporate entities, on contracts
involving the Department of Defense. The kickback scheme involved charges for work not performed, writing off
personal expenses for business expenses, percentage of sales to company principals, the use of leased cars and credit
cards, inflated charges, fictitious invoices, etc. A grand jury indicted the individuals on over fifty criminal violations
including conspiracy to commit racketeering, misconduct by a corporate official, filing or preparing false or fraudulent
tax returns, failure to file a report, and failure to file a gross income tax return. The indictments resulted in over
$400,000 in fines and settlement costs, 80 years prison time, 34 years probation, 240 hours community service, and
debarment from government contracting.

Abuse of Authority, Government Personnel and Resources

The Hotline received a complaint alleging the director of a Defense agency used a spare room in an agency warehouse
to install a bowling alley for recreation. The director approached an employee for the installation that declined,
however, was later directed by his immediate supervisor to construct the bowling lane during official hours. The
director violated 5 CFR 2635.705(b) and received a suspension for his actions. The employee’s supervisor received a
letter of admonishment for his actions.

Misuse of Personnel and Resources

The DoD IG found that a former high ranking military officer exhibited a disregard for the proper use of staff and
conserving Government resources when he required his subordinates to perform personal services for him on many
occasions during official duty hours. The offenses also included having his subordinates tow his personal boat after
business hours, deliver family member income tax returns to a tax office, picking up medical prescriptions, laundry,
and asking his secretary to research nursing homes for his family, and coordinate his weekend golf outings. These
actions violated 5 CFR 2635.702 and 2635.705(b).

84
                                                                                             Semiannual Report to Congress
Significant Hotline Initiatives
....................................................................................................................................................................................

Online Services

The Internet Hotline Poster Site gives customers the ability to efficiently request Hotline publicity materials and
download Hotline posters. This reduces both staff hours and mailing expenses resulting in a significant cost savings
for the Department. Defense Hotline responded to 792 requests from DoD contractors and the military services for
IG DoD Hotline fraud, waste and mismanagement posters during FY 2007.

An electronic complaint form is available worldwide to DoD personnel and the public 24 hours daily, seven days a
week via the Internet. Our online complaint form is completed online and submitted electronically to the Hotline
for processing.


                                                              DoD IG Website

The DoD IG Web Team plays a vital role in informing the public, Congress and the military about the agency’s
mission, accomplishments and ongoing efforts in areas such as the Global War on Terror (GWOT). A special section
devoted to GWOT was designed by the Web Team and includes information on completed, ongoing and planned
audits, inspections and evaluations, as well as information about the efforts of the Defense Criminal Investigative
Service (DCIS) targeting fraud, waste and abuse in Southwest Asia. Part of that web outreach effort included the
development of an on-line DoD Hotline poster request form and download page, where in-theater military and
civilian contractor personnel can download posters specifically designed for Southwest Asia operations. This not only
cut down on delivery time, but also made high resolution posters available instantaneously.

In keeping with its goal of “transparent accountability,” the DoD IG website also features an extensive Freedom of
Information Act (FOIA) section, where requests can be made on-line, and Pressroom section containing links to all
report sections as well as a special section titled “Frequently Requested Documents” where members of Congress, their
staffs, reporters and the general public can access high-interest documents as soon as they are posted.

Statistics
.................................................................................................................
• During this six-month reporting period, 214,292 visitors logged onto DoD
IG public website (1171 visitors per day). Visitors who visited once were
173,990 (81.2%) and visitors who visited more than once were 402,302
(18.8%).
• In addition to the United States, visits were made by viewers from 187
other countries.
• The most frequently visited pages were Defense Criminal Investigative
Service, Careers, Audit Reports, and Defense Hotline.
• Fraud, Waste & Abuse Complaints On-Line Complaint Form was visited
8,100 times
• Freedom of Information Act request on-line form was visited 552 times.

                                                                                                                                                                                85
Department of Defense Inspector General
                Georgetown University Master’s Program


                                                                              The DoD IG has sponsored a
                                                                              Masters Degree Program in Policy
                                                                              Management, in partnership with
                                                                              Georgetown University, for its
                                                                              employees since 2004.

                                                                              The employees in the first and second
                                                                              programs have graduated. A third
                                                                              class will graduate in 2008 and the
                                                                              fourth will graduate in 2009.

                                                                          It has been a highly successful
                                                                          educational program.         Courses
                                                                          such as U.S. Public Policy Process;
                                                                          Leadership and Innovation in
                                                                          Public Management; Defense and
                                                                          Foreign Policy; Public Budgeting and
                                                                          Congressional Oversight; and Ethics
and Values in Public Management have been part of the program. Courses are conducted at Georgetown University
with one course conducted on Capitol Hill.

When the first program proved to be so successful, other oversight community agencies were invited to participate.
The present two program groups consist of members of the President’s Council on Integrity and Efficiency (PCIE),
Executive Council on Integrity and Efficiency (ECIE), and Defense Council on Integrity and Efficiency (DCIE).
Each of the present programs has two sections to accommodate the number of participants.

At present, participating agencies are the U.S. Army Audit Agency, U.S. Air Force Audit Agency, Central Intelligence
Agency, Department of Labor, Department of Homeland Security, Department of the Interior, Defense Contract
Management Agency, Defense Intelligence Agency, Naval Criminal Investigative Services, National Reconnaissance
Office, Pension Benefit Guaranty Corporation, U.S. Army
Inspector General Agency, and the U.S. Army Criminal
Investigation Command.

DoD IG has an Educational Support Agreement with
Georgetown University that has resulted in discounted
tuition rates and savings of over $2.3 million to educate its
employees, to date. The other oversight agencies have also
received the same discounted tuition rates and corresponding
tuition savings. Since the program’s inception, a total of
157 employees from the DoD IG and the other 13 oversight
agencies have participated.


86
                                                                                         Semiannual Report to Congress
                                                    PCIE and ECIE Activities


                                                        The President’s Council on Integrity and Efficiency (PCIE) and the Executive
                                                        Council on Integrity and Efficiency (ECIE) were established by Executive Order
                                                        12805 to address integrity, economy, and effectiveness issues that transcend
                                                        individual Government agencies, and increase the professionalism and effectiveness
                                                        of IG personnel throughout the Government. Presidentially appointed IG’s are
                                                        members of the PCIE and the DoD IG is an active participant in the PCIE,
                                                        serving on the PCIE Audit Committee and PCIE Executive Council, and as
                                                        chair of the PCIE IT Committee. Furthermore, the Deputy IG for Auditing is
                                                        currently serving as the chair of the Federal Audit Executive Council (FAEC), a
                                                        subgroup of the PCIE and ECIE, and chaired the 2007 FAEC Conference.

                                                        FAEC Annual Conference
                                                        ........................................................................................................................

                                     The Federal Audit Executives Council held this year’s annual conference on August
                                     8 to 10, 2007. The conference, attended by nearly 100 Federal Audit Executives
                                     from 38 different agencies, was held at the Founder’s Inn Conference Center.
                                     The conference focused on Information Technology challenges and issues that
                                     face the Federal audit community. Presentations were made by 15 guest speakers
                                     from the Federal sector, the private sector, and various councils. In addition
                                     to IT topics, a panel of IGs discussed independence issues facing the oversight
                                     community, the GAO provided an update on the revised auditing standards,
the Department of Justice discussed current cybercrime initiatives, an expert in the field of Knowledge Management
provided tips on ways to better share information within our Agencies, and participants completed an exercise which
identified their conflict management style. The conference was chaired by the Deputy Inspector General for Auditing
Ms. Mary L. Ugone.


PCIE Information Technology Committee
....................................................................................................................................................................................

To address the many concerns shared by the IG community regarding information technology, the PCIE established
the PCIE Information Technology Committee with the mission to facilitate effective information technology
audits, evaluations, and investigations by Inspectors General, and to provide a vehicle for the expression of the IG
community’s perspective on Government-wide IT operations. The DoD IG was appointed to be the first chair of
this new committee and on April 16, 2007, at the PCIE/ECIE Annual Conference, Principal Deputy Inspector
General Thomas Gimble gave a speech titled, “Information Technology Issues and the Establishment of the PCIE IT
Committee.” Quarterly meetings of this newly formed committee were held in May and July, 2007, and two sub-
committees have been established: Audit and Evaluation, and Investigations. The DoD IG has also established a new
website for the committee at www.dodig.mil/pcie-it.


                                                                                                                                                                                   87
Department of Defense Inspector General
                                                               DCIE Activities

The Defense Council on Integrity and Efficiency (DCIE) is patterned after the President’s Council on Integrity and
Efficiency. The DCIE is chaired by the DoD IG and meets on a quarterly basis to discuss issues of common interest
and build closer working relationships among members of the oversight community within the Department. Key
topics discussed during these meetings included the joint DoD IG and Department of Veterans Affairs IG evaluation
of the transition of members of the military from DoD health care to VA health care; evaluation of the DoD Safety
Program; and initiatives related to the Global War on Terror and corresponding operations in Southwest Asia. A
number of guest speakers provided remarks and briefings in the interest of sharing knowledge and best practices,
including remarks by the IG of the Afghan National Army, MG Jalander Shah; a mission briefing by the Deputy
Director of the Defense Contract Audit Agency, April Stephenson; and a briefing on the Acquisition Integrity Team
concept by the Auditor General of the Navy, Richard Leach.

DCIE Inspections and Evaluations Roundtable
....................................................................................................................................................................................

The Defense Council on Integrity and Efficiency Inspections and Evaluations Roundtable provides a forum for
communication, coordination and collaboration among Department of Defense Inspectors General Inspections
and Evaluations organizations. The Roundtable is chaired by the Assistant IG for Inspections and Evaluations and
attended by representatives of the DoD IG, Service IG’s, National Guard Bureau IG, and Defense Agency IGs.
Topics discussed during these sessions included briefings on IG activities and evaluations, such as, review of the
Randolph-Sheppard Act / Javits-Wagner-O’Day Act as being applied to military dining facility contracting, the results
of the CY2006 Federal Voting Assistance Program evaluation, updates on the on-going DoD Safety evaluation, and
munitions accountability efforts in Southwest Asia.


                                            Speeches and Conferences

EUCOM IG Conference
....................................................................................................................................................................................

Inspector General Kicklighter gave a presentation at the EUCOM
IG Conference held at the George C. Marshall European Center for
Security Studies in Garmisch, Germany on September 5, 2007. The
topic of the presentation was “Integrity, Transparency, and Oversight of
the Inspector General system.” Inspector General Kicklighter discussed
the roles of the Government and Defense oversight communities, as
well as highlighting work and significant accomplishments of the DoD
IG Audit and Investigative components. Also in attendance at the
conference were the Department of the Army Inspector General LTG
Stanley E. Green, EUCOM Deputy Commander GEN William E.
Ward, and the Director of the Marshall Center Dr. John Rose.


88
                                                                                                                                          Semiannual Report to Congress
Information Exchange with U.S. Joint Forces Command
....................................................................................................................................................................................

On August 7 and 22, 2007, a team of eight senior officials from Inspections and Evaluations visited the directors
and staffs of the USJFCOM J-9 Futures Group and the Joint Center for Operational Analysis Directorate to discuss
the implications of National Security Presidential Directive-44, “Management of Interagency Efforts Concerning
Reconstruction and Stabilization,” and DoD Directive 3000.05, “Stabilization, Security, Transition, and Reconstruction
(SSTR),” on Joint doctrine and operations. A key area of discussion centered on how the Department of Defense
captures, evaluates, and disseminates lessons learned. Of particular interest was DoD IG’s lessons learned project that
will chronicle Inspections and Evaluation experience with mentoring and training Iraqi ministerial inspectors general
and assisting them build a viable, stable, and self-sustaining IG system. This example and others can be used as part
of DoD’s portfolio for SSTR doctrine and operations.


DoD Senior Professional Women’s Association
....................................................................................................................................................................................
Inspector General Kicklighter addressed members of the DoD Senior Professional Women’s Association (SPWA) as
the keynote speaker at their Excellence in Leadership Recognition Ceremony. The theme was “Leadership is Action,
Not Just a Position.” Inspector General Kicklighter discussed leaders whose lives have been an inspiration to him and
his own personal views that have sustained him during leadership challenges. Michael Peterson, a multiple Grammy
award nominee who travels the world entertaining the troops, was also a speaker at the event. With the U.S. Army
as his sponsor, Michael will begin a nation-wide “Answer the Call” tour in January 2008. Elaine Rogers, President of
the USO-Metro, was the 2007 recipient of the DoD SPWA Excellence in Leadership Award. She has implemented
many programs that have supported our troops during the past 33 years. The ceremony offered an opportunity for the
women of the SPWA to network, recognize outstanding leaders, and listen to speakers.


Military Comptrollers Conference
....................................................................................................................................................................................

Approximately 225 members of the American Society of Military Comptrollers
(ASMC) recently had the opportunity to hear first-hand how the Department
of Defense Office of Inspector General (DoD IG) detects fraud through audits
and investigations.

The group was addressed by Ms. Mary L. Ugone, the Deputy Inspector General
for Auditing, and Mr. Charles Beardall, Director of the Defense Criminal
Investigative Service (DCIS), on May 31, 2007, at the ASMC annual Professional
Development Institute (PDI) in Kansas City, MO. Ms. Ugone and Mr. Beardall
spoke about case histories in fraud auditing and investigations. DCIS is the
criminal investigative arm of the DoD IG. More than 3,400 participants from
around the world attended the PDI, representing a wide variety of disciplines
in the resource management community to include budgeting, accounting, cost
analysis, and internal review.



                                                                                                                                                                                89
Department of Defense Inspector General
Anti-Terrorism Conference
...................................................................................................................................................................................
The Defense Criminal Investigative Service (DCIS), the criminal investigative arm of the DoD IG, helped sponsor a
corporate anti-terrorism conference in St. Louis, MO, held May 29 to30, 2007. Other sponsors included the U.S.
Attorney’s Office for the Eastern District of Missouri (EDMO); the EDMO Anti-Terrorism Advisory Council of St.
Louis; the Federal Bureau of Investigation (FBI); the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); and
the U.S. Secret Service; as well as state and local law enforcement agencies and local corporations. Security officials
from a number of Missouri companies, including Defense contractors, attended the two-day conference. Presentations
focused on terrorism, but other topics were also discussed including computer security and fraud, security against
bomb threats and other crimes affecting national security.


DoD/GAO Community Roundtable
...................................................................................................................................................................................
                                                                                            Department of Defense Acting Inspector General Thomas
                                                                                            F. Gimble hosted the 2007 Government Accountability
                                                                                            Office (GAO)/Inspectors General (IG) Community
                                                                                            Roundtable in Arlington, VA, on April 23, 2007. The
                                                                                            four-hour roundtable brought together 70 GAO and
                                                                                            DoD executives including service auditors general, defense
                                                                                            agency inspectors general, and combatant command
                                                                                            inspectors general, as well as senior DoD IG officials.
                                                                                            The Honorable David Walker, Comptroller General of
                                                                                            the United States, delivered the keynote address entitled,
                                                                                            “DoD Transformation, Challenges and Opportunities.”
                                                                                            Ms. Wanda Scott, DoD Assistant Inspector General
                                                                                            for Readiness and Operations Support, delivered a
                                                                                            presentation on “The Inspector General and the Global
                                                                                            War on Terror,” which focused on the full spectrum of
inspector general oversight on terrorism-related issues. The presentations were followed by a discussion focusing on
DoD’s designated high risk areas and the joint planning group coordination process.



                                                              DoD IG Awards

100 Most Influential Hispanics Award
...................................................................................................................................................................................
Hispanic Business Magazine has named Defense Criminal Investigative Service Director Charles W. Beardall to its
2007 list of “100 Most Influential Hispanics.” Director Beardall, a native of the Republic of Panama, is featured in the
October 2007 edition of Hispanic Business in a special section titled “The Stars Align: Trail Blazers, Headline Makers
on 2007 List Set Example for Others.” With a total audience of more than one million readers, Hispanic Business
reaches CEOs, business owners, corporate decision makers and professionals in all sectors, including business, law,
accounting, healthcare, government and engineering.


90
                                                                                                                                         Semiannual Report to Congress
2007 Presidential Rank Award
....................................................................................................................................................................................

The President has publicly recognized Ms. Mary L. Ugone, Deputy Inspector General for Auditing, Department
of Defense Office of the Inspector General, by selecting her to receive the prestigious 2007 Meritorious Executive
Presidential Rank Award. Recipients of the award are “nominated by their agency heads, evaluated by boards of private
citizens, and approved by the President.” Winners are recognized as “strong leaders, professionals…who achieve results
and consistently demonstrate strength, integrity, industry, and a relentless commitment to excellence and service.”
Ms. Ugone was selected into this elite group of career members of the Senior Executive Service (SES), Senior-Level
(SL) and Scientific and Professional (ST) corps by the President for her exceptional leadership, accomplishments and
service. This award is one of the highest civilian awards in Government service.


Blacks in Government Award
....................................................................................................................................................................................
Ms. Wanda A. Scott, Assistant Inspector General for Readiness and Operations Support, has received the 2007 Blacks
in Government Department of Defense Meritorious Service Award. The presentation was made at the Blacks in
Government Annual Conference on August 17, 2007. Ms. Scott was one of 13 military and civilian awardees from
the DoD recognized for distinguishing themselves in the GWOT and for outstanding accomplishments in human
relations, equal opportunity, and civil rights. She played a major role in the development, resourcing, and staffing of
forward deployed field sites in Qatar, Iraq, and Afghanistan that perform oversight of Operations Enduring Freedom
and Iraqi Freedom. Through her commitment to improve the diversity posture of her organization, Ms. Scott increased
diversity among her own staff. Her efforts resulted in over 15 percent minority growth within the Readiness and
Operations Support Directorate.


PCIE/ECIE Awards
....................................................................................................................................................................................

                                                     Department of Defense Office of Inspector General (DoD IG) investigators,
                                                     auditors and evaluators were recognized for their efforts to fight fraud, waste and
                                                     abuse at the 10th Annual Awards Ceremony of the President’s Council on Integrity
                                                     and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency
                                                     (ECIE). Mr. Richard B. Jolliffe, DoD Assistant Inspector General for Acquisition
                                                     and Contract Management, was presented with the Glen/Roth Exemplary Service
                                                     Award from the PCIE/ECIE. Mr. Jolliffe was recognized for his “outstanding service
                                                     to Congress through his relentless pursuit of legislation to improve the effectiveness
                                                     of Department of Defense acquisitions.”

                                                     The DoD IG also received the Sentner Award for Dedication and Courage in
                                                     recognition of its forward deployed presence in Southwest Asia. The award is
                                                     named in honor of Special Agent William “Buddy” Sentner, III, of the Department
                                                     of Justice Office of the Inspector General who was killed in the line of duty in 2006.
                                                     This is the first time the Sentner Award has been presented.



                                                                                                                                                                                91
Department of Defense Inspector General
Other DoD IG awards recipients at the PCIE/ECIE Awards Ceremony
included:

• Award for Excellence, Audit, presented to the Nuclear/National
Command and Control Support to the President Team in recognition
of exceptional performance while completing the Audit of Nuclear/
National Command and Control Support to the President.
• Award for Excellence, Audit, presented to the Interagency Contracting
Audit Teams in Recognition of Exceptional Performance for the Audits
on DoD Use of Interagency Contracting.
• Award for Excellence, Audit, presented to the Financial Information
Resource System Team in recognition of major audit contributions in
minimizing the effects of acquisition decisions made by the former
Principal Deputy for the Assistant Secretary of the Air Force for Acquisition and Management.
• Award for Excellence, Investigation, presented to Operation Top Gun in recognition of exceptional performance by
Operation Top gun investigation team.
• Award for Excellence, Investigation, presented to the Boeing Procurement Fraud Task Force in recognition of
exceptional performance during the investigation of the Boeing Corporation.
• Award for Excellence, Investigation, presented to Special Agent Michael P. Thompson, Defense Criminal Investigative
Service, for outstanding investigative achievement in support of the Iraq/KBR Task Force.
• Award for Excellence, Evaluations, presented to the Pre-Iraqi War Activities Review Team in recognition of exceptional
performance while completing the Review of Pre-Iraqi War Activities of the Office of the Under Secretary for Policy.
• Award for Excellence, Multiple Disciplines, presented to the Joint Audit / Investigation of TRICARE Overseas
Program Fraud in recognition of the exceptional performance on a Department of Defense Inspector General
Collaboration between the Defense Criminal Investigative Service and IG Audit of TRICARE Overseas Program
Fraud in the Philippines.

DoD IG personnel also served on other IG teams that received awards. They include:

• Award for Excellence, Investigation, presented to the NASA, DCIS, TIGTA and DOE Investigative Team for M&M
International Aerospace Metals Fraud in recognition of outstanding inter-agency teamwork in uncovering a complex
scheme that could have directly impacted the safety and well-being of astronauts and citizens.
• Award for Excellence, Investigation, presented to the U.S. Department of Treasury Financial Crimes Team in recognition
of exceptional interagency teamwork and outstanding performance in implementing the proactive Improper Payments
Initiative (IPI), which is aimed at identifying and prosecuting those individuals who have fraudulently received federal
benefit payments.
• Award for Excellence, Multiple Disciplines, presented to the Interagency Export Controls Working Group in
recognition of exceptional performance during the Interagency OIG Review of U.S. Export Controls for China.
• Award for Excellence, Multiple Disciplines, presented to the Information Sharing Subgroup, Disaster Recovery
Working Group in recognition contributions to lessons learned following Hurricane Katrina and for continuing
efforts to pursue PCIE/ECIE-wide improvements to better prepare for future catastrophic events.
• Award for Excellence, Multiple Discipline, presented to the Department of State / Department of Defense Inspectors
General in recognition of the Interagency Assessment of the Afghanistan Police Training and Readiness Program.




92
                                                                                            Semiannual Report to Congress
DoD IG
Components
                                                                       Auditing

The Office of the Deputy Inspector General for Auditing (ODIG-AUD) conducts audits on all facets of DoD Operations.
The work results in recommendations for reducing costs, eliminating fraud, waste, and abuse of authority, improving
performance, strengthening internal controls, and achieving compliance with laws, regulations, and policies. Audit
topics are determined by law, requests from the Secretary of Defense and other DoD leadership, Hotline allegations,
congressional requests, and internal analyses of risk in DoD programs.

DoD Audit Community
....................................................................................................................................................................................

                                                       As a whole, the organizations issued 259 reports, which identified
                                                       the opportunity for almost $2.44 billion in monetary benefits. The
                                                       Defense Contract Audit Agency (DCAA) provided financial advice to
                                                       contracting officers in 19,041 audits during the period. The contract
                                                       audits resulted in over $6.7 billion in questioned costs and funds that
                                                       could be put to better use. Appendix D contains the details of the
                                                       audits performed. Contracting officers disallowed $363.0 million
                                                       (69.2 percent) of the $524.7 million questioned as a result of significant
                                                       post-award contract audits during the period. The contracting officer
                                                       disallowance rate of 69.2 percent represents a significant increase from
                                                       the disallowance rate of 45.6 percent for the prior reporting period.
                                                            The number of overage audits increased by 1.5 percent to 1,057;
Air Force Audit Agency personnel with Lt General North
                                                            however, the total questioned costs decreased by 9.4 percent to
during a mobility bag audit at Al Dhafra Air Base.          $2.3 billion. Additional details of the amounts disallowed are
                                                            found in Appendix E.

Audit Significant Open Recommendations
....................................................................................................................................................................................

Managers accepted or proposed acceptable alternatives for 97 percent of the 456 DoD IG audit recommendations
rendered in the last 6 months of FY 2007. Many recommendations require complex and time consuming actions, but
managers are expected to make reasonable efforts to comply with agreed upon implementation schedules. Although
most of the 1062 open actions on DoD IG audit reports being monitored in the follow-up system are on track for
timely implementation, there were 210 reports more than 12 months old, dating back as far as 1994, for which
management has not completed actions to implement the recommended improvements.

Significant open recommendations that have yet to be implemented include the following:

• Recommendations made in 1997 and subsequent years to make numerous revisions to the DoD Financial
Management Regulations; clarify accounting policy and guidance; improve accounting processes, internal controls
over financial reporting, and related financial systems compliance have resulted in initiatives that are underway to
correct financial systems deficiencies and enable the Department to provide accurate, timely, and reliable financial

94
                                                                                                                                          Semiannual Report to Congress
statements. In addition, a recent (March 2006) audit report states that implementation of Army accounting systems
needed to eliminate more than $72.2 billion in unsupportable accounting adjustments and $1.2 trillion in unresolved
abnormal balances has been delayed for another year. Originally scheduled for implementation in September 2005,
the Defense Departmental Reporting System – Budgetary (part of the Business Enterprise Information Services) now
has a June 2008 estimated completion date for testing and validation to ensure that abnormal balances and year-end
balances are correctly processed and reported.

• Recommendations from multiple reports in the high-risk area of personnel security. Some of the most significant
of these include: development of a prioritization process for investigations; establishment of minimum training and
experience requirements and a certification program for personnel granting security clearances; issuance of policy on
the access by all contractors, including foreign nationals, to unclassified but sensitive DoD IT systems; establishment
of policy on access reciprocity and a single, integrated database for Special Access Programs; implementation of steps
to match the size of the investigative and adjudicative workforces to the clearance workload; development of DoD-
wide backlog definitions and measures; monitoring the backlog using the DoD-wide measures; and improvement of
the projections of clearance requirements for industrial personnel. Progress on the unprecedented transformation of
the personnel security program is slow but steady. Implementation of multiple report recommendations pending the
issuance of revised DoD Regulation 5200.2-R, “Information Security Program.”

• Recommendations made in 2004 to define network centric warfare and its associated concepts; formalize roles,
responsibilities, and processes for the overall development, coordination, and oversight of DoD network centric warfare
efforts; and develop a strategic plan to guide network centric warfare efforts and monitor progress. DoD guidance
has been updated to reflect relevant definitions that have been developed. Limitations in funding have necessitated
deferring revisions to the applicable DoD Directive and Instruction until FY 2008, and ongoing experiments have
delayed development of the strategic plan.

• Recommendations made in 2004 to clarify guidance on the differences between force protection and antiterrorism in
DoD policies and procedures. DoD revised its applicable guidance in October 2006. The Services are now in process
of updating their corresponding guidance.

• Recommendations made in 2003, 2004, and 2005 to address issues regarding information systems security
including completion of the information security certification and accreditation process for various DoD systems
and development of an adequate Plan of Action and Milestones to resolve critical security weaknesses. These actions
need to be completed to address requirements of the Federal Information Security Management Act and related OMB
guidance. Although some actions have been initiated, they are not adequate to correct the identified deficiencies, nor
have they been adequately incorporated in the revision to the applicable instruction.

• Recommendation made in 2004 in the Health Care issue area. This addresses improvement in the acquisition of
direct care medical services including putting into place the structure and processes required to more effectively and
efficiently employ contract medical personnel throughout the Military Health System. Implementation is ongoing.

• Recommendations made in 2004, 2005 and 2006 regarding the Performance-Based Logistics Program (PBL) that
include: establishing requirements related to the PBL process for reporting and institutionalizing a common data
collection and reporting system to include Life Cycle Sustainment Metrics and Special Interest Items; issuing policies
and procedures for implementation of PBL to include preparation of a business case analysis; establishing policy on
Performance Based Agreements (PBA); and improving the scope and objectivity of PBAs in order to continuously
improve warfighter support in conjunction with overall weapon system performance. Progress is being made but the
actions are not complete.
                                                                                                                    95
Department of Defense Inspector General
                                                              Investigations
The Office of the Deputy Inspector General for Investigations (ODIG-INV) comprises the criminal and the
administrative investigative components of the DoD IG. The Defense Criminal Investigative Service (DCIS) is the
criminal investigative component of the DoD IG. The non-criminal investigative units include the Directorate for
Investigations of Senior Officials (ISO), the Directorate for Military Reprisal Investigations (MRI), and the Directorate
for Civilian Reprisal Investigations (CRI).

                        Defense Criminal Investigative Service

                                                     DCIS is tasked with the mission to protect America’s warfighters by conducting
                                                     investigations in support of crucial national defense priorities. DCIS conducts
                                                     investigations of suspected major criminal violations focusing mainly on terrorism,
                                                     product substitution/defective parts, cyber crimes/computer intrusion, illegal
                                                     technology transfer, and other crimes involving public integrity including bribery,
                                                     corruption, and major theft. DCIS also promotes training and awareness in all
                                                     elements of the DoD regarding the impact of fraud on resources and programs by
                                                     providing fraud awareness presentations.



Reportable Judgments
...................................................................................................................................................................................

During this reporting period, investigations conducted by the DCIS returned over $619 million
to the U.S. Government through criminal, civil, and administrative judgments. Reportable
judgments on health care investigations accounted for over $106 million. These judgments
resulted from a total of five investigations involving individual health care providers, hospitals and
health care systems, and pharmaceutical companies. One single investigation accounted for $101
million. Public corruption investigations accounted for over $5.5 million of the returned monies.
One single investigation accounted for $1 million. Financial crime and procurement fraud, to
include defective products, accounted for over $3.6 million of the returned monies. One single
investigation accounted for $407,000.


                                    Investigations of Senior Officials
The DoD IG Directorate for Investigations of Senior Officials conducts investigations into allegations against senior
military and civilian officials and performs oversight of senior official investigations conducted by the military
departments. Figures 1 and 2 (page 97) show results of activity on senior official cases during the last 6 months of
FY 2007. On September 30, 2007, there were 213 ongoing investigations into senior official misconduct throughout
the Department, representing a slight increase from April 1, 2006, when 183 open investigations was reported. Over
the past 6 months, the Department closed 177 senior official cases, of which 25 (14 percent) contained substantiated
allegations.

96
                                                                                                                                          Semiannual Report to Congress
            Figure 1: Nature of Substantiated Allegations Against
                    Senior Officials During 2nd Half FY 07



                                                         Failure to Act
        Other
                                                              17%
      Misconduct
         23%
                                                                                                            Abuse of
                                                                                                            Authority
                                                                                                              19%




                                                                                               Sexual
                       Misuse/Waste                                                         Improprieties
                         of Govt                                                                11%
                        Resources
                           26%

			                        177 Cases Closed 	                                   25 Substantiated
                           Figure 2: DoD Total Senior Offical Cases
                                       FY 2002 - FY 2007

   600                                                                               This chart shows the total number of
                                                                                     senior official investigations conducted
               503
                                                         489                         in DoD over the past six fiscal years.
   500               460          466              472
                                                                    503
                                                                          468
                                        427                                                      416

   400
                                                                                           327              326 324

   300

   200
                                                                                86
   100                     70
                                              57               52
                                                                                                       73
                                                                                                                      46


       0
                 FY02              FY03             FY04             FY05                   FY06             FY07

                                        Opened           Closed           Substantiated
                                                                                                                                97
Department of Defense Inspector General
                                  Military Reprisal Investigations

The DoD IG Directorate for Military Reprisal Investigations (MRI) conducts investigations and performs oversight of
investigations conducted by the Military Department and Defense Agency IGs. Those investigations pertain to:

• Allegations that unfavorable actions were taken against members of the Armed Forces, non-appropriated fund
employees, and Defense contractor employees in reprisal for making protected communications.

• Allegations that members of the Armed Forces were referred for mental health evaluations without being afforded
the procedural rights prescribed in the DoD Directive and Instruction.

Whistleblower Reprisal Activity
....................................................................................................................................................................................

During the reporting period, MRI and the military department inspectors general received 285 complaints of
whistleblower reprisal and closed 252 reprisal cases during this period. Of the 252 cases, 168 were closed after
preliminary analysis determined further investigation was not warranted and 84 were closed after investigation. Of
the 84 cases investigated, 16 contained one or more substantiated allegations of whistleblower reprisal (19%).

MRI and the Military Departments currently have 325 open cases involving allegations of whistleblower reprisal.

Examples of Substantiated Whistleblower Reprisal Cases
....................................................................................................................................................................................

A Navy lieutenant alleged he was issued unfavorable fitness reports in reprisal for reporting fitness program violations
to an IG. An MRI investigation substantiated the allegation. The responsible official, a Navy commander, was
counseled and received a Letter of Instruction.

An Army National Guard sergeant major alleged he was issued an unfavorable noncommissioned officer evaluation
in reprisal for reporting violations of the UCMJ and fiscal laws to his chain of command. An MRI investigation
substantiated the allegation. Corrective action is pending.

An Air Force staff sergeant alleged two master sergeants gave him a letter of reprimand because they believed he reported
problems in the deployed unit to the wing commander. An Air Force investigation substantiated the reprisal allegation
and also substantiated that the master sergeants restricted the staff sergeant from making protected communications
by threatening to take punitive action against him. Corrective action is pending.

An Air Force master sergeant alleged he was issued an unfavorable enlisted performance report in reprisal for reporting
security violations and program mismanagement to his chain of command. An Air Force investigation substantiated
the allegation. No corrective action was taken due to the retirement of the responsible official.




98
                                                                                                                                          Semiannual Report to Congress
Referrals for Mental Health Evaluations
....................................................................................................................................................................................

32 cases involving allegations of improper referrals for mental health evaluation were closed during the reporting
period. In 11 ( 34%) of those cases, substantiated that command officials and/or mental health care providers failed to
follow the procedural requirements for referring Service members for mental health evaluations under DoD Directive
6490.1, “Mental Health Evaluations of Members of the Armed Forces.” The DoD IG did not substantiate that any
of the mental health referrals were taken in reprisal for Service members’ protected communications.


                                    Civilian Reprisal Investigations

The mission of the Civilian Reprisal Investigations (CRI) Directorate is to conduct and oversee allegations of
whistleblower reprisal made by DoD civilian employees. CRI also provides support to DoD component Inspectors
General regarding civilian reprisal cases, ensures DoD IG compliance with the Office of Special Counsel’s Section
2302(c) whistleblower certification program, and conducts outreach to stakeholders of the DoD whistleblower
protection program. During FY 2007, CRI advised on 29 intakes which did not go to full investigation, closed 17
investigations, and was actively working 10 cases open at the end of the fiscal year.


                                                    Policy and Oversight

The Office of Deputy Inspector General for Policy and Oversight provides oversight and policy for Audit, Investigative,
and Fraud, Waste, and Abuse Hotline activities within the DoD; conducts inspections and evaluations of DoD programs;
provides technical advice and support, including quantitative methods, and systems and computer engineering ,to IG
projects; conducts data mining; monitors corrective actions taken in response to IG and GAO reports; and serves as
the DoD central liaison with the GAO on reports and reviews regarding the DoD programs and activities.

Audit Policy and Oversight
..........................................................................................................................................................

The Office of Assistant Inspector General for Audit Policy and Oversight (APO) provides policy direction and
oversight for audits performed by over 6,500 DoD auditors in 24 DoD organizations, ensures appropriate use of
non-federal auditors and their compliance with auditing standards and ensures that contracting officials comply with
statutory and regulatory requirements when resolving contract audit reports. During the reporting period, APO
issued DoD Instruction 7600.2, “Audit Policies” and completed 8 reviews. Three were hotline reviews with one having
recommendations that were agreed with; a Congressional request on a Defense Contract Audit Agency (DCAA) office
with one of three allegations being substantiated; a follow-up review that found the Certified Public Accounting firm
APO referred to the American Institute of Certified Public Accounts for inadequate work had corrected a Single Audit
Act compliance review; and three were oversight reviews with one on the contracting officer’s failure to apply penalties
on contract audit reports, a quality control review of a Single Audit Act nonprofit organization and a review of the
overall adequacy of the DCAA’s quality control system.


                                                                                                                                                                                99
Department of Defense Inspector General
APO staff also participated on 6 DoD and Government-wide working groups that address significant issues impacting
DoD audit and accountability professionals; provided DoD comments on draft revision to the GAO Financial Audit
Manual and the PCIE/ECIE “Guide for Conducting External Peer Reviews of the Audit Operations of the Offices
of the Inspector General”; coordinated the IG review of 30 revisions to the procurement regulations, commenting
on three to ensure the revisions do not adversely impact DoD; provided training to internal auditors on “Ethical
Principles and Independence;” approved a request by the Defense Contract Management Agency for contracted audit
services; commented on proposed legislation; set up and started a peer review process for smaller internal DoD audit
agencies and the intelligence audit agencies; and identified a finding impacting funds that had remained unresolved
that resulted in the County of Sacramento providing the Department of the Air Force a check for $314,772.


Data Mining Directorate
....................................................................................................................................................................................

The DoD IG Data Mining Directorate continues its primary mission of expanding and enhancing the use of Data
Mining with computer assisted auditing techniques as analysis tools to combat fraud, waste and abuse in Department
of Defense oversight programs. During this reporting period, the DoD IG Data Mining Directorate supported 30
ongoing investigations (two GWOT-related) and provided continuing support to 8 announced audits.



Inspections and Evaluations
....................................................................................................................................................................................

The Office of the Assistant Inspector General for Inspections and Evaluations conducts objective and independent
customer-focused management and program inspections addressing areas of interest to Congress and the DoD, and
provides timely findings and recommendations leading to positive change in programs.



Investigative Policy and Oversight
...................................................................................................................................................................................

The Office of the Assistant Inspector General for Investigative Policy and Oversight (IPO) provides policy direction
for, and evaluates the performance of, the DoD Criminal Investigative Organizations (DCIOs) (i.e., the Defense
Criminal Investigative Service, the Army Criminal Investigation Command, the Naval Criminal Investigative Service,
and the Air Force Office of Special Investigations) and non-criminal investigative offices of the DoD. In support of
this mission, the Directorate manages both the IG DoD Subpoena Program, which issues administrative subpoenas
primarily in support of criminal investigations, and the DoD Voluntary Disclosure Program, which provides contractors
a means to self-report potential civil or criminal fraud matters.

The Office of the Assistant Inspector General for Investigative Policy and Oversight evaluates the performance of
and develops/implements policy for the DoD law enforcement community and the non-criminal investigative offices
of the DoD. The Directorate also manages the IG Subpoena Program for the DCIOs and administers the DoD
Voluntary Disclosure Program, which allows contractors a means to report potential internal civil or criminal fraud
matters involving their DoD contracts.


100
                                                                                                                                          Semiannual Report to Congress
During this period, the Global War on Terror continued to dominate IPO’s work. The matters Congress asks us to
resolve are broad and complex requiring huge numbers of interviews and extensive independent analysis of previous
investigative work. Examples of our recent or continuing work include the fratricide of an Army Ranger and former
professional football player; the investigation and jailing of an Army Chaplain returning from Guantanamo Bay; the
shooting death and injury of journalists by U.S. Forces during an insurgent ambush; and the U.S. Forces shooting
death of an Afghan noncombatant.

During this period, Defense policy titled, “Implementation of the Law Enforcement Officers Safety Act of 2004,” was
signed by both the Inspector General of the DoD and the Under Secretary of Defense for Personnel and Readiness.
As provided in title 18, United States Code (USC), the DoD policy exempts qualified active and retired DoD law
enforcement officers (LEOs) from local and State prohibitions from carrying concealed firearms. However, this DoD
policy does not allow for agency training of retirees, but rather requires a qualified retiree to meet the law enforcement
firearms training standards in the State in which he/she resides. In the DoD, law enforcement officers in the DCIOs,
the Pentagon Force Protection Agency, and the National Security Agency are affected.

Also during this period, and in direct support of investigations, 119 IG DoD subpoenas were issued to the DCIOs for
service. The average turn-around time from request to delivery was 9.2 days, substantially shorter than the established
program metric of 15 days. Of significance, for FY 2007, this low turn-around time was accomplished despite a
35 percent increase in subpoena requests over the previous year. As part of an outreach plan to equip new Defense
criminal investigators, during this period subpoena training was provided to NCIS agents during their basic course
at the Federal Law Enforcement Training Center. Finally, two new initiatives were launched: a DoD Instruction
containing common subpoena request procedures for use by the DCIOs is in progress, as well as an initiative to
automate approximately 95 percent of the subpoena process to even further reduce turn-around time for investigators
in the field.

The second program managed by IPO, the OIG DoD Voluntary Disclosure Program (VDP), provides a formal
mechanism by which DoD contractors can report potential civil or criminal fraud matters discovered within their
own operations, taking advantage of incentives provided in the False Claims Act and Federal Sentencing Guidelines
for disclosure and full cooperation with Government authorities. The DoD, in coordination with the Department
of Justice and the Military Departments, share the responsibility of resolving fraud matters and determining which
criminal, civil, and administrative remedies are appropriate.

Since its establishment in 1986, the DoD’s VDP has recovered $462 million. During this reporting period it received
its 467th disclosure, and a case involving the falsification of test results for tubes used in night vision goggles was
settled, resulting in an $8 million recovery. In another case this period, a General Services Administration employee
pled guilty to providing sensitive procurement information to a contractor on a U.S. Marine Corps project in exchange
for the award of a sub contract to her personally owned business. In addition to the criminal conviction, the employee
was fined, placed on probation, and assigned community service.

The VDP Manager is active in two National Procurement Fraud Task Force committees, the Private Sector Outreach
Committee and the Training Committee. The Task Force is a Department of Justice initiative to improve the overall
Federal government response to procurement fraud. The program manager is also working to improve its visibility
throughout the DoD by integrating the VDP into DoD acquisition policy and training.




                                                                                                                      101
Department of Defense Inspector General
Report Followup and GAO Liaison Directorate
...................................................................................................................................................................................

The Report Followup and GAO Liaison Directorate monitors the progress of agreed-upon corrective actions being
taken by DoD managers in response to DoD IG and GAO report recommendations. The Directorate obtains and
evaluates documentation of progress and completion of corrective actions, and maintains a complete record of actions
taken. During this 6-month period, final corrective action was completed on 88 reports and 539 recommendations,
with $252.3 million in savings documented on DoD IG recommended actions. Also, the Directorate oversees the
mediation process to facilitate resolution of disputes relating to DoD IG recommendations to achieve agreement on
those recommendations.

The Directorate serves as the DoD central liaison with GAO on matters concerning GAO reviews and reports regarding
DoD programs and activities. This involves coordinating GAO reviews to facilitate appropriate DoD actions,
including monitoring and facilitating the preparation of DoD responses to GAO reports to ensure the responses are
appropriately coordinated before release. The Directorate distributes information regarding planned GAO activities to
DoD auditing and other oversight organizations to facilitate the identification of unnecessary overlap or duplication.
During this 6-month period, the Directorate coordinated 116 reviews and processed 204 draft and final reports.


Quantitative Methods Directorate
...................................................................................................................................................................................

The Quantitative Methods Directorate ensures that quantitative methods, analyses, and results used in DoD IG
products are defensible. The Directorate accomplishes this by providing expert statistical/quantitative support and
advice to DoD IG projects, and by assessing the quantitative aspects of DoD IG products prior to their release.
Quantitatively defensible products employ methodology that is technically sound and appropriate for the objectives of
the project, employ analyses that are performed correctly and are consistent with the methodology, and appropriately
present the quantitative results.


Technical Assessment Directorate
...................................................................................................................................................................................

The Technical Assessment Directorate provides technical advice to the DoD and conducts assessments to improve
the economy, efficiency, and effectiveness of Defense programs, operations, and oversight. The directorate focuses on
acquisition, program management, engineering, and information technology issues. During the reporting period, the
Directorate provided technical expertise and assessments that have expanded the audit coverage of systems engineering
and information assurance. As a result, Defense programs for systems engineering and information security are
improved in audited systems.




102
                                                                                                                                          Semiannual Report to Congress
                                           Intelligence

The Office of the Deputy Inspector General for Intelligence (ODIG-INTEL) audits, evaluates, monitors, and reviews the
programs, policies, procedures, and functions of Intelligence Community, Special Access Programs, and Nuclear Surety
issues within the DoD. The ODIGINTEL oversees the intelligence-related activities within the DoD Components,
primarily at the DoD, Service, and combatant command levels, ensuring that intelligence and intelligence-related
resources are properly, effectively, and efficiently managed. The ODIG-INTEL also conducts oversight of Service and
Defense agency reviews of security and counterintelligence within all DoD test and laboratory facilities. The Office of
Deputy Inspector General for Intelligence is dedicated to enhancing the capabilities of the DoD intelligence activities
through an informed and authoritative oversight program.

The DoD IG, the IGs of the Department of the Air Force, Defense Intelligence Agency, National Geospatial-Intelligence
Agency, National Reconnaissance Office, and National Security Agency/ Central Security Service; the Army Audit
Agency; the Naval Audit Service; the Air Force Audit Agency; the Naval Criminal Investigative Service, and the
Defense Contract Audit Agency completed 120 intelligence-related and other classified and sensitive reports. The
reports are categorized into the Deputy Inspector General for Intelligence Department of Defense Inspector General
65 Inspector General components areas shown in Figure 3. A listing and highlights of the 120 reports can be found
in the Classified Annex to this report and a summary of some of the reports are included in the Classified Annex. The
Classified Annex also highlights GWOT initiatives, including three completed reports and several ongoing or planned
projects dealing with GWOT. Within DoD, the Joint Intelligence Oversight Coordination Group comprises senior
representatives from the Office of the Secretary of Defense, the inspectors general of the Defense intelligence agencies,
and military department audit, evaluation, and inspection organizations. The objectives of the Group are to improve
the effectiveness and efficiency of DoD oversight of intelligence activities by identifying areas needing more emphasis
and deconflicting oversight programs. The group held two quarterly meetings on April 3, 2007 and July 24, 2007. See
the Classified Annex to this report for information on the meetings.


                          Figure 3: Intelligence Related Reports

   DoD Management                 DoD IG         Defense Agencies Military Departments                 Total
     Challenge Area
    Joint Warfighting                 0                  18                       2                      20
      and Readiness
     Human Capital                    0                  13                       1                      14
       Information                    2                  6                        2                      10
   Security and Privacy
       Acquisition                    0                   9                       3                      12
      Processes and
         Contract
      Management
        Financial                     1                   9                       8                      18
      Management
          Other                       5                  32                      9                       46
          Total                       8                  87                      25                     120

                                                                                                                     103
Department of Defense Inspector General
              Office of Communications and Congressional Liaison



                                         The Office of Communications and Congressional Liaison (OCCL) supports
                                         the DOD IG by serving as the contact for communications to and from
                                         Congress, and by serving as the DoD IG public affairs office.

                                         The OCCL also includes the Freedom of Information Act Requester Service
                                         Center/Privacy Act (FOIA/PA) office, the DoD IG web team and the Defense
                                         Hotline.

                                         The OCCL opened 104 congressional cases during the reporting period
                                         and 211 for Fiscal Year 2007. Inquiries from Congress included issues such
                                         as the death of Corporal Patrick Tillman, the detention of Chaplain James
                                         Yee, procurement of body armor, the Threat and Local Observation Notice
                                         (TALON) program, and allegations of whistleblower reprisal.

                                         The FOIA/PA Office reviews requests from the public for documents held by
                                         the DOD IG to ensure information is released consistent with the requirements
                                         of the Freedom of Information and Privacy Acts. The FOIA/PA Office received
                                         303 requests for information and completed responses to 306 requests during
                                         the fiscal year.

The DoD IG also responded to over 158 media inquiries during this period and 347 for FY 2007.

In addition, the OCCL provides staff support and serves as the liaison
for the DoD IG to the President’s Council on Integrity and Efficiency
(PCIE) and the Defense Council on Integrity and Efficiency (DCIE).
Inspector General Kicklighter is the chairman of the PCIE Information
Technology Committee. OCCL also support the DoD IG participation
in the PCIE by publishing the Journal of Public Inquiry. OCCL organizes
and supports meetings of the DCIE, which are chaired by the DoD IG.
The DoD IG holds quarterly DCIE meetings. DCIE meetings are used
as a forum to discuss issues related to oversight within DoD.

OCCL also acts as the lead agent for strategic planning for the DoD IG,
managing the development and periodic review and update of the DoD
IG Strategic plan to ensure that it addresses the current and emerging
strategic landscape impacting the Department and the DoD IG. During
the last reporting period this plan has been significantly updated to better
align with key strategic initiatives, such as the President’s Management
Agenda, Government Accountability Office High Risk Areas, and
Secretary of Defense priorities.



104
                                                                                           Semiannual Report to Congress
Appendices




	
Appendix A - Reports issued by Central DoD Internal Audit Organizations
Appendix B - DoD IG Audit Reports Issed Containing Quantifiable Potential Monetary Benefits
Appendix C - Followup Activities
Appendix D - Contract Audit Reports Issed
Appendix E - Status of Action on Significant Post-Award Contract Audits
Appendix F - Status of DoD IG Reports More Than 12 Months Old with Final Action Pending
Appendix G - Defense Criminal Investigative Organization Statistics
Appendix H - Acronyms
                                                Appendix A

      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS


Copies of reports may be obtained from the appropriate issuing office by calling:

	       DoD IG							                                                    Army Audit Agency
	       (703) 604-8937						                                             (703) 693-5679
	       http://www.dodig.mil						                                       http://www.hqda.army.mil/aaaweb

	       Naval Audit Service						                                        Air Force Audit Agency
	       (202) 433-5525						                                             (703) 696-7904
	       http://www.hq.navy.mil/NavalAudit				                            www.afaa.hq.af.mil

							

      Summary of Number of Reports by Management Challenge Area
                    April 1, 2007 - September 30, 2007


                                                                     DoD IG            Military Depts.           Total
Joint Warfighting and Readiness                                          5                   56                    61
Human Capital                                                            -                    18                   18
Information Security and Privacy                                         7                    18                   25
Acquisition Processes/Contract Management                               14                    39                   53
Financial Management                                                    25                    54                   79
Health Care                                                              1                    12                   13
Other                                                                    2                     8                   10
 Total                                                                  54                   205                  259
For information on intelligence-related reports, including those issued by other Defense agencies, refer to the classified
annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix B)




106
                                                                                             Semiannual Report to Congress
                                          A-2007-0113-ALO Followup Audit        A-2007-0146-FFE Followup
 Joint Warfighting                        of Disposition Plans and Costs for    Audit of Contractor Aircrew Safety
   and Readiness                          the Old U.S. Disciplinary Barracks,   (06/07/2007)
                                          Fort Leavenworth (04/11/2007)
                                                                                A-2007-0149-ALL Army’s Theater
             DoD IG                       A-2007-0118-FFP Force Protection-     Linguist Program in Afghanistan,
                                          Alaska, U.S. Army Garrison, Alaska    Operation Enduring Freedom
                                          (FOR OFFICIAL USE ONLY)               (07/23/2007)
D-2007-090 Managing                       (04/25/2007)
Prepositioned Munitions in the U.S.                                            A-2007-0152-ALR Container
European Command (05/03/07)               A-2007-0122-FFF Followup Audit       Detention Billing for Global War on
                                          of Operational Facility Requirements Terrorism (06/14/2007)
D-2007-105 United States                  Rules (04/30/2007)
Transportation Command                                                         A-2007-0157-ALM Developing
Compliance With DoD Policy                A-2007-0126-ALL Asset Visibility in Depot Workload Requirements
on the Use of Commercial Sealift          Support of Operation Iraqi Freedom for Major End Items, U.S.
(06/21/07)                                and Operation Enduring Freedom - Army Aviation and Missile Life
                                          Army Reserve Equipment, 88th and Cycle Management Command
D-2007-111 Uniform Standards for          99th Regional Readiness Commands (06/28/2007)
Customer Wait Time (07/09/07)             (05/09/2007)
                                                                               A-2007-0158-ALE Followup Audit
D-2007-116 Defense Logistics              A-2007-0129-FFE Remediation of       of the Reserve Storage Activity,
Agency’s Warstopper Program               Rocky Mountain Arsenal, Rocky        21st Theater Support Command
(08/15/07)                                Mountain Arsenal (05/17/2007)        (06/21/2007)

D-2007-132 Army Use of and                A-2007-0131-ALA Rapid Equipping       A-2007-0168-ALR Logistics
Controls Over the DoD Aviation            Force Initiative (05/18/2007)         Management Systems - Depots,
Into-Plane Reimbursement Card                                                   Depot Workload Resource
(09/28/07)                                A-2007-0134-ALE Followup Audit        Management System, U.S.
                                          of Contracts for Maintenance of       Army Aviation and Missile Life
                                          Tactical Equipment in the Field,      Cycle Management Command
  Army Audit Agency
                                          U.S. Army, Europe and Seventh         (07/11/2007)
                                          Army (05/22/2007)
A-2007-0097-ALM Rotor Blades,                                                   A-2007-0169-ALR Logistics
U.S. Army Aviation and Missile            A-2007-0136-ALO Base                  Management Systems - Depots,
Life Cycle Management Command             Realignment and Closure 2005          U.S. Army TACOM Life Cycle
(06/04/2007)                              Construction Requirements,            Management Command, Watervliet
                                          Armed Forces Reserve Center, Fort     Arsenal (07/13/2007)
A-2007-0112-ALI Base Realignment          Campbell (05/24/2007)
and Closure 2005 Construction                                                   A-2007-0172-FFP Force Protection,
Requirements, Armed Forces                A-2007-0142-ALA Followup Audit        Japan (CLASSIFIED) (09/07/2007)
Reserve Center, Seagoville, Texas         of the Movement Tracking System
(07/10/2007)                              (FOR OFFICIAL USE ONLY)               A-2007-0173-ALM Followup
                                          (06/01/2007)                          Audit of Work Order Logistics File
                                                                                (08/06/2007)

                                                                                                                 107
Department of Defense Inspector General
A-2007-0175-FFD Weapons of              A-2007-0211-ALR Logistics           A-2007-0235-ALI Base Realignment
Mass Destruction--Elimination           Management Systems -                and Closure 2005 Construction
Operations, Deputy Chief of Staff,      Manufacturing Execution System      Requirements, Armed Forces Reserve
G-3/5/7 (FOR OFFICIAL USE               (09/07/2007)                        Center, Fort Dix (09/26/2007)
ONLY) (08/30/2007)
                                        A-2007-0215-FFS Contractor          A-2007-0237-FFS Housing for
A-2007-0177-FFD Roles and               Support at Mobilization Stations,   Mobilized Soldiers, Mississippi Army
Responsibilities for Force Protection   Fort Bragg (09/18/2007)             National Guard (09/27/2007)
(FOR OFFICIAL USE ONLY)
(07/30/2007)                            A-2007-0218-ALI Base Realignment    A-2007-0240-ALI Base Realignment
                                        and Closure 2005 Construction       and Closure 2005 Construction
A-2007-0184-FFM Civilian Pay            Requirements, United States         Requirements, U.S. Army
in Support of Operation Enduring        Military Academy Preparatory        Training and Doctrine Command
Freedom and Operation Iraqi             School (FOR OFFICIAL USE            Headquarters, Fort Eustis
Freedom (08/15/2007)                    ONLY) (09/07/2007)                  (FOR OFFICIAL USE ONLY)
                                                                            (09/28/2007)
A-2007-0189-FFD Followup Audit          A-2007-0219-ALO Base
of Security of Civil Works Water        Realignment and Closure 2005        A-2007-0241-ALO Base
Resources Infrastructure, U.S.          Construction Requirements, Armed    Realignment and Closure 2005
Army Engineer District, Little Rock     Forces Reserve Center, Camp Dodge   Construction Requirements, Child
(08/29/2007)                            (09/14/2007)                        Development Center, Fort Riley
                                                                            (09/28/2007)
A-2007-0190-ALM Resource            A-2007-0220-ALI Base Realignment
Requirements for Reset,             and Closure 2005 Construction      A-2007-0242-ALO Base
Deputy Chief of Staff, G-4          Requirements, Armed Forces Reserve Realignment and Closure 2005
(FOR OFFICIAL USE ONLY)             Center, Moffett Field (09/18/2007) Construction Requirements, Battle
(08/08/2007)                                                           Command Training Center, Fort
                                    A-2007-0221-ALI Base Realignment Riley (09/28/2007)
A-2007-0193-FFE Followup Audit      and Closure 2005 Construction
of Management of Installation       Requirements, Southwest Regional   A-2007-0243-ALE Environmental
Environmental Programs, U.S. Army Readiness Command Headquarters, Planning for Army Rebasing
Garrison, Fort Hood (08/14/2007)    Moffett Field (09/21/2007)         and Restructuring in Europe
                                                                       (FOR OFFICIAL USE ONLY)
A-2007-0199-FFP Yama Sakura 51      A-2007-0230-ALM Followup Audit (09/28/2007)
Training Exercise, U.S. Army, Japan of Army Oil Analysis Program-
and I Corps (FOR OFFICIAL USE Restructure Plan, Redstone Arsenal         Naval Audit Service
ONLY) (09/18/2007)                  (09/24/2007)

A-2007-0204-ALL Defense Base            A-2007-0234-ALM Tactical            2007-0027 Marine Corps Tracking
Act Insurance for the Logistics Civil   Wheeled Vehicle Strategy, Deputy    and Recording of Individual
Augmentation Program, Audit             Chief of Staff, G-8 and Program     Augmentation Requirements
of Logistics Civil Augmentation         Executive Office, Combat Support    (04/18/07)
Program Operations in Support           and Combat Service Support
of Operation Iraqi Freedom              (09/26/2007)                        2007-0028 The United States
(FOR OFFICIAL USE ONLY)                                                     Marine Corps Antiterrorism
(09/28/2007)                                                                Program (04/18/07)

108
                                                                                     Semiannual Report to Congress
2007-0029 The Navy’s Small Arms                                                   A-2007-0238-FFF Followup Audit
and Weapons Program (05/01/07)                 Human Capital                      of Management of the Reserve
                                                                                  Component’s Non-Participants,
2007-0033 Navy Reserve Order-                                                     U.S. Army Reserve Command
Writing System Database Accuracy            Army Audit Agency                     (09/28/2007)
(05/11/07)
                                                                                  A-2007-0239-FFF Management
         Air Force                        A-2007-0109-FFF Recruiting              of Army Well-Being, Office of
                                          for Lifecycle Management Units,         the Deputy Chief of Staff, G-1
       Audit Agency                       Deputy Chief of Staff, G-1              (09/27/2007)
                                          (04/03/2007)
F-2007-0009-FC2000                                                                 Naval Audit Service
Comprehensive Engine Management           A-2007-0155-FFH Followup
System Data Accuracy (5/25/2007)          Audit of the Community Club
                                          Renovation Project, Fort Buchanan       2007-0052 Manpower for
F-2007-0010-FC2000 Distribution           (06/19/2007)                            Meteorological and Oceanographic
of Depot Maintenance Workload,                                                    Services, Dental Services, and
Fiscal Years 2006-2008 (6/22/2007)        A-2007-0176-FFF Accounting and          Religious Ministries Flagpole Studies
                                          Use of Derivative Unit Identification   (09/14/07)
F-2007-0003-FC3000 F-22A                  Codes (09/10/2007)
Logistics Support and Spares                                                      2007-0055 Implementation of
Modeling (6/8/2007)                       A-2007-0192-FFF Material                the Department of the Navy
                                          Weakness Validation Reserve             Ergonomics Program (09/21/07)
F-2007-0005-FC4000 Assets at              Component Mobilization
Contractor Facilities (7/27/2007)         Accountability (08/29/2007)             2007-0059 Reserve Volunteer
                                                                                  Training Unit Cost Benefit Analysis
F-2007-0006-FC4000 Special                A-2007-0194-FFE Recreation Area         (09/28/07)
Project Additives (8/6/2007)              Safety and Awareness, U.S. Army
                                          Corps of Engineers (08/21/2007)         2007-0062 Department of the
F-2007-0007-FC4000 Reparable                                                      Navy Medical Corps and Dental
Item Requirements - Deferred              A-2007-0200-FFF Management              Corps Programs Recruiting Process
Disposal Items (8/22/2007)                of U.S. Army Reserve Enlistment         (09/28/07)
                                          Bonuses (08/30/2007)
F-2007-0007-FD2000 Military                                                                Air Force
Working Dog Program (7/27/2007)           A-2007-0208-ALC Followup                       Audit Agency
                                          Audit of Realignment Phase 2 Field
F-2007-0007-FD3000 Theater                Operating Agencies, U.S. Army
Battle Management Core System-            Contracting Agency (09/13/2007)         F-2007-0009-FD1000 Explosive
Unit Level (6/8/2007)                                                             Site Planning Process (5/25/2007)
                                          A-2007-0232-ALE Overseas
F-2007-0009-FD3000 Management             Dependent Eligibility Processes         F-2007-0010-FD1000 Utilities
of Global Harvest (CLASSIFIED)            for Third Country Nationals             Privatization Economic Analysis-
(8/10/2007)                               (FOR OFFICIAL USE ONLY)                 Third Phase (5/25/2007)
                                          (09/25/2007)
F-2007-0011-FD3000 Intelligence                                                   F-2007-0011-FD1000 Halon 1301
Contingency Funds - Fiscal Year                                                   Fixed Fire Suppression Systems
2006 (8/29/2007)                                                                  (8/22/2007)

                                                                                                                     109
Department of Defense Inspector General
F-2007-0008-FD4000 Tuition           D-2007-133 Defense Civilian          2007-0035 Interim Report–
Assistance (6/22/2007)               Pay System Controls Placed in        Disposal of Protected Personal
                                     Operation and Tests of Operating     Information at Naval Station
                                     Effectiveness for the Period July    Norfolk and Naval Amphibious
    Information                      1, 2006 through June 30, 2007        Base Little Creek, Norfolk, VA
 Security & Privacy                  (09/28/07)                           (05/25/07)

                                                                          2007-0036 Interim Report–
                                       Army Audit Agency
           DoD IG                                                         Disposal of Protected Personal
                                                                          Information at Naval Support
                                     A-2007-0106-FFI Information          Activity Mid-South, Millington, TN
D-2007-082 The Defense               Technology Service Level             (05/25/07)
Information Systems Agency           Agreements, Chief Information
Controls over the Center for         Officer/G-6 and Assistant Chief of   2007-0037 Disposal of Protected
Computing Services (04/09/07)        Staff for Information Management     Personal Information at Department
                                     (06/27/2007)                         of the Navy Facilities (05/25/07)
D-2007-089 Selected Controls
for Information Security of the      A-2007-0206-FFI Army Web Sites,      2007-0048 Marine Corps Legacy
U.S. Transportation Command’s        Army Chief Information Officer/G-    Applications and Databases
Integrated Computerized              6 (09/07/2007)                       (08/09/07)
Deployment System (FOR
OFFICIAL USE ONLY) (04/30/07)        A-2007-0223-FFI Installation                 Air Force
                                     Campus Area Network                        Audit Agency
D-2007-096 Information Assurance     Connectivity--Wireless Devices,
Controls for the Defense Civilian    Redstone Arsenal (FOR OFFICIAL
Pay System (FOR OFFICIAL USE         USE ONLY) (09/28/2007)               F-2007-0005-FB2000 Standard Base
ONLY) (05/14/07)                                                          Supply System Controls (7/13/2007)
                                     A-2007-0225-FFI Installation
D-2007-099 DoD Privacy Program       Campus Area Network                  F-2007-0005-FB4000 Integrated
and Privacy Impact Assessments       Connectivity--Wireless Devices,      Engineering Management System
(06/13/07)                           Fort Knox (FOR OFFICIAL USE          (4/25/2007)
D-2007-101 DFAS Corporate            ONLY) (09/28/2007)
Database/DFAS Corporate                                                   F-2007-0006-FB4000 Shared
Warehouse Compliance with the        A-2007-0246-FFI Implementation       Network Storage Management
Defense Business Transformation      of Single DOIM (09/28/2007)          (FOR OFFICIAL USE ONLY)
Certification Criteria (05/18/07)                                         (4/27/2007)
                                      Naval Audit Service
D-2007-123 Summary of                                                     F-2007-0007-FB4000 Secret
Information Assurance Weaknesses                                          Internet Protocol Router Network
Found in Audit Reports Issued From   2007-0025 Interim Report–            (7/13/2007)
August 1, 2006, Through July 31,     Disposal of Protected Personal
2007 (09/12/07)                      Information at Naval Medical         F-2007-0008-FB4000 Selected
                                     Center Portsmouth, VA (04/12/07)     Aspects of the Tactical Data Network
                                                                          Systems (8/6/2007)




110
                                                                                   Semiannual Report to Congress
F-2007-0009-FB4000 Continuity             D-2007-112 World Wide Satellite      A-2007-0108-ALO Installation
of Operations Plans for Computer          Systems Program (07/23/07)           Contract Guards (04/04/2007)
Networks (FOR OFFICIAL USE
ONLY) (8/24/2007)                         D-2007-115 Army Information          A-2007-0111-ALL Offline
                                          Technology Enterprise Solutions-2    Purchases, Garrison Activities, Fort
F-2007-0010-FB4000 Air Force              Services Contract (08/09/07)         Bliss (04/19/2007)
Use of Common Access Card for
Physical Access (08/24/2007)              D-2007-118 Contract                  A-2007-0114-ALC Proper Use of
                                          Administration of the Ice Delivery   Non-DOD Contracts, Program
F-2007-0011-FB4000 Network                Contract Between International       Executive Office, Aviation
Centric Solutions Contract                American Products, Worldwide         (04/17/2007)
Implementation and Management             Services and the U.S. Army Corps
(09/04/2007)                              of Engineers During the Hurricane    A-2007-0115-ALC Proper Use of
                                          Katrina Recovery Effort (08/23/07)   Non-DOD Contracts, Program
                                                                               Executive Office, Command,
   Acquisition                            D-2007-119 Procurement of            Control and Communications
Process/ Contract                         Propeller Blade Heaters for the C-   Tactical (04/23/2007)
   Management                             130 Aircraft (FOR OFFICIAL USE
                                          ONLY) (08/27/07)                     A-2007-0116-ALC Proper Use of
                                                                               Non-DOD Contracts, Program
             DoD IG                       D-2007-124 Purchases Made Using      Executive Office, Intelligence,
                                          the U.S. Joint Forces Command        Electronic Warfare and Sensors
D-2007-078 Award Practices for            Limited Acquisition Authority        (04/20/2007)
the Globemaster III Sustainment           (09/17/07)
Partnership Contract (04/03/07)                                                A-2007-0119-ALA Contracting
                                          D-2007-127 Navy’s Proposed           Practices, National Automotive
D-2007-084 Acquisition of                 Business Plan for Base Realignment   Center, U.S. Army Tank-automotive
the Navy Rapid Airborne Mine              and Closure 2005 Recommendation      Research, Development and
Clearance System (04/11/07)               184 (09/25/07)                       Engineering Center (04/18/2007)

D-2007-103 Air Force KC-X Aerial          D-2007-128 Hotline Allegations       A-2007-0121-ALC Use of Non-
Refueling Tanker Aircraft Program         Concerning the Defense Threat        DOD Contracts, Program
(05/30/07)                                Reduction Agency Advisory and        Executive Office, Missiles and Space
                                          Assistance Services Contract         (05/04/2007)
D-2007-104 Airbursting Fuze               (09/26/07)
Technology Used for the Objective                                              A-2007-0128-ALE Followup
Individual Combat Weapon and              D-2007-130 Contracting Practices     Audit of Contracts for Chemical
the Advanced Crew Served Weapon           at Air Force Laboratory Facilities   Agent Resistant Coating, U.S.
(FOR OFFICIAL USE ONLY)                   (09/28/07)                           Army, Europe and Seventh Army
(06/05/07)                                                                     (05/16/2007)
                                            Army Audit Agency
D-2007-106 Air Force Network-                                                  A-2007-0130-ALM Followup
Centric Solutions Contract                                                     Audit on Process for Determining
(06/29/07)                                A-2007-0102-FFM Army Contract        Source of Depot Level Maintenance
                                          Pricing Process for Commercial       (05/22/2007)
D-2007-107 Procurement Policy for         Travel Office Fees (04/04/2007)
Armored Vehicles (06/27/07)
                                                                                                                 111
Department of Defense Inspector General
A-2007-0132-ALC Subcontracting        A-2007-0197-ALO Followup Audit        A-2007-0227-ALA System
Procedures, Office of the Chief of    of Privatization of Family Housing,   Development and Demonstration-
Public Affairs (05/18/2007)           Fort George G. Meade (08/30/2007)     Contract Restructuring, Future
                                                                            Combat Systems, Office of the
A-2007-0133-ALO Attestation           A-2007-0198-ALO Followup Audit        Program Manager - Future Combat
Examination of the Administrative     of Privatization of Family Housing-   Systems, Brigade Combat Team
Appeal Board’s Assertions for the     -Reinvestment Strategy, Fort Carson   (09/20/2007)
Keesler Air Force Base Operating      (08/30/2007)
Support A-76 Cost Comparison                                                A-2007-0229-FFI Information
Study (PROCUREMENT                    A-2007-0202-ALA Management of         Technology Hardware Purchasing
SENSITIVE) (05/23/2007)               Army Card Programs (09/05/2007)       Practices, Fort Lewis (09/24/2007)

A-2007-0140-ALL Offline               A-2007-0207-FFH Contracts             A-2007-0231-FFP Followup Audit
Purchases, Unconfirmed Shipments      for Medical Goods and Services,       of Lessons Learned, Energy Savings
of Parkas, Office of the Deputy       North Atlantic Regional Medical       Performance Contract, U.S. Army
Chief of Staff, G-4 (06/25/2007)      Command (09/11/2007)                  Installation Management Command
                                                                            (09/24/2007)
A-2007-0143-ALE Manning               A-2007-0210-FFS Contractor            2007-0043 Vendor Legitimacy
Requirements for Contract             Support at Mobilization Stations,     (06/27/07)
Security Guards in Europe, U.S.       Fort Carson (09/10/2007)
Army, Europe and Seventh Army                                                Naval Audit Service
(FOR OFFICIAL USE ONLY)               A-2007-0214-FFI Funding and
(06/06/2007)                          Contract Management Practices,
                                      Defense Biometrics Program            2007-0049 Intelligence Related
A-2007-0159-ALC Army Purchase         (FOR OFFICIAL USE ONLY)               Contracting at Selected Classified
Card Program, Department of           (09/28/2007)                          Activities (CLASSIFIED)
Emergency Services, Fort McCoy                                              (08/13/07)
(07/03/2007)                          A-2007-0216-FFD Contracts to
                                      Restore and Enhance the Southern      2007-0060 Marine Corps Urgent
A-2007-0162-FFD Contract Data         Louisiana Hurricane Protection        Universal Need Statement Process
Reporting for Hurricane Operations,   System, U.S. Army Corps of            (09/28/07)
U.S. Army Corps of Engineers          Engineers Mississippi Valley          F-2007-0003-FC1000 Adequacy
(06/28/2007)                          Division (09/11/2007)                 of Performance Work Statements
                                                                            for Performance-Based Services
A-2007-0165-FFI Information           A-2007-0224-FFP Followup Audit        Acquisitions (9/4/2007)
Technology Contracts With U.S.        of Ammunition Pricing Practices,
General Services Administration,      Office of the Program Executive
Selected Contract Reviews             Officer, Ammunition, Picatinny                 Air Force
(07/31/2007)                          Arsenal (09/21/2007)                         Audit Agency
A-2007-0167-FFP Followup Audit        A-2007-0226-FFI Information
of Logistics Cost Sharing Program,    Technology Hardware Purchasing        F-2007-0002-FC3000 Acquisition
U.S. Forces Korea and Eighth U.S.     Practices, Fort Hood (09/21/2007)     Planning for Flexible Acquisition
Army (07/23/2007)                                                           Sustainment Tool Indefinite
                                                                            Delivery/Indefinite Quantity
                                                                            Contract Orders (5/9/2007)

112
                                                                                      Semiannual Report to Congress
F-2007-0004-FC3000 A-10                   D-2007-087 Internal Controls over      D-2007-100 Contract for Logistics
Precision Engagement Modification         Army General Fund Transactions         Support Services for Special
Program (8/22/2007)                       Processed by the Business Enterprise   Operations Forces (FOR OFFICIAL
                                          Information Services (04/25/07)        USE ONLY) (05/18/07)
F-2007-0005-FD3000 Central
Command Air Forces Deployed               D-2007-088 Special Army Reports        D-2007-102 Air Force Host and
Locations Services Contract               Prepared by Defense Finance and        Tenant Agreements Between the
Management (4/20/2007)                    Accounting Service Indianapolis        50th Space Wing, the Joint National
                                          Operations (04/27/07)                  Integration Center, and Tenants
F-2007-0008-FD3000 Central                                                       (05/21/07)
Command Air Forces Deployed               D-2007-091 Memorandum Report
Locations Government-Wide                 on Assessment of Department            D-2007-109 Special Operations
Purchase Card Program (6/27/2007)         of Defense Accounts Payable            Command Governmental Purchases
                                          Compliance with Generally              (07/09/07)
F-2007-0009-FD4000                        Accepted Accounting Principles
Nonappropriated Fund Purchase             (05/04/07)                             D-2007-110 Identification and
Card Program (7/30/2007)                                                         Reporting of Improper Payments
                                          D-2007-092 Government Purchase         through Recovery Auditing
                                          Card Controls at DoD Schools on        (07/09/07)
        Financial                         Okinawa (05/08/07)
       management                                                                D-2007-113 Consolidation of
                                          D-2007-093 DoD Compliance with         Boeing Pension Accounting Records
                                          the Federal Managers’ Financial        for Business Acquisitions (FOR
             DoD IG                       Integrity Act of 1982 (05/09/07)       OFFICIAL USE ONLY) (07/18/07)

                                          D-2007-094 Consolidation               D-2007-114 DoD Garnishment
D-2007-081 Financial Management           of Lockheed Martin Pension             Program (07/19/07)
of Hurricane Katrina Relief Efforts       Accounting Records for Selected
at the U.S. Army Corps of Engineers       Business Acquisitions (FOR             D-2007-117 Missile Defense
(04/06/07)                                OFFICIAL USE ONLY) (05/14/07)          Agency Purchases for and from
                                                                                 Governmental Sources (08/20/07)
D-2007-083 Transition                     D-2007-095 Consolidation of
Expenditures for DoD Personnel            Raytheon Pension Accounting            D-2007-120 U.S. Pacific Command
Security Investigations for FY 2005       Records for Selected Business          Headquarters Government Purchase
(04/10/07)                                Acquisitions (FOR OFFICIAL USE         Card Controls (08/29/07)
                                          ONLY) (05/14/07)
D-2007-085 Reporting of Navy                                                     D-2007-121 Emergency
Sponsor Owned Material Stored at          D-2007-097 Controls Over Military      Supplemental Appropriations
the Naval Air Systems Command             Personnel, Army Appropriation          for DoD Needs Arising From
Activities (04/23/07)                     Permanent Change of Station Travel     Hurricane Katrina at Selected DoD
                                          Advances and Suspense Accounts         Components (09/12/07)
D-2007-086 Incoming                       (05/16/07)
Reimbursable Orders for the               D-2007-098 Use and Control of          D-2007-122 Marine Corps Internal
National Security Agency                  Intragovernmental Purchases at         Controls Over Military Equipment
(CLASSIFIED) (04/24/07)                   the Defense Intelligence Agency        Funds (09/11/07)
                                          (05/17/07)


                                                                                                                  113
Department of Defense Inspector General
D-2007-125 Independent Auditor’s     A-2007-0154-ALR Followup Audit        A-2007-0187-FFM General Fund
Report on the Department of          of Aged Accounts, U.S. Army           Enterprise Business System - Federal
Defense FY 2007 Third Quarter        Communications-Electronics Life       Financial Management Improvement
Application of Agreed-Upon           Cycle Management Command              Act Compliance, Examination
Procedures for the Federal           (07/02/2007)                          of Release 1.1 Requirements
Intragovernmental Activity and                                             (08/09/2007)
Balances (09/13/07)                  A-2007-0160-ALE Followup
                                     Audit of Overhead and Layering        A-2007-0191-FFM Agreed-
D-2007-129 Civilian Payroll and      in Morale, Welfare, and Recreation    Upon Procedures Attestation of
Withholding Data for FY 2007         Activities, U.S. Army Installation    the Results of the 2007 National
Report (09/24/07)                    Management Command, Europe            Defense Authorization Act Audit
                                     Region (06/28/2007)                   on Wounded in Action Soldier Pay
 Army Audit Agency                                                         Accounts (08/15/2007)
                                     A-2007-0161-FFM Followup
                                     Audit of the Army Criminal and        A-2007-0195-FFS Attestation of
A-2007-0078-FFI Followup Audit       Civil Fraud Recovery Process          Army Business Transformation
of Potential Antideficiency Act      (07/24/2007)                          Financial Benefits (08/23/2007)
Violations, Colorado Army National
Guard (05/15/2007)                   A-2007-0163-FFM FY 03 -               A-2007-0203-FFP Army Suggestion
                                     FY05 Obligations Recorded in          Program (Suggestion PAHI06007C-
A-2007-0079-FFI Followup Audit       Logistics Modernization Program       Saddle Road Project), U.S. Army
of the Army Management Control       (07/27/2007)                          Garrison, Hawaii (08/30/2007)
Process (FY 02) (05/04/2007)
                                     A-2007-0171-ALR Followup Audit        A-2007-0205-FFM Logistics
A-2007-0124-FFM Standard             of Selected Financial Management      Modernization Program System
Procurement System Federal           Issues, Pine Bluff Arsenal            Federal Financial Management
Financial Management Improvement (08/06/2007)                              Improvement Act of 1996
Act of 1996 Compliance                                                     Compliance - First Deployment
(05/11/2007)                         A-2007-0178-FFM Review of             Functionality (09/07/2007)
                                     the Army Management Control
A-2007-0135-FFD Army Fund            Process FY 06, U.S. Army Reserve      A-2007-0213-FFM Material
Accountability for Hurricane Katrina Command (08/02/2007)                  Weakness Closure - Financial
Relief Efforts (06/12/2007)                                                Reporting of Equipment In Transit
                                     A-2007-0183-ALO Attestation           (09/25/2007)
A-2007-0139-FFP Funding for          Examination of Financial Statements
Army Modular Forces, Tripler Army for Period Ended September 30,           A-2007-0217-FFM General Fund
Medical Center (FOR OFFICIAL         2006 for Camp Pedricktown Trust       Enterprise Business System - Federal
USE ONLY) (05/31/2007)               Fund, Township of Oldmans,            Financial Management Improvement
                                     County of Salem No-Cost Economic      Act Compliance, Examination
A-2007-0145-ALR Followup Audit       Development Conveyance                of Release 1.2 Requirements
of Stock Funded Depot Level          (08/02/2007)                          (09/13/2007)
Reparable Credit Policy, Office
of the Assistant Secretary of the    A-2007-0186-ALR Funding               A-2007-0233-ALM Potential
Army (Financial Management and       Distribution Process Owner            Antideficiency Act Violation, Audit
Comptroller) (06/14/2007)            Initiatives, United States            of Reset Metrics—-Sustainment
                                     Transportation Command                Maintenance (FOR OFFICIAL USE
                                     (08/10/2007)                          ONLY) (09/27/2007)
114
                                                                                    Semiannual Report to Congress
                                          2007-0047 Industrial Logistics        F-2007-0013-FB1000 Follow-
 Naval Audit Service                      Support Management Information        up Audit, Air Force Art Program
                                          System (07/31/07)                     (8/6/2007)
2007-0024 Flying Hour Program
Budget Execution (04/04/07)               2007-0050 Navy Disbursing             F-2007-0004-FB2000 Reliability,
                                          Officers’ Accountability (08/29/07)   Availability, Maintainability Support
2007-0026 Validity of Reimbursable                                              System for Electronic Combat Pods
Unliquidated Obligations at               2007-0053 United States/United        System Controls (5/25/2007)
the Naval Facilities Engineering          Kingdom Polaris/Trident Trust Fund
Command (04/16/07)                        (09/18/07)                            F-2007-0006-FB2000 Controls for
                                                                                the Security Assistance Management
2007-0031 Independent                     2007-0054 Opinion Letter–             Information System (7/13/2007)
Attestation– Agreed-Upon                  Opinion on the United States/
Procedures Attestation Engagement         United Kingdom Polaris/Trident        F-2007-0007-FB2000 Standard
of Marine Corps Real Property             Trust Fund Financial Reports          Materiel Accounting System
Financial Statement Information           (09/18/07)                            Controls (8/22/2007)
(05/07/07)
                                          2007-0056 Navy Manpower               F-2007-0007-FB3000 Depot
2007-0034 Contractor Support              Program Budget System (09/25/07)      Maintenance Activity Group Manual
Services in Support of Hurricane                                                Adjustments (4/20/2007)
Relief Efforts (05/22/07)                 2007-0057 Reserve Personnel, Navy
                                          Unexpended Balances (09/25/07)        F-2007-0008-FB3000 Aerospace
2007-0038 Unliquidated                                                          Maintenance and Regeneration
Obligations for Support Services          2007-0061 Department of the           Center Trial Balance Review
Contracts at Space and Naval              Navy Museum Costs and Revenues        (4/25/2007)
Warfare Systems Command                   (09/28/07)
(05/31/07)                                                                      F-2007-0009-FB3000 Air Force
                                                  Air Force                     Military Equipment Baseline
2007-0041 Government                                                            Valuation (5/29/2007)
                                                Audit Agency
Commercial Purchase Card Usage
at Selected Department of the Navy                                              F-2007-0010-FB3000 Depot
Activities (06/12/07)                     F-2007-0010-FB1000 Follow-up          Maintenance Activity Group Manual
                                          Audit, Miscellaneous Obligation       Voucher Oversight (6/8/2007)
2007-0042 United States                   Reimbursement Documents for
Marine Corps Transportation               Government Furnished Property         F-2007-0011-FB3000 Air Force
Management System Billing for             Purchases (4/20/2007)                 Working Capital Fund, Supply
Second Destination Transportation                                               Management Activity Group,
(06/25/07)                                F-2007-0011-FB1000 Base-Level         Accounts Payable (7/27/2007)
                                          Support Agreements (6/27/2007)
2007-0045 Independent                                                           F-2007-0012-FB3000 Aerospace
Attestation– Agreed-Upon                  F-2007-0012-FB1000 Air Force          Maintenance and Regeneration
Procedures Attestation Engagement         Office of Special Investigations      Center Job Order Management
for the TRICARE Management                Confidential Investigative            (7/31/2007)
Activity Financial Improvement            Contingency Funds (7/30/2007)
Initiative (07/13/07)                                                           F-2007-0013-FB3000 Travel
                                                                                Obligations (8/29/2007)


                                                                                                                  115
Department of Defense Inspector General
F-2007-0008-FD1000 Hurricane          A-2007-0180-FFH Third Party          D-2007-079 Performance-Based
Katrina Supplemental Funds            Collection Program--Other Health     Service Contract for Environmental
Management (4/23/2007)                Insurance, U.S. Army Medical         Services at the Navy Public Works
                                      Command, Fort Sam Houston            Center, San Diego, California (FOR
F-2007-0006-FD3000 Central            (08/02/2007)                         OFFICIAL USE ONLY) (04/02/07)
Command Air Forces Deployed
Locations Ground Fuels                A-2007-0181-FFH Implementation       D-2007-131 Followup Audit on
Management (4/27/2007)                of AHLTA, U.S. Army Medical          Recommendations for Controls
                                      Command (08/08/2007)                 Over Exporting Sensitive
F-2007-0010-FD3000 Information                                             Technologies to Countries of
Operations Funds Management           A-2007-0236-FFH Funding              Concern (09/28/07)
(CLASSIFIED) (8/10/2007)              Models for Army Modular Forces,
                                      U.S. Army Medical Command             Naval Audit Service
       Health Care                    (09/27/2007)
                                                                           2007-0030 Navy Installation
                                      A-2007-0245-FFE Civil Works          Support Agreements (05/01/07)
                                      Environmental Liabilities,
           DoD IG                     U.S. Army Corps of Engineers         2007-0032 Selected Base
                                      (09/28/2007)                         Realignment and Closure Military
                                                                           Construction Projects Proposed for
D-2007-108 Outpatient Third Party      Naval Audit Service                 Fiscal Year 2008 (05/10/07)
Collection Program (07/18/07)
                                                                           2007-0040 Quality Control Review
  Army Audit Agency                   2007-0039 Controls and               – Audit Supervision (06/11/07)
                                      Accountability Over Medical
                                      Supplies and Equipment - Hurricane   2007-0044 Base Realignment
A-2007-0138-FFH Contracts for         Relief Efforts (06/01/07)            and Closure, Fiscal Years 1991,
Medical Goods and Services During                                          1993, and 1995 Appropriations
FYs 02-06, U.S. Army Medical                  Air Force                    - Unliquidated Funds and
Command Health Care Acquisition             Audit Agency                   Unliquidated Obligations
Activity (05/24/2007)                                                      (06/28/07)

A-2007-0147-FFP Followup Audit        F-2007-0006-FD2000 Active Duty       2007-0046 Internal Controls Over
of Third Party Claims, Tripler Army   Medical Profiles (6/8/2007)          Disbursing Office Operations in
Medical Center (06/08/2007)                                                Bahrain (07/23/07)
                                      F-2007-0008-FD2000 Privacy
A-2007-0148-FFP Electronic            Protection of Medical Patients’      2007-0051 Department of the
Medical Records System, Tripler       Health Information (7/30/2007)       Navy (DON) Installation Support
Army Medical Center (06/12/2007)                                           Agreements with Non-DON Hosts
                                      F-2007-0009-FD2000 Pathology         (09/05/07)
A-2007-0179-FFH Third Party           Services (8/13/2007)
Collection Claims Single Interface                                         2007-0058 Naval Audit Service
System; U.S. Army Medical                                                  Opinion on the Fiscal Year 2007
Command; Fort Sam Houston
                                                  Other                    Annual Statement of Assurance
(07/31/2007)                                                               (09/26/07)

                                                 DoD IG                    2007-0063 Quality Control Training
                                                                           (09/28/07)
116
                                                                                    Semiannual Report to Congress
                                               Appendix B

               DoD IG Audit Reports Issued Containing Quantifiable
                          Potential Monetary Benefits


                                                                              Potential Monetary Benefits
                           Audit Reports Issued                               Disallowed     Funds Put to
                                                                                Costs 1
                                                                                               Better Use
D-2007-079 Performance Based Service Contract for Environmental
Services at the Navy Public Works Center, San Diego, California
(4/03/2007)                                                                     $1,400,000          $6,600,000
D-2007-095 Consolidation of Raytheon Pension Accounting Records for
Selected Business Acquisitions (5/14/2007)                                    $100,900,000              N/A
D-2007-097 Controls Over Military Personnel, Army Appropriation
Permanent Change of Station Travel Advances and Suspense Accounts
(5/16/2007)                                                                        N/A              $3,000,000
D-2007-100 Contract for Logistics Support Services for Special
Operations Forces (5/18/2007)                                                    $836,655               N/A
D-2007-104 Airbursting Fuze Technology Used for the Objective
Individual Combat Weapon and the Advanced Crew Served Weapon (U)
6/05/07)                                                                           N/A              $82,797,000
D-2007-108 Outpatient Third Party Collection Program (7/18/2007)                   N/A              $56,500,000
D-2007-110 Identification and Reporting of Improper Payments through
Recovery Auditing (7/09/2007)                                                      N/A             $837,000,000
D-2007-118 Contract Administration of the Ice Delivery Contract
Between International American Products, Worldwide Services and the
U.S. Army Corps of Engineers During the Hurricane Katrina Recovery
Effort (8/24/2007)                                                               $103,724               N/A
D-2007-119 Procurement of Propeller Blade Heaters for the C-130
Aircraft (8/27/2007)                                                               N/A              $2,048,306
D2007-121 Emergency Supplemental Appropriations for DoD
Needs Arising From Hurricane Katrina at Selected DoD Components
(9/12/2007)                                                                      $935,680              $6,202
Totals                                                                     $104,176,059           $987,951,508
*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix A).




                                                                                                                  117
Department of Defense Inspector General
                                                 Appendix C

          DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
            RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                  Status                                      Number                 Funds Put
                                                                                                   To Better Use 1
A.      For which no management decision had been made by the
        beginning of the reporting period.                                      49                    $96,608
B.	     Which were issued during the reporting period.                           54                  $1,092,128
        Subtotals (A+B)                                                         103                  $1,188,736
C.	     For which a management decision was made during the                     65                   $1,150,405
        reporting period.

       (i) 	     dollar value of recommendations that were agreed to
                 by management.
                 - based on proposed management action
                 - based on proposed legislative action
       (ii)	     dollar value of recommendations that were not agreed
                 to by management.                                                                  $1,150,4052
D.	      For which no management decision has been made by the
         end of the reporting period.                                            38                   $96,608
         Reports for which no management decision was made within
         6 months of issue (as of March 31, 2006).                               173                  $34,400
1 DoD IG audit reports issued during the period involved “questioned costs” of $104.2 million.
2 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
benefits cannot be determined until those actions are completed.
3 DoD IG Report Nos. D-2005-054, “DoD Information Technology Security Certification and Accreditation Process”; D-
2005-062, “Recording and Accounting for DoD Contract Financing Payments”; D-2005-094, “Proposed DoD Information
Assurance Certification and Accreditation Process”; D-2005-099, “Status of Selected DoD Policies on Information
Technology Governance”; D-2006-039, “Internal Controls Over the Compilation of the Air Force, General Fund, Fund
Balance With Treasury for FY 2004”; D-2006-041, “Operational Mobility: Gap-Crossing Resources for the Korean Theater”
; D-2006-042, “Security Status for Systems Reported in DoD Information Technology Databases”; D-2006-055, “Audit of
Spare Parts Procurements from Transdigm, Inc.”; D-2006-072, “Internal Controls Related to Department of Defense Real
Property”; D-2006-107, “ Defense Departmental Reporting System and Related Financial Statement Compilation Process
Controls Placed in Operation and Tests of Operating Effectiveness for the Period October 1, 2004, through March 31, 2005”;
D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation”; D-2007-003, “Internal Controls over
the Army General Fund, Note 3, “Fund Balance With Treasury,” Disclosures”; D-2007-049, “Equipment Status of Deployed
Forces Within the U.S. Central Command”; D-2007-065, “Controls Over the Prevalidation of DoD Commercial Payments”;
D-2007-067, “DoD Initiatives for Combating Weapons of Mass Destruction”; and, D-2007-070, “Force Structure Changes
in the U.S. Pacific Command - Roles and Responsibilities of Headquarters and Support Functions,” had no management
decision as of September 30, 2007, but action to achieve a decision is in process. D-2006-044, “Controls Over the Export of
Joint Strike Fighter Technology,” had no management decision as of September 30, 2007, but was decided October 9, 2007.

* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).

118
                                                                                                Semiannual Report to Congress
                      STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                 Period ending September 30, 2007
                                          ($ in thousands)
                                                                         Funds Put
                                   Status                         Number to Better
                                                                           Use 1
         DoD IG
           Action in Progress - Beginning of Period                                       245           $2,100
           Action Initiated - During Period                                                65         1,150,405
           Action Completed - During Period                                                52          107,403
           Action in Progress - End of Period                                             258           2,1002
         Military Departments
           Action in Progress - Beginning of Period                                       607         2,221,668
           Action Initiated - During Period                                               222          475,653
           Action Completed - During Period                                               236          483,397
           Action in Progress - End of Period                                             593         2,135,253

         1 DoD IG audit reports opened for followup during the period involved “questioned costs” of
         $102.3 million.
         2 On certain reports (primarily from prior periods) with audit estimated monetary benefits of
         $7,761 million, we agreed that the resulting monetary benefits can only be estimated after comple-
         tion of management action, which is ongoing.


         * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
          Section 5(b)(2) & (3).




                                                                                                                  119
Department of Defense Inspector General
                                                Appendix D

                              CONTRACT AUDIT REPORTS ISSUED1
                                          ($ in millions)
                            April 1, 2007 through September 30, 2007


                                           REPORTS          QUESTIONED FUNDS PUT TO
TYPE OF AUDIT          2
                                            ISSUED EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                13,053           $75,916.9             $922.5                 $135.74
Forward Pricing Proposals                      4,283          $114,088.5               ---                 $5,590.15
Cost Accounting Standards                      1,378             $30.6               $29.3                    ---
Defective Pricing                               327            (Note 6)              $34.0                    ---
Totals                                       19,041          $190,036.0             $985.8                $5,725.8

                                                         Notes
Note 1. This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6
months ended September 30, 2007. This includes any audits that DCAA performed on a reimbursable basis for other
government agencies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress.
Both “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between
availability of management information system data and legislative reporting requirements, there is minimal opportunity for
DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent DCAA
authentication.
Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined
as:
Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are reason-
able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evalu-
ate a contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and
Special Audits, which include audits of terminations and claims.
Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices,
failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
data (the Truth in Negotiations Act).
Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations,
laws, and/or contractual terms.
Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that
funds could be used more effectively if management took action to implement cost reduction recommendations.
Note 5. Represents potential cost reductions that may be realized during contract negotiations.
Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
with the original forward pricing proposals.

120
                                                                                               Semiannual Report to Congress
                                                 Appendix E

                                 STATUS OF action on
                      significant post‑award contract audits1
                      Period Ending September 30, 2007 ($ in millions)
                                              Number of
                                               Reports  Costs Questioned               Disallowed Costs6

             Open Reports:

               Within Guidelines2                 429               $915.9                    N/A7

               Overage, greater than 6
               months3
                                                  602              $1,224.0                   N/A

               Overage, greater than 12
               months4                            455              $1,090.0                   N/A

                In Litigation5                    101              $1,567.5                   N/A

             Total Open Reports                  1,587             $4,797.4                   N/A

             Closed Reports                       376               $524.7              $363.0 (69.2%)

             All Reports                         1.963             $5,322.1                   N/A

1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
equitable adjustments, accounting and related internal control systems, and noncompliances with the Cost Accounting
Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, and TRICARE.  Contract
audit follow-up is reported in accordance with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.”  
Because of limited time between availability of the data and reporting requirements, there is minimal opportunity to verify
the accuracy of the reported data.
2 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Directive
7640.2 as described in footnotes 3 and 4 below.
3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance.  Generally, an audit is
resolved when the contracting officer determines a course of action which is documented and approved in accordance with
agency policy.
4 DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of issuance.  
Generally, disposition is achieved when the contractor implements audit recommendations, the contracting officer negoti-
ates a settlement with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5 Of the 101 reports in litigation, 12 are under criminal investigation.
6 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7 N/A (not applicable)
                                                                                                                       121
Department of Defense Inspector General
                                             Appendix F

           STATUS OF DOD IG REPORTS MORE THAN 12 MONTHS OLD
                       WITH FINAL ACTION PENDING
                         (As of September 30, 2007)

      Report Number            Description of Action           Reason Action Not       Principle Action Office
         Title/Date                                                 Completed
94-062, Financial Status of Changes to policy guid-        Coordination issues within USD(C)
Air Force Expired Year Ap- ance to include refunds         DoD continue to be ad-
propriations, 3/18/1994     receivable arising from        dressed.
                            matters in litigation.
96-156, Implementation      Implement system changes       Correction of this material DFAS
of the DoD Plan to Match to correct weaknesses in          weakness involves a long-
Disbursement to Obliga-     the automated prevalida-       term effort.
tions Prior to Payment,     tion process.
6/11/1996
97-112, Air Mobility        AMC is to develop a            Competing management           TRANSCOM, DFAS
Command (AMC) Finan- methodology for keeping               priorities.
cial Reporting of Property, PP&E current and provid-
Plant, and Equipment        ing accurate and useful
(PP&E), 3/19/1997           information to DFAS for
                            preparation of financial
                            statements.
97-134, Disposal of         Change regulations to ad-      Action had to be turned        USD(AT&L), DLA
Munitions List Items in     vance the identification of    over to a support contrac-
the Possession of Defense munitions list items to the      tor for implementation.
Contractors, 4/22/1997      early stages of the acquisi-
                            tion process.
98-049, DoD Sensitive       Report is classified.          Extensive time required to     USD(I)
Support Focal Point Sys-                                   revise guidance.
tem (U), 1/20/1998
98-052, Defense Logistics Issue accounting and bill-       Publication of the DoD         USD(C)
Agency Past Due Fed-        ing policy for requisitions    FMR revision has been
eral Accounts Receivable, under the Shelter for the        delayed pending the reso-
1/22/1998                   Homeless Program. Chap-        lution of significant policy
                            ter 5 of DoD FMR Vol-          issues.
                            ume 11B is being revised
                            to implement the guid-
                            ance.




122
                                                                                           Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not          Principle Action Office
          Title/Date                                               Completed
 98-063, Defense Logistics   Revisions to DLA Instruc- A decision was made to            DLA
 Agency Product Qual-        tion 4155.24, “Quality As- combine the draft directive
 ity Deficiency Program,     surance Program for DLA and instruction back into a
 2/5/1998                    Inventory Control Points.” single regulation format.
 98-067, Access Reciprocity  Standardize Special Access Competing management             USD(I), Army, Navy, AF
 Between DoD Special Ac-     Program (SAP) eligibility    priorities and extensive
 cess Programs, 2/10/1998    implementing criteria and time to revise DoD publi-
                             develop a centralized SAP cations. Lack of manage-
                             database.                    ment responsiveness.
 98-100, Fund Balance        Issue Standard Operating Implementation strat-              DFAS
 With Treasury Account       Procedures to the DFAS       egy changes and unique
 in the FY 1996 Financial    centers for reporting        reporting issues caused
 Statements of the Defense undistributed balances in      delays. DFAS revised the
 Business Operations Fund, the monthly Accounting         format for the report, but
 4/2/1998                    Report 1307.                 the related DoD FMR
                                                          guidance has not been
                                                          finalized.
 98-116, Accounting for      Revise procedures for        Competing management           DFAS
 Defense Logistics Agency handling accounts receiv- priorities.
 Supply Management Re-       able. Implement standard
 ceivables, 4/20/1998        general ledger in account-
                             ing systems.
 98-124, Department of       Implement peer review        Competing manage-              USD(I)
 Defense Adjudication Pro- program and establish          ment priorities, funding
 gram, 4/27/1998             continuing education stan- restraints and extended
                             dards and a program for      time needed to coordinate
                             the professional certifica-  and issue DoD policy.
                             tion for adjudicators.       Developing new testing
                                                          procedures for certification
                                                          program. Lack of manage-
                                                          ment responsiveness.
 99-159, Interservice Avail- Revise Joint Service Regu- Delays have been experi-         Army
 ability of Multiservice     lation to require consistent enced in coordinating and
 Used Items, 5/14/1999       item management wher-        issuing policy.
                             ever economical and safe.
                             Services provide training
                             on disposal authority for
                             multi-service used items
                             and requirements related
                             to excess assets quantities.




                                                                                                                123
Department of Defense Inspector General
     Report Number             Description of Action           Reason Action Not       Principle Action Office
        Title/Date                                                 Completed
99-186, DoD Export         Develop a process for iden- Delays in coordinating and USD(P)
Licensing Processes for    tifying and establishing as- issuing policy.
Dual-Use Commodities       sessment priorities related
and Munitions, 6/18/1999   to the cumulative effect of
                           technology transfers.
D-2000-110, Export Li-     Improve guidance regard- Delays in coordinating and USD(P)
censing at DoD Research ing the determination of          issuing policy.
Facilities, 3/24/2000      the need for “deemed”
                           export licenses in the event
                           of foreign national visits
                           to, or assignments to, DoD
                           research facilities.
D-2000-111, Security       Establish timeframes to        Corrective action delayed USD(I), DSS
Clearance Investigative    expedite investigative         by the transfer of the per-
Priorities, 4/5/2000       priorities.                    sonnel security investiga-
                                                          tive function from DSS to
                                                          OPM. Awaiting funding
                                                          for new electronic capabil-
                                                          ity and issuance of policy
                                                          guidance. Lack of man-
                                                          agement responsiveness.
D-2000-134, Tracking Se- The current database will        Extensive time/resources    DSS
curity Clearance Requests, be modified to retain all      needed to modify an
5/30/2000                  pertinent historical infor- automated system. Im-
                           mation (including dates/       pacted by transformation
                           times for every occurrence of the personnel security
                           -- e.g., deletions, case type, program. Lack of manage-
                           changes, cancellations,        ment responsiveness.
                           duplicates, conversions,
                           reinstatements, etc.)
D-2000-139, Controls       Awaiting revisions to the      Delays in coordinating and USD(C)
Over the Integrated Ac-    Financial Management           issuing policy.
counts Payable System,     Regulation, Volume 10,
6/5/2000                   Chapters 7 and 12.
D-2000-177, Revalua-       USD(C) evaluating policy Delays in coordinating and USD(C)
tion of Inventory for the  and systems changes to         issuing policy.
FY 1999 Department of      implement and support a
the Navy Working Capital latest acquisition cost valu-
Fund Financial Statements, ation method and a direct
8/18/2000                  cost historical valuation
                           method. These would be
                           long-term solutions for
                           improving the financial
                           presentation of net inven-
                           tory.
124
                                                                                      Semiannual Report to Congress
      Report Number                Description of Action       Reason Action Not        Principle Action Office
        Title/Date                                                  Completed
 D-2001-018, Manage-        Army assumed respon-           Coordination and staffing   Army
 ment and Oversight of the  sibility to update Joint       issues continue.
 DoD Weather Program,       Instruction AR 115-10/
 12/14/2000                 AFI 15-157, to require
                            coordination of meteo-
                            rological, oceanographic,
                            and space weather require-
                            ments across all Military
                            Departments to promote
                            interoperability and avoid
                            duplication.
 D-2001-037, Collection     Develop, test and deploy     Testing demonstrated          ASD(HA)
 and Reporting of Patient   Patient Safety Reporting     selected system was not
 Safety Data Within the     Program.                     ready for initial deploy-
 Military Health System,                                 ment. Additional time
 1/29/2001                                               required to obtain opera-
                                                         tional capabilities.
 D-2001-059, Armed          Actions are underway to      Extensive time required to    Army, AF
 Service Blood Program      improve the Defense Blood establish policy and imple-
 Readiness, 2/23/2001       Standard System (DBSS)       ment other changes.
                            to ensure that the system
                            meets all user and mission
                            needs, ensures asset ac-
                            countability and inventory
                            accuracy. Also actions are
                            underway to ensure consis-
                            tent deployment and use of
                            DBSS throughout DoD.
 D-2001-065, DoD Ad-        Identify and process addi- Extensive time required         DSS, USD(I)
 judication of Contractor   tional adjudicative resourc- to update DoD guidance.
 Security Clearances Grant- es for Defense Industrial    Lack of management re-
 ed by the Defense Security Security Clearance Office sponsiveness.
 Service, 2/28/2001         (DISCO). Establishment
                            of continuing education
                            standards to facilitate the
                            certification of profes-
                            sional adjudicators. Issue
                            guidance on professional
                            certification and continu-
                            ous training program for
                            all adjudicators.




                                                                                                              125
Department of Defense Inspector General
     Report Number             Description of Action           Reason Action Not        Principle Action Office
        Title/Date                                                 Completed
D-2001-081, Financial      Modify the Washington           Extensive time required for WHS
Reporting at the Washing-  Headquarters Services           system changes.
ton Headquarters Services, Allotment Accounting Sys-
3/15/2001                  tem to correctly post prior
                           period adjustments. Also,
                           develop query interfaces
                           for each general ledger ac-
                           count that can be used to
                           research detailed transac-
                           tions supporting account
                           balances.
D-2001-099, Use of         Modify the Financial            Extensive time required     USD(C)
Contract Authority for     Management Regulation,          for changes to financial
Distribution Depots by the Volume 11B, to include          policies.
Defense Logistics Agency, procedures that require
4/16/2001                  that all use of contract
                           authority is adequately
                           posted and liquidated in
                           the DoD working capital
                           fund accounting records at
                           the activity group level.
D-2001-124, U.S. Special Report is classified.             Extensive time required for JS
Operations Command Use                                     coordination and publica-
of Alternative or Compen-                                  tion of DoD document.
satory Control Measures                                    Awaiting copy of finalized
(U), 5/18/2001                                             documents. Lack of man-
                                                           agement responsiveness.
D-2001-135, Prevalida-       Develop cost-effective        Correction of this material USD(AT&L)
tion of Intergovernmental    automated methods to          weakness involves a long-
Transactions, 6/6/2001       expand prevalidation.         term effort.
D-2001-141, Allegations      Amend DoD 5200.2-R            Delays continue in prepa- USD(I)
to the Defense Hotline       to address security inves-    ration and coordination of
on the Defense Security      tigation requirements for     DoD guidance.
Assistance Management        foreign national contractor
System, 6/19/2001            employees.
D-2001-148, Automated        Issue policy to address       Rewriting of the chapters   ASD(NII), USD(C)
Transportation Payments,     information assurance re-     for formal coordination
6/22/2001                    quirements for commercial     and approval has delayed
                             automated processes.          issuing and implementing
                                                           policy.




126
                                                                                        Semiannual Report to Congress
       Report Number            Description of Action          Reason Action Not     Principle Action Office
          Title/Date                                               Completed
 D-2001-153, Pentagon        Develop processes to iden-    Implementation has been WHS
 Reservation Maintenance tify the appropriate con-         delayed by higher manage-
 Revolving Fund, 7/2/2001 struction costs to be used       ment priorities.
                             in transferring completed
                             projects from the construc-
                             tion in progress account to
                             the real property accounts.
 D-2001-158, Compila-        Management will establish     Implementation has been DFAS
 tion of the FY 2000 Army an action plan to meet           delayed by higher manage-
 General Fund Financial      revised requirements for      ment priorities.
 Statements at the Defense reconciling suspense ac-
 Finance and Accounting      counts.
 Service Indianapolis (Sus-
 taining Forces), 7/13/2001
 D-2001-163, Accounting Revise FMR, Volume                 Publication of the DoD       USD(C)
 Entries Made in Compil- 11B, Chapter 5 to reflect         FMR revisions has been
 ing the FY 2000 Financial changes to inventory valu-      delayed due to significant
 Statements of the Working ation and reporting; and        policy issues.
 Capital Funds of the Air    revise DoD FMR, Volume
 Force and Other Defense 4, Chapter 3 to require
 Organizations, 7/26/2001 the recoding of accounts
                             receivable for credits
                             due when DoD working
                             capital fund supply activi-
                             ties return inventory items
                             that do not conform to
                             the purchase agreement or
                             contract.
 D-2001-170, U.S. Trans- Develop system changes to         Implementation has been TRANSCOM
 portation Command’s Re- differentiate among US-           delayed by higher manage-
 porting of Property, Plant, TRANSCOM, Air Mobil-          ment priorities.
 and Equipment Assets on ity Command (AMC),
 the FY 2000 DoD Agency- and Defense Courier
 wide Financial Statements, Service (DCS) assets. Cre-
 8/3/2001                    ate electronic interfaces
                             between the logistics and
                             the accounting systems for
                             transferring data.




                                                                                                           127
Department of Defense Inspector General
      Report Number           Description of Action          Reason Action Not     Principle Action Office
        Title/Date                                               Completed
D-2002-004, Import        Revise USFK Regulation        USTRANCOM awarded a USFK
Processing of DoD Cargo   55-72 to update require-      single world-wide contract
Arriving in the Republic of
                          ments and implement a         for a single customs pro-
Korea, 10/4/2001          cost-efficient system for     cess automation system.
                          the automated processing      Awaiting system imple-
                          of customs forms using        mentation.
                          an electronic data inter-
                          change.
D-2002-008, Controls      Improve guidance on           Delays in coordinating and USD(C)
Over the Computerized     criteria for proper and ac-   issuing policy.
Accounts Payable System   curate receipt and invoice
(CAPS) at Defense Finance documentation; improve
and Accounting Service    organizational structures
Kansas City (DFAS-KC), to provide better internal
10/19/2002                controls.
D-2002-010, Armed         Establish a plan, controls,   Long-term corrective ac-   Army, AF, ASD(HA)
Services Blood Program    assessment requirements       tion on schedule.
Defense Blood Standard    and training related to the
System, 10/22/2001        Defense Blood Standard
                          System (DBSS) upgrade.
                          Also, establish procedures
                          to ensure effective de-
                          ployment of those DBSS
                          upgrades.
D-2002-024, Navy Fleet    Report is classified.         Corrective actions are de- Navy, PACOM
Hospital Requirements                                   layed by changing require-
(U), 12/12/2001                                         ments.
D-2002-035, Protection of Report is classified.         Extensive time required    ASD(NII)
Strategic Systems Against                               for coordination of DoD
Radio Frequency Threats                                 publications.
(U), 1/4/2002
D-2002-056, Controls      Revise the Financial          Delays in coordinating and USD(C)
Over Vendor Payments      Management Regulation         issuing policy.
Made for the Army and     to incorporate the require-
Defense Agencies Using    ments of 5 CFR 1315.
the Computerized Ac-
counting Payable System
(CAPS), 3/6/2002




128
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not         Principle Action Office
         Title/Date                                                 Completed
 D-2002-060, Management      Revise procedures to          Original action is no lon-    DLA
 of Terminal Items at the    review terminal items         ger the optimum solution,
 Defense Logistics Agency,   with no registered users      alternative action is being
 3/13/2002                   in the Defense Inactive       taken.
                             Item Program (DIIP), for
                             obsolescence, and quantify
                             the number of terminal
                             National Stock Numbers
                             (NSNs) that are deter-
                             mined to be obsolete after
                             NATO and foreign govern-
                             ments review the NSNs.
 D-2002-073, Financial       Use transactional data        Slow system development       DFAS
 Management Ending           from a centralized database   process.
 Balance Adjustments to      to populate general ledger
 General Ledger Data for     accounts in the Defense
 the Army General Fund,      Departmental Reporting
 3/27/2002                   System (DDRS) Budget-
                             ary and continue efforts to
                             analyze and correct causes
                             for current adjustments;
                             Use transactional data to
                             generate a general ledger
                             data file for DDRS Bud-
                             getary.
 D-2002-075, Controls        Strengthen controls to        Corrective action requires    USD(AT&L)
 Over the DoD Purchase       modify contract with          long-term development of
 Card Program, 3/29/2002 banks to prevent accounts         risk-assessment tools.
                             from being reopened after
                             notification to close, and
                             provide reports on over-
                             sight reviews.
 D-2002-076, Funding In- Revise Financial Manage-          Delays in coordinating and USD(C)
 voices to Expedite the Clo- ment Regulation, Chapter      issuing policy.
 sure of Contracts Before    10, Appendix B, number
 Transitioning to A New      7, “Accounting Require-
 DoD Payment System,         ments for Expired and
 3/29/2002                   Closed Accounts, “ to re-
                             quire that the DoD activ-
                             ity to which a program has
                             transferred be responsible
                             for providing current-year
                             funding.


                                                                                                                129
Department of Defense Inspector General
       Report Number           Description of Action         Reason Action Not          Principle Action Office
          Title/Date                                              Completed
D-2002-091, Accountabil-   Comply with guidance for       Lack of management re-       Army
ity and Control of Mate-   storage of maintenance         sponsiveness.
riel at the Corpus Christi materiel and the prepara-
Army Depot, 5/21/2002      tion and submission of
                           management reports for
                           review; perform annual
                           physical inventory and
                           quarterly reviews of mate-
                           riel.
D-2002-103, Certification Through a contractor/gov-       Service desk ticketing       Army
of the Reserve Compo-      ernment teaming effort,        procedures had to be
nent Automation System     establish functional perfor-   revamped resulting in
(RCAS), 6/14/2002          mance measures to better       rework of existing perfor-
                           assess both the initial and    mance indicators.
                           future impact of RCAS on
                           supported functionalities.
D-2002-108, Standard       Report is FOUO.                Draft DIACAP policy          ASD(NII)
Procurement System Certi-                                 coordination continues.
fication and Accreditation
Process, 6/19/2002
D-2002-117, Review of      Report is classified.          Competing management         DIA
FY 2001 Financial State-                                  priorities.
ment for the Defense
Intelligence Agency (U),
6/25/2002
D-2002-122, Environ-       Develop a more detailed        Extensive time required to USD(P&R)
mental Community           DoD instruction on             develop and coordinate the
Involvement Program at     Sustainable Ranges Out-        new DoD Instruction.
Test and Training Ranges, reach. Continue work on
6/28/2002                  implementation of the new
                           Directive and development
                           of the new instruction.
D-2002-127, Audit Report Implement a system to            Long-term process to         DFAS
on DoD Compliance with capture material internal          develop and implement
Internal Use Software      software costs; identify the   guidance; and slow system
Accounting Standards,      appropriate actions needed     development process.
7/9/2002                   to properly value and
                           support all financial state-
                           ment amounts and publish
                           these actions in financial
                           improvement plans; and
                           develop a strategy and a
                           Key Milestone Plan.

130
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not         Principle Action Office
         Title/Date                                                   Completed
 D-2002-131, Terminal           DLA will modify the exist- Original action is no lon-      DLA
 Items Managed by the De-       ing stock retention policy ger the optimum solution,
 fense Logistics Agency for     to review terminal items     alternative action is being
 the Navy, 7/22/2002            that are excluded from the taken.
                                Defense Inactive Program
                                (DIIP). In addition, plan
                                to complete a new study to
                                quantify the costs of inac-
                                tive items.
 D-2002-140, Measure-           Establish and implement      Delays were caused by         Army, Navy, AF, WHS
 ment of Water Usage            procedures to verify that    installation and program
 by DoD Components              the DCWASA routinely         compatibility issues, other
 Serviced by the DC             inspects and reports results technical difficulties, and
 Water and Sewer Service,       of inspections for DoD-      contract terminations.
 8/20/2002                      owned water meters;
                                develop and implement
                                effective controls and pro-
                                cedures to verify that the
                                DCWASA accurately reads
                                water meters; establish and
                                implement a maintenance
                                program.
 D-2002-153, Reprocessed        Services issue SUD guid-     Significant time required     Army
 Medical Single-Use De-         ance (based on recently      to develop Service-level
 vices in DoD, 9/30/2002        reissued ASD (HA) guid- guidance.
                                ance) on the reuse of
                                single-use devices (SUD).
 D-2003-001, DoD Inte-          Develop integrated natu-     The remaining Army plan       Army
 grated Natural Resource        ral resource management      is on hold pending the
 Management Plans,              plans for military instal-   resolution of an internal
 10/1/2002                      lations and coordinate       disagreement within the
                                the plans with the other     U.S. Fish and Wildlife
                                Federal and State agencies Service.
                                involved in the process.
 D-2003-018, Validity of        Establish procedures to      Action is being taken by      DFAS
 Registration in the Cen-       withhold payments to con- management to implement
 tral Contractor Registra-      tractors and vendors until a manual, rather than an
 tion (CCR) Database,           they are properly registered automated, solution.
 10/30/2002                     with a valid Tax Identifica-
                                tion Number in the CCR
                                database.




                                                                                                                  131
Department of Defense Inspector General
     Report Number            Description of Action           Reason Action Not       Principle Action Office
        Title/Date                                                Completed
D-2003-021, Export         Report is confidential.       Extensive time required to USD(P)
Controls Over Biological                                 coordinate and issue policy
Agents (U), 11/12/2002                                   guidance.
D-2003-030, Financial      Revise DoD FMR to allow Publication of the DoD            USD(C)
Reporting of Deferred      the Air Force to present      FMR revisions has been
Maintenance Information    all material categories of    delayed due to significant
on Air Force Weapons       deferred maintenance          policy changes resulting
Systems for FY 2002,       as major asset classes in     from OMB A-136 revi-
11/27/2002                 accordance with Federal       sions.
                           accounting requirements.
D-2003-034, Adjustments Revise the Financial             Delays in coordinating and USD(C)
to the Intergovernmen-     Management Regulation         issuing policy.
tal Payments Account,      to specify the documenta-
12/10/2002                 tion required to support
                           adjustments from account
                           F3885, ‘Undistributed
                           Intergovernmental Pay-
                           ments,’ to closed appro-
                           priations.
D-2003-056, Public/Pri-    AT&L is working with          Corrective actions are on   USD(AT&L)
vate Competition for the   OMB to address any over- schedule.
Defense Finance and Ac-    head ambiguities in OMB
counting Service Military Circular A-76, proposing
Retired and Annuitant Pay additional guidance to
Functions, 3/21/2003       clarify costing policies, and
                           providing definitions for
                           direct and indirect costs as
                           well as a revised definition
                           for overhead.
D-2003-067, Recoveries     Revise the Financial Man- Extensive time required         USD(C), DFAS
of Prior Year Obligations, agement Regulation to be for changes to financial
3/21/2003                  consistent with recovery      policies.
                           reporting guidance issued
                           by the OMB and the De-
                           partment of the Treasury.
                           Program DFAS account-
                           ing systems to properly
                           capture, record, and report
                           recoveries of prior year
                           obligations.
D-2003-071, Acquisition Report is classified.            Guidance is in second       MC
of Marine Corps Aircraft                                 staffing. ECD is Dec 31,
Simulators (U), 4/2/2003                                 2007.

132
                                                                                     Semiannual Report to Congress
       Report Number               Description of Action      Reason Action Not       Principle Action Office
          Title/Date                                              Completed
 D-2003-072, DoD                AF is updating guidance   Publication of AF Instruc- AF
 Compliance with the            to be consistent with DoD tion was delayed to include
 Uniformed and Overseas         level guidance.           pending revision of DoD
 Citizens Absentee Voting                                 guidance.
 Act, 3/31/2003
 D-2003-073, Reliability        Report is classified.      Corrective actions are on   NGA
 of the FY 2002 National                                   schedule.
 Imagery and Mapping
 Agency Financial State-
 ments and Adequacy of
 Related Procedures and
 Controls (U), 4/2/2003
 D-2003-074, Reliability of     Report is classified.      Competing management        DIA
 the FY 2002 Defense Intel-                                priorities.
 ligence Agency Financial
 Statements and Adequacy
 of Related Procedures and
 Controls (U), 4/7/2003
 D-2003-081, DoD Ex-       Restructure the DoD Ex-         Delays in coordinating and USD(AT&L)
 plosives Safety Program   plosives Safety Board and       issuing policy.
 Oversight, 4/24/2003      revise DoD guidance to ac-
                           curately reflect the Board’s
                           roles and responsibilities.
                           Develop a safety manage-
                           ment strategy that requires
                           a comprehensive DoD
                           explosives safety program.
 D-2003-095, Accounting Develop business practices         Long-term process to        DFAS, Navy
 for Reimbursable Work     for Navy fund administra-       develop and implement
 Orders at Defense Finance tors to properly account        improved business prac-
 and Accounting Service    for reimbursable work           tices, methodologies, and
 Charleston, 6/4/2003      orders. Develop a method-       guidance.
                           ology and provide guid-
                           ance to prevent Navy fund
                           administrators from over
                           obligating at the segment
                           level. Establish edit checks
                           that align with the business
                           practices of the Navy.
 D-2003-096, Protection of Report is classified.           Long-term corrective ac-    Army, Navy, AF, ASD(NII)
 European Theater Systems                                  tion on schedule.
 Against Radio Frequency
 Threats (U), 6/4/2003

                                                                                                             133
Department of Defense Inspector General
      Report Number            Description of Action         Reason Action Not       Principle Action Office
         Title/Date                                               Completed
D-2003-105, Management      Report is FOUO.               Lack of management re-    USD(AT&L)
of Developmental and                                      sponsiveness.
Operational Test Waiv-
ers for Defense System,
6/20/2003
D-2003-106, Administra-    The Director, Defense          Corrective actions are on USD(AT&L)
tion of Performance-Based  Procurement and Acquisi-       schedule. Normal time re-
Payments Made to Defense   tion Policy, will conduct an   quired to update the FAR
Contractors, 6/25/2003     assessment of the benefits     and DFARS.
                           of expanded performance-
                           based payments implemen-
                           tation. It will address con-
                           tracting officer compliance
                           with FAR Part 32.10, and
                           whether any changes are
                           needed to those policies,
                           the Performance-Based
                           Payments User’s Guide, or
                           training resources.
D-2003-110, Information System enhancements to            Extended time needed to   USD(P&R)
Technology Management: correct deficiencies are in        develop system enhance-
Defense Civilian Personnel process.                       ments.
Data System Functional-
ity and User Satisfaction,
7/27/2003
D-2003-115, Allegations    Air Force will prepare an      Lack of management re-    AF, DCMA
Concerning the Admin-      acquisition strategy ad-       sponsiveness.
istration of Contracts for dressing logistics support
Electronic Flight Instru-  for the 550-series Electron-
ments, 6/30/2003           ic Flight Instruments (EFI)
                           that address sustainment
                           and spare parts. DCMA
                           (at Lockheed Martin, Fort
                           Worth, TX) will perform
                           a Contractor Purchasing
                           System Review (CPSR).




134
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action         Reason Action Not         Principle Action Office
          Title/Date                                                  Completed
 D-2003-119, Controls           Comply with DoD invest- Long-term corrective ac-          USD(C)
 Over DoD Medicare              ment policy for the DoD      tion on schedule.
 Eligible Retiree Health        Medicare Eligible Retiree
 Care Fund Investments,         Health Care Fund; issue
 7/31/2003                      oversight procedures to
                                ensure that the DFAS
                                complies with the invest-
                                ment policy for the DoD
                                Medicare Eligible Retiree
                                Health Care Fund.
 D-2003-122, Financial          Issue guidance for un-       Guidance delayed due to      USD(C)
 Management: Closing            reconcilable contracts;      re-writing and coordina-
 the Army’s 1985 M1a1           update the DoD FMR           tion issues, and competing
 Tank Contract (Contract        to specifically address the  priorities.
 DAAE07-85-C-A043),             requirement to maintain
 8/13/2003                      vouchers and supporting
                                documentation to facilitate
                                complete contract recon-
                                ciliations.
 D-2003-128, The Chemi-         As directed by               Lack of management re-       USD(AT&L), Army
 cal Demilitarization Pro-      USD(AT&L), Army de-          sponsiveness.
 gram: Increased Costs for      velop and prioritize a plan
 Stockpile and Non-Stock-       for the disposal of buried
 pile Chemical Disposal         chemical warfare materiel.
 Programs, 9/4/2003             Upon receipt of the Army
                                plan, USD(AT&L) deter-
                                mine which DoD compo-
                                nent should be assigned to
                                implement the plan.
 D-2003-133, Report             Emphasize the importance Extensive time required          USD(C), DFAS
 on Controls Over DoD           of controls over the use of for changes to financial
 Closed Appropriations,         closed appropriations and policies.
 9/15/2003                      monitor compliance with
                                applicable laws and regula-
                                tions. DFAS establish spe-
                                cific standard procedures
                                to ensure that accounting
                                personnel approve only
                                legal and proper adjust-
                                ments to closed appropria-
                                tions, validate the canceled
                                balances and report any
                                potential Antideficiency
                                Act violations.

                                                                                                                 135
Department of Defense Inspector General
      Report Number             Description of Action       Reason Action Not          Principle Action Office
         Title/Date                                              Completed
D-2003-134, System           Report is FOUO.             Lack of management re-       Army
Security of the Army                                     sponsiveness.
Corps of Engineers Finan-
cial Management System,
9/15/2003
D-2004-002, Acquisition:     Review conducted and        Normal time to write,        WHS
Selected Purchase Card       new standard operating      coordinate, approve, and
Transactions at Washing-     procedures developed and implement guidance.
ton Headquarters Services    implemented. Administra-
and Civilian Personnel       tive instructions are being
Management Service,          rewritten.
10/16/2003
04-INTEL-02, DoD             Disparities between the     Extensive time required to   USD(I)
Security Clearance Adjudi-   contractor and military/    update DoD Regulations.
cation and Appeals Process   civilian personnel adju-    Lack of management re-
(U), 12/12/2003              dicative process will be    sponsiveness.
                             eliminated with the pend-
                             ing revision to the DoD
                             Regulation 5200.2-R.
D-2004-003, Decon-           Report is classified.       Lack of management re-       Navy
tamination Operation                                     sponsiveness.
Preparedness of Conti-
nental U.S. Based Navy
and Air Force Units (U),
10/8/2003
D-2004-007, Force Protec- Report is classified.          JS, AF, Navy, USMC,          Army, AF, PACOM, MC
tion in the Pacific Theater                              PACOM are in process of
(U), 10/14/2003                                          updating their guidance
                                                         based on DoD guidance
                                                         published on 10/30/06.
                                                         Army delay attributed
                                                         to lack of management
                                                         responsiveness.
04-INTEL-07, Audit of        Report is classified.       Long term corrective ac-     ATSD(NCB)
the Physical Security of                                 tions on schedule. Esti-
Nuclear Weapons (U),                                     mated completion date of
5/3/2004                                                 January 2008.




136
                                                                                       Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not         Principle Action Office
          Title/Date                                               Completed
 D-2004-008, Implemen-     Update Army Regulations          Coordination on issuance     Army
 tation of Interoperability70-1and 71-9 to require          of numerous related guid-
 and Information Assur-    combat developers to             ance.
 ance Policies for Acquisi-identify interoperability
 tion of Army Systems,     and supportability require-
 10/15/2003                ments in requirements
                           documents and update the
                           requirements throughout
                           the life of the systems, as
                           necessary, in accordance
                           with DoD Directive
                           4630.5 and to require pro-
                           gram managers to obtain
                           the Joint Staff J6 certifica-
                           tions for interoperability in
                           accordance with Chairman
                           of the Joint Chiefs of Staff
                           Instruction 6212.01B.
 D-2004-009, Allegations   Develop policies and             Continuous coordination      Army
 Concerning Controls Over procedures requiring the          of draft policy and proce-
 DoD Transit Subsidies     reconciliation of all transit    dures.
 Within the National Capi- subsidy billings received
 tal Region, 10/14/2003    from the Department of
                           Transportation.
 D-2004-012, Sole-Source Report is FOUO.                      Corrective actions are     Army
 Spare Parts Procured From                                    on schedule; actions are
 an Exclusive Distributor,                                    complete on all but 1 of
 10/16/2003                                                   the report’s 8 recommen-
                                                              dations.
 D-2004-020, Allegations        Implement a formal acqui- Delay in obtaining legal       NGB
 Concerning Impropri-           sition policy that integrates approval.
 eties in Awarding Na-          the existing roles of various
 tional Guard Contracts,        Army National Guard and
 11/18/2003                     Federal communication
                                and IT groups. Develop a
                                process with measurable IT
                                standards and defined busi-
                                ness processes. Coordinate
                                the requirements for help
                                desk support to eliminate
                                duplicate contract costs.




                                                                                                                137
Department of Defense Inspector General
      Report Number             Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                                 Completed
D-2004-034, Environ-          Clarify requirements for     The Corps of Engineers       Army
ment: Defense Hotline         internal assessments.        guidance update was on
Allegations Regarding the                                  hold pending the revision
Environmental Compli-                                      of a higher level Army
ance Assessment Process at                                 regulation that went into
U.S. Army Corps of En-                                     effect on 9/28/07.
gineers, Portland District,
12/4/2003
D-2004-039, Coop-         Negotiate a transparency         Significant time is required USD(P)
erative Threat Reduction  agreement that will al-          for negotiations with sov-
Construction Projects,    low US verification of the       ereign nations.
12/18/2003                quantity and quality of the
                          material stored in the fissile
                          material storage facility.
D-2004-041, The Security Report is FOUO.                   Lack of management re-       Army
of the Army Corps of En-                                   sponsiveness.
gineers Enterprise Infra-
structure Services Wide-
Area Network, 12/26/2003
D-2004-047, Implementa- Program Managers will              Extensive time required to   Army
tion of the DoD Manage- be able to store acquisi-          update DoD Instruction
ment Control Program for tion documents in Virtual         5000.2.
Army Category II and III Insight (VIS) so the Mile-
Programs, 1/23/2004       stone Decision Authority
                          can review document sta-
                          tus from development to
                          document approval. Army
                          Regulations will be updat-
                          ed to reflect new reporting
                          procedures.
D-2004-050, Management Revise DoD guidance to              Extensive time required to DAM
Structure of the Coop-    clarify the roles of respon-     coordinate and issue guid-
erative Threat Reduction  sible offices for the Coop-      ance.
Program, 2/5/2004         erative Threat Reduction
                          Program.
D-2004-053, Defense       Develop detailed guidance        Extensive time required to WHS
Threat Reduction Agen-    on what should be con-           coordinate and issue guid-
cy Relocation Costs,      sidered when determining         ance.
2/19/2004                 whether the relocation cost
                          cap in section 8020 of the
                          FY 2004 Appropriation
                          Act has been, or will be,
                          exceeded.

138
                                                                                         Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not        Principle Action Office
         Title/Date                                                    Completed
 D-2004-055, DoD Source         Develop guidance for the       Lack of management re-     DLA
 Approval Process for Ser-      reevaluation of critical ap-   sponsiveness.
 vice & Sales, Inc., a Small    plication item sources.
 Business Manufacturer,
 2/25/2004
 D-2004-057, Acquisition:   Conduct a study on exist-          Management corrective      USD(AT&L)
 Contracts Awarded for      ing DoD post-war strategy          actions on schedule.
 the Coalition Provisional  and establish responsibili-
 Authority by the Defense   ties, policies, and proce-
 Contracting Command-       dures for the rapid acqui-
 Washington, 3/18/2004      sition of necessary goods
                            and services in support of
                            any future post-war occu-
                            pation or relief operations.
 D-2004-059, Financial      Determine the appropriate          Long-term corrective ac-   Army
 Management: Assets         useful life for all USACE-         tion on schedule.
 Depreciation Reported on owned assets. Request
 the U.S. Army Corps of     a waiver from the DoD
 Engineers FY 2002 Finan- FMR based on USACE-
 cial Statements, 3/16/2004 unique mission require-
                            ments.
 D-2004-061, Export Con- Expand DoD guidance                   Extensive time required to USD(P), USD(AT&L)
 trols: Export Controlled   to encompass all export-           coordinate and issue policy
 Technology at Contractor, controlled technology and           guidance.
 University and Federally   enumerate the roles and
 Funded Research and De- duties of responsible per-
 velopment Center Facili-   sonnel. Ensure incorpora-
 ties, 3/25/2004            tion of appropriate export
                            compliance clauses into
                            solicitations and contracts.
 D-2004-063, Financial      Improve the financial ac-          Implementation has been Army
 Management: Controls       countability for buildings         delayed by higher manage-
 Over U.S. Army Corps of and other structures owned            ment priorities.
 Engineers (USACE) Build- by USACE.
 ings and Other Structures,
 3/26/2004
 D-2004-065, DoD Imple- Revise Voting Assistance               Publication of AF Instruc- AF
 mentation of the Vot-      Program guidance to                tion was delayed to include
 ing Assistance Program,    reflect recent changes to          pending revision of DoD
 3/31/2004                  DoD guidance. Improve              guidance.
                            monitoring of voting assis-
                            tance program and training
                            of service members and
                            spouses.
                                                                                                                 139
Department of Defense Inspector General
      Report Number              Description of Action          Reason Action Not          Principle Action Office
        Title/Date                                                   Completed
D-2004-068, Global Com-       Report is classified.         Long-term corrective ac-      USFK
mand and Control System-                                    tion on schedule pending
Korea (U), 4/6/2004                                         document review.
D-2004-074, Reliability       The Army and the Air          Long-term corrective          Army, AF
of the Automated Cost         Force agreed to jointly       action on schedule. The
Estimating Integrated         verify, validate, and accred- Test Plan continues to be
Tools Software Model,         it the next major release of refined as new features are
4/23/2004                     software.                     introduced and existing
                                                            features are improved.
D-2004-078, Summary           Report is FOUO.               Lack of management re-        USD(AT&L)
Report on the Military                                      sponsiveness.
Departments’ Transition
of Advanced Technology
Programs to Military Ap-
plications, 4/29/2004
D-2004-079, Reliability       Report is classified.         Competing management          DIA
of the Defense Intelligence                                 priorities.
Agency FY 2003 Financial
Statements (U), 4/29/2004
D-2004-080, Environ-          Implement guidance to         The update to DoD guid-       USD(AT&L)
mental Liabilities Required   improve the development,      ance has been delayed due
to be Reported on An-         recording, and reporting of   to several issues unrelated
nual Financial Statements,    environmental liabilities.    to Environmental Liabili-
5/5/2004                      Establish a quality control   ties.
                              program to assess environ-
                              mental liability processes
                              and controls. Issue guid-
                              ance requiring that future
                              environmental liability
                              electronic cost estimating
                              system efforts comply with
                              Defense Environmental
                              Restoration Program Man-
                              agement Guidance.
D-2004-082, DoD Instal-       Report is classified.         Long-term corrective          EUCOM, Navy
lation Disaster Prepared-                                   actions on schedule (EU-
ness and Consequence                                        COM). Extended time
Management in the U.S.                                      needed to coordinate and
European Command (U),                                       issue guidance (Navy).
5/24/2004




140
                                                                                           Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not     Principle Action Office
          Title/Date                                               Completed
 D-2004-084, Antidefi-      Allocate all undistributed     Implementation has been DFAS
 ciency Act Investigation   disbursements to fund          delayed by higher manage-
 of the Research, Develop-  holders of DoD closed          ment priorities.
 ment, Test and Evalua-     fixed-term appropriations
 tion Defense-Wide, Ap-     at statutory time of closing
 propriation Account 97     or provide alternate pro-
 FY 1989/1990-0400,         cedures that will provide
 5/28/2004                  positive assurance against
                            future potential violations.
 D-2004-087, Health         ASD (HA), in coordina-         Extended time needed for Army, AF
 Care: DoD Management tion with the Military               update of publications and
 of Pharmaceutical Inven-   Surgeons General, develop      contract award.
 tory and Processing of     standard policies and pro-
 Returned Pharmaceuticals, cedures for pharmaceutical
 6/17/2004                  inventory management
                            at the Military Treatment
                            Facilities (MTFs) and
                            also require MTFs to use
                            a pharmaceutical returns
                            company.
 D-2004-091, Manage-        Report is FOUO.                Policy revisions to begin   ASD(NII)
 ment of Network Cen-                                      next fiscal year.
 tric Warfare Within the
 Department of Defense,
 6/22/2004
 D-2004-093, Acquisi-       The Army will improve          Normal time needed for      Army
 tion and Management of     controls over the acquisi-     implementation.
 Specialized Shipping and   tion and management of
 Unit-Owned Containers      specialized shipping and
 and Related Accessories,   unit-owned containers.
 6/30/2004
 D-2004-094, Acquisition: Develop a process for            Normal time needed for      USD(C), ASD(HA)
 Direct Care Medical Ser-   future payments of FICA        implementation.
 vices Contracts, 6/24/2004 tax for individual set-aside
                            contracts. Establish a pilot
                            program for the acquisi-
                            tion of direct care medical
                            services.
 D-2004-099, Reliability of Report is classified.          Corrective actions are on   NSA
 National Security Agency                                  schedule.
 FY 2003 Financial State-
 ments (U), 7/15/2004


                                                                                                           141
Department of Defense Inspector General
      Report Number            Description of Action          Reason Action Not       Principle Action Office
         Title/Date                                                Completed
D-2004-104, Purchase      Recommended actions are         Extensive time needed to   Army
Card Use and Contracting  designed to provide guid-       revise guidance.
Actions at the U.S. Army  ance and strengthen con-
Corps of Engineers, Louis-trols over use of the Gov-
ville District, 7/27/2004 ernment Purchase Card at
                          the Louisville District and
                          at USACE Headquarters
                          levels.
D-2004-110, The Military USD (AT&L) has under-            Normal time needed for     USD(AT&L), Navy
Departments’ Implemen- taken several initiatives          implementation.
tation of Performance-    related to Performance
Based Logistics in Sup-   Based Logistics (PBL).
port of Weapon Systems,   The Services will issue
8/23/2004                 policies and procedures for
                          implementation of PBL.
D-2004-118, Army Gen- Update the DoD FMR                  Long-term corrective ac-   USD(C), DFAS
eral Fund Controls Over   to require the disclosure       tion on schedule.
Abnormal Balances for     of unresolved abnormal
Field Accounting Activi-  balances for all proprietary
ties, 9/28/2004           and budgetary general
                          ledger accounts in the foot-
                          notes to the financial state-
                          ments. Identify abnormal
                          conditions impacting both
                          budgetary and proprietary
                          account balances; notify
                          accounting activities of ab-
                          normal proprietary balanc-
                          es and require explanations
                          of corrective actions; and
                          resolve abnormal balances
                          in the budgetary accounts.
D-2005-009, Pueblo        Report is FOUO.                 Lack of management re-     USD(AT&L), Army
Chemical-Agent-Destruc-                                   sponsiveness.
tion Pilot Plant Project,
11/1/2004
05-INTEL-13, Incident     Report is classified.           Normal time needed for     ASD(NII)
Reporting and Foren-                                      implementation.
sic Capabilities (U),
5/27/2005
05-INTEL-19, Nuclear      Report is Classified            Long-term corrective ac-   ATSD(NCB)
Command and Control                                       tions on schedule.
(U), 6/30/2005

142
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action         Reason Action Not       Principle Action Office
          Title/Date                                                 Completed
 D-2005-020, Defense            DLA is identifying cost     Normal time needed to       DLA
 Logistics Agency Process-      savings realized for the    determine the full scope of
 ing of Special Program         Special Program Require-    realized monetary benefits.
 Requirements, 11/17/2004       ments (SPR) Support
                                Program.
 D-2005-022, Financial          The contract has been        Closeout work continues.    DFAS
 Management: Contract           logged and assigned to a
 Classified as Unrecon-         contractor supporting the
 cilable by the Defense         Commercial Pay Services
 Finance and Accounting         Contract Reconciliation
 Service, 12/2/2005             office for reconciliation.
                                Based on the reconcilia-
                                tion, recovery actions will
                                be initiated for any identi-
                                fied overpayments made to
                                the contractor.
 D-2005-023, Informa-           Report is FOUO.              Held in abeyance.           ASD(NII)
 tion Systems Security:                                      POA&M process is not
 Assessment of DoD Plan                                      correctly incorporated in
 of Action and Milestones                                    the DIACAP. Related to
 Process, 12/13/2004                                         mediation cases D-2005-
                                                             054 and D-2005-094.
 D-2005-024, Management         Update Navy manpower         Deployment of Total         Navy
 of Navy Senior Enlisted        and personnel guidance to Force Authorization and
 Personnel Assignments in       clearly define acceptable    Requirements System
 Support of Operation Iraqi     senior enlisted manning      (TFARS) delayed while
 Freedom, 12/15/2004            levels by establishing a     awaiting acceptance from
                                minimum senior enlisted      15 of 52 receiving com-
                                manning level as the base- mands and implementa-
                                line for identifying senior tion of revised and addi-
                                enlisted manning deficien- tional requirements.
                                cies that would require
                                immediate action.
 D-2005-026, Financial          USACE is implementing        Implementation has been     Army
 Management: Reliability        system changes to improve delayed by higher manage-
 of U.S. Army Corps of En-      the reliability or record-   ment priorities.
 gineers, Civil Works, Fund     ing and reporting Fund
 Balance With Treasury and      Balance With Treasury and
 Unexpended Appropria-          Unexpended Appropria-
 tions, 12/28/2004              tions accounts.




                                                                                                               143
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                                Completed
D-2005-028, DoD Work-      Establish minimum train-        Corrective actions are on   USD(AT&L)
force Employed to Con-     ing standards for compe-        schedule.
duct Public Private Com-   tition officials and DoD
petitions Under the DoD    functional and technical
Competitive Sourcing       experts assigned to work
Program, 2/1/2005          on public-private competi-
                           tions, and advise the DoD
                           component competitive
                           sourcing officials concern-
                           ing defining and docu-
                           menting minimum edu-
                           cation and/or experience
                           requirements.
D-2005-033, Acquisition: Prepare and staff a DoD           Held in abeyance, pending ASD(NII)
Implementation of In-      Directive that specifies the    resolution of mediation on
teroperability and Infor-  types of systems and sys-       a subsequent report.
mation Assurance Policies tem information capability
for Acquisition of Navy    requirements to be in-
Systems, 2/2/2005          cluded in the inventory for
                           Global Information Grid
                           assets; and the responsibili-
                           ties of DoD Components
                           in populating and main-
                           taining the inventory for
                           Global Information Grid
                           assets.
D-2005-035, Existence of USACE-wide implementa-            Implementation has been Army
U.S. Army Corps of Engi- tion of corrective actions        delayed by higher manage-
neers Buildings and Other regarding Buildings and          ment priorities.
Structures, 2/15/2005      Other Structures is being
                           performed.
D-2005-037, Implementa- Army developing Perfor-            Normal time needed for      Army
tion of Performance Based mance Based Agreements           implementation.
Logistics for the Javelin  (PBA) policy.
Weapon System, 3/7/2005
D-2005-045, FY 2004        DLA establish and distrib-      Normal time needed for      DLA
Emergency Supplemental ute standard operating pro-         implementation.
Funding for the Defense    cedures for calculating and
Logistics Agency, 5/9/2005 reporting incremental cost
                           information.




144
                                                                                       Semiannual Report to Congress
      Report Number                Description of Action       Reason Action Not       Principle Action Office
         Title/Date                                                Completed
 D-2005-046, Financial      Correct the identified er-     Long-term corrective ac-   Army
 Management: Indepen-       rors and perform a review      tion on schedule.
 dent Examination of the    of other leased and trans-
 Rights to U.S. Army Corps  ferred structures for similar
 of Engineers Buildings     types of rights errors;
 and Other Structures,      review and update policies
 3/25/2005                  and procedures to prevent
                            future errors; and provide
                            and document training to
                            consistently implement the
                            new policies and proce-
                            dures.
 D-2005-051, Independent USACE will establish an          Corrective actions are on   Army
 Examination of the Land    oversight process that pro- schedule.
 Assets at the U.S. Army    vides periodic reviews by
 Corps of Engineers, Civil Civil Works headquarters
 Works, 4/6/2005            of land asset transactions at
                            the activity level.
 D-2005-056, Reliability    Report is classified.         Corrective actions are on   NGA
 of the FY 2004 Financial                                 schedule.
 Statements for the Nation-
 al Geospatial-Intelligence
 Agency (U), 4/29/2005
 D-2005-069, Audit of the Report is FOUO.                 Corrective actions are on   DFAS
 General and Application                                  schedule.
 Controls of the Defense
 Civilian Pay System,
 5/13/2005
 D-2005-074, Support        Report is classified.         Corrective actions are on   NSA
 for Reported Obligations                                 schedule.
 for the National Security
 Agency (U), 6/28/2005
 D-2005-078, Audit of the Ensure that ERGM pro-           Extended time needed        Navy
 Extended Range Guided      gram provides for appro-      to revise and coordinate
 Munitions Program,         priate validation, testing,   major system acquisition
 6/15/2005                  and funding of require-       documentation.
                            ments.
 D-2005-093, Information Report is FOUO.                  Corrective actions are on   DFAS, DISA, Army
 Technology Management:                                   schedule.
 Technical Report on the
 Standard Finance System,
 8/17/2005


                                                                                                             145
Department of Defense Inspector General
      Report Number           Description of Action            Reason Action Not         Principle Action Office
         Title/Date                                                Completed
D-2005-096, DoD Pur-        DoD is establishing new        Corrective actions are be-   USD(AT&L), USD(C)
chases Made Through the     policies and revising the      ing implemented.
General Services Adminis-   DoD FMR to improve
tration, 7/29/2005          intergovernmental transac-
                            tions, the use of Military
                            Departmental Purchase
                            Requests (MIPR), and as-
                            sisted acquisitions.
D-2005-097, Audit-          Report is classified.      Competing management             DIA
ability Assessment of the                              priorities.
Financial Statements for
the Defense Intelligence
Agency (U), 8/18/2005
D-2005-103, Develop-        Develop new controls and       Corrective actions are on    Navy
ment and Management of      fully implement existing       schedule.
the Army Game Project,      controls to ensure that all
8/24/2005                   resources are safeguarded;
                            and revise Navy guidance
                            on accountability over
                            pilferable property to be
                            consistent with the DoD
                            guidance.
D-2005-108, Review of       The USACE is establishing      Lack of management           Army
the U.S. Army Corps of      a comprehensive correc-        attention in fully imple-
Engineers, Civil Works      tion action program to         menting corrective action.
Balance Sheet Reporting     ensure that the instructions
and Financial Statement     provided in the informa-
Compilation, 9/16/2005      tion papers are fully and
                            consistently executed at all
                            USACE activities.
D-2006-003, Security        Action is being taken by       Normal time needed for       Army, Navy, AF, USD(I),
Controls Over Selected      the ASD (HA), USD (I),         implementation.              ASD(HA)
Military Health System      and the Military Depart-
Corporate Database,         ments to improve protec-
10/7/2005                   tion of sensitive informa-
                            tion.
D-2006-004, Acquisition     Report is FOUO.                Extensive time needed        USD(AT&L)
of the Objective Indi-                                     to coordinate and issue
vidual Combat Weapon,                                      policy.
10/7/2005




146
                                                                                         Semiannual Report to Congress
      Report Number                Description of Action       Reason Action Not        Principle Action Office
         Title/Date                                                Completed
 D-2006-007, Contracts      The DCAA will conduct          Normal time for DCAA        Army
 Awarded to Assist the      an audit of costs of task      to plan and conduct an
 Global War on Terrorism    orders awarded under           review.
 by the U.S. Army Corps of  Contract No. DACA78
 Engineers, 10/14/2005      03 D0002. Three of four
                            recommendations in the
                            report are complete.
 D-2006-009, Independent The U.S. Army Corps               Corrective actions are on   Army
 Examination of Valuation of Engineers is updating         schedule.
 and Completeness of U.S. policy and procedures,
 Army Corps of Engineers, assessing system changes
 Buildings and Other Struc- to the Corps of Engineers
 tures, 9/28/2005           Financial Management
                            System, and working
                            to correct data accuracy
                            deficiencies through new
                            regional assessment teams.
 D-2006-010, Contract       The AT&L will issue guid-      Normal time to develop      USD(AT&L), Army
 Surveillance for Service   ance defining roles and        and implement new guid-
 Contracts, 10/28/2005      responsibilities of contract   ance and procedures.
                            administration personnel
                            regarding the monitoring
                            of contractor performance.
                            The Army will develop
                            management controls to
                            ensure contract surveil-
                            lance is adequately per-
                            formed and documented.
                            Eleven of fifteen recom-
                            mendations in the report
                            are complete.
 D-2006-011, Report on      Improve internal controls      Corrective actions are on   DFAS
 the Foreign Military Sales of the FMS cash manage-        schedule.
 Trust Fund Cash Manage- ment program. Establish
 ment, 11/7/2005            adequate audit trails to en-
                            able managers or auditors
                            to verify disbursements.
 D-2006-013, Report on      Require periodic training      Corrective actions are on   Army
 Compiling and Recording of reconcilers and certify-       schedule.
 Financial Adjustments Re- ing officers on policies,
 lated to DoD Commercial procedures, and responsi-
 Payments, 11/8/2005        bilities in reviewing Stan-
                            dard Form 1081 financial
                            adjustments.
                                                                                                              147
Department of Defense Inspector General
     Report Number              Description of Action           Reason Action Not        Principle Action Office
        Title/Date                                                  Completed
D-2006-026, Air Force        Report is classified.          Corrective actions are on   AF
Operational Mobility                                        schedule.
Resources in the Pacific
Theater (U), 11/17/2005
D-2006-027, Contract         Increase production rates      Corrective actions are on   USD(AT&L)
Award and Administration     to expedite the replace-       schedule.
of Coupling Half Quick       ment of older protec-
Disconnect, 11/23/2005       tive masks and identify a
                             nontoxic sealant alternative
                             to replace the hexavalent
                             chromium sealant on the
                             coupling half quick dis-
                             connect in future procure-
                             ments.
D-2006-028, DoD Re-          Revise DoD guidance to         Normal time to review,      USD(AT&L)
porting System for the       improve accounting of          revise and implement new
Competitive Sourcing         transition costs, tracking     guidance.
Program, 11/22/2005          and reporting competition
                             costs, validating and re-
                             viewing records, capturing
                             contractors’ past perfor-
                             mance information, and
                             tracking and monitoring
                             the performance of MEOs.
D-2006-029, Report on        Conduct an investiga-          Extensive time needed to    Army
Potential Antideficiency     tion of the potential ADA      investigate potential FMR
Act Violations Identified    violations identified by the   violations and to resolve
During the Audit of the      DoD OIG and provide the        related legal issues.
Acquisition of the Pacific   results to the DoD OIG.
Mobile Emergency Radio
System, 11/23/2005
D-2006-030, Report on        Report is FOUO.                Corrective actions are on   DISA
Diagnostic Testing at                                       schedule.
the Defense Information
Systems Agency, Center
for Computing Services,
11/30/2005
D-2006-031, Report on        Report is FOUO.                Corrective actions are on   DISA
Penetration Testing at                                      schedule.
the Defense Information
Systems Agency, Center
for Computing Services,
11/30/2005

148
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action            Reason Action Not         Principle Action Office
          Title/Date                                                    Completed
 D-2006-043, Financial          Establish procedures to         Management corrective       Army
 Management: Report on          ensure the appropriate          actions on schedule.
 Army Management of the         funding of the Army Game
 Army Game Project Fund-        Project, determine if there
 ing, 1/6/2006                  have been any Antidefi-
                                ciency Act violations and
                                report any such violations,
                                as required.
 D-2006-046, Technical          Report is FOUO.             Corrective actions are on       USD(AT&L)
 Report on the Defense                                      schedule.
 Property Accountability
 System, 1/27/2006
 D-2006-048, Report on          Report is FOUO.                 Corrective actions are on   Navy
 Reliability of Financial                                       schedule.
 Data Accumulated and
 Reported by the Space
 and Naval Warfare System
 Centers, 1/31/2006
 D-2006-050, Report on          Cross SYSCOM Lean Six           Corrective actions are on   Navy
 Accuracy of Navy Con-          Sigma black belt project is     schedule.
 tract Financing Amounts,       being completed that will
 2/7/2006                       include an end-to-end re-
                                view of the disbursements
                                process.
 D-2006-052, DoD Or-            Establish clear procedures      Policy update is under revi- Navy
 ganization Information         that designate organiza-        sion.
 Assurance Management of        tion-specific roles &
 Information Technology         responsibilities for tracking
 Goods and Services Ac-         training.
 quired Through Interagen-
 cy Agreements, 2/23/2006
 D-2006-053, Select Con-        Prepare a contingency plan Corrective actions are on        MDA
 trols for the Information      for GCN and an Incidence schedule.
 Security of the Ground-        Response Plan for GCN
 Based Midcourse Defense        to meet requirements of
 Communications Net-            DoDI 8500.2 and NISTS
 work, 2/24/2006                Pub 800-34.




                                                                                                                    149
Department of Defense Inspector General
      Report Number             Description of Action            Reason Action Not       Principle Action Office
         Title/Date                                                  Completed
D-2006-054, DoD Pro-        The USD(C) is develop-          Corrective actions are gen- USD(C), Army, Navy, AF
cess for Reporting Con-     ing a forum to address          erally on schedule.
tingent Legal Liabilities,  development of solutions
2/24/2006                   for providing meaningful
                            assessments of contingent
                            legal liabilities, and de-
                            velop and implement a
                            uniform methodology for
                            estimating, aggregating,
                            and reporting them. The
                            Services are working to
                            ensure that “Other Liabili-
                            ties” and contingent liabili-
                            ties are fully supported and
                            appropriately disclosed.
D-2006-056, Financial       The Air Force will con-         Normal time to revise and   AF
Management: Report on       duct reviews of potential       implement new guidance
Vendor Pay Disbursement ADA violations, review              and training.
Cycle, Air Force General    and revise existing policy
Fund: Contract Formation guidance and training
and Funding, 3/6/2006       and emphasize the need
                            for additional training in
                            appropriations law and
                            inherently governmental
                            activities.
D-2006-057, Corrective      Report is classified.           Corrective actions are on   NGA
Actions for Previously                                      schedule.
Identified Deficiencies Re-
lated to the National Geo-
spatial-Intelligence Agency
Financial Statements (U),
2/28/2006
D-2006-059, Air Force       The Air Force will perform      Corrective actions are on   AF
Procurement of 60K Tun- analyses to determine the           schedule.
ner Cargo Loader Con-       best value approach and
tractor Logistics Support, the feasibility of teaming
3/3/2006                    with the Marine Corps.
D-2006-060, Systems En- Report is FOUO.                     Extended time needed to     MDA
gineering Planning for the                                  complete and coordinate
Ballistic Missile Defense                                   systems engineering plan-
System, 3/2/2006                                            ning documents.




150
                                                                                        Semiannual Report to Congress
        Report Number              Description of Action           Reason Action Not         Principle Action Office
           Title/Date                                                  Completed
 D-2006-061, Source Selec-      Report is FOUO.                Corrective actions are on    USD(AT&L)
 tion Procedures for the                                       schedule.
 Navy Construction Capa-
 bilities, 3/3/2006
 D-2006-062, Internal           Improve internal controls      Corrective actions are on    AF
 Controls Over Compiling        over the compilation and       schedule.
 and Reporting Environ-         reporting of cost-to-com-
 mental Liabilities Data,       plete estimates for environ-
 3/15/2006                      mental liabilities.
 D-2006-063, Financial          Perform reviews and rec-       Required coordination        DFAS
 Management: Report on          onciliations of uncleared      efforts for discontinued
 Internal Controls Over         transactions, ensure ap-       research are taking longer
 Department Expenditure         propriate resolution, and      than expected.
 Operations at Defense          enforce applicable DoD
 Finance and Account-           FMR policy.
 ing Service Indianapolis,
 3/10/2006
 D-2006-067, Controls       Improve the guidance               Management corrective        USD(P)
 Over Exports to China,     and documentation for              actions on schedule.
 3/30/2006                  the export review process.
                            Expand access to USX-
                            PORTS within DoD.
 D-2006-068, Financial      Report the existence of            Long-term corrective ac-     DFAS
 Management: Implemen- abnormal balances and the               tion on schedule.
 tation of the Business     failure to reconcile begin-
 Enterprise Information     ning account balances with
 Services for the Army Gen- prior year-end balances as
 eral Fund, 3/31/2006       material internal control
                            weaknesses in the Annual
                            Statements of Assurance
                            until corrected.
 D-2006-069, Technical      Report is FOUO.                    Corrective actions are on    DFAS
 Report on the Defense                                         schedule.
 Business Management
 System, 4/3/2006
 D-2006-071, Acquisition: Finalize and approve mu-             Finalizing focus group’s     STRATCOM, MDA
 Capabilities Definition    tually supportive directives       input to the directive.
 Process at the Missile De- outlining each organiza-
 fense Agency, 4/5/2006     tions roles and responsibili-
                            ties with respect to capabil-
                            ity-based requirements.



                                                                                                                   151
Department of Defense Inspector General
      Report Number           Description of Action        Reason Action Not          Principle Action Office
         Title/Date                                            Completed
D-2006-073, Human         Develop and implement        Corrective actions are on     USD(AT&L)
Capital: Report on the    written standard operating schedule.
DoD Acquisition Work-     procedures and guidance
force Count, 4/17/2006    for counting the acquisi-
                          tion workforce to include
                          definitions of workforce
                          count and methodologies
                          and procedures used to
                          perform periodic counts,
                          and requirements to main-
                          tain and support related
                          documentation. Revise
                          DoD guidance to update
                          information requirements
                          for automated data files.
D-2006-074, Technical     Report is FOUO.              Corrective actions are on     DFAS
Report on the Defense Ci-                              schedule.
vilian Pay System General
and Application Controls,
4/12/2006
D-2006-075, Acquisi-      Report is FOUO.              Corrective actions are on     AF
tion of the Joint Primary                              schedule.
Aircraft Training System,
4/12/2006
D-2006-076, Financial     DFAS will process a          Personnel turnover and        Army
Management: Report on     System Change Request        competing management
DoD Compliance With       to have the Prompt Pay ap- priorities.
the Prompt Payment Act    plication (system) changed
on Payments to Contrac-   to ensure that invoices are
tors., 4/19/2006          paid in accordance with
                          the Prompt Payment Act.
D-2006-077, DoD Se-       Updating policies for the    Extensive time required to    USD(I), DISA, AF
curity Clearance Process  DoD Personnel Secu-          update DoD Regulation.
at Requesting Activities, rity Clearance Program to Other issuances are depen-
4/19/2006                 include various informa-     dent upon that updated
                          tion including program       version of that Regulation.
                          management and inves-        Lack of management re-
                          tigative responsibilities,   sponsiveness from USD(I).
                          security clearance systems,
                          submission processes,
                          types and levels of security
                          clearances, and training
                          requirements for security
                          personnel.
152
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not      Principle Action Office
          Title/Date                                                   Completed
 D-2006-078, Information        Report is FOUO.               Corrective actions ongo-  ASD(NII)
 Systems Security: Defense                                    ing. Estimated completion
 Information Systems                                          date is December 2007.
 Agency Encore II Informa-
 tion Technology Solutions
 Contract, 4/21/2006
 D-2006-079, Review of          Update Business Systems       Actions delayed pending     DLA
 the Information Security       Modernization Energy          Service/Agency internal
 Operational Controls of        (Fuels Automated Sys-         accreditations.
 the Defense Logistics          tem) plan of action and
 Agency’s Business Systems      milestones to include all
 Modernization-Energy,          security weaknesses based
 4/24/2006                      on the current system con-
                                figuration.
 D-2006-080, Use of En-         Identify practices, pro-      Long-term corrective ac-    USD(AT&L)
 vironmental Insurance by       cesses, and strategies for    tion on schedule.
 the Military Departments,      effectively using environ-
 4/27/2006                      mental insurance; establish
                                milestones for issuing
                                overarching guidance on
                                the Department’s position
                                on the use of environ-
                                mental insurance; estab-
                                lish a process to evaluate
                                whether DoD is achieving
                                the anticipated benefits of
                                risk reduction, cost sav-
                                ings, timely completion
                                of cleanup projects, and
                                increased used of perfor-
                                mance-based contracting
                                for environmental cleanup
                                services, as it relates to
                                environmental insurance.
 D-2006-081, Financial          Report is FOUO.               Corrective actions are on   NSA
 Management: Recording                                        schedule.
 and Reporting of Transac-
 tions by Others for the
 National Security Agency,
 4/26/2006




                                                                                                               153
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not          Principle Action Office
        Title/Date                                                 Completed
D-2006-083, Report on        Report is Classified.         Corrective actions are on     JS, STRATCOM, USD (I)
Information Operations in                                  schedule.
U.S. European Command
(U), 5/12/2006
D-2006-084, Information      Report is FOUO.               Concept of Operations         ASD(NII), USD(I)
Technology Management:                                     (CONOPs) is being re-
Information Assurance of                                   vised.
Commercially Managed
Collaboration Services for
the Global Information
Grid, 5/17/2006
D-2006-085, Vendor           The Air Force will              Corrective actions are on   AF
Pay Disbursement Cycle,      strengthen internal con-        schedule
Air Force General Fund:      trols on the coordinated
Funds Control, 5/15/2006     efforts of receiving officials,
                             resource managers, and
                             funds holders who oversee
                             the status of funds.
D-2006-086, Information      Report is FOUO.                 Corrective actions are on   DISA
Technology Management:                                       schedule.
Report on General and
Applications Controls at
the Defense Information
Systems Agency, Center
for Computing Services,
5/18/2006
D-2006-087, Acquisition:     Report is FOUO.               Lack of management re-        Army
Acquisition of the Objec-                                  sponsiveness.
tive Individual Combat
Weapon Increments II and
III, 5/15/2006
D-2006-089, Acquisi-     Develop additional or             Normal time needed for        ASD(HA)
tion of the Armed Forces more robust mitigation            implementation.
Health Longitudinal      strategies that address the
Technology Application,  risks related to Commer-
5/18/2006                cial Off the Shelf (COTS)
                         product integration.
D-2006-090, Allegation   Ensure that lessons learned       Long-term corrective          Army
Concerning the Mobile    from the MDARS-Interior           management action on
Detection Assessment     program have been applied         schedule.
Response System Program, to the MDARS-Exterior
5/18/2006                program.


154
                                                                                          Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not           Principle Action Office
          Title/Date                                                  Completed
 D-2006-092, Controls           Establish and imple-          Long-term corrective ac-       DFAS
 Over Abnormal Balances         ment a process to identify    tion on schedule.
 in Financial Data Support-     abnormal balances in the
 ing Financial Statements       financial data support-
 for Other Defense Organi-      ing the Other Defense
 zations, 4/21/2006             Organizations financial
                                statements and disclose the
                                financial statement disposi-
                                tion of these anomalies. (1)
                                Develop an identification
                                and disclosure metric for
                                abnormal amounts in the
                                entity code level support-
                                ing the financial statement
                                account or line item. (2)
                                Disclose in the notes to the
                                financial statements the
                                metric, to include amounts
                                that are eliminated as a re-
                                sult of reclassifications. (3)
                                Disclose in the notes to the
                                financial statements the na-
                                ture of individual amounts
                                in an entity code or at the
                                entity code that individu-
                                ally exceed the metric.
 D-2006-096, Information        Report is FOUO.                Site Assisted Visits (SAVs)   MDA
 Technology Management:                                        are in progress.
 Select Controls for the In-
 formation Security of the
 Command and the Con-
 trol Battle Management
 Communications System,
 7/14/2006
 D-2006-099, Purchase           Require contracting          Management corrective           Army
 Card Program Controls at       activities establish written actions on schedule.
 Selected Army Locations,       policies and procedures
 7/21/2006                      for retaining purchase card
                                transaction documents
                                and establish controls to
                                ensure all cardholders and
                                approving officials receive
                                required purchase card
                                training.

                                                                                                                    155
Department of Defense Inspector General
     Report Number           Description of Action            Reason Action Not         Principle Action Office
        Title/Date                                                Completed
D-2006-100, Procurement    The Air Force will develop     Corrective actions are be-   AF
Procedures Used for Next   a plan to improve the          ing implemented.
Generation Small Loader    collection, analysis, and
Contracts, 8/1/2006        reporting of maintenance
                           data for the Halvorsen
                           fleet; and transition from a
                           base level funded sustain-
                           ment construct to ICS,
                           and then to a CLS contract
                           to improve readiness. Also,
                           the Air Force agreed to re-
                           view the basing plan for all
                           loaders to ensure optimum
                           usage, and ensure that fu-
                           ture FAR Part 12 and Part
                           15 acquisitions adequately
                           meet operational require-
                           ments.
D-2006-101, Acquisition:   Complete a thorough BCA        Normal time needed for       AF
Procurement Procedures     that evaluates multiple sus-   implementation.
Used for C-17 Globe-       tainment options for the
master III Sustainment     C-17 Globemaster III air-
Partnership Total System   craft. Also, develop policy
Support, 7/21/2006         that will require future
                           Air Force public-private
                           partnership contracts to
                           identify the resources be-
                           ing procured with private
                           investment.
D-2006-102, Marine         The USDC will revise           Corrective actions are be-   USD(C), MC
Corps Governmental Pur-    the DoD FMR to clarify         ing implemented.
chases, 7/31/2006          requirements concern-
                           ing D&Fs for interagency
                           support. The Marine
                           Corps will update MCO
                           P7300.21 to strengthen
                           policies and procedures for
                           the use of Military Inter-
                           departmental Purchase
                           Requests (MIPR) and will
                           also update training in the
                           use of MIPRs.



156
                                                                                       Semiannual Report to Congress
       Report Number               Description of Action          Reason Action Not         Principle Action Office
          Title/Date                                                 Completed
 D-2006-105, Logistics:         System Program Man-            Normal time needed for      AF
 Implementation of Perfor-      ager for the Joint Surveil-    implementation.
 mance-Based Logistics for      lance Target Attack Radar
 the Joint Surveillance Tar-    System (STARS) develop
 get Attack Radar System.,      performance based agree-
 8/22/2006                      ments.
 D-2006-106, Allegations        Issue revised guidance         Extensive time needed to    AF
 Concerning Mismanage-          to mitigate frequency          coordinate and issue policy
 ment of the Aerial Targets     interference risks and to      guidance.
 Program, 8/4/2006              emphasize Joint Tactical
                                Radio System notification
                                requirements.
 D-2006-108, Provid-            AT&L will establish a De-      Corrective actions are on   USD(AT&L), USD(C),
 ing Interim Payments to        fense Federal Acquisition      schedule. Normal time       DFAS
 Contractors in Accordance      Regulation Supplement          required to update the
 With the Prompt Payment        case to evaluate the costs     DFARS.
 Act, 9/1/2006                  and benefits of revising
                                the DoD policy of paying
                                cost reimbursable service
                                contracts on an accelerated
                                basis(14 days). Also, the
                                USD (C) will revise the
                                DoD Financial Manage-
                                ment Regulation, Volume
                                10, Chapter 7, entitled
                                “Prompt Payment Act”, to
                                reflect the list of contract
                                financing payments identi-
                                fied in the Federal Acqui-
                                sition Regulations, Part
                                32.001.
 D-2006-111, Expanded           Revise contingency-related     Delays in coordinating and USD(AT&L), AF, DISA
 Micro-Purchase Authority       purchase card guidance         issuing policy.
 for Purchase Card Transac-     and improve efforts to dis-
 tions Related to Hurricane     seminate and implement
 Katrina, 9/27/2006             guidance. Also, establish a
                                robust oversight presence
                                and significantly strength-
                                en internal controls to
                                mitigate the risk of fraud,
                                waste, and abuse.




                                                                                                                  157
Department of Defense Inspector General
     Report Number             Description of Action           Reason Action Not      Principle Action Office
         Title/Date                                                Completed
D-2006-114, Budget           Develop and execute SOPs Long-term corrective ac-       DFAS
Execution Reporting at       to: record and report ob-    tion on schedule.
Defense Finance and          ligations incurred against
Accounting Service India-    category codes that are
napolis, 9/25/2006           consistent with the ap-
                             portionment category
                             codes; adjust the amounts
                             submitted to the Trea-
                             sury and reported on the
                             Army Report on Budget
                             Execution and Budget-
                             ary Resources; perform a
                             quarterly reconciliation on
                             those amounts; notify the
                             Treasury when amounts
                             on the OMB Report on
                             Budget Execution and
                             Budgetary Resources are
                             not accurate; and disclose
                             the existence of material
                             unreconciled differences in
                             budget execution data as
                             part of the footnote disclo-
                             sures to the Army financial
                             statements.
D-2006-115, Acquisition:     Propose a legislative        Legislative proposal in-   USD(AT&L)
Commercial Contracting       change to amend Section      cluded in NDAA FY 2008
for the Acquisition of De-   2306a (b), Title 10, U.S.C. currently under U.S. Sen-
fense Systems, 9/29/2006     to clarify the term Com-     ate review.
                             mercial Item in the Federal
                             Acquisition Regulation.
D-2006-117, American         Update DoD Regulation        Impacted by BRAC con-      ASD(PA)
Forces Network Radio         5120.20-R to provide writ- solidation of AFIS and
Programming Decisions,       ten policies, controls, and internal communications
9/27/2006                    procedures for the radio     functions of the services.
                             programming decision-
                             making process.




158
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action   Reason Action Not         Principle Action Office
          Title/Date                                           Completed
 D-2006-118, Financial     Issue policy guidance       USD (C) actions contin-      USD(C), NORTHCOM
 Management: Financial     directing the closeout of   gent on revision of ASD
 Management of Hurricane   Hurricane Katrina mission (HD) guidance; corrective
 Katrina Relief Efforts at assignments and return      actions predicated upon
 Selected DoD Compo-       of reimbursable funding     actions by outside agen-
 nents, 9/27/2006          authority to FEMA. Revise cies.
                           DoD FMR to reflect
                           changes in financial man-
                           agement responsibilities.
 D-2006-122, Commercial The OUSD(AT&L) will            Corrections actions are on   USD(AT&L), AF
 Contract for Noncom-      review and revise the       schedule
 petitive Spare Parts With acquisition regulations
 Hamilton Sundstrand       (DFAR/FAR) to strength-
 Corporation, 9/29/2006    en policies and procedures
                           to ensure price reason-
                           ableness in contracts for
                           noncompetitive commer-
                           cial items. The Air Force
                           and Hamilton Sundstrand
                           agreed to renegotiate Phase
                           1 prices of their strategic
                           sourcing commercial con-
                           tract for noncompetitive
                           spare parts. The Air Force
                           will revise and strengthen
                           their commercial pricing
                           strategy during the rene-
                           gotiation process to ensure
                           price reasonableness.
 D-2006-123, Program       Report is FOUO.             Lack of management re-       Army
 Management of the Objec-                              sponsiveness.
 tive Individual Combat
 Weapon Increment I,
 9/29/2006
 D-2006-124, Manage-       N-NC’s Official Repre-      Corrective actions are in    NORTHCOM
 ment of the Purchase      sentation Fund (ORF)        process
 Card Program at the       program will make
 North American Aero-      changes in key areas of
 space Defense Command leadership and develop
 and United States North- improvements in the ORF
 ern Command, 9/29/2006 process.  Of 16 recom-
                           mendations, 14 recom-
                           mendations have been
                           completed.
                                                                                                           159
Department of Defense Inspector General
                                              Appendix G


	       The Defense Criminal Investigative Organizations (DCIOs), comprised of DCIS, the U.S. Army
Criminal Investigation Command, the Naval Criminal Investigative Service, the Air Force Office of
Special Investigations, and the Marine Corps Criminal Investigative Division, protect the military and
civilian men and women of the Department by combating crimes, both domestic and overseas, with highly
trained special agents, forensic experts, analysts, and support personnel. Examples of the DCIO’s mission
initiatives and investigative accomplishments are detailed in Chapter 5 under the nine management
challenges.

	      Monetary recoveries of approximately $634.8 million resulted from the investigations by the
DCIOs, and are displayed by major categories in Figure 1 (below). Figure 2 (right) displays the total
companies and individuals indicted and convicted is 566 and 648 respectively. Figure 3 (right) displays
the number of companies and individuals suspended or debarred for this period were 51 and 113,
respectively. 	




                           $500,000,000
                                                                                       Total
                                                                                    Monetary
                           $450,000,000                                            Recoveries
                                                                                   for FY 2007
                           $400,000,000                                              Period 2
                                                                                 $634,840,060
                           $350,000,000

                           $300,000,000

                           $250,000,000

                           $200,000,000

                           $150,000,000

                           $100,000,000

                             $50,000,000

                                        $0
                                              Criminal        Civil       Admin.        Seizures
                        Terrorism               $7,414         $0           $0              $0
                        Procurement Fraud     $4,507,196   $50,390,812   $3,440,324      $312,650
                        Health Care Fraud    $458,121,686 $103,327,613      $0              $0
                        General Crimes        $895,359       $3,110      $220,625        $87,782
                        Drug Offenses         $132,400         $0        $116,711           $0
                        Public Corruption     $2,494,526    $310,200      $76,400        $148,080
                        Other                 $3,160,752    $882,006     $3,881,159     $2,323,255


                                                         Figure 1


160
                                                                                                     Semiannual Report to Congress
                  700                                                  80
                                             648                            Total Suspensions – 51   Total Debarments – 113

                  600       566                                        70

                  500                                                  60

                  400
                                                                       50

                  300
                                                                       40

                  200
                                                                       30

                  100
                                                                       20
                    0
                         Indicted         Convicted                    10
    Terrorism               11                6
    Procurement             67               60                         0
                                                                            Suspend- Suspend- Debar-               Debar-
    Fraud                                                                   Company People Company                 People
    Health Care             15                8
                                                      Terrorism                 0              0        0             0
    Fraud
                                                      Procurement Fraud        14             15       34             42
    General Crimes          148              219
                                                      Health Care Fraud         0              0        0             0
    Drug Offenses           153              184
                                                      General Crimes            1              3        0             3
    Public                  25               13
    Corruption                                        Public Corruption         2              3        3             13
    Other                   147              158      Other                     3             10        3             15


                           Figure 2                                                 Figure 3




                                                                                                                              161
Department of Defense Inspector General
                                           Appendix H

Active Guard and Reserves (AGRs)                       Federal Acquisition Regulation (FAR)
Air Force Audit Agency (AFAA)                          Federal Bureau of Investigation (FBI)
Air Force Office of Special Investigations (AFOSI)     Federal Emergency Management Agency (FEMA)
Air Force Office of Special Investigations (AFOSI)     Federal Information Security Management Act (FISMA)
American President Lines (APL)                         Financial Improvement and Audit Readiness (FIAR)
Area of Responsibility (AOR)                           Fiscal Year (FY)
Army Audit Agency (AAA)                                Foreign Military Sales (FMS)
Audit Policy and Oversight (APO)                       Fuel System Panel (FSP)
Ballistic Missile Defense System (BMDS)                Future Years Defense Program (FYDP)
Camp Fallujah, Iraq (LPL-CF)                           General Services Administration (GSA
Chemical, Biological, Radiological, Nuclear, or high   Global War on Terror (GWOT)
yield Explosive (CBRNE) Enhanced Response Force        Government Accountability Office (GAO)
Package (CERFP)                                        Government of Iraq (GoI)
Civilian Reprisal Investigations Directorate (CRI)     Headquarters, Air Force (HAF)
Coalition Provisional Authority (CPA)                  Human Services Office of the Inspector General (HHS
Combating Trafficking in Persons (CTIP)                OIG)
Common levels of support (CLS)                         Hurricane Katrina Fraud Task Force (HKFTF),
Comprehensive Cancer Centers, Inc. (CCC)               Immigration and Customs Enforcement (ICE)
Continental United States (CONUS)                      Improper Payments Information Act (IPIA)
Counterintelligence scope polygraph (CSP)              Improvised Explosive Device (IED)
Criminal Investigation Task Force (CITF)               Independent public accounting (IPA)
Defense Contract Audit Agency (DCAA)                   Information Technology (IT)
Defense Contract Management Agency (DCMA)              Inspector General (IG)
Defense Council on Integrity and Efficiency (DCIE)     Integrated Accounts Payable System (IAPS)
Defense Criminal Investigative Organizations (DCIOs)   Internal Revenue Service (IRS)
Defense Criminal Investigative Service (DCIS)          International Contract Corruption Task Force (ICCTF)
Defense Finance and Accounting Service (DFAS)          Investigative Policy and Oversight (IPO)
Defense Finance and Accounting Service Indianapolis    Iraqi Security Forces (ISF)
(DFAS-IN)                                              Joint Anti-Corruption Council (JACC)
Defense Information Systems Agency’s (DISA)            Joint Headquarters (JHQ)
Defense Reutilization and Marketing Service (DRMS)     Joint Operations Center (JOC)
Department of Defense (DoD)                            Joint Prosecution and Exploitation Centers (JPEC)
Department of Defense Inspector General (DoD IG)       Kellogg, Brown & Root (KBR)
Department of Interior (DoI)                           Law Enforcement Information Exchange (LInX)
Department of the Navy (DoN)                           Logistical security (LOGSEC)
Desert Regional Medical Center (DRMC)                  Medical readiness review (MRR)
DoD Financial Manager Katrina (FM Katrina)             Military construction (MILCON)
Earned Value Management (EVM)                          Military Health System (MHS)
Electrolyzing Corporation of Ohio (ECO)                Military Interdepartmental Purchase Requests (MIPRs)
Emergency-essential (E-E)                              Military Reprisal Investigations (MRI)
Evolved Expendable Launch Vehicle (EELV)               Ministry of Defense (MoD)


162
                                                                                  Semiannual Report to Congress
Ministry of Interior (MoI)                               Reserve Travel System (RTS)
Miscellaneous Obligation/Reimbursement Documents         U.S. Army Corps of Engineers (USACE)
(MORDs)                                                  U.S. Army Criminal Investigation Command
Missile Defense Agency (MDA)                             (USACIDC)
Multi-National Security Transition Command-Iraq          U.S. Army’s Logistics Civil Augmentation Program
(MNSTC-I)                                                U.S. Marine Corps (USMC)
National Institute of Standards and Technology (NIST)    U.S. Navy Reserve (USNR)
National Joint Terrorism Task Force (NJTTF)              U.S. Army Installation Management Command (IM-
National Procurement Fraud Task Force (NPFTF)            COM)
Naval Audit Service (NAVAUDSVC)                          U.S. Pacific Command (PACOM)
Naval Criminal Investigative Service (NCIS)              Under Secretary of Defense for Acquisition, Technology,
Naval District Washington (NDW)                          and Logistics (USD (AT&L))
Office of Communications and Congressional Liaison       United States Central Command (CENTCOM)
(OCCL)                                                   United States Central Command Air Forces (CENTAF)
Office of Management and Budget (OMB)                    United States Government (USG)
Office of Special Plans (OSP)                            United States Marine Corps Criminal Investigation
Operation Enduring Freedom (OEF)                         Division (USMC CID)
Operation Iraqi Freedom (OIF)                            United States Special Operations Command (SOCOM)
Outside Continental United States (OCONUS)               Veterans Affairs (VA)
President’s Council on Integrity and Efficiency (PCIE)   Weapons of mass destruction (WMD)
Protected personal information (PPI)




                                                                                                             163
Department of Defense Inspector General
      Department of Defense Inspector General




164
                                         Semiannual Report to Congress
     Office of the Inspector General
         Department of Defense                                                                  Protect the Total Force
                  VISION STATEMENT
     One professional team strengthening the integrity, efficiency, and
     effectiveness of Department of Defense programs and operations.



                 MISSION STATEMENT
The Office of the Inspector General promotes integrity, accountability, and
 improvement of the Department of Defense personnel, programs, and operations
      to support the Department’s mission and to serve the public interest.           Military	 	 	 	 Contractors	 	 	 	 Civilians
                           CORE VALUES
                                                                                      Report: Fraud, Waste, and Abuse
             Accountability • Integrity • Efficiency
                                                                                                  Department of Defense
                                     Goal 1    Improve the economy, efficiency,
                                                                                                 Inspector General Hotline
                                               and effectiveness of Department of
                                               Defense personnel, programs, and
                                               operations.
                                                                                                            1-877-363-3348
                                     Goal 2    Eliminate fraud, waste, and abuse
                                               in the programs and operations of      DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                               the Department.
                                                                                                             Send written complaints to:
                                               Improve the efficiency and
                                                                                                                  Defense Hotline
                                     Goal 3                                                                        The Pentagon
                                               effectiveness of Inspector General
                                               products, processes, and operations.                          Washington, DC 20301-1900
